APPENDICES

1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Altera Corporation &
Subsidiaries,
Petitioner-Appellee,

Nos. 16-70496
16-70497
Tax Ct. Nos.
6253-12
9963-12

v.
Commissioner of Internal
Revenue,
Respondent-Appellant.

OPINION

Appeal from Decisions of the
United States Tax Court
Argued and Submitted October 16, 2018
San Francisco, California
Filed June 7, 2019
Before: Sidney R. Thomas, Chief Judge,
and Susan P. Graber and Kathleen M. O’Malley,
Circuit Judges.
Opinion by Chief Judge Thomas;
Dissent by Judge O’Malley


The Honorable Stephen R. Reinhardt was originally assigned
to this panel. Following his death, the Honorable Susan P. Graber was drawn by lot to replace him on the panel.


The Honorable Kathleen M. O’Malley, United States Circuit
Judge for the U.S. Court of Appeals for the Federal Circuit, sitting by designation.

2a
SUMMARY

Tax

The panel reversed a decision of the Tax Court that
26 C.F.R. § 1.482-7A(d)(2), under which related entities must share the cost of employee stock compensation in order for their cost-sharing arrangements to be
classified as qualified cost-sharing arrangements, was
invalid under the Administrative Procedure Act.
At issue was the validity of the Treasury regulations implementing 26 U.S.C. § 482, which provides
for the allocation of income and deductions among related entities. The panel first held that the Commissioner of Internal Revenue did not exceed the authority delegated to him by Congress under 26
U.S.C. § 482. The panel explained that § 482 does not
speak directly to whether the Commissioner may require parties to a QCSA to share employee stock compensation costs in order to receive the tax benefits associated with entering into a QCSA. The panel held
that the Treasury reasonably interpreted § 482 as an
authorization to require internal allocation methods
in the QCSA context, provided that the costs and income allocated are proportionate to the economic activity of the related parties, and concluded that the
regulations are a reasonable method for achieving the
results required by the statute. Accordingly, the regulations were entitled to deference under Chevron,



This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

3a
U.S.A., Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837 (1984).
The panel next held that the regulations at issue
were not arbitrary and capricious under the Administrative Procedure Act.
Dissenting, Judge O’Malley would find, as the Tax
Court did, that 26 C.F.R. § 1.482-7A(d)(2) is invalid as
arbitrary and capricious.

COUNSEL

Arthur T. Catterall (argued), Richard Farber, and Gilbert S. Rothenberg, Attorneys; Travis A. Greaves,
Deputy Assistant Attorney General; Richard E. Zuckerman, Principal Deputy Assistant Attorney General;
Tax Division, United States Department of Justice,
Washington, D.C.; for Respondent-Appellant.
Donald M. Falk (argued), Mayer Brown LLP, Palo
Alto, California; Thomas Kittle-Kamp and William G.
McGarrity, Mayer Brown LLP, Chicago, Illinois;
Brian D. Netter and Travis Crum, Mayer Brown LLP,
Washington, D.C.; A. Duane Webber, Phillip J. Taylor, and Joseph B. Judkins, Baker & McKenzie LLP,
Washington, D.C.; for Petitioner-Appellee.
Susan C. Morse, University of Texas School of Law,
Austin, Texas; Stephen E. Shay and Allison Bray,
Certified Law Students, Harvard Law School, Cambridge, Massachusetts; for Amici Curiae J. Richard
Harvey, Reuven Avi-Yonah, Lily Batchelder, Joshua
Blank, Noël Cunningham, Victor Fleischer, Ari
Glogower, David Kamin, Mitchell Kane, Michael
Knoll, Rebecca Kysar, Leandra Lederman, Zachary
Liscow, Ruth Mason, Susan Morse, Daniel Shaviro,

4a
Stephen Shay, John Steines, David Super, Clinton
Wallace, and Bret Wells.
Jonathan E. Taylor, Gupta Wessler PLLC, Washington, D.C.; Clint Wallace, Vanderbilt Hall, New York,
New York; for Amici Curiae Anne Alstott, Reuven AviYonah, Lily Batchelder, Joshua Blank, Noel Cunningham, Victor Fleischer, Ari Glogower, David Kamin,
Mitchell Kane, Sally Katzen, Edward Kleinbard, Michael Knoll, Rebecca Kysar, Zachary Liscow, Daniel
Shaviro, John Steines, David Super, Clint Wallace,
and George Yin.
Larissa B. Neumann, Ronald B. Schrotenboer, and
Kenneth B. Clark, Fenwick & West LLP, Mountain
View, California, for Amicus Curiae Xilinx Inc.
Christopher J. Walker, The Ohio State University
Moritz College of Law, Columbus, Ohio; Kate Comerford Todd, Steven P. Lehotsky, and Warren Postman,
U.S. Chamber Litigation Center, Washington, D.C.;
for Amicus Curiae Chamber of Commerce of the
United States of America.
John I. Forry, San Diego, California, for Amicus Curiae TechNet.
Alice E. Loughran, Michael C. Durst, and Charles G.
Cole, Steptoe & Johnson LLP, Washington, D.C.; Bennett Evan Cooper, Steptoe & Johnson LLP, Phoenix,
Arizona; for Amici Curiae Software and Information
Industry Association, Financial Executives International, Information Technology Industry Council, Silicon Valley Tax Directors Group, Software Finance
and Tax Executives Counsel, National Association of
Manufacturers, American Chemistry Council, BSA |

5a
the Software Alliance, National Foreign Trade Council, Biotechnology Innovation Organization, Computing Technology Industry Association, The Tax Council, United States Council for International Business,
Semiconductor Industry Association.
Kenneth P. Herzinger and Eric C. Wall, Orrick Herrington & Sutcliffe LLP, San Francisco, California;
Peter J. Connors, Orrick Herrington & Sutcliffe LLP,
New York, New York; for Amici Curiae Charles W.
Calomiris, Kevin H. Hassett, and Sanjay Unni.
Roderick K. Donnelly and Neal A. Gordon, Morgan
Lewis & Bockius LLP, Palo Alto, California; Thomas
M. Peterson, Morgan Lewis & Bockius LLP, San Francisco, California; for Amicus Curiae Cisco Systems
Inc.
Christopher Bowers, David Foster, Raj Madan, and
Royce Tidwell, Skadden Arps Slate Meagher & Flom
LLP, Washington, D.C.; Nathaniel Carden, Skadden
Arps Slate Meagher & Flom LLP, Chicago, Illinois; for
Amicus Curiae Amazon.com Inc.

OPINION

THOMAS, Chief Judge:
This appeal presents the question of the validity of
26 C.F.R. § 1.482-7A(d)(2),1 under which related business entities must share the cost of employee stock

The 2003 amendments are at issue. Although they are still in
effect, the Tax Code has been reorganized, and what was
1

6a
compensation in order for their cost-sharing arrangements to be classified as qualified cost-sharing arrangements (“QCSA”). Although the case appears
complex, the dispute between the Department of the
Treasury and the taxpayer is relatively straightforward. The parties agree that, under the governing tax
statute, the “arm’s length” standard applies; but they
disagree about how the standard may be met. The
taxpayer argues that Treasury must employ a specific
method to meet the arm’s length standard: a comparability analysis using comparable transactions between unrelated business entities. Treasury disagrees that the arm’s length standard requires the specific comparability method in all cases. Instead, the
standard generally requires that Treasury reach an
arm’s length result of tax parity between controlled
and uncontrolled business entities. With respect to
the transactions at issue here, the governing statute
allows Treasury to apply a purely internal method of
allocation, distributing the costs of employee stock options in proportion to the income enjoyed by each related taxpayer.
Our task, of course, is not to assess the better tax
policy, nor the wisdom of either approach, but rather
to examine whether Treasury’s regulations are permitted under the statute. Applying the familiar tools
used to examine administrative agency regulations,
we conclude that the regulations withstand scrutiny.
Therefore, we reverse the judgment of the Tax Court.

§ 1.482-7 in 2003 is now numbered § 1.482-7A. To minimize confusion, our citations are to the current version of the regulation
unless otherwise specified.

7a
I
For many years, Congress and the Treasury have
been concerned with American businesses avoiding
taxes through the creation and use of related business
entities. In the last several decades, Congress has directed particular attention to the potential for tax
abuse by multinational corporations with foreign subsidiaries. If, for example, the parent business entity
is in a high-tax jurisdiction, and the foreign subsidiary
is in a low-tax jurisdiction, the business enterprise
can shift costs and revenue between the related entities so that more taxable income is allocated to the
lower tax jurisdiction. Similarly, a parent and foreign
subsidiary can enter into significant tax-avoiding cost
sharing arrangements.
This potential for tax abuse is generally not present when similar transactions occur between unrelated business entities. In those instances, each separate unrelated entity has the incentive to maximize
profit, and thus to allocate costs and income consistent with economic realities. However, among related parties, those incentives do not exist. Rather,
among related parties, after-tax maximization of
profit may depend on how costs and income are allocated between the parent and the subsidiary regardless of economic reality, given that after-tax profits
are commonly shared.
The concern about tax avoidance through the use
of related business entities is not new. In the Revenue
Act of 1928, Congress granted the Secretary of the
Treasury the authority to reallocate the reported income and costs of related businesses “in order to prevent evasion of taxes or clearly to reflect the income
of any such trades or businesses.” Revenue Act of
1928, ch. 852, § 45, 45 Stat. 791, 806. This statute was
designed to give Treasury the flexibility it needed to

8a
prevent transaction-shuffling between related entities for the purpose of decreasing tax liability. See
H.R. Rep. No. 70-2, at 16-17 (1927) (“[T]he Commissioner may, in the case of two or more trades or businesses owned or controlled by the same interests, apportion, allocate, or distribute the income or deductions between or among them, as may be necessary in
order to prevent evasion (by the shifting of profits, the
making of fictitious sales, and other methods frequently adopted for the purpose of ‘milking’), and in
order clearly to reflect their true tax liability.”); accord S. Rep. No. 70-960, at 24 (1928). The purpose of
the statute was “to place a controlled taxpayer on a
tax parity with an uncontrolled taxpayer.” Comm’r v.
First Sec. Bank of Utah, 405 U.S. 394, 400 (1972)
(quoting 26 C.F.R. § 1.482-1(b)(1) (1971)). In short,
the primary aim of the statute was to prevent tax evasion by related business taxpayers.2
In 1934, the Commissioner adopted regulations
implementing the statute and first adopted the familiar “arm’s length” standard: “The standard to be applied in every case is that of an uncontrolled taxpayer
dealing at arm’s length with another uncontrolled taxpayer.” Treas. Reg. 86, art. 45-1(b) (1935). In the context of a controlled transaction, the arm’s length
standard is satisfied “if the results of the transaction
are consistent with the results that would have been
realized if uncontrolled taxpayers had engaged in the
same transaction under the same circumstances
(arm’s length result).” 26 C.F.R. § 1.482-1(b)(1). The
An important, but secondary purpose was to avoid double taxation of multi-national corporations, which the United States effected through various tax treaties. See, e.g., Convention Concerning Double Taxation, Fr.-U.S., art. IV, Apr. 27, 1932, 49 Stat.
3145.
2

9a
relevant regulation also noted: “However, because
identical transactions can rarely be located, whether
a transaction produces an arm’s length result generally will be determined by reference to the results of
comparable transactions under comparable circumstances.” Id.
Although the Secretary adopted the arm’s length
standard, courts did not hold related parties to that
standard by exclusively requiring the examination of
comparable transactions. For example, in Seminole
Flavor Co. v. Commissioner, the Tax Court rejected a
strict application of the arm’s length standard in favor
of an inquiry into whether the allocation of income between related parties was “fair and reasonable.” 4
T.C. 1215, 1232 (1945); see also id. at 1233 (“Whether
any such business agreement would have been entered into by petitioner with total strangers is wholly
problematical.”); Grenada Indus., Inc. v. Comm’r, 17
T.C. 231, 260 (1951) (“We approve an allocation . . . to
the extent that such gross income in fact exceeded the
fair value of the services rendered . . . .”). And in
1962, we collected various allocation standards and
outright rejected the superiority of the arm’s length
bargaining analysis over all others:
[W]e do not agree . . . that “arm’s length bargaining” is the sole criterion for applying the statutory
language of [26 U.S.C. § 482] in determining what
the “true net income” is of each “controlled taxpayer.” Many decisions have been reached under
[§ 482] without reference to the phrase “arm’s
length bargaining” and without reference to Treasury Department Regulations and Rulings which
state that the talismanic combination of words –
“arm’s length” – is the “standard to be applied in
every case.”

10a
Frank v. Int’l Canadian Corp., 308 F.2d 520, 528-29
(9th Cir. 1962).
Frank noted that “it was not any less proper . . . to
use here the ‘reasonable return’ standard than it was
for other courts to use ‘full fair value,’ ‘fair price including a reasonable profit,’ ‘method which seems not
unreasonable,’ ‘fair consideration which reflects arm’s
length dealing,’ ‘fair and reasonable,’ ‘fair and reasonable’ or ‘fair and fairly arrived at,’ or ‘judged as to fairness,’ all used in interpreting [the statute].” Id. (footnotes omitted). We later limited Frank to situations
in which “it would have been difficult for the court to
hypothesize an arm’s-length transaction.” Oil Base,
Inc. v. Comm’r, 362 F.2d 212, 214 n.5 (9th Cir. 1966).
However, Frank’s central point remained: the arm’s
length standard based on comparable transactions
was not the sole basis of reallocating costs and income
under the statute.
In the 1960s, the problem of abusive transfer pricing practices created a new adherence to a stricter
arm’s length standard. In response to concerns about
the undertaxation of multinational business entities,
Congress considered reworking the Tax Code to resolve the difficulty posed by the application of the
arm’s length standard to related party transactions.
H.R. Rep. No. 87-1447, at 28-30 (1962). However, it
instead asked Treasury to “explore the possibility of
developing and promulgating regulations . . . which
would provide additional guidelines and formulas for
the allocation of income and deductions” under 26
U.S.C. § 482. H.R. Rep. No. 87-2508, at 19 (1962)
(Conf. Rep.), as reprinted in 1962 U.S.C.C.A.N. 3732,
3739. Legislators believed that § 482 authorized the
Secretary to employ a profit-split allocation method
without amendment. Id.; H.R. Rep. No. 87-1447, at

11a
28-29. In 1968, following Congress’s entreaty, Treasury finalized the first regulation tailored to the issue
of intangible property development in QCSAs.
26 C.F.R. § 1.482-2(d) (1968).
The 1968 regulations “constituted a radical and
unprecedented approach to the problem they addressed – notwithstanding their being couched in
terms of the ‘arm’s length standard,’ and notwithstanding that that standard had been the nominal
standard under the regulations for some 30 years.”
Stanley I. Langbein, The Unitary Method and the
Myth of Arm’s Length, 30 Tax Notes 625, 644 (1986).
In addition to three arm’s length pricing methods, the
1968 regulations included a “fourth method,” which
was essentially open-ended: “Where none of the three
methods of pricing . . . can reasonably be applied under the facts and circumstances as they exist in a particular case, some appropriate method of pricing other
than those described . . . , or variations on such methods, can be used.” 26 C.F.R. § 1.482-2(e)(1)(iii) (1968).
Following the promulgation of the 1968 regulation,
courts continued to employ a comparability analysis,
but not to the exclusion of other methodologies. Reuven S. Avi-Yonah, The Rise & Fall of Arm’s Length: A
Study in the Evolution of U.S. International Taxation,
15 Va. Tax Rev. 89, 108-29 (1995). Indeed, a study
determined that direct comparable transactions were
located and applied in only 3% of the Internal Revenue Service’s adjustments prior to the 1986 amendment. U.S. Gen. Accounting Office., GGD-81-81, IRS
Could Better Protect U.S. Tax Interests in Determining the Income of Multinational Corporations (1981).
The decades following the 1968 regulations involved
a gradual realization by all parties concerned, but
especially Congress and the IRS, that the [compa-

12a
rability method of meeting the arm’s length standard], firmly established . . . as the sole standard
under section 482, did not work in a large number
of cases, and in other cases its misguided application produced inappropriate results. The result
was a deliberate decision to retreat from the standard while still paying lip service to it.
Avi-Yonah, supra, at 112; see also James P. Fuller,
Section 482: Revisited Again, 45 Tax L. Rev. 421, 453
(1990) (“[T]he 1986 Act’s commensurate with income
standard is not really a new approach to § 482.”).
Ultimately, as controlled transactions increased in
frequency and complexity, particularly with respect to
intangible property, Congress determined that legislative action was necessary. The Tax Reform Act of
1986 reflected Congress’s view that strict adherence
to the comparability method of meeting the arm’s
length standard prevented tax parity. Thus, the Tax
Reform Act of 1986 added a sentence to § 482 that
largely forms the basis of the present dispute, providing that:
In the case of any transfer (or license) of intangible
property (within the meaning of section
936(h)(3)(B)), the income with respect to such
transfer or license shall be commensurate with the
income attributable to the intangible.
Tax Reform Act of 1986, 26 U.S.C. § 482 (1986) (as
amended 2018).
The House Ways and Means Committee recommended the addition of the commensurate with income clause because it was “concerned” that the current code and regulations “may not be operating to assure adequate allocations to the U.S. taxable entity of
income attributable to intangibles.” H.R. Rep. No. 99426, at 423 (1985). The clause was intended to correct

13a
a “recurrent problem” – “the absence of comparable
arm’s length transactions between unrelated parties,
and the inconsistent results of attempting to impose
an arm’s length concept in the absence of comparables.” Id. at 423-24.
The House Report makes clear that the committee
intended the commensurate with income standard to
displace a comparability analysis where comparable
transactions cannot be found:
A fundamental problem is the fact that the relationship between related parties is different from
that of unrelated parties. . . . [M]ultinational companies operate as an economic unit, and not “as if ”
they were unrelated to their foreign subsidiaries . . . .
....
Certain judicial interpretations of section 482
suggest that pricing arrangements between unrelated parties for items of the same apparent general category as those involved in the related party
transfer may in some circumstances be considered
a “safe harbor” for related party pricing arrangements, even though there are significant differences in the volume and risks involved, or in other
factors. While the committee is concerned that
such decisions may unduly emphasize the concept
of comparables even in situations involving highly
standardized commodities or services, it believes
that such an approach is sufficiently troublesome
where transfers of intangibles are concerned that
a statutory modification to the intercompany pricing rules regarding transfers of intangibles is necessary.
....

14a
. . . There are extreme difficulties in determining whether the arm’s length transfers between
unrelated parties are comparable. The committee
thus concludes that it is appropriate to require
that the payment made on a transfer of intangibles
to a related foreign corporation . . . be commensurate with the income attributable to the intangible . . . .
....
. . . [T]he committee intends to make it clear
that industry norms or other unrelated party
transactions do not provide a safe-harbor minimum payment for related party intangible transfers. Where taxpayers transfer intangibles with a
high profit potential, the compensation for the intangibles should be greater than industry averages
or norms.
Id. at 424-25 (footnote and citation omitted).3
Treasury’s first response to the Tax Reform Act
was the “White Paper,” an intensive study published
in 1988. A Study of Intercompany Pricing Under Section 482 of the Code, I.R.S. Notice 88-123, 1988-2 C.B.
458 (“White Paper”). The White Paper confirmed that
The Conference Committee suggested only one change – to
broaden the sweep of the amendment so as to encompass domestic related-party transactions – in order to better serve the objective of the amendment, “that the division of income between related parties reasonably reflect the relative economic activity undertaken by each.” H.R. Rep. No. 99-841, at II-637 (1986) (Conf.
Rep.), as reprinted in 1986 U.S.C.C.A.N. 4075, 4725. The Report
also clarified that cost-sharing arrangements would not generally be subject to § 482 allocations – but only “if and to the extent . . . the income allocated among the parties reasonably reflect the actual economic activity undertaken by each.” Id. at II638.
3

15a
Treasury believed the commensurate with income
standard to be consistent with the arm’s length standard (and that Treasury understood Congress to share
that understanding). Id. at 475. Treasury wrote that
a comparability analysis must be performed where
possible, id. at 474, but it also suggested a “clear and
convincing evidence” standard for comparable transactions, indicating that a comparability analysis
would rarely be possible. Id. at 478.
The White Paper signaled a shift in the interpretation of the arm’s length standard as it had been defined following the 1968 regulations. Treasury advanced a new allocation method, the “basic arm’s
length return method,” White Paper at 488, that
would apply only in the absence of comparable transactions and would essentially split profits between the
related parties, id. at 490. Commentators understood
that, by attempting to synthesize the arm’s length
standard and the commensurate with income provision, Treasury was moving away from a view that the
arm’s length standard always requires a comparability analysis. Marc M. Levey, Stanley C. Ruchelman,
& William R. Seto, Transfer Pricing of Intangibles After the Section 482 White Paper, 71 J. Tax’n 38, 38
(1989); Josh O. Ungerman, Comment, The White Paper: The Stealth Bomber of the Section 482 Arsenal,
42 Sw. L.J. 1107, 1128-29 (1989).
In 1994 and 1995, Treasury issued new regulations that defined the arm’s length standard as resultoriented, meaning that the goal is parity in taxable income rather than parity in the method of allocation
itself. 26 C.F.R. § 1.482-1(b)(1) (1994) (“A controlled
transaction meets the arm’s length standard if the results of the transaction are consistent with the results
that would have been realized if uncontrolled taxpayers had engaged in the same transaction under the

16a
same circumstances (arm’s length result).”). However, the arm’s length standard remained “the standard to be applied in every case.” Id.
The regulations also set forth methods by which
income could be allocated among related parties in a
manner consistent with the arm’s length standard.
Id. § 1.482-1(b)(2)(i) (1994). According to Treasury,
the 1994 regulations defined the arm’s length standard in terms of “the results that would have been realized if uncontrolled taxpayers had engaged in the
same transaction under the same circumstances.”
Compensatory Stock Options Under Section 482, 67
Fed. Reg. 48,997-01, 48,998 (proposed July 29, 2002).
The 1995 regulation provided that “[i]ntangible development costs” included “all of the costs incurred by
[a controlled] participant related to the intangible development area.” 26 C.F.R. § 1.482-7(d)(1) (1995). By
contrast to the 1994 regulation, the 1995 regulation –
consistent with the 1986 Conference Report – “implement[ed] the commensurate with income standard in
the context of cost sharing arrangements” by “requir[ing] that controlled participants in a [QCSA]
share all costs incurred that are related to the development of intangibles in proportion to their shares of
the reasonably anticipated benefits attributable to
that development.” Compensatory Stock Options Under Section 482, 67 Fed. Reg. at 48,998.
Neither the Tax Reform Act nor the implementing
regulations specifically addressed allocation of employee stock compensation, which is the issue in this
dispute. However, that omission was unsurprising
given that the practice did not develop on a major
scale until the 1990s. Zvi Bodie, Robert S. Kaplan, &
Robert C. Merton, For the Last Time: Stock Options
Are an Expense, Harv. Bus. Rev., Mar. 2003, at 62, 67.
Beginning in 1997, the Secretary interpreted the

17a
“all . . . costs” language to include stock-based compensation, meaning that controlled taxpayers had to
share the costs (and associated deductions) of providing employee stock compensation. Xilinx, Inc. v.
Comm’r, 598 F.3d 1191, 1193-94 (9th Cir. 2010).
In 2003, Treasury issued the cost-sharing regulations that are challenged in this case. Treasury intended for the 2003 amendments to clarify, rather
than to overhaul, the 1994 and 1995 regulations. The
clarifications were twofold. First, the amendments directly classified employee stock compensation as a
cost to be allocated between QCSA participants. Compensatory Stock Options Under Section 482 (Proposed), 67 Fed. Reg. at 48,998; 26 C.F.R. § 1.4827A(d)(2). Second, the “coordinating amendments”
clarified Treasury’s belief that the cost-sharing regulations, including § 1.482-7A(d)(2), operate to produce
an arm’s length result. Compensatory Stock Options
Under Section 482 (Proposed), 67 Fed. Reg. at 48,998;
26 C.F.R. § 1.482-7A(a)(3).
Specifically, § 1.482-7A provides that costs shared
by related parties to a QCSA are not subject to IRS
reallocation for tax purposes if each entity’s share of
the intangible property development costs equals each
entity’s reasonably anticipated benefits. Section
1.482-7A(a)(3) incorporates and coordinates with the
arm’s length standard:
A qualified cost sharing arrangement produces
results that are consistent with an arm’s length result . . . if, and only if, each controlled participant’s
share of the costs (as determined under paragraph
(d) of this section) of intangible development under
the qualified cost sharing arrangement equals its
share of reasonably anticipated benefits attributable to such development . . . .

18a
Section 1.482-7A(d)(2) provides that parties to a
QCSA must allocate stock-based compensation between themselves:
[In a QCSA], a controlled participant’s operating expenses include all costs attributable to compensation, including stock-based compensation.
As used in this section, the term stock-based compensation means any compensation provided by a
controlled participant to an employee or independent contractor in the form of equity instruments,
options to acquire stock (stock options), or rights
with respect to (or determined by reference to) equity instruments or stock options, including but
not limited to property to which section 83 applies
and stock options to which section 421 applies, regardless of whether ultimately settled in the form
of cash, stock, or other property.
These regulations, and the procedure employed in
adopting them, form the basis of the present controversy.
II
At issue is Altera Corporation (“Altera”) & Subsidiaries’ tax liability for the years 2004 through 2006.
During the relevant period, Altera and its subsidiaries
designed, manufactured, marketed, and sold programmable logic devices, which are electronic components that are used to build circuits.
In May of 1997, Altera entered into a cost-sharing
agreement with one of its foreign subsidiaries, Altera
International, Inc., a Cayman Islands corporation
(“Altera International”), which had been incorporated
earlier that year. Altera granted to Altera International a license to use and exploit Altera’s preexisting
intangible property everywhere in the world except
the United States and Canada. In exchange, Altera

19a
International paid royalties to Altera. The parties
agreed to pool their resources to share research and
development (“R&D”) costs in proportion to the benefits anticipated from new technologies. The question
in this appeal is whether Treasury was permitted, for
tax liability purposes, to re-allocate the cost of employee stock-based compensation.
Altera and the IRS agreed to an Advance Pricing
Agreement covering the 1997-2003 tax years. Pursuant to this agreement, Altera shared with Altera International stock-based compensation costs as part of
the shared R&D costs. After the Treasury regulations
were amended in 2003, Altera and Altera International amended their cost-sharing agreement to comply with the modified regulations, continuing to share
employee stock compensation costs.
The agreement was amended again in 2005 following the Tax Court’s opinion in Xilinx Inc. & Consolidated Subsidiaries v. Commissioner, which involved a
challenge to the 1994-1995 cost-sharing regulations.
125 T.C. 37 (2005). The parties agreed to “suspend
the payment of any portion of [a] Cost Share . . . to the
extent such payment relates to the Inclusion of StockBased Compensation in R&D Costs” unless and until
a court upheld the validity of the 2003 cost-sharing
regulations. The following provision explains Altera’s
reasoning:
The Parties believe that it is more likely than
not that (i) the Tax Court’s conclusion in Xilinx v.
Commissioner, 125 T.C. [No.] 4 (2005), that the
arm’s length standard controls the determination
of costs to be shared by controlled participants in a
qualified cost sharing arrangement should also apply to Treas. Reg. § 1.482-7(d)(2) (as amended by
T.D. 9088), and (ii) the Parties’ inclusion of StockBased Compensation in R&D Costs pursuant to

20a
Amendment I would be contrary to the arm’s
length standard.
Altera and its U.S. subsidiaries did not account for
R&D-related stock-based compensation costs on their
consolidated 2004-2007 federal income tax returns.
The IRS issued two notices of deficiency to the group,
applying § 1.482-7(d)(2) to increase the group’s income
by the following amounts:
2004
$ 24,549,315
2005
$ 23,015,453
2006
$ 17,365,388
2007
$ 15,463,565
Altera timely filed petitions in the Tax Court. The
parties filed cross-motions for summary judgment,
and the Tax Court granted Altera’s motion. Sitting en
banc, the Tax Court held that § 1.482-7A(d)(2) is invalid under the Administrative Procedure Act (“APA”),
5 U.S.C. §§ 701-706. Altera Corp. & Subsidiaries v.
Comm’r, 145 T.C. 91 (2015).
The Tax Court unanimously determined: (1) that
the Commissioner’s allocation of income and expenses
between related entities must be consistent with the
arm’s length standard; and (2) that the arm’s length
standard is not met unless the Commissioner’s allocation can be compared to an actual transaction between
unrelated entities. The Tax Court reasoned that the
Commissioner could not require related parties to
share stock compensation costs, because the Commissioner had not considered any unrelated party transactions in which the parties shared such costs. The
Tax Court held that the agency’s decisionmaking process was fundamentally flawed because: (1) it rested
on speculation rather than on hard data and expert

21a
opinions; and (2) it failed to respond to significant public comments, particularly those pointing out uncontrolled cost-sharing arrangements in which the entities did not share stock compensation costs. Id. at
133-34.
The Tax Court’s decision rested largely on its own
opinion in Xilinx, in which it determined that the
arm’s length standard mandates a comparability
analysis. Id. at 118 (citing Xilinx, 125 T.C. at 53-55).
In its decision in this case, as well, the Tax Court suggested that the Commissioner cannot require related
entities to share stock compensation costs unless and
until the Commissioner locates uncontrolled transactions in which these costs are shared. Id. at 118-19.
The Tax Court reached five holdings: (1) the 2003
amendments constitute a final legislative rule subject
to the requirements of the APA; (2) Motor Vehicle
Manufacturers Ass’n of the United States, Inc. v. State
Farm Mutual Automobile Insurance Co., 463 U.S. 29
(1983), provides the appropriate standard of review
because the standard set forth in Chevron, U.S.A., Inc.
v. Natural Resources Defense Council, Inc., 467 U.S.
837 (1984), incorporates State Farm’s “reasoned decisionmaking” standard; (3) Treasury did not support
adequately its decision to allocate the costs of employee stock compensation between related parties;
(4) Treasury’s procedural regulatory deficiencies were
not harmless;4 and (5) § 1.482-7A(d)(2) is invalid under the APA.

On appeal, the Commissioner does not claim that any error in
the decisionmaking process, if it existed, was harmless. Thus,
we decline to address the issue.
4

22a
III
Our task in this appeal, then, is to determine
whether Treasury’s 2003 regulations are lawful. In
the context of the arguments made in this case, we
evaluate the validity of the agency’s regulations under
both Chevron and State Farm, which “provide for related but distinct standards for reviewing rules promulgated by administrative agencies.” Catskill Mountains Chapter of Trout Unlimited, Inc. v. EPA, 846
F.3d 492, 521 (2d Cir. 2017). “State Farm is used to
evaluate whether a rule is procedurally defective as a
result of flaws in the agency’s decisionmaking process.” Id. “Chevron, by contrast, is generally used to
evaluate whether the conclusion reached as a result of
that process – an agency’s interpretation of a statutory provision it administers – is reasonable.” Id.5 “A
litigant challenging a rule may challenge it under
State Farm, Chevron, or both.” Id. Altera challenges
both the procedural adequacy of the APA process and
the substance of the regulation.6
There are circumstances when the two analyses may overlap.
See, e.g., Confederated Tribes of Grand Ronde Cmty. of Or. v.
Jewell, 830 F.3d 552, 561 (D.C. Cir. 2016) (We are mindful that,
“[i]n [some] situations, what is ‘permissible’ under Chevron is
also reasonable under State Farm.” (quoting Arent v. Shalala, 70
F.3d 610, 616 n.6 (D.C. Cir. 1995))).
5

We afforded the parties the opportunity to file optional supplemental briefs on the question whether the six-year statute of limitations under 28 U.S.C. § 2401(a) – which generally applies to
procedural challenges to regulations under the APA – applies to
this case. The Commissioner responded that it had waived this
non-jurisdictional defense by failing to assert it to the Tax Court.
We agree with the parties that the Commissioner waived the defense. Day v. McDonough, 547 U.S. 198, 210 n.11 (2006)
(“[S]hould a State intelligently choose to waive a statute of limitations defense, a district court would not be at liberty to disregard that choice.”); Whidbee v. Pierce County, 857 F.3d 1019,
6

23a
A
We first turn to Chevron analysis.
1
Under Chevron, we first apply the traditional rules
of statutory construction to determine whether “Congress has directly spoken to the precise question at issue.” 467 U.S. at 842. We start with the plain statutory text and, “when deciding whether the language is
plain, we must read the words ‘in their context and
with a view to their place in the overall statutory
scheme.’ ” King v. Burwell, 135 S. Ct. 2480, 2489
(2015) (quoting FDA v. Brown & Williamson Tobacco
Corp., 529 U.S. 120, 133 (2000)).
In addition, we examine the legislative history, the
statutory structure, and “other traditional aids of
statutory interpretation” in order to ascertain congressional intent. Middlesex Cty. Sewerage Auth. v.
Nat’l Sea Clammers Ass’n, 453 U.S. 1, 13 (1981). If,
after conducting that Chevron step one examination,
we conclude that the statute is silent or ambiguous on
the issue, we then defer to the agency’s interpretation
so long as it “is based on a permissible construction of
the statute.” Chevron, 467 U.S. at 843. A permissible
construction is one that is not “arbitrary, capricious,
or manifestly contrary to the statute.” Id. at 844.
Ultimately, questions of deference boil down to
whether “it appears that Congress delegated authority to the agency generally to make rules carrying the
force of law, and that the agency interpretation claiming deference was promulgated in the exercise of that
authority.” United States v. Mead Corp., 533 U.S. 218,
1024 (9th Cir. 2017) (“[E]ven if a claim has expired under a state
statute of limitations, a defendant can still waive this affirmative
defense.”). Therefore, we need not address it.

24a
226-27 (2001). “When Congress has ‘explicitly left a
gap for an agency to fill, there is an express delegation
of authority to the agency to elucidate a specific provision of the statute by regulation,’ and any ensuing regulation is binding in the courts unless procedurally
defective, arbitrary or capricious in substance, or
manifestly contrary to the statute.” Id. at 227 (quoting Chevron, 467 U.S. at 843-44).
Here, the resolution of our step one Chevron examination is straightforward. Section 482 does not speak
directly to whether the Commissioner may require
parties to a QCSA to share employee stock compensation costs in order to receive the tax benefits associated with entering into a QCSA. Thus, there is no
question that the statute remains ambiguous regarding the method by which Treasury is to make allocations based on stock-based compensation.
Altera argues that the statute, by its terms, cannot
apply to stock-based compensation. According to Altera, stock-based compensation is not “transferred”
between parties because only preexisting intangibles
can be transferred. Thus, for Altera, Treasury has exceeded the delegation of authority apparent from the
plain text of the statute.
We are not persuaded. When parties enter into a
QCSA, they are transferring future distribution rights
to intangibles, albeit intangibles that have yet to be
developed. Indeed, the present-day transfer of those
rights provides the main incentive for entering into a
QCSA. The right to distribute intangibles to be developed later is, itself, one right in the bundle of property
rights that exists at the time that parties enter into a
QCSA.
Moreover, even assuming that the crucial transfer
does not occur contemporaneously, § 482 applies “[i]n

25a
the case of any transfer . . . of intangible property”
that produces income. (Emphasis added.) That
phrasing is as broad as possible, and it cannot reasonably be read to exclude the transfers of expected intangible property. See, e.g., United States v. Gonzales,
520 U.S. 1, 5 (1997) (“Read naturally, the word ‘any’
has an expansive meaning . . . .”); see also Republic of
Iraq v. Beaty, 556 U.S. 848, 856 (2009) (“Of course the
word ‘any’ (in the phrase ‘any other provision of law’)
has an ‘expansive meaning, giving us no warrant to
limit the class of provisions of law [encompassed by
the statutory provision].” (citation omitted)). Additionally, the sentence necessarily is forward-looking
because the production of taxable income always follows the transfer.
In short, the text of the statute does not limit its
application to preexisting intangibles in the way Altera’s argument suggests. Because parties to a QCSA
transfer cost-shared intangibles – including stockbased compensation – they are subject to regulation
under 26 U.S.C. § 482.
2
Thus, we must move on to Chevron step two to consider whether Treasury’s interpretation of § 482 as to
allocation of employee stock option costs is permissible. An agency’s interpretation of statutory authority
is examined “in light of the statute’s text, structure
and purpose.” Miguel-Miguel v. Gonzales, 500 F.3d
941, 949 (9th Cir. 2007). The interpretation fails if it
is “unmoored from the purposes and concerns” of the
underlying statutory regime. Judulang v. Holder, 565
U.S. 42, 64 (2011). Thus, Congress’s purpose in enacting and amending § 482 in 1986 is key to resolution of
this issue.

26a
The congressional purpose in enacting § 482 was
to establish tax parity. First Sec. Bank of Utah, 405
U.S. at 400. In the 1986 amendments, Congress called
for an approach to allocation of costs and income that
would “reasonably reflect the actual economic activity
undertaken by each [party to a QCSA],” H.R. Rep. No.
99-841, at II-638 (1986) (Conf. Rep.). Put another
way, Congress’s objective in amending § 482 was to
ensure that income follows economic activity. Id. at
II-637. Although the 1986 amendment delegates to
Treasury the choice of a specific methodology to
achieve that end, it suggested: “In the case of any
transfer (or license) of intangible property . . . , the income with respect to such transfer or license shall be
commensurate with the income attributable to the intangible.” This standard is a purely internal one, that
is, internal to the entity being taxed, and evidence
supports Treasury’s belief that Congress intended it
to be. H.R. Rep. No. 99-426, at 423-35; H.R. Rep. No.
99-841, at II-637 (Conf. Rep.). In the QCSA context,
Congress did not want to interfere with controlled
cost-sharing arrangements, but only to the degree
that the allocation of costs and income “reasonably reflect[s] the actual economic activity undertaken by
each.” H.R. Rep. No. 99-841, at II-638 (Conf. Rep.). In
light of this history, Treasury’s decision to adopt a
methodology that followed actual economic activity
was reasonable.
So was Treasury’s determination that uncontrolled
cost-sharing arrangements do not provide helpful
guidance regarding allocations of employee stock compensation. When it amended § 482 in 1986, Congress
bemoaned the difficulties associated with finding and
using data involving high-profit intangibles. See H.R.
Rep. No. 99-426, at 425 (“There are extreme difficul-

27a
ties in determining whether the arm’s length transfers between unrelated parties are comparable. . . .
[I]t is appropriate to require that the payment made
on a transfer of intangibles to a related foreign corporation be commensurate with the income attributable
to the intangible.”); see also Compensatory Stock Options Under Section 482, 68 Fed. Reg. 51,171-02,
51,173 (Aug. 26, 2003) (citing H.R. Rep. No. 99-426, at
423-25) (“As recognized in the legislative history of the
Tax Reform Act of 1986, there is little, if any, public
data regarding transactions involving high-profit intangibles.”).7 It follows that Congress granted Treasury authority to develop methods that did not rely on
analysis of these problematic comparable transactions. Indeed, Treasury echoed Congress’s rationale
for amending § 482 in the first place when it published
Although the 2017 amendment to § 482 has no bearing on our
analysis, we note that Congress has not changed its mind:
7

The transfer pricing rules of section 482 and the accompanying Treasury regulations are intended to preserve the U.S.
tax base by ensuring that taxpayers do not shift income
properly attributable to the United States to a related foreign
company through pricing that does not reflect an arm’slength result . . . . The arm’s-length standard is difficult to
administer in situations in which no unrelated party market
prices exist for transactions between related parties . . . .
. . . For income from intangible property, section 482 provides “in the case of any transfer (or license) of intangible
property (within the meaning of section 936(h)(3)(B)), the income with respect to such transfer or license shall be commensurate with the income attributable to the intangible.”
By requiring inclusion in income of amounts commensurate
with the income attributable to the intangible, Congress was
responding to concerns regarding the effectiveness of the
arm’s-length standard with respect to intangible property –
including, in particular, high-profit-potential intangibles.
H. Rep. No. 115-466, at 574-75 (2017).

28a
the final rule. Id. at 51,173 (“The uncontrolled transactions cited by commentators do not share enough
characteristics of QCSAs involving the development of
high-profit intangibles to establish that parties at
arm’s length would not take stock options into account
in the context of an arrangement similar to a QCSA.”).
What is more, although Altera suggests there can
be only one understanding of the methodology required by the arm’s length standard, historically the
definition of the arm’s length standard has been a
more fluid one. Indeed, as we have discussed, for most
of the twentieth century the arm’s length standard explicitly permitted the use of flexible methodology in
order to achieve an arm’s length result. See also H.R.
Rep. No. 87-2508, at 18-19 (1962) (Conf. Rep.) (noting
that, in 1962, Congress stated that Treasury should
“provide additional guidelines and formulas” to
achieve arm’s length results). It is true that, more recently, an understanding that the primary means of
reaching an arm’s length result suggested the analysis of comparable transactions. But, in the lead-up to
the 1986 amendments, Congress voiced numerous
concerns regarding reliance on this methodology.
Further, as we have discussed, courts for more than
half a century have held that a comparable transaction analysis was not the exclusive methodology to be
employed under the statute. In light of the historic
versatility of methodology, it is reasonable that Treasury would understand that Congress intended for it to
depart from analysis of comparable transactions as
the exclusive means of achieving an arm’s length result.
In addition, Treasury reasonably concluded that
doing away with analysis of comparable transactions
was an efficient means of ensuring that § 482 would
“operat[e] to assure adequate allocations to the U.S.

29a
taxable entity of income attributable to intangibles in
[QCSAs].” H.R. Rep. No. 99-426, at 423. Congress expressed numerous concerns that pre-1986 allocation
methods permitted entities to undervalue their tax liability by placing undue emphasis on “the concept of
comparables” and basing allocations on industry
norms, rather than on actual economic activity. Id. at
424-25. Doing away with analysis of comparable
transactions, and instead requiring an internal
method of allocation, proves a reasonable method of
alleviating these concerns.
In sum, Treasury reasonably understood § 482 as
an authorization to require internal allocation methods in the QCSA context, provided that the costs and
income allocated are proportionate to the economic activity of the related parties. These internal allocation
methods are reasonable methods for reaching the
arm’s length results required by statute. While interpreting the statute to do away with reliance on comparables may not have been “the only possible interpretation” of Congress’s intent, it proves a reasonable
one. Entergy Corp. v. Riverkeeper, Inc., 556 U.S. 208,
218 (2009). Thus, Treasury’s interpretation is not “arbitrary, capricious, or manifestly contrary to the statute,” and it is therefore permissible under Chevron.
467 U.S. at 844.
3
Altera contends that the Commissioner misreads
§ 482 and its history, arguing that the addition of the
commensurate with income standard to § 482 did
nothing to change the meaning and operation of the
arm’s length standard, thus rendering Treasury’s interpretation unreasonable. Altera supports its argument with a canon of construction: “Amendments by

30a
implication, like repeals by implication, are not favored.” United States v. Welden, 377 U.S. 95, 103 n.12
(1964). That canon does not apply here. It operates
to prevent courts from attributing unspoken motives
to legislators, not to force courts to ignore legislative
action and express legislative history. In addition,
cases invoking the maxim typically refer to a later-enacted, separate statute or provision amending a previous statute or provision; most cases do not involve
changes to the same statute or provision.8 It is illogical to argue that amending a singular statute does not
alter its meaning.
Altera’s interpretation of the 1986 amendment
would render the commensurate with income clause
meaningless except in two circumstances: (1) to allow
the Commissioner periodically to adjust prices initially assigned following a comparability analysis; and
(2) to reflect a party’s contribution of existing intangible property or “buy-in” to a cost-sharing arrangement. This narrow reading of § 482 is not supported
by the text or history of the 1986 amendment.
The Commissioner’s allocation of employee stock
compensation costs between related parties is necessary for Treasury to fulfill its obligation under § 482.
Congress did not intend to interfere with qualified
cost-sharing arrangements when those arrangements
provided for the allocation of income consistent with
See, e.g., Nat’l Ass’n of Home Builders v. Defs. of Wildlife, 551
U.S. 644, 650-52, 664 n.8 (2007) (considering whether a later-enacted provision of the Endangered Species Act could amend a
provision of the Clean Water Act); Blanchette v. Conn. Gen. Ins.
Corps., 419 U.S. 102, 134 (1974) (considering whether the Rail
Act amended a remedy provided by the Tucker Act); United
States v. Dahl, 314 F.3d 976, 977-78 (9th Cir. 2002) (considering
whether a provision codified as a separate note to an existing
statute amended the statute).
8

31a
the commensurate with income provision. H.R. Rep.
No. 99-841, at II-638 (Conf. Rep.).
4
Altera makes much of the United States’s treaty
obligations with other countries, asserting that a
purely internal standard is inconsistent with the
standards agreed to therein and is therefore unreasonable. However, there is no evidence that our treaty
obligations bind us to the analysis of comparable
transactions. As demonstrated by nearly a century of
interpreting § 482 and its precursor, the arm’s length
standard is not necessarily confined to one methodology. It reflects neither how related parties behave nor
how they are taxed. Moreover, our most recent treaties incorporate not only the arm’s length standard,
but also the 2003 regulations. See, e.g., U.S. Dep’t of
Treasury, Technical Explanation of the Convention
Between the United States and Poland for the Avoidance of Double Taxation 31 (2013) (“It is understood
that the Code section 482 ‘commensurate with income’
standard for determining appropriate transfer prices
for intangibles operates consistently with the arm’slength standard. The implementation of this standard in the regulations under Code section 482 is in accordance with the general principles of paragraph 1 of
Article 9 of the Convention . . . .”).
B
Though Treasury’s interpretation of its statutory
grant of authority was reasonable, we also must examine whether the procedures used in its promulgation prove defective under the APA. Catskill Mountains, 846 F.3d at 522 (“[I]f an interpretive rule was
promulgated in a procedurally defective manner, it
will be set aside regardless of whether its interpretation of the statute is reasonable.”). After reviewing

32a
the administrative record, we conclude that Treasury
complied with the procedural requirements of the
APA and, therefore, the regulations survive State
Farm scrutiny.
Section 706 of the APA directs courts to “decide all
relevant questions of law, interpret constitutional and
statutory provisions, and determine the meaning or
applicability of the terms of an agency action.” 5
U.S.C. § 706 (flush language). Agencies may not act
in ways that are “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.”
Id. § 706(2)(A).
The APA “sets forth the full extent of judicial authority to review executive agency action for procedural correctness.” FCC v. Fox Television Stations,
Inc., 556 U.S. 502, 513 (2009). It “prescribes a threestep procedure for so-called ‘notice-and-comment rulemaking.’ ” Perez v. Mortg. Bankers Ass’n, 135 S. Ct.
1199, 1203 (2015) (citing 5 U.S.C. § 553). First, a
“[g]eneral notice of proposed rule making” must ordinarily be published in the Federal Register. 5 U.S.C.
§ 553(b). Second, provided that “notice [is] required,”
the agency must “give interested persons an opportunity to participate in the rule making through submission of written data, views, or arguments.”
Id. § 553(c). “An agency must consider and respond to
significant comments received during the period for
public comment.” Perez, 135 S. Ct. at 1203. Third, the
agency must incorporate in the final rule “a concise
general statement of [its] basis and purpose.” 5 U.S.C.
§ 553(c).
Altera does not dispute that Treasury satisfied the
first step by giving notice of the 2003 regulations. Id.
Nor does there appear to be a controversy as to
whether Treasury included in the final rule “a concise
general statement of [its] basis and purpose.” Id.;

33a
5 U.S.C. § 553. Rather, Altera argues that the regulations fail on the second step, asserting that: (1)
Treasury improperly rejected comments submitted in
opposition to the proposed rule, (2) Treasury’s current
litigation position is inconsistent with statements
made during the rulemaking process, (3) Treasury did
not adequately support its position that employee
stock compensation is a cost, and (4) a more searching
review is required under Fox, because the agency altered its position. We address each in turn.
1
Under State Farm, the touchstone of “arbitrary
and capricious” review under the APA is “reasoned decisionmaking.” State Farm, 463 U.S. at 52. “[T]he
agency must examine the relevant data and articulate
a satisfactory explanation for its action including a
‘rational connection between the facts found and the
choice made.’ ” Id. at 43 (quoting Burlington Truck
Lines, Inc. v. United States, 371 U.S. 156, 168 (1962)).
“[A]gency action is lawful only if it rests ‘on a consideration of the relevant factors.’ ” Michigan v. EPA,
135 S. Ct. 2699, 2706 (2015) (quoting State Farm, 463
U.S. at 43). However, we may not set aside agency
action simply because the rulemaking process could
have been improved; rather, we must determine
whether the agency’s “path may reasonably be discerned.” State Farm, 463 U.S. at 43 (quoting Bowman
Transp., Inc. v. Ark.-Best Freight Sys., Inc., 419 U.S.
281, 286 (1974)).
In considering and responding to comments, “the
agency must examine the relevant data and articulate
a satisfactory explanation for its action including a
‘rational connection between the facts found and the
choice made.’ ” Id. (quoting Burlington Truck Lines,
371 U.S. at 168). “[A]n agency need only respond to

34a
‘significant’ comments, i.e., those which raise relevant
points and which, if adopted, would require a change
in the agency’s proposed rule.” Am. Mining Congress
v. EPA, 965 F.2d 759, 771 (9th Cir. 1992) (quoting
Home Box Office v. FCC, 567 F.2d 9, 35 & n.58 (D.C.
Cir. 1977) (per curiam)). If the comments ignored by
the agency would not bear on the agency’s “consideration of the relevant factors,” we may not reverse the
agency’s decision. Id.
Treasury published its notice of proposed rulemaking in 2002. Compensatory Stock Options Under Section 482 (Proposed), 67 Fed. Reg. 48,997-01. In its notice, Treasury made clear that it was relying on the
commensurate with income provision. Id. at 48,998.
To support its position, Treasury drew from the legislative history of the 1986 amendment, explaining that
Congress intended a party to a QCSA to “bear its portion of all research and development costs.” Id. (quoting H.R. Rep. No. 99-841, at II-638 (Conf. Rep.)). It
also informed interested parties of its intent to coordinate the new regulations with the arm’s length standard, suggesting that it was attempting to synthesize
the potentially disparate standards found within
§ 482 itself. Id. at 48,998, 49,000-01.
Commenters responded by attacking the proposed
regulations as inconsistent with the traditional arm’s
length standard because the methodology did not involve analysis of comparable transactions. To support
their position, they primarily discussed arm’s length
agreements in which unrelated parties did not mention employee stock options. They explained that unrelated parties do not share stock compensation costs
because it is difficult to value stock-based compensation, and there can be a great deal of expense and risk
involved.

35a
In the preamble to the final rule, Treasury dismissed the comments (and, relatedly, the behavior of
controlled taxpayers):
Treasury and the IRS continue to believe that requiring stock-based compensation to be taken into
account for purposes of QCSAs is consistent with
the legislative intent underlying section 482 and
with the arm’s length standard (and therefore with
the obligations of the United States under its income tax treaties . . .). The legislative history of
the Tax Reform Act of 1986 expressed Congress’s
intent to respect cost sharing arrangements as consistent with the commensurate with income standard, and therefore consistent with the arm’s length
standard, if and to the extent that the participants’
shares of income “reasonably reflect the actual economic activity undertaken by each.” See H.R.
Conf. Rep. No. 99-481, at II-638 (1986). . . . [I]n order for a QCSA to reach an arm’s length result consistent with legislative intent, the QCSA must reflect all relevant costs, including such critical elements of cost as the cost of compensating employees for providing services related to the
development of the intangibles pursuant to the
QCSA. Treasury and the IRS do not believe that
there is any basis for distinguishing between
stock-based compensation and other forms of compensation in this context.
Treasury and the IRS do not agree with the comments that assert that taking stock-based compensation into account in the QCSA context would be
inconsistent with the arm’s length standard in the
absence of evidence that parties at arm’s length
take stock-based compensation into account in
similar circumstances. . . .
The uncontrolled
transactions cited by commentators do not share

36a
enough characteristics of QCSAs involving the development of high-profit intangibles to establish
that parties at arm’s length would not take stock
options into account in the context of an arrangement similar to a QCSA.
Compensatory Stock Options under Section 482 (Preamble to Final Rule), 68 Fed. Reg. 51,171-02, 51,17273 (Aug. 26, 2003).
Treasury added:
Treasury and the IRS believe that if a significant
element of [the costs shared by unrelated parties]
consists of stock-based compensation, the party
committing employees to the arrangement generally would not agree to do so on terms that ignore
the stock-based compensation.
Id. at 51,173.
By submitting the cited transactions between unrelated parties, the commentators apparently assumed that Treasury would employ analysis of comparable transactions. This assumption, however,
overlooks Treasury’s decision to do away with analysis of comparable transactions in the first place – a
decision that was made clear enough by citations to
legislative history in the notice of proposed rulemaking and in the preamble to the final rule. As discussed
in our Chevron analysis, Treasury’s conclusion that it
could require parties to a QCSA to share all costs was
a reasonable one. Thus, “significant” comments that
required a response would have spoken to why this interpretation was not, in fact, reasonable, so that
adopting the comments would require Treasury to
change the regulation. Am. Mining Congress, 965
F.2d at 771. As an example, Treasury would have
been required to respond to comments demonstrating
that doing away with analysis of comparables did not,

37a
in fact, serve the purposes of parity set out in the statute.
Indeed, the cited transactions actually reinforced
the original justification for adopting a purely internal
methodology – the lack of transactions comparable to
those occurring between parties to a QCSA. Specifically, as Treasury remarked, the submitted transactions did not “share enough characteristics of QCSAs
involving the development of high-profit intangibles”
to provide grounds for accurate comparison. Because
of this lack of similar transactions, Treasury justifiably chose to employ methodology that did not depend
on non-existent comparables to satisfy the commensurate with income test and achieve tax parity. In this
way, the comments reinforced Treasury’s premise for
adopting the purely internal methodology, but were
irrelevant to the underlying choice of methodology.
Treasury did not err in refusing to examine them more
rigorously.
In sum, we cannot find a failure in Treasury’s refusal to consider comments that proved irrelevant to
its decisionmaking process. Here, Treasury gave sufficient notice of what it intended to do and why, and
the submitted comments were irrelevant to the issues
Treasury was considering. Because the comments
had no bearing on “relevant factors” to the rulemaking, nor any bearing on the final rule, there was no
APA violation. Am. Mining Congress, 965 F.2d at 771.
2
Treasury’s current litigation position is not inconsistent with the statements it made to support the
2003 regulations at the time of the rulemaking. Altera argues that its position is justified by SEC v.
Chenery Corp., 332 U.S. 194 (1947). “[A] reviewing
court . . . must judge the propriety of [agency] action

38a
solely by the grounds invoked by the agency.” Id. at
196. “If those grounds are inadequate or improper,
the court is powerless to affirm the administrative action by substituting what it considers to be a more adequate or proper basis.” Id.
Altera argues that the Commissioner cannot now
claim that “Treasury reasonably determined that it
was statutorily authorized to dispense with comparability analysis” because “[n]owhere in the regulatory
history did the Secretary suggest that he ‘was statutorily authorized to dispense with comparability analysis.’ ” But these arguments misunderstand the rulemaking requirements imposed by Chenery. Chenery
does not require us to adopt Altera’s position as to how
the arm’s length standard operates. Instead, we must
“defer to an interpretation which was a necessary presupposition of [the agency’s] decision,” if reasonable,
even when alternative interpretations are available.
Nat’l R.R. Passenger Corp. v. Boston & Maine Corp.,
503 U.S. 407, 419-20 (1992).
Treasury reasonably interpreted congressional intent in the 1986 amendments as permitting it to dispense with a comparable transaction analysis in the
absence of actual comparable transactions. Its interpretation was all the more reasonable given, as we
have discussed, that the arm’s length standard has
historically been understood as more fluid than Altera
suggests. Because Chenery does not require agencies
to provide “exhaustive, contemporaneous legal arguments to preemptively defend its action,” its references to the 1986 amendments provide an adequate
ground for its determination. Nat’l Elec. Mfrs. Ass’n
v. U.S. Dep’t of Energy, 654 F.3d 496, 515 (4th Cir.
2011).
Altera contends further that the Commissioner’s
position is incompatible with Treasury’s statements

39a
during the rulemaking process, when the Secretary
claimed that the cost-sharing regulations were consistent with the arm’s length standard (as well as the
commensurate with income standard). This argument misinterprets Treasury’s position. Treasury asserted then, and still asserts in this litigation, that using an internal method of reallocation is consistent
with the arm’s length standard because it attempts to
bring parity to the tax treatment of controlled and uncontrolled taxpayers, as does comparison of comparable transactions when they exist. Treasury’s position
was also consistent with its White Paper,9 and Treasury’s interpretation in the 1994 regulation of the
arm’s length standard as result-oriented, rather than
method-oriented, with the goal of achieving tax parity.
26 C.F.R. § 1.482-1(b)(1) (1994).
Altera’s argument is founded on its belief that an
arm’s length analysis always must be method-oriented, and rooted in actual transactional analysis.
But the question before us is not which view is superior; it is whether Treasury’s position in 2003 was incompatible with its prior position in promulgating the
1994 and 1995 regulations. As we have discussed, it
was clear in 1994 and 1995 that, in implementing the
commensurate with income amendment, Treasury
was moving away from a purely method-based, comparable-transaction view of the arm’s length standard
in attempting to achieve tax parity. Treasury’s citation to the amendment, and its legislative history,
Altera argues that a passage in the White Paper, in which
Treasury wrote that “intangible income must be allocated on the
basis of comparable transactions if comparables exist,” demonstrates inconsistency. However, that statement is entirely consistent with Treasury’s view that a different methodology must
be applied when comparable transactions do not exist.
9

40a
demonstrates that its position was not inconsistent,
and there is no basis under Chenery to invalidate it.
3
Altera also argues that Treasury did not adequately support its position that employee stock compensation is a cost, asserting that Treasury wrongfully ignored evidence that companies do not factor
stock-based compensation into their pricing decisions.
As an accounting matter in the past, this issue may
have been disputed. Indeed, at one point, “[t]he debate on accounting for stock-based compensation . . .
became so divisive that it threatened the [Financial
Accounting Standards] Board’s future working relationship with some of its constituents.” Financial Accounting Standards Board, Financial Accounting
Foundation, Accounting for Stock-Based Compensation: Statement of Financial Accounting Standards
No. 123, at 25 (1995). However, as we will discuss, it
is uncontroversial today. Since 1995, the Financial
Accounting Standards Board has supported treating
stock options as costs. Id.
Treasury’s rulemaking process was sufficient.
Treasury articulated why treating stock-based compensation as a cost led to arm’s length results. It first
noted that stock-based compensation is a “critical element” of R&D costs for parties to a QCSA and noted
that such compensation is “clearly related to the intangible development area.” Compensatory Stock Options Under Section 482 (Preamble to Final Rule), 68
Fed. Reg. at 51,173. Logic supports these conclusions.
Parties dealing at arm’s length, as Treasury explained, would not “ignore” stock-based compensation
if such compensation were a “significant element” of
the compensation costs one party incurs and another
party agrees to reimburse when developing high-

41a
profit intangibles. Id. Rather, “through bargaining,”
each party would ensure that the cost-sharing agreement is in its best interest, meaning that the parties
will consider the internal costs of stock compensation
without requiring the other party to recognize those
costs. Id.
Though commentators presented evidence of some
transactions in which stock-based compensation was
not a cost, this evidence provided little guidance because it did not concern parties to a QCSA developing
high-profit intangibles. This out-of-context data did
not require a different decision. In the absence of applicable evidence, Treasury’s analysis provides a logical explanation of how treating stock-based compensation as a cost leads to arm’s length results.
In addition, as we have noted, generally accepted
accounting principles supported Treasury’s conclusion, and Treasury cited generally to “tax and other
accounting principles” for its determination that there
is a “cost associated with stock-based compensation.”
Compensatory Stock Options Under Section 482 (Proposed), 67 Fed. Reg. at 48,999. One such principle is
that a distinction exists between the economic costs of
stock compensation – which are debatable – versus
the accounting costs – which are not. Because entities
account for the cost of providing employee stock options, it is reasonable for Treasury to allocate that
cost. In light of these fundamental understandings,
Treasury’s reference to “tax and other accounting
principles” provides a solid foundation for the Commissioner’s interpretation.10
See, e.g., Andrew Barry, How Much Do Silicon Valley Firms
Really Earn?, Barron’s (June 27, 2015), http://www.barrons.com/articles/how-much-do-silicon-valley-firms-really-earn1435372718)) (noting that numerous companies, including
10

42a
Most notably, the Tax Code classifies stock-based
compensation as a trade or business “expense.”
26 U.S.C. § 162(a). And the challenged regulation
cites the provision providing that this expense is a deductible expense. 26 C.F.R. § 1.482-7A(d)(2)(iii)(A)
(“[T]he operating expense attributable to stock-based
compensation is equal to the amount allowable . . . as
a deduction for Federal income tax purposes . . . (for
example, under [26 U.S.C. § 83(h)]).”). The reference
to the Tax Code’s classifications in the regulation itself serves as yet another articulation of Treasury’s
reasoning, the reasonableness of which is made clear
by the Tax Code’s treatment of stock-based compensation as a cost.
Though it could have been more specific, Treasury
“articulated a rational connection” between its decision and these industry standards. County of Amador
v. U.S. Dep’t of Interior, 872 F.3d 1012, 1027 (9th Cir.
2017) (internal quotation marks omitted), cert. denied,
139 S. Ct. 64 (2018). Presuming that Treasury was
authorized to dispense with a comparability analysis,
making the economic behavior of uncontrolled taxpayers irrelevant, Altera does not offer any compelling argument against the reasonableness of Treasury’s determination.
4
Finally, in addition to its general State Farm argument, Altera asks for a more searching review under
Fox. Altera claims that the cost-sharing amendments
present a major shift in administrative policy such
that Treasury could not issue the regulations without
carefully considering and broadcasting its decision.
Google and Qualcomm, reported stock compensation “total[ling]
five percent or more of revenue in recent years”).

43a
Altera argues that “[t]he assertion that the commensurate with income clause supplants the arm’s-length
standard with a ‘purely internal’ analysis is a sharp –
but unacknowledged – reversal from Treasury’s longstanding prior policy.”
“Agencies are free to change their existing policies
as long as they provide a reasoned explanation for the
change.” Encino Motorcars, LLC v. Navarro, 136 S.
Ct. 2117, 2125 (2016). Indeed, “[w]hen an agency
changes its existing position, it ‘need not always provide a more detailed justification than what would
suffice for a new policy created on a blank slate.’ ” Id.
at 2125-26 (quoting Fox, 556 U.S. at 515). However,
an agency may not “depart from a prior policy sub silentio or simply disregard rules that are still on the
books.” Fox, 556 U.S. at 515.
[A] policy change complies with the APA if the
agency
(1) displays “awareness that it is changing position,”
(2) shows that “the new policy is permissible under
the statute,”
(3) “believes” the new policy is better, and
(4) provides “good reasons” for the new policy,
which, if the “new policy rests upon factual findings that contradict those which underlay its prior
policy,” must include “a reasoned explanation . . .
for disregarding facts and circumstances that underlay or were engendered by the prior policy.”
Organized Vill. of Kake v. U.S. Dep’t of Agric., 795
F.3d 956, 966 (9th Cir. 2015) (en banc) (format altered) (quoting Fox, 556 U.S. at 515-16).

44a
At its core, this argument is not meaningfully different from Altera’s general APA argument. If the
arm’s length standard allows the Commissioner to allocate costs between related parties without a comparability analysis, there is no policy change, merely a
clarification of the same policy. Further, as we have
discussed, the policy change was occasioned by the
congressional addition of the “commensurate with income” sentence in the Tax Reform Act of 1984 and the
1994 and 1995 implementing regulations. Those
changes occurred well before 2003. The 2003 regulations clarified, rather than altered, prior policy. And
the enactment of a statutory amendment obviously
makes a concomitant regulatory amendment appropriate.
5
Thus, the 2003 regulations are not arbitrary and
capricious under the standard of review imposed by
the APA. Treasury’s regulatory path may be reasonably discerned. Treasury understood § 482 to authorize it to employ a purely internal, commensurate with
income approach in dealing with related companies.
It provided adequate notice of its intent and adequately considered the objections. Its conclusion that
stock based compensation should be treated as a cost
was adequately supported in the record, and its position did not represent a policy change under Fox.
C
Altera also argues that the outcome of this case is
controlled by our court’s decision in Xilinx. We disagree. Although the Xilinx panel could have reached a
holding that would foreclose the Commissioner’s current position, it did not.
In Xilinx, we considered the 1994 and 1995 costsharing regulations. The case involved a matter of

45a
regulatory interpretation, not executive authority.
Xilinx, Inc., another maker of programmable logic devices, challenged the Commissioner’s allocation of employee stock options between Xilinx and its Irish subsidiary. 598 F.3d at 1192. As framed by the panel,
the issue was whether § 1.482-1 (1994) – which sets
forth the arm’s length standard – could be reconciled
with § 1.482-7(d)(1) (1995) – under which parties to a
QCSA were required to share “all . . . costs” incurred
in developing intangibles. Id. at 1195.
Xilinx does not govern here. First, the parties in
Xilinx were not debating administrative authority,
and we did not consider the “commensurate with income” standard, which Congress itself did not see as
inconsistent with the arm’s length standard. Second,
and more significantly, the Xilinx panel was faced
with a conflict between two rules. If the rules were
conceptually distinguishable, they were also in direct
conflict. The arm’s length rule, § 1.482-1(b)(1) (1994),
listed specific methods for calculating an arm’s length
result. The all-costs provision was not one of those
methods, as the first Xilinx majority noted. 567 F.3d
at 491. Treasury issued the coordinating amendment
in 2003, after the tax years at issue in Xilinx, and the
arm’s length regulation now expressly references the
cost-sharing provision that Altera challenges. The
Xilinx panel did not address the “open question” of
whether the 2003 regulations remedied the error
identified in that decision. 598 F.3d at 1198 n.4
(Fisher, J., concurring). Today, there is no conflict in
the regulations, and Altera does not challenge the regulations on the ground that a conflict exists.
Xilinx did not involve the question of statutory interpretation, the Commissioner’s authority, or the
regulation at issue in this appeal:
26 C.F.R.

46a
§ 1.482-7A(d)(2). Accordingly, it does not assist Altera.
IV
The 1986 amendment focused specifically on intangibles, and it gave Treasury the ability to respond
to rapid changes in the high tech industry. “The broad
language of [§ 482] reflects an intentional effort to
confer the flexibility necessary to forestall . . . obsolescence.” Massachusetts v. EPA, 549 U.S. 497, 532
(2007). In the modern economy, employee stock options are integral to R&D arrangements. In fact, in
Altera’s 2015 annual report, its stock-based compensation cost equaled nearly five percent of total revenue. Altera Corp., Annual Report for the Fiscal Year
Ended Dec. 31, 2014 (Form 10-K). Simply speaking,
the rise in employee stock compensation is an economic development that Treasury cannot ignore without rejecting its obligations under § 482.
In sum, we disagree with the Tax Court that the
2003 regulations are arbitrary and capricious under
the standard of review imposed by the APA. While
the rulemaking process was less than ideal, the APA
does not require perfection. We are able to reasonably
discern Treasury’s path – Treasury understood § 482
to authorize it to employ a purely internal, commensurate with income approach where comparable
transactions are not comparable.
In light of the statute’s plain text and the legislative history, Treasury also reasonably concluded that
Congress intended to hone the definition of the arm’s
length standard so that it could work to achieve an
arm’s length result, instead of forcing application of a
particular comparability method. Given the long history of the application of other methods, and the text
and legislative history of the Tax Reform Act of 1984,

47a
Treasury’s understanding of its power to use methodologies other than a pure transactional comparability
analysis was reasonable, and we defer to its interpretation under Chevron. The Commissioner did not exceed the authority delegated to him by Congress in issuing the regulations.
REVERSED.

O’MALLEY, Circuit Judge, dissenting:
“[T]he foundational principle of administrative law
[is] that a court may uphold agency action only on the
grounds that the agency invoked when it took the action.” Michigan v. EPA, 135 S. Ct. 2699, 2710 (2015)
(citing SEC v. Chenery Corp. (“Chenery I ”), 318 U.S.
80, 87 (1943)).
Prior to promulgating Treas.
Reg. § 1.482-7A(d)(2), whose validity we consider
here, Treasury repeatedly recognized that 26 U.S.C.
§ 482 requires application of an arm’s length standard
when determining the true taxable income of a controlled taxpayer – i.e., it requires Treasury to assess
what a taxpayer dealing with an uncontrolled taxpayer would do in the same circumstances. And,
Treasury just as consistently asserted that a comparability analysis is the only way to determine the
arm’s length standard; indeed, Treasury made clear
that a comparability analysis is the cornerstone of the
arm’s length standard. Despite these consistent practices and declarations, in its preamble to § 1.4827A(d)(2), Treasury stated, for the first time and with
no explanation, that it may, instead, employ the “commensurate with income” standard to reach the required arm’s length result.

48a
Today, the majority justifies Treasury’s about-face
in three steps: (1) it finds that, by citing to the legislative history surrounding the enactment of the Tax
Reform Act of 1986 in the preamble to § 1.4827A(d)(2), Treasury implicitly communicated its understanding that Congress “permitt[ed] it to dispense
with a comparable transaction analysis,” Op. 40-41;
(2) it finds that, by including that same cryptic citation to legislative history in its proposed notice of rulemaking, Treasury made it “clear enough” to interested
parties that Treasury was changing its longstanding
practice of applying a comparability analysis, Op. 3839; and (3) it justifies Treasury’s resort to the commensurate with income standard by invoking the second sentence of § 482 to conclude that Treasury may
jettison the arm’s length standard altogether – a justification Treasury never provided and one which does
not withstand careful scrutiny.
The majority, thus, “suppl[ies] a reasoned basis for
the agency’s action that the agency itself has not
given,” Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983) (citing SEC v. Chenery Corp. (“Chenery II ”), 332 U.S. 194,
196 (1947)), encourages “executive agencies’ penchant
for changing their views about the law’s meaning almost as often as they change administrations,” BNSF
Ry. Co. v. Loos, 586 U.S. ___, No. 17-1042, slip op. at
9 (2019) (Gorsuch, J., dissenting), and endorses a
practice of requiring interested parties to engage in a
scavenger hunt to understand an agency’s rulemaking
proposals. That practice is inconsistent with another
fundamental Administrative Procedure Act (“APA”)
principle: that a notice of proposed rulemaking
“should be sufficiently descriptive of the ‘subjects and
issues involved’ so that interested parties may offer
informed criticism and comments.” Am. Mining Cong.

49a
v. U.S. EPA, 965 F.2d 759, 770 (9th Cir. 1992) (quoting Ethyl Corp. v. EPA, 541 F.2d 1, 48 (D.C. Cir. 1976)
(en banc)). In so doing, the majority stretches “highly
deferential” review, Providence Yakima Med. Ctr. v.
Sebelius, 611 F.3d 1181, 1190 (9th Cir. 2010) (quoting
J & G Sales Ltd. v. Truscott, 473 F.3d 1043, 1051 (9th
Cir. 2007)), beyond its breaking point.
I would instead find, as the Tax Court did, that
Treasury’s explanation of its rule (to the extent any
was provided) failed to satisfy the State Farm standard, that Treasury did not provide adequate notice of
its intent to change its longstanding practice of employing the arm’s length standard and using a comparability analysis to get there, and that its new rule is
invalid as arbitrary and capricious. I would also hold
that this court’s previous decision in Xilinx, Inc. v.
Commissioner of Internal Revenue (“Xilinx II ”), 598
F.3d 1191 (9th Cir. 2010), controls and mandates an
order affirming the Tax Court’s decision. I therefore
would affirm the judgment of the Tax Court that expenses related to stock-based compensation are not
among the costs to be shared in qualified cost sharing
arrangements (“QCSAs”) under Treas. Reg. § 1.4827(d)(1) (as amended in 2013). See Altera Corp. v.
Comm’r, 145 T.C. 91, 92 (2015). For these reasons, I
respectfully dissent.
I. Background
A. The Arm’s Length Standard
1. Before 1986
“The purpose of section 482 is to place a controlled
taxpayer on a tax parity with an uncontrolled taxpayer, by determining according to the standard of an
uncontrolled taxpayer, the true taxable income from
the property and business of a controlled taxpayer.”
Comm’r v. First Sec. Bank of Utah, 405 U.S. 394, 400

50a
(1972) (quoting Treas. Reg. § 1.482-1(b)(1) (1971)).
The “touchstone” of this tax parity inquiry is the arm’s
length standard. Xilinx II, 598 F.3d at 1198 n.1
(Fisher, J., concurring). Indeed, the first sentence of
§ 482 states that, “[i]n any case of two or more organizations, trades, or businesses . . . owned or controlled
directly or indirectly by the same interests, the Secretary may . . . allocate gross income . . . if he determines that such . . . allocation is necessary in order to
prevent evasion of taxes or clearly to reflect the income of any of such organizations, trades, or businesses.” This sentence has always been viewed as requiring an arm’s length standard. See First Sec. Bank
of Utah, 405 U.S. at 400; Barclays Bank PLC v. Franchise Tax Bd. of Cal., 512 U.S. 298, 305 (1994).
Since the 1930s, Treasury regulations consistently
have explained that, “[i]n determining the true taxable income of a controlled taxpayer, the standard to be
applied in every case is that of a taxpayer dealing at
arm’s length with an uncontrolled taxpayer.” Treas.
Reg. § 1.482-1(b)(1) (2003) (emphasis added). That is,
income and deductions are to be allocated among related companies in the same way that unrelated companies negotiating at arm’s length would allocate income and deductions. As far back as 1968, Treasury’s
regulations also required that, “[i]n order for the sharing of costs and risks to be considered on an arm’s
length basis, the terms and conditions must be comparable to those which would have been adopted by unrelated parties similarly situated had they entered
into such an arrangement.” Allocation of Income and
Deductions Among Taxpayers, 33 Fed. Reg. 5848,
5854 (April 16, 1968) (emphasis added). That same
regulation provided that Treasury may not allocate
income with respect to QCSAs involving the development of intangible property unless doing so would be

51a
consistent with the arm’s length standard. Id.
(providing that, in “a bona fide cost sharing arrangement with respect to the development of intangible
property, the district director shall not make allocations with respect to such acquisition except as may
be appropriate to reflect each participant’s arm’s
length share of the costs and risks of developing the
property.”). Therefore, at the time Congress enacted
the 1986 amendment, Treasury’s own regulations explicitly required a determination of what an arm’s
length result would show and required a comparability analysis to reach that result where comparable
transactions exist.
The majority attempts to water down the text of
Treasury’s own regulations at the time. It contends
that, “[a]lthough the Secretary adopted the arm’s
length standard, courts did not hold related parties to
the standard by exclusively requiring the examination
of comparable transactions.” Op. 9. To support its position, the majority cites this court’s decision in Frank
v. Int’l Canadian Corp., 308 F.2d 520, 528-29 (9th Cir.
1962), which disagreed that “ ‘arm’s length bargaining’ is the sole criterion for applying the statutory language of [§ 482] in determining what the ‘true net income’ is of each ‘controlled taxpayer.’ ” But, in Oil
Base, Inc. v. Commissioner of Internal Revenue, 362
F.2d 212, 214 n.5 (9th Cir. 1966), this court clarified
that the holding in Frank was an outlier, limited only
to the peculiar facts of that case. Frank’s departure
from the arm’s length analysis, the court held, was
justified, in part, because “there was no evidence that
arm’s-length bargaining upon the specific commodities sold had produced a higher return” and because
“the complexity of the circumstances surrounding the
services rendered by the subsidiary” made it “difficult

52a
for the court to hypothesize an arm’s-length transaction.” Id. Significantly, the parties in Frank had stipulated to applying a standard other than the arm’s
length standard. Id.
There really can be no doubt that, prior to the 1986
amendment, this Circuit believed that an arm’s length
standard based on comparable transactions was the
sole basis for allocating costs and income under the
statute in all but the narrow circumstances outlined
in Frank – including the presence of the stipulation
therein. The majority’s attempt to breathe life back
into Frank is, simply, unpersuasive.
2. The 1986 Amendment
The 1986 amendment passed against the backdrop
of Treasury’s own longstanding practices did not
change the obligation to employ an arm’s length
standard. Indeed, Congress left the first sentence of
§ 482 – the sentence that undisputedly incorporates
the arm’s length standard – intact. It merely added a
second sentence providing that, “[i]n the case of any
transfer (or license) of intangible property . . . , the income with respect to such transfer or license shall be
commensurate with the income attributable to the intangible.” Tax Reform Act of 1986, Pub. L. No. 99-514,
§ 1231(e)(1), 100 Stat. 2085, 2562 (1986) (codified as
amended at 26 U.S.C. § 482). The plain text of the
statute limits the application of the commensurate
with income standard to only transfers or licenses of
intangible property.
This is consistent with the underlying purpose of
the 1986 amendment. Congress explained in the committee report that it was introducing the commensurate with income standard to address a “recurrent
problem” with transfers of highly valuable intangible
property: “the absence of comparable arm’s length

53a
transactions between unrelated parties, and the inconsistent results of attempting to impose an arm’s
length concept in the absence of comparables.” H.R.
Rep. No. 99-426, at 423-24 (1985). Congress noted
that “[i]ndustry norms for transfers to unrelated parties of less profitable intangibles frequently are not realistic comparables in these cases,” and that “[t]here
are extreme difficulties in determining whether the
arm’s length transfers between unrelated parties are
comparable.” Id. at 424-25. To address this specific
gap, Congress found it “appropriate to require that the
payment made on a transfer of intangibles to a related
foreign corporation . . . be commensurate with the income attributable to the intangible.” Id. at 425. Congress did not make any other findings regarding the
use of the commensurate with income standard for
any transactions other than transfers or licenses of intangible property. Thus, the statute – read in light of
this legislative history – did not grant Treasury the
flexibility to depart from a comparability analysis
whenever it sees fit; rather, it permitted a departure
in the limited context of “any transfer (or license) of
intangible property” because it had found that comparable transactions in such cases are frequently unrealistic.
Treasury reiterated the limited circumstances in
which the commensurate with income standard applies in its 1988 “White Paper.” It stated there that,
even in the context of transfers or licenses of intangible property, the “intangible income must be allocated
on the basis of comparable transactions if comparables exist.” A Study of Intercompany Pricing under
Section 482 of the Code (“White Paper”), I.R.S. Notice
88-123, 1988-1 C.B. 458, 474; see also id. at 473 (noting that, where “there is a true comparable for” the
licensing of a “high profit potential intangible,” the

54a
royalty rate for the license “must be set on the basis of
the comparable because that remains the best measure of how third parties would allocate intangible income”). Only “in situations in which comparables do
not exist” for transfers of intangible property would
the commensurate with income standard apply. Id. at
474. Indeed, the United States continued to insist in
tax treaties, and in documents that Treasury issued
to explain these treaties, that § 482 mandated the
arm’s length principle, in all but this narrow category
of intangible transfers. See Xilinx II, 598 F.3d at
1196-97 (citing tax treaty explanations); see also id. at
1198 n.1 (Fisher, J., concurring) (noting that “the 1997
United States-Ireland Tax Treaty, . . . and others like
it, reinforce the arm’s length standard as Congress’ intended touchstone for § 482”).1
B. Treatment of Stock-Based Compensation
In the early 1990s, related companies began to
compensate certain employees who performed research and development activities pursuant to QCSAs
by granting stock options and other stock-based compensation. See id. at 1192-93. This manner of compensation allowed companies to avoid the income reallocation mechanisms available under § 482 by including only the employees’ cash compensation in the
cost pool under the agreement, but not their stockbased compensation.
As the majority observes, more recent tax treaty explanations
have also cited the alternative commensurate with income standard. Op. 32-33 (citing Technical Explanation of the US-Poland
Tax Treaty, at 31 (Feb. 13, 2013)). Even these explanations, however, emphasize the primacy of the arm’s length standard, and
they assure the reader that the commensurate with income
standard “operates consistently with the arm’s-length standard.”
Technical Explanation of the US-Poland Tax Treaty, at 30-31
(Feb. 13, 2013).
1

55a
To address this loophole, Treasury promulgated
new regulations governing the tax treatment of controlled transactions in 1994 and 1995. These regulations affirmed that “the standard to be applied in
every case” was the arm’s length standard and that
“an arm’s length result generally will be determined
by reference to the results of comparable transactions”
because “identical transactions can rarely be located.”
Treas. Reg. § 1.482-1(b)(1) (as amended in 1994).
They also provided that intangible development costs
included “all of the costs incurred by . . . [an uncontrolled] participant related to the intangible development area.” Treas. Reg. § 1.482-7(d)(1) (as amended
in 1995). The IRS interpreted this latter “all costs”
provision to include stock-based compensation, so that
related companies in cost-sharing agreements would
have to share costs of providing such compensation.
Xilinx II, 598 F.3d at 1193-94.
When Xilinx, Inc. (“Xilinx”) challenged the IRS’s
interpretation, the Tax Court decided that the
agency’s interpretation was inconsistent with Treas.
Reg. § 1.482-1 because the IRS had not adduced evidence sufficient to show that unrelated parties transacting at arm’s length would, in fact, share expenses
related to stock-based compensation. Xilinx v. Commissioner (“Xilinx I ”), 125 T.C. 37, 53 (2005). The
Commissioner did not appeal this underlying factual
finding and, instead, argued on appeal to this court
that Treas. Reg. § 1.482-7 superseded the arm’s length
requirement of Treas. Reg. § 1.482-1. All three members of the divided panel therefore assumed that sharing expenses related to stock-based compensation
would be inconsistent with the arm’s length standard.
Xilinx II, 598 F.3d at 1194 (“The Commissioner does
not dispute the tax court’s factual finding that unrelated parties would not share [employee stock options]

56a
as a cost.”); id. at 1199 (Reinhardt, J., dissenting) (assuming that the Tax Court “correctly resolved” the issue of whether sharing stock-based compensation
costs would constitute an arm’s length result). The
panel also assumed that Treas. Reg. § 1.482-7 required stock-based compensation expenses to be
shared. Id. at 1196 (majority opinion) (noting that the
“all costs” provision “does not permit any exceptions,
even for costs that unrelated parties would not
share”); id. at 1199 (Reinhardt, J., dissenting) (assuming that the “all costs” provision includes “employee
stock option costs”). But a majority of the panel ultimately held that the arm’s length standard, which it
described as the fundamental “purpose” of the regulations, trumped Treas. Reg. § 1.482-7, and that stockbased compensation expenses could not be shared in
the absence of evidence that unrelated parties would
share such costs. Id. at 1196 (majority opinion); see
also id. at 1198 n.1 (Fisher, J., concurring) (finding
“the arm’s length standard” to be “Congress’ intended
touchstone for § 482”). On that ground, this court affirmed the Tax Court’s judgment in favor of Xilinx. Id.
at 1196 (majority opinion).
C. The Regulations at Issue
While Xilinx II was pending before this court,
Treasury promulgated the regulations at issue here.
Compensatory Stock Options Under Section 482, 68
Fed. Reg. 51,171, 51,172 (Aug. 26, 2003) (codified at
26 C.F.R. pts. 1 and 602). The amended regulations
sought to reconcile the apparent contradiction between the arm’s length standard in Treas.
Reg. § 1.482-1 and the requirement that stock-based
compensation expenses be shared under Treas.
Reg. § 1.482-7. The former provision now specifies
that § 1.482-7 “provides the specific methods to be
used to evaluate whether a [QCSA] produces results

57a
consistent with an arm’s length result.” Treas.
Reg. § 1.482-1(b)(2)(i) (2003). And § 1.482-7, in turn,
now provides that a QCSA produces an arm’s length
result “if, and only if,” the participants share all of the
costs of intangible development – explicitly including
costs associated with stock-based compensation – in
proportion to their shares of reasonably anticipated
benefits attributable to such development. Treas.
Reg. § 1.482-7(d)(2) (2003).
Altera Corp. (“Altera U.S.”), a Delaware corporation, and its subsidiary Altera International, a Cayman Islands corporation, (collectively “Altera”) entered into a technology research and development
cost-sharing agreement under which the related participants “agreed to pool their respective resources to
conduct research and development using the pre-costsharing intangible property” and “to share the risks
and costs of research and development activities they
performed on or after May 23, 1997.” Altera, 145 T.C.
at 93. This agreement was effective from May 23,
1997 through 2007. Id. During the 2004-2007 taxable
years, Altera U.S. granted stock options and other
stock-based compensation to certain employees who
performed research and development activities pursuant to the agreement. Id. The employees’ cash compensation was included in the cost pool under the
agreement, but their stock-based compensation was
not. Id.
Altera timely filed an income tax return for its
2004-2007 taxable years. Id. at 94. Treasury responded by mailing notices of deficiency for those
years, allocating income from Altera International to
Altera U.S. by increasing Altera International’s costsharing payments. Id. Treasury claimed its costsharing adjustments were for the purpose of bringing
Altera in compliance with § 1.482-7(d)(2), now

58a
§ 1.482-7A(d)(2). Id. Altera challenged the validity of
§ 1.482-7A(d)(2) in Tax Court, arguing that the new
rule is arbitrary and capricious. Id. at 92. The Tax
Court unanimously held, as discussed in more detail
below, that the explanation Treasury offered in the
preamble accompanying the new regulations was insufficient to justify those regulations under State
Farm. Id. at 120-33. The Commissioner appeals that
decision.
II. Discussion
The Tax Court considered and rejected Treasury’s
plainly stated explanation for its regulation – that
Treasury applied the commensurate with income test
because it could find no transactions comparable to
the QCSAs at issue and that Treasury’s analysis was
actually consistent with the arm’s length standard.
The Commissioner now argues on appeal, however –
and the majority accepts its new claim – that what
Treasury was actually saying is that § 482 no longer
requires a comparability analysis when Treasury concludes that any comparable transactions are imperfect and that the methodology for arriving at an arm’s
length result is, and always has been, fluid. I disagree. Specifically, as explained below, I believe that:
(1) Treasury’s rule is procedurally invalid and the majority’s attempt to recreate the record surrounding its
adoption cannot cure that flaw; (2) Treasury’s purported interpretation of § 482 is wrong; and (3) related
companies may not be required to share the cost of
stock-based compensation under current law because
comparable uncontrolled taxpayers would not do so.
A. The New Rule is Procedurally Invalid
Under the Administrative Procedure Act, we must
“hold unlawful and set aside agency action . . . found
to be . . . arbitrary, capricious, an abuse of discretion,

59a
or otherwise not in accordance with law.” 5 U.S.C.
§ 706(2)(A). Our review of an agency regulation is
“highly deferential, presuming the agency action to be
valid and affirming the agency action if a reasonable
basis exists for its decision.” Crickon v. Thomas, 579
F.3d 978, 982 (9th Cir. 2009) (quoting Nw. Ecosystem
All. v. U.S. Fish & Wildlife Serv., 475 F.3d 1136, 1140
(9th Cir. 2007)). But “an agency’s action must be upheld, if at all, on the basis articulated by the agency
itself.” State Farm, 463 U.S. at 50 (citing Burlington
Truck Lines v. United States, 371 U.S. 156, 168
(1962)). For that reason, “[w]e may not supply a reasoned basis for the agency’s action that the agency itself has not given.” Id. at 43 (quoting Chenery II, 332
U.S. at 196).
I start, therefore, with what Treasury said when it
promulgated the regulation at issue. In Treasury’s
notice of proposed rulemaking, the agency explained
the origins of the commensurate with income standard and discussed the White Paper. Compensatory
Stock Options Under Section 482, 67 Fed. Reg. 48,997,
48,998 (proposed July 29, 2002) (to be codified at
26 C.F.R. pt. 1). Treasury noted, in particular, the
White Paper’s observation “that Congress intended
that Treasury and the IRS apply and interpret the
commensurate with income standard consistently
with the arm’s length standard.” Id. (citing White Paper, 1988-1 C.B. at 458, 477).
Treasury then detailed how the proposed rules
would function, including that the new rules required
stock-based compensation costs to be included among
the costs shared in a QCSA to produce “results consistent with an arm’s length result.” Id. at 49,000-01.
It acknowledged that “[t]he Tax Reform Act of
1986 . . . amended section 482 to require that consid-

60a
eration for intangible property transferred in a controlled transaction be commensurate with the income
attributable to the intangible” property. Id. at 48,998
(emphasis added). But it then conclusively stated,
based on a vague reference to the “legislative history
of the Act,” that parties may continue to enter into
bona fide research and development cost sharing arrangements so long as “the income allocated among
the parties reasonably reflect actual economic activity
undertaken by each” – i.e., so long as these agreements to develop intangible property survive the commensurate with income standard. Id. (emphasis
added). Not once did Treasury justify its application
of the commensurate with income standard by stating
that QCSAs of this kind constitute “transfers” of intangible property under the Tax Reform Act. And,
while it generally cited to the legislative history of the
1986 amendments to § 482 – a fact on which the majority places great weight – it did not explain what
portions of the legislative history it found pertinent or
how any of that history factored into its thinking.
Treasury expanded on its reasoning in the preamble to the final rule. It explained that the tax treatment of stock-based compensation in QCSAs would
have to be consistent “with the arm’s length standard
(and therefore with the obligations of the United
States under its income tax treaties and with the
OECD transfer pricing guidelines).” 68 Fed. Reg. at
51,172. Treasury observed, however, that the legislative history of the 1986 amendment to § 482 “expressed Congress’s intent to respect cost sharing arrangements as consistent with the commensurate
with income standard, and therefore consistent with
the arm’s length standard, if and to the extent that
participants’ shares of income ‘reasonably reflect the
actual economic activity undertaken by each.’ ” Id.

61a
(quoting H.R. Rep. No. 99-481, at II-638 (1986) (Conf.
Rep.)). Again, Treasury never explained why QCSAs
in which controlled parties share costs to develop intangibles would constitute “transfers” of intangibles
sufficient to trigger the commensurate with income
standard in the first place. Instead, it simply declared
that, “in order for a QCSA to reach an arm’s length
result consistent with legislative intent,” the QCSA
must include stock-based compensation among the
costs shared. Id.
Throughout the preamble, Treasury repeatedly
emphasized that it was continuing to apply the arm’s
length standard. Treasury explained, for example,
that “[t]he regulations relating to QCSAs have as their
focus reaching results consistent with what parties at
arm’s length generally would do if they entered into
cost sharing arrangements for the development of
high-profit intangibles.” Id. (emphasis added). Treasury determined that “[p]arties dealing at arm’s length
in [a cost-sharing] arrangement based on the sharing
of costs and benefits generally would not distinguish
between stock-based compensation and other forms of
compensation.” Id. (emphasis added). And Treasury
concluded that “[t]he final regulations provide that
stock-based compensation must be taken into account
in the context of QCSAs because such a result is consistent with the arm’s length standard.” Id. (emphasis added).
Yet, Treasury failed to consider comparable transactions submitted by commentators demonstrating
that unrelated companies would never share the cost
of stock-based compensation. Treasury responded to
these comments invoking the arm’s length standard.
See id. (rejecting “comments that assert that taking
stock-based compensation into account in the QCSA
context would be inconsistent with the arm’s length

62a
standard in the absence of evidence that parties at
arm’s length take stock-based compensation into account in similar circumstances”). Treasury acknowledged that these comparable arm’s-length transactions are typically relevant, but it determined that
there were no comparable transactions available for
QCSAs for the development of high-profit intangibles:
While the results actually realized in similar
transactions under similar circumstances ordinarily provide significant evidence in determining
whether a controlled transaction meets the arm’s
length standard, in the case of QCSAs such data
may not be available. As recognized in the legislative history of the Tax Reform Act of 1986, there is
little, if any, public data regarding transactions involving high-profit intangibles. The uncontrolled
transactions cited by commentators do not share
enough characteristics of QCSAs involving the development of high-profit intangibles to establish
that parties at arm’s length would not take stock
options into account in the context of an arrangement similar to a QCSA.
Id. at 51,172-73 (internal citation omitted).
The Tax Court held that Treasury’s explanation
for its regulation was insufficient under State Farm.
Altera, 145 T.C. at 120-33. It found that Treasury
“failed to provide a reasoned basis” for its “belief that
unrelated parties entering into QCSAs would generally share stock-based compensation costs.” Id. at
123. The court acknowledged that agencies need not
gather empirical evidence for some policy-based propositions, but it held that “the belief that unrelated parties would share stock-based compensation costs in
the context of a QCSA” was not such a proposition. Id.
In reaching this conclusion, the court observed that

63a
commentators submitted significant evidence during
the rulemaking process indicating that unrelated parties would not share stock-based compensation costs
in QCSAs; that the Tax Court itself had made a factual determination on that issue in Xilinx I – concluding they would not; and, that Treasury was required
at least to attempt to gather empirical evidence before
declaring that no such evidence was available. Id. at
123-24.
The Tax Court then detailed why Treasury’s explanation for the regulations was insufficient. The court
noted that only some QCSAs involved high-profit intangibles or included stock-based compensation as a
significant element of compensation, yet Treasury
failed to distinguish between QCSAs with and without those characteristics. Id. at 125-27. And the court
found that Treasury responded only in conclusory
fashion to a number of comments identifying comparable transactions or explaining why unrelated parties would not share stock-based compensation costs
in QCSAs. Id. at 127-30. On these grounds, the Tax
Court struck down the regulation. Id. at 133-34.
On appeal, the Commissioner does not meaningfully dispute the Tax Court’s determination that
Treasury’s analysis under the arm’s length standard
was inadequate and unsupported. In its opening
brief, it contends, instead, “that, in the context of a
QCSA, the arm’s-length standard does not require an
analysis of what unrelated entities do under comparable circumstances.” Appellant’s Br. 57 (internal quotation marks omitted). In the Commissioner’s view,
Treasury’s detailed explanations regarding its comparability analysis were merely “extraneous observations” – “since Treasury reasonably determined that
it was statutorily authorized to dispense with comparability analysis in this narrow context, there was no

64a
need for it to establish that the uncontrolled transactions cited by commentators were insufficiently comparable.” Appellant’s Br. 64.
In its supplemental brief, the Commissioner reiterates that – despite its own earlier machinations to
the contrary – one should not conflate comparability
analysis with the arm’s length standard. Appellant’s
Suppl. Br. 29-31. It also argues for the first time that
Treasury’s passing reference to the legislative history
of § 482 not only justified its departure from a comparability analysis, but also explained that QCSAs to develop intangibles constitute transfers of intangibles
under the second sentence of § 482.
The majority accepts the latest of the Commissioner’s ever-evolving post-hoc rationalizations and
then, amazingly, goes even further to justify what
Treasury did here. First, it accepts the Commissioner’s new explanation that the taxpayer’s agreement to “divide beneficial ownership of any Developed
Technology” constitutes a transfer of intangibles.
E.R. 145. Second, it holds that Treasury’s reference
to the legislative history communicated its understanding that, when Congress enacted the 1986
amendment, it “delegate[d] to Treasury the choice of
a specific methodology to” “ensure that income follows
economic activity.” Op. 27. The majority finds that
Treasury implicitly communicated its understanding
that Congress called upon it to move away from a comparability analysis and “to develop methods that [d]o
not rely on analysis of ” what it deems “problematic
comparable transactions” when it sees fit. Op. 28-29.
The majority finds that Treasury was therefore entitled to ignore the comparable transactions submitted
by commentators because they purportedly did not
“bear[] on ‘relevant factors’ to the rulemaking.” Op.
39-40 (quoting Am. Mining Cong., 965 F.2d at 771).

65a
As to Altera’s rejoinder that Treasury never suggested
that it had the authority to “dispense with” the comparability analysis entirely, Appellee’s Br. 43, the majority dismisses this argument, stating that, “historically[,] the definition of the arm’s length standard has
been a more fluid one.” Op. 29. Finally, the majority
concludes that the second sentence of § 482 not only
allowed Treasury to dispense with a comparability
analysis but also allowed it to ignore the arm’s length
test altogether.
I do not share the majority’s views. Treasury may
well have thought – incorrectly, I believe – that
QCSAs involving the development of high-profit intangibles constitute transfers of intellectual property
under the second sentence of § 482. It may also have
believed that, given the fundamental characteristics
of stock-based compensation in QCSAs and what the
majority here calls the “fluid” definition of the arm’s
length standard, it could dispense with a comparability analysis entirely, regardless of whether QCSAs
constitute transfers. Cf. Xilinx II, 598 F.3d at 1197
(Fisher, J., concurring) (hypothesizing why unrelated
companies may not share stock-based compensation
costs). It may – despite never taking this position before rehearing in this appeal – have even believed that
the arm’s length standard was not required at all in
these circumstances by virtue of the second sentence
of § 482. But the APA required Treasury to say that
it was taking these positions, which depart starkly
from Treasury’s previous regulations. See FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 515 (2009)
(“[T]he requirement that an agency provide reasoned
explanation for its action would ordinarily demand
that it display awareness that it is changing position.”).

66a
The APA’s safeguards ensure that those regulated
do not have to guess at the regulator’s reasoning; just
as importantly, they afford regulated parties a meaningful opportunity to respond to that reasoning.
Treasury’s notice of proposed rulemaking ran afoul of
these safeguards by failing to put the relevant public
on notice of its intention to depart from a traditional
arm’s length analysis.2 See CSX Transp., Inc. v. Surface Transp. Bd., 584 F.3d 1076, 1080 (D.C. Cir. 2009)
(holding that a final rule “violates the APA’s notice requirement where ‘interested parties would have had
to divine [the agency’s] unspoken thoughts’ ” (alteration in original) (quoting Int’l Union, United Mine
Workers of Am. v. Mine Safety & Health Admin., 407
F.3d 1250, 1259-60 (D.C. Cir. 2005))). Asking Treasury to show its work in the preamble to its final rule
– that is, to set forth when and why the agency believed that a comparability analysis is not required or
even why an arm’s length analysis can be eschewed –
does not, as the majority states, “require agencies to
provide ‘exhaustive, contemporaneous legal arguments to preemptively defend its action.’ ” Op. 41
(quoting Nat’l Elec. Mfrs. Ass’n v. U.S. Dep’t of Energy,
654 F.3d 496, 515 (4th Cir. 2011)). It is the essence of
the review that the APA demands.
When the Tax Court conducted that review, it considered the explanation that Treasury offered, and it
The majority also glosses over the Tax Court’s criticism that
the final rule applied to all QCSAs but was based only on Treasury’s beliefs about the subset of QCSAs involving “high-profit intangibles” where stock-based compensation is a “significant element” of compensation. Altera, 145 T.C. at 125-26 (quoting Compensatory Stock Options Under Section 482, 68 Fed. Reg. at
51,173). Treasury’s failure to explain this leap and the Commissioner’s failure to defend it provide another reason that Treasury
failed to comply with the APA.
2

67a
found that Treasury “failed to provide a reasoned basis” for its “belief that unrelated parties entering into
QCSAs would generally share stock-based compensation costs.” Altera, 145 T.C. at 123. The Tax Court set
forth in detail why Treasury’s explanation for the regulations was insufficient. Id. at 125-30. Treasury offers no response to these findings; it simply invites
this court to recreate the record and interpret § 482 in
a way it never asked the Tax Court to do in order to
supply a post-hoc justification for its decisionmaking.
I would hold, as the Tax Court did, that Treasury’s
belated arguments are insufficient to justify the 2003
regulations and that those regulations are, thus, are
procedurally invalid.
B. Chevron Does Not Save Treasury’s Flawed
Interpretation of Section 482
Even if Treasury did not err procedurally, I would
still find that the regulations are impermissible under
Chevron. The Commissioner does not argue that its
interpretation of § 482 is compelled by the unambiguous text of the statute at step one of Chevron. Rather,
he contends that § 482 does not directly resolve the
question of whether Treasury may allocate the cost of
stock-based compensation between related parties.
The majority similarly reasons that “[§] 482 does not
speak directly to whether the Commissioner may require parties to a QCSA to share employee stock compensation costs in order to receive the tax benefits associated with entering into a QSCA.” Op. 25. It thus
concludes that “there is no question that the statute
remains ambiguous regarding the method by which
Treasury is to make allocations based on stock-based
compensation.” Op. 25.
While I agree with the majority and the Commissioner that the statute is silent as to the precise question of whether the Commissioner may require parties

68a
to a QCSA to share the cost of stock-based compensation, I believe that the statute unambiguously communicates the types of cases in which each methodology applies. Specifically, § 482 dictates that the status quo – i.e, the arm’s length standard – controls in
“any case of two or more organizations, trades, or businesses owned or controlled directly or indirectly by the
same interests.” It also allows Treasury to employ the
commensurate with income standard, but only “[i]n
the case of any transfer (or license) of intangible property.” Accordingly, the precise gap left by Congress in
this case is the question of whether QCSAs constitute
a “transfer” of “intangible property” under the second
sentence of the statute. If yes, then Treasury may employ the commensurate with income standard to determine if related parties to a QCSAs would share the
cost of stock-based compensation. If no, then Treasury must make that determination by employing a
comparability analysis to reach an arm’s length result. Because the statute does not expressly state that
QCSAs for the development intangibles constitute
“transfers” of intangibles, I would proceed to step two
of Chevron.
At step two, we consider whether Treasury’s interpretation is “arbitrary or capricious in substance, or
manifestly contrary to the statute.” Mayo Found. for
Med. Educ. & Research v. United States, 562 U.S. 44,
53 (2011) (internal citations omitted). The agency’s
interpretation is not arbitrary and capricious if it is
“rationally related to the goals of the Act.” AT&T
Corp. v. Iowa Utils. Bd., 525 U.S. 366, 388 (1999). “If
the [agency]’s interpretation is permissible in light of
the statute’s text, structure and purpose, we must defer under Chevron.” Miguel-Miguel v. Gonzales, 500
F.3d 941, 949 (9th Cir. 2007). Accordingly, I begin
with the text of the statute.

69a
The statutory text provides in relevant part:
In any case of two or more organizations, trades,
or businesses . . . owned or controlled directly or
indirectly by the same interests, the Secretary may
distribute, apportion, or allocate gross income, deductions, credits, or allowances between or among
such organizations . . . if he determines that such
distribution, apportionment, or allocation is necessary in order to prevent evasion of taxes or clearly
to reflect the income of any of such organizations,
trades, or businesses. In the case of any transfer
(or license) of intangible property (within the meaning of section 367(d)(4)), the income with respect to
such transfer or license shall be commensurate
with the income attributable to the intangible.
Section 482 (emphases added). It is undisputed that
the first sentence of the statute requires an arm’s
length analysis; even the majority agrees with that
longstanding principle. As previously explained,
moreover, at the time Congress amended § 482, the
arm’s length standard was understood to require a
comparability analysis. But, because transfers of intangible property oftentimes lacked comparable
transactions, Congress added a second sentence to the
statute. This sentence allows the Secretary to apply
the commensurate with income standard to reach an
arm’s length result in the case of any transfer of intangible property.
The Commissioner contends, based on Treasury’s
purported belief that QCSAs are transfers of intangible property, that Treasury correctly interpreted § 482
to require that controlled companies share the cost of
stock-based compensation. But, as noted above,
Treasury never made, much less supported, a finding

70a
that QCSAs constitute transfers of intangible property. We cannot and should not conclude that the
Commissioner’s post-hoc interpretation would be permissible when Treasury never articulated such an interpretation. Even if it had, Treasury’s own characterization of QCSAs as arrangements “for the development of high-profit intangibles” contradicts any conclusion that QCSAs constitute transfers of already
existing intangible property. 68 Fed. Reg. at 51,173
(emphasis added). No rights are transferred when
parties enter into an agreement to develop intangibles; this is because the rights to later-developed intangible property would spring ab initio to the parties
who shared the development costs without any need
to transfer the property. And, there is no guarantee
when the cost-sharing arrangements are entered into
that any intangible will, in fact, be developed. In such
circumstances, Treasury should not have employed
the commensurate with income standard.
The majority attempts to justify Treasury’s departure from the comparability analysis in these circumstances by stating it was reasonable for Treasury to
“determin[e] that uncontrolled cost-sharing arrangements,” such as those submitted by the commentators, “do not provide helpful guidance regarding allocations of employee stock compensation.” Op. 28. According to the majority, the legislative history “makes
clear” that Congress “intended the commensurate
with income standard to displace a comparability
analysis where comparable transactions cannot be
found.” Op. 13. This reasoning fails for several reasons.
As noted, the text of the statute provides that
Treasury may employ the commensurate with income
standard only in the case of a transfer or license of intangible property – not whenever Treasury finds that

71a
uncontrolled transactions fail to provide helpful guidance. Congress did not leave a gap in the statute allowing Treasury to choose when one methodology displaces the other. Rather, it made its own findings regarding the relative helpfulness of comparable uncontrolled transactions in the case of a transfer or license
of intangible property. It then amended § 482 to allow
for the use of the commensurate with income methodology in those specific cases, but not in others. Congress’s findings in the legislative history do not invite
Treasury to make its own determinations regarding
the helpfulness of other uncontrolled transactions.
Nor do they allow Treasury to expand the category of
cases in which the commensurate with income standard would apply when the statutory text states otherwise. Here, Treasury’s only justification for eschewing the comparability analysis was its insistence that
the legislative history allows it to disregard comparable transactions that it deems imperfect. This rationale is inconsistent with the plain text of the statute and thus, is impermissible under Chevron.
Even if Treasury could dispense with a comparability analysis whenever it believed no comparables
exist, that interpretation would still fail step two of
Chevron because uncontrolled comparable transactions do exist here. Even the majority acknowledges
Treasury’s view that a different methodology may
only be applied “when comparable transactions do not
exist.” Op. 41 n.9 (emphasis added). Treasury itself
explained, in effect, that a precondition for the applicability of the commensurate with income standard
is the lack of real-world comparable transactions with
which to make an arm’s length comparison. Such
transactions, as Treasury admitted, would “ordinarily
provide significant evidence in determining whether a

72a
controlled transaction meets the arm’s length standard.” 68 Fed. Reg. at 51,173. According to the majority, however, imperfect comparables are tantamount
to the absence of comparables.
But the arm’s length standard of § 482 does not require perfectly identical transactions – only comparable ones. As Altera notes, the Commissioner cannot
“avoid the statutory limits on his ability to reallocate
income by asserting that a related-party transaction
is fundamentally different from all similar transactions between unrelated parties by virtue of the very
fact that the parties are related.” Appellee’s Suppl.
Br. 33. Such an interpretation would allow Treasury
to dispense with the comparability analysis altogether
because related parties, by virtue of common ownership, are always positioned differently than unrelated
parties. Legislative history can only do so much – if
any – work, and it certainly cannot set out an exception that swallows a rule codified by statute.
Even if Treasury were correct that no comparable
transactions exist, Treasury’s reasoning would still
fail. Treasury concluded that it could allocate costs
because there were no transactions in which parties
at arm’s length would even consider taking stock options into account in the context of an arrangement
similar to a QCSA. See 68 Fed. Reg. at 51,173. But
the absence of evidence is not evidence of absence. Indeed, the absence of any comparable transactions
could itself mean that uncontrolled taxpayers would
not share the costs of stock-based compensation.
Treasury believes, however, that uncontrolled taxpayers would not enter into such transactions, and, rather than find the absence of such transactions meaningful to a comparison, believes it is justified in using
different methodologies to assess income. But the fact

73a
that evidence of the absence of comparable transactions might support more favorable tax treatment
does not mean that no comparison can be made.
Finally, while Treasury’s interpretation of § 482 is
“entitled to no less deference . . . simply because it has
changed over time, . . . the agency must nevertheless
engage in reasoned analysis sufficient to command
our deference.” Good Fortune Shipping SA v. Comm’r
of Internal Rev. Serv., 897 F.3d 256, 263 (D.C. Cir.
2018) (internal quotations and citations omitted); Judalang v. Holder, 132 S. Ct. 476, 483 n.7 (2011) (clarifying that the court’s analysis of whether an agency
provided a reasoned explanation under State Farm
and its analysis of whether an agency’s interpretation
is permissible under Chevron step two is “the same,
because under Chevron step two, we ask whether an
agency interpretation is ‘arbitrary or capricious in
substance’ ”). Such a reasoned explanation, at a minimum, requires Treasury to “display awareness that
it is changing position.” Good Fortune Shipping, 897
F.3d at 263 (quoting Fox, 556 U.S. at 515). “An agency
may not, for example, depart from a prior policy sub
silentio or simply disregard rules that are still on the
books.” Fox, 556 U.S. at 515. And an agency may need
to “provide a more detailed justification than what
would suffice for a new policy created on a blank
slate . . . when, for example, . . . its prior policy has engendered serious reliance interests that must be
taken into account.” Id. (citing Smiley v. Citibank
(S.D.), N.A., 517 U.S. 736, 742 (1996)). “ ‘Unexplained
inconsistency’ between agency actions is ‘a reason for
holding an interpretation to be an arbitrary and capricious change.’ ” Organized Vill. of Kake v. USDA, 795
F.3d 956, 966 (9th Cir. 2015) (en banc) (quoting Nat’l
Cable & Telecomms. Ass’n v. Brand X Internet Servs.,
545 U.S. 967, 981 (2005)).

74a
As this court held in Xilinx II, the previous regulations preserved the primacy of the arm’s length standard and its requirement of comparability analysis.
See Xilinx II, 598 F.3d at 1195-96 (explaining the
then-operative version of Treas. Reg. § 1.482-1). In
amending those regulations, however, Treasury never
indicated – either in the notice of proposed rulemaking or in the preamble accompanying the final rule –
any awareness that it was changing course. Treasury
instead repeated its previous policy that it need not
conduct a comparability analysis where no comparable transactions can be found. See 68 Fed. Reg. at
51,172-73. It then ignored existing comparable transactions to reach what it claimed was “an arm’s length
result.” Id.
The majority contends that this does not constitute
a change because, “historically[,] the definition of the
arm’s length standard has been a more fluid one.” Op.
29. But, as explained above, the comparability analysis has always been a defining aspect of the arm’s
length standard. The mere fact that Treasury may
have been inconsistent in the way it has applied the
arm’s length standard, as the majority contends, does
not mean that the statute permits a fluid definition of
the standard. City of Arlington v. FCC, 569 U.S. 290,
327 (2013) (Roberts, C.J., dissenting) (“We do not
leave it to the agency to decide when it is in charge.”).
Because Treasury departed from the comparability
analysis and failed to provide a reasoned explanation
for why the commensurate with income standard is
permissible under the statute, I would find that
Treasury’s regulations constitute an impermissible
interpretation of the statute at Chevron step two.

75a
C. Stock-Based Compensation Is Not A Shared
Cost Under Section 482
Because I would find that Treasury’s regulations
are procedurally and substantively defective, I would
interpret the statute in the first instance, without deference. Encino Motorcars, LLC v. Navarro, 136 S. Ct.
2117, 2125 (2016) (“Chevron deference is not warranted where the regulation is procedurally defective
– that is, where the agency errs by failing to follow the
correct procedures in issuing the regulation.” (internal quotations and citations omitted)); Util. Air Regulatory Grp. v. EPA, 573 U.S. 302, 321 (2014) (“[A]n
agency interpretation that is inconsistent with the design and structure of the statute as a whole does not
merit deference.” (internal citations and quotations
omitted)).
Because I would find the 2003 regulations were invalid, I believe that this court’s decision in Xilinx II
controls, and that the Tax Court properly entered
judgment in favor of Altera. Altera, 145 T.C. at 134.
Even if Xilinx II did not control, I would hold that related parties in QCSAs need not share costs associated with stock-based compensation.
I agree with the majority that § 482 does not address this issue expressly. But I agree with amicus
curiae Cisco Systems, Inc. (“Cisco”), that, under the
best reading of § 482, QCSAs are not subject to the
commensurate with income standard. As Cisco points
out, the commensurate with income standard applies
only to a “transfer (or license) of intangible property,”
§ 482, which is distinct from a cost sharing agreement
for the joint development of intangibles, see White Paper, 1988-1 C.B. at 474 (noting that “bona fide research and development cost sharing arrangements”
provide a way to “avoid[] section 482 transfer pricing

76a
issues related to the licensing or other transfer of intangibles”). The plain meaning of “transfer” indicates
shifting ownership of an existing right from one party
to another. But under a cost-sharing arrangement,
parties agree to develop intangibles together. Because the intangible does not exist at the time the cost
sharing arrangement is entered into, there can be no
transfer either.
The majority contends that Congress’s choice to
use the word “any” is significant. It reasons that, because “§ 482 applies ‘[i]n the case of any transfer . . .
of intangible property,’ ” the statute “cannot reasonably be read to exclude the transfers of expected intangible property.” Op. 26. But, while “any” can be a
broadening modifier, it must be read in the context of
its surrounding text. Cf. United States v. Gonzales,
520 U.S. 1, 5 (1997) (finding that use of “any” modifies
the term it precedes.); see Ali v. Fed. Bureau of Prisons, 552 U.S. 214, 226 (2008) (narrowing the effect of
“any” based on the context in which it appears because
“a word is known by the company it keeps.” (internal
citations and quotations omitted)).
Here, “any” does not modify “intangible property.”
Rather, it precedes and thus, applies only to “transfer.” This indicates that, while the statutory text may
cover any kind of transfer, including expected transfers, it does not cover any kind of intangible property
– say, for example, intangible property that does not
yet exist. Indeed, § 482 expressly defines the term “intangible property” by referencing the definition provided in § 367(d)(4). See § 482 (“. . . any transfer (or
license) of intangible property (within the meaning of
section 367(d)(4)).” (emphasis added)). We need not
guess at whether Congress intended a broad reading
of the term because § 367(d)(4) enumerates specific
categories of intangible property covered under the

77a
statute, and none of those categories contemplates the
mere possibility that intangible property may someday exist.
While “any” may modify “transfer,” moreover,
QCSAs do not provide for future transfers; rather, as
noted above, rights to later-developed intangible property – if ever developed – would spring ab initio to the
parties who shared the development costs and would
thereby dispense with any need to transfer those
rights at some time in the future. I would conclude,
absent additional evidence to conclude otherwise, that
QCSAs are not transfers subject to the commensurate
with income standard under § 482.
Rather, I would find that QCSAs are governed under the first sentence of § 482 and that Treasury may
only allocate the cost of stock-based compensation
among related companies if unrelated companies
dealing at arm’s length would do so under comparable
circumstances. The evidence of comparable transactions submitted by commentators demonstrates that
unrelated companies do not and would not share such
costs. Thus, I would hold that an arm’s length result
is one in which related parties in QCSAs do not share
costs associated with stock-based compensation.
The Commissioner contends that the backdrop
against which Congress enacted the 1986 amendment
demonstrates that Congress intended § 482 to require
related companies to share stock-based compensation.
But, as the majority admits, “[n]either the Tax Reform
Act nor the implementing regulations specifically addressed allocation of employee stock compensation.”
Op. 17. This is because the practice of providing stockbased compensation did not develop on a major scale
until the 1990s – after Congress passed the 1986
amendment. Therefore, Congress could not have been
legislating against the backdrop of this particular

78a
type of tax avoidance. While it may choose to address
this practice now, it cannot be deemed to have done so
then.
Not all forms of tax avoidance amount to illegal tax
evasion. The very definition of a loophole is a gap in
the law or a set of rules. While Treasury may promulgate regulations to close such gaps, it must do so in
a manner consistent with its statutory authority under the Tax Reform Act and with the procedures outlined in the APA. When it fails to comply with those
requirements, its actions cannot be justified by the
mere existence of the loophole. In other words, an
arm’s length result is not simply any result that maximizes one’s tax obligations. For these reasons, I dissent.

79a
APPENDIX B
UNITED STATES TAX COURT

Altera Corporation and Subsidiaries,
Petitioner
v.
Commissioner of Internal Revenue,
Respondent
Docket Nos. 6253-12, 9963-12.
Filed July 27, 2015.
In Xilinx Inc. v. Commissioner, 125 T.C. 37 (2005),
aff’d, 598 F.3d 1191 (9th Cir. 2010), we held that, under the 1995 cost-sharing regulations, controlled entities entering into qualified cost-sharing agreements
(QCSAs) need not share stock-based compensation
(SBC) costs because parties operating at arm’s length
would not do so. In 2003 Treasury issued sec. 1.4827(d)(2), Income Tax Regs. (final rule). The final rule
requires controlled parties entering into QCSAs to
share SBC costs. P is an affiliated group of corporations that filed consolidated returns for the years in
issue. A-US, the parent company, is a Delaware corporation, and A-I, a subsidiary of A-US, is a Cayman
Islands corporation. A-US and A-I entered into a
QCSA. During its 2004-07 taxable years A-US
granted SBC to its employees. A-US did not share the
SBC costs with A-I. R determined deficiencies based
on I.R.C. sec. 482 allocations R made pursuant to the
final rule. P and R have filed cross-motions for partial
summary judgment. P contends that the final rule is
arbitrary and capricious under 5 U.S.C. sec. 706(2)(A)

80a
and Motor Vehicle Mfrs. Ass’n of the U.S. v. State
Farm Mut. Auto Ins. Co., 463 U.S. 29 (1983). R contends that the final rule is valid under Chevron,
U.S.A., Inc. v. Natural Res. Def. Council, Inc., 467 U.S.
837 (1984), or alternatively, under State Farm. Held:
The final rule is a legislative rule – i.e., it is not an
interpretive rule under 5 U.S.C. sec. 553(b) – because
it has the force of law. See Am. Mining Cong. v. Mine
Safety & Health Admin., 995 F.2d 1106, 1109 (D.C.
Cir. 1993). The final rule has the force of law because
in I.R.C. sec. 7805(a) ‘‘Congress has delegated legislative power to’’ Treasury, id., and Treasury ‘‘intended
to exercise that power’’ when it issued the final rule,
id. Held, further, whether State Farm or Chevron supplies the standard of review is immaterial because
Chevron step 2 incorporates the reasoned decisionmaking standard of State Farm, see Judulang v.
Holder, 565 U.S. ___, ___, 132 S. Ct. 476, 483 n.7
(2011), and we are being asked to decide whether
Treasury reasonably concluded that the final rule is
consistent with the arm’s-length standard. Held, further, Treasury failed to support its belief that unrelated parties would share SBC costs with any evidence
in the administrative record, see State Farm, 463 U.S.
at 43; failed to articulate why all QCSAs should be
treated identically, see id.; and failed to respond to significant comments, see Home Box Office, Inc. v. FCC,
567 F.2d 9, 35 (D.C. Cir. 1977). Additionally, Treasury’s ‘‘explanation for its decision * * * runs counter
to the evidence before’’ it. State Farm, 463 U.S. at 43.
Held, further, the harmless error rule of 5 U.S.C. sec.
706 is inapplicable because it is not clear that Treasury would have adopted the final rule if it had been
determined to be inconsistent with the arm’s-length
standard. Held, further, the final rule fails to satisfy
State Farm’s reasoned decisionmaking standard and

81a
is therefore invalid. See 5 U.S.C. sec. 706(2)(A); State
Farm, 463 U.S. at 43.
Andrew P. Crousore, Donald M. Falk, Joseph B.
Judkins, Thomas Lee Kittle-Kamp, William G.
McGarrity, Kristyn A. Medina, Brian D. Netter, Phillip J. Taylor, and Allen Duane Webber, for petitioner.
Farhad Asghar, Kevin G. Croke, Anne O’Brien Hintermeister, Allan Lang, Aaron T. Vaughan, and Mary
E. Wynne, for respondent.
OPINION
Marvel, Judge: These consolidated cases are before the Court on the parties’ cross-motions for partial
summary judgment under Rule 121.1 The issue presented by the parties’ cross-motions is whether section
1.482-7(d)(2), Income Tax Regs. (final rule) – which
the Department of the Treasury (Treasury) issued in
2003 and which requires participants in qualified
cost-sharing arrangements (QCSAs) to share stockbased compensation costs to achieve an arm’s-length
result – is arbitrary and capricious and therefore invalid.
Background
Petitioner is an affiliated group of corporations
that filed consolidated Federal income tax returns for
the years at issue. During all relevant years, Altera
Corp. (Altera U.S.), the parent company, was a Delaware corporation, and Altera International, a subsidiary of Altera U.S., was a Cayman Islands corporation. When petitioner filed its petitions with this
Unless otherwise indicated, all section references are to the
Internal Revenue Code (Code) in effect at all relevant times, and
all Rule references are to the Tax Court Rules of Practice and
Procedure. All APA section references are to the Administrative
Procedure Act (APA), 5 U.S.C. secs. 551-559, 701-706 (2012).
1

82a
Court, the principal place of business of Altera U.S.
was in California.
I. Petitioner’s R&D Cost-Sharing Agreement
Petitioner develops, manufactures, markets, and
sells programmable logic devices (PLDs) and related
hardware, software, and pre-defined design building
blocks for use in programming the PLDs (programming tools). Altera U.S. and Altera International entered into concurrent agreements that became effective May 23, 1997: a master technology license agreement (technology license agreement) and a technology
research and development cost-sharing agreement
(R&D cost-sharing agreement).
Under the technology license agreement, Altera
U.S. licensed to Altera International the right to use
and exploit, everywhere except the United States and
Canada, all of Altera U.S.’ intangible property relating to PLDs and programming tools that existed before the R&D cost-sharing agreement (pre-cost-sharing intangible property). In exchange for the rights
granted under the technology license agreement, Altera International paid royalties to Altera U.S. in each
year from 1997 through 2003. As of December 31,
2003, Altera International owned a fully paid-up license to use the pre-cost-sharing intangible property
in its territory.
Under the R&D cost-sharing agreement, Altera
U.S. and Altera International agreed to pool their respective resources to conduct research and development using the pre-cost-sharing intangible property.
Under the R&D cost-sharing agreement, Altera U.S.
and Altera International agreed to share the risks and
costs of research and development activities they per-

83a
formed on or after May 23, 1997. The R&D cost-sharing agreement was in effect from May 23, 1997,
through 2007.
During each of petitioner’s taxable years ending
December 31, 2004, December 30, 2005, December 29,
2006, and December 28, 2007 (2004-07 taxable years),
Altera U.S. granted stock options and other stockbased compensation to certain of its employees. Certain of the employees of Altera U.S. who performed
research and development activities subject to the
R&D cost-sharing agreement received stock options or
other stock-based compensation. The employees’ cash
compensation was included in the cost pool under the
R&D cost-sharing agreement. Their stock-based compensation was not included.
Pursuant to the R&D cost-sharing agreement, Altera International made the following cost-sharing
payments to Altera U.S. for its 2004-07 taxable years:
Year
Cost-sharing payment
2004 ..............................
$129,469,233
2005 ..............................
160,722,953
2006 ..............................
164,836,577
2007 ..............................
192,755,438
II. Petitioner’s Tax Reporting and Respondent’s
Section 482 Allocations
Petitioner timely filed its Forms 1120, U.S. Corporation Income Tax Return, for its 2004-07 taxable
years. Respondent timely mailed notices of deficiency
to petitioner with respect to its 2004-07 taxable years.
The notices of deficiency allocated, pursuant to section
482, income from Altera International to Altera U.S.
by increasing Altera International’s cost-sharing payments for 2004-07 by the following amounts:

84a
Year
2004 ..............................
2005 ..............................
2006 ..............................
2007 ..............................

Cost-sharing payment
adjustment
$24,549,315
23,015,453
17,365,388
15,463,565

Bringing petitioner into compliance with the final rule
was the sole purpose of the cost-sharing adjustments
in the notice of deficiency.
III. Section 482
A. Arm’s-Length Standard
Section 482 authorizes the Commissioner to allocate income and expenses among related entities to
prevent tax evasion and to ensure that taxpayers
clearly reflect income relating to transactions between related entities. The first sentence of section
482 provides, in relevant part, as follows:
In any case of two or more organizations, trades,
or businesses * * * owned or controlled directly or
indirectly by the same interests, the Secretary2
may distribute, apportion, or allocate gross income, deductions, credits, or allowances between
or among such organizations, trades, or businesses, if he determines that such distribution, apportionment, or allocation is necessary in order to
prevent evasion of taxes or clearly to reflect the income of any of such organizations, trades, or businesses.
***

The term ‘‘Secretary’’ means the Secretary of the Treasury or
his delegate. Sec. 7701(a)(11)(B).
2

85a
Section 1.482-1(a)(1), Income Tax Regs., explains the
purpose of section 482 as follows:
The purpose of section 482 is to ensure that taxpayers clearly reflect income attributable to controlled transactions and to prevent the avoidance
of taxes with respect to such transactions. Section
482 places a controlled taxpayer[3] on a tax parity
with an uncontrolled taxpayer by determining the
true taxable income of the controlled taxpayer.
***
Section 1.482-1(b)(1), Income Tax Regs., provides that
[i]n determining the true taxable income of a controlled taxpayer, the standard to be applied in
every case is that of a taxpayer dealing at arm’s
length with an uncontrolled taxpayer. A controlled
transaction meets the arm’s length standard if the
results of the transaction are consistent with the
results that would have been realized if uncontrolled taxpayers had engaged in the same transaction under the same circumstances (arm’s length
result). However, because identical transactions
can rarely be located, whether a transaction produces an arm’s length result generally will be determined by reference to the results of comparable
transactions under comparable circumstances.
***
The arm’s-length standard is also incorporated
into numerous income tax treaties between the
United States and foreign countries. See, e.g., Convention for the Avoidance of Double Taxation and the
The term ‘‘controlled taxpayer’’ means ‘‘any one of two or more
taxpayers owned or controlled directly or indirectly by the same
interests, and includes the taxpayer that owns or controls the
other taxpayers.’’ Sec. 1.482-1(i)(5), Income Tax Regs.
3

86a
Prevention of Fiscal Evasion With Respect to Taxes on
Income and on Capital Gains, U.S.-U.K. (2001 U.S.U.K. Income Tax Convention), art. 9, July 24, 2001,
Tax Treaties (CCH) para. 10,901.09, at 201,019; U.S.
Model Income Tax Convention of Nov. 15, 2006 (2006
U.S. Model Income Tax Convention), art. 9, Tax Treaties (CCH) para. 209.09, at 10,559; Treasury Department Technical Explanation of the 2001 U.S.-U.K. Income Tax Convention, art. 9, Tax Treaties (CCH)
para. 10,911, at 201,306 (‘‘This Article incorporates in
the Convention the arm’s-length principle reflected in
the U.S. domestic transfer pricing provisions, particularly Code section 482.’’); Treasury Department Technical Explanation of the 2006 U.S. Model Income Tax
Convention, art. 9, Tax Treaties (CCH) para. 215, at
10,640 (same).
B. Commensurate-With-Income Standard
In 1986 Congress amended section 482 by adding,
in relevant part, the following sentence: ‘‘In the case
of any transfer (or license) of intangible property * * * , the income with respect to such transfer or
license shall be commensurate with the income attributable to the intangible.’’ Tax Reform Act of 1986,
Pub. L. No. 99-514, sec. 1231(e)(1), 100 Stat. at 2562.
The House report that accompanied the House version of the 1986 amendment to section 482 states, in
relevant part, as follows:
Many observers have questioned the effectiveness of the ‘‘arm’s length’’ approach of the regulations under section 482. A recurrent problem is
the absence of comparable arm’s length transactions between unrelated parties, and the inconsistent results of attempting to impose an arm’s
length concept in the absence of comparables.

87a
* * * * * * *
The problems are particularly acute in the case
of transfers of high-profit potential intangibles.
Taxpayers may transfer such intangibles to foreign related corporations or to possession corporations at an early stage, for a relatively low royalty,
and take the position that it was not possible at the
time of the transfers to predict the subsequent success of the product. Even in the case of a proven
high-profit intangible, taxpayers frequently take
the position that intercompany royalty rates may
appropriately be set on the basis of industry norms
for transfers of much less profitable items.
Certain judicial interpretations of section 482
suggest that pricing arrangements between unrelated parties for items of the same apparent general category as those involved in the related party
transfer may in some circumstances be considered
a ‘‘safe harbor’’ for related party pricing arrangements, even though there are significant differences in the volume and risks involved, or in other
factors. * * *
In many cases firms that develop high profitpotential intangibles tend to retain their rights or
transfer them to related parties in which they retain an equity interest in order to maximize their
profits. * * * Industry norms for transfers to unrelated parties of less profitable intangibles frequently are not realistic comparables in these
cases.
There are extreme difficulties in determining
whether the arm’s length transfers between unrelated parties are comparable. The committee thus
concludes that it is appropriate to require that the

88a
payment made on a transfer of intangibles to a related foreign corporation or possessions corporation be commensurate with the income attributable to the intangible. * * *
* * * * * * *
The basic requirement of the bill is that payments with respect to intangibles that a U.S. person transfers to a related foreign corporation or
possessions corporation must be commensurate
with the income attributable to the intangible.
***
In making this change, the committee intends
to make it clear that industry norms or other unrelated party transactions do not provide a safeharbor minimum payment for related party intangibles transfers. Where taxpayers transfer intangibles with a high profit potential, the compensation for the intangibles should be greater than industry averages or norms. * * *
* * * * * * *
In requiring that payments be commensurate
with the income stream, the bill does not intend to
mandate the use of the ‘‘contract manufacturer’’ or
‘‘cost-plus’’ methods of allocating income or any
other particular method. As under present law, all
the facts and circumstances are to be considered in
determining what pricing methods are appropriate
in cases involving intangible property, including
the extent to which the transferee bears real risks
with respect to its ability to make a profit from the
intangible or, instead, sells products produced
with the intangible largely to related parties
(which may involve little sales risk or activity) and
has a market essentially dependent on, or assured

89a
by, such related parties’ marketing efforts. However, the profit or income stream generated by or
associated with intangible property is to be given
primary weight.
[H.R. Rept. No. 99-426, at 423-426 (1985), 19863 C.B. (Vol. 2) 1, 423-426.]
The conference report that accompanied the 1986
amendment to section 482 states, in relevant part, as
follows:
In view of the fact that the objective of these provisions – that the division of income between related
parties reasonably reflect the relative economic activity undertaken by each – applies equally to inbound transfers, the conferees concluded that it
would be appropriate for these principles to apply
to transfers between related parties generally if income must otherwise be taken into account.
* * * * * * *
The conferees are also aware that many important and difficult issues under section 482 are
left unresolved by this legislation. The conferees
believe that a comprehensive study of intercompany pricing rules by the Internal Revenue Service
should be conducted and that careful consideration
should be given to whether the existing regulations could be modified in any respect.
In revising section 482, the conferees do not intend to preclude the use of certain bona fide research and development cost-sharing arrangements as an appropriate method of allocating income attributable to intangibles among related
parties, if and to the extent such agreements are
consistent with the purposes of this provision that
the income allocated among the parties reasonably

90a
reflect the actual economic activity undertaken by
each. Under such a bona fide cost-sharing arrangement, the cost-sharer would be expected to
bear its portion of all research and development
costs, on unsuccessful as well as successful products within an appropriate product area, and the
costs of research and development at all relevant
development stages would be included. In order
for cost-sharing arrangements to produce results
consistent with the changes made by the Act to
royalty arrangements, it is envisioned that the allocation of R&D cost-sharing arrangements generally should be proportionate to profit as determined before deduction for research and development. In addition, to the extent, if any, that one
party is actually contributing funds toward research and development at a significantly earlier
point in time than the other, or is otherwise effectively putting its funds at risk to a greater extent
than the other, it would be expected that an appropriate return would be required to such party to
reflect its investment.
[H.R. Conf. Rept. No. 99-841 (Vol. II), at II-637
through II-638 (1986), 1986-3 C.B. (Vol. 4) 1, 637638.]
C. Treasury’s Position That the Commensurate-With-Income Standard Was Intended
To Work Consistently With the Arm’sLength Standard
As the conference report suggested, Treasury and
the Internal Revenue Service (IRS) conducted a comprehensive study of the regulations under section 482,
the results of which they published in Notice 88-123,
1988-2 C.B. 458 (1988 White Paper).

91a
The 1988 White Paper concluded that the arm’slength standard is the international norm for making
transfer pricing adjustments. Id., 1988-2 C.B. at 475
(‘‘The arm’s length standard is embodied in all U.S.
tax treaties; it is in each major model treaty, including
the U.S. Model Convention; it is incorporated into
most tax treaties to which the United States is not a
party; it has been explicitly adopted by international
organizations that have addressed themselves to
transfer pricing issues; and virtually every major industrial nation takes the arm’s length standard as its
frame of reference in transfer pricing cases.’’ (Fn. ref.
omitted.)). The 1988 White Paper further concluded
that Congress intended for the commensurate-withincome standard to work consistently with the arm’slength standard. See id. (‘‘To allay fears that Congress intended the commensurate with income standard to be implemented in a manner inconsistent with
international transfer pricing norms and U.S. treaty
obligations, Treasury officials publicly stated that
Congress intended no departure from the arm’s length
standard, and that the Treasury Department would so
interpret the new law.’’).
The 1988 White Paper explained that the commensurate-with-income standard is consistent with the
arm’s-length standard because
[l]ooking at the income related to the intangible
and splitting it according to relative economic contributions is consistent with what unrelated parties do. The general goal of the commensurate
with income standard is, therefore, to ensure that
each party earns the income or return from the intangible that an unrelated party would earn in an
arm’s length transfer of the intangible. [Id., 19882 C.B. at 472.]

92a
Accordingly, in technical explanations to numerous
income tax treaties that the United States has entered
into since then, Treasury has repeatedly affirmed that
Congress intended for the commensurate-with-income standard to work consistently with the arm’slength standard. See, e.g., Treasury Department
Technical Explanation of the 2001 U.S.-U.K. Income
Tax Convention, art. 9, Tax Treaties (CCH) para.
10,911, at 201,307 (‘‘It is understood that the ‘commensurate with income’ standard for determining appropriate transfer prices for intangibles, added to
Code section 482 by the Tax Reform Act of 1986, was
designed to operate consistently with the arm’s-length
standard.’’); Treasury Department Technical Explanation of the 2006 U.S. Model Income Tax Convention, art. 9, Tax Treaties (CCH) para. 215, at 10,64010,641 (same).
IV. 1995 Cost-Sharing Regulations
We have previously considered whether controlled
tax-payers must include stock-based compensation in
the pool of costs to be shared. Most recently, in Xilinx
Inc. v. Commissioner, 125 T.C. 37 (2005), aff’d, 598
F.3d 1191 (9th Cir. 2010), we addressed the treatment
of stock-based compensation with respect to taxable
years subject to cost-sharing regulations that Treasury finalized in 1995 (1995 cost-sharing regulations).
Because our findings and conclusions, and the conclusions of the U.S. Court of Appeals for the Ninth Circuit, in Xilinx are relevant in these cases, we briefly
review the 1995 cost-sharing regulations, our Opinion
in Xilinx, and the opinions of the U.S. Court of Appeals for the Ninth Circuit in that case.

93a
A. Regulatory Provisions
The 1995 cost-sharing regulations prohibited the
District Director from making allocations under section 482 ‘‘except to the extent necessary to make each
controlled participant’s share of the costs * * * of intangible development under the qualified cost-sharing
arrangement equal to its share of reasonably anticipated benefits attributable to such development’’.
T.D. 8632, 1996-1 C.B. 85, 90. The 1995 cost-sharing
regulations further provided that ‘‘a controlled participant’s costs of developing intangibles * * * [include]
all of the costs incurred by that participant related to
the intangible development area’’. Id., 1996-1 C.B. at
92.
B. Our Opinion in Xilinx
In Xilinx Inc. v. Commissioner, 125 T.C. 37, the
taxpayer challenged deficiencies determined under
the 1995 cost-sharing regulations on the basis of the
Commissioner’s determination that the taxpayer
should have included the value of stock-based compensation in the intangible development cost pool. Assuming arguendo that the value of stock-based compensation is a cost under the 1995 cost-sharing regulations, we held that the Commissioner’s allocations
failed to satisfy the arm’s-length standard of section
1.482-1(b)(1), Income Tax Regs. See id. at 53.
In reaching this holding we concluded that, consistent with the 1995 cost-sharing regulations, (1) in
determining the true taxable income of a controlled
taxpayer, the arm’s-length standard applies in all
cases, see id. at 54-55; (2) the arm’s-length standard
requires an analysis of what unrelated entities would
do, see id. at 53-54; (3) the commensurate-with-income
standard was never intended to supplant the arm’slength standard, see id. at 56-58; and (4) unrelated

94a
parties would not share the exercise spread or grant
date value4 of stock-based compensation, see id. at 5862.
In concluding that unrelated parties would not
share either the exercise spread or grant date value of
stock-based compensation, (1) we observed that the
Commissioner’s expert agreed that unrelated parties
would not explicitly share the exercise spread or grant
date value of stock-based compensation because unrelated parties would find it hard to agree how to measure such value and because doing so would leave them
open to potential disputes, see id. at 58; (2) we found
that the taxpayers proved that companies do not take
into account either the exercise spread or grant date
value of stock-based compensation for product pricing
purposes, see id. at 59; (3) we observed that the Commissioner produced no credible evidence showing that
unrelated parties implicitly share the exercise spread
or grant date value of stock-based compensation, see
id.; (4) we credited the testimony of the taxpayers’ numerous fact witnesses who testified that unrelated
parties do not share either the exercise spread or
grant date value of stock-based compensation in costsharing agreements, see id.; (5) we found that the taxpayers proved that ‘‘if unrelated parties believed that
the spread and grant date value were costs’’, they
‘‘would be very explicit about their treatment’’, id.; (6)
we credited the testimony of the tax-payers’ expert
who testified that unrelated parties would not agree
The exercise spread value is the spread between the option
strike price and the price of the underlying stock when the option
is exercised. See Xilinx Inc. v. Commissioner, 125 T.C. 37, 47
(2005), aff’d, 598 F.3d 1191 (9th Cir. 2010). The grant date value
is the fair market value of the option on its grant date. See id. at
50.
4

95a
to share spread-based cost because doing so would create perverse incentives for each party to diminish the
stock price of the other, see id. at 61; and (7) we observed that during the years in issue the grant value
of stock-based compensation was generally not
treated as an expense for tax and financial accounting
purposes, see id. at 61-62.
C. The Ninth Circuit Opinions in Xilinx
The U.S. Court of Appeals for the Ninth Circuit initially reversed our Opinion in Xilinx. The majority
opinion by Judge Fisher reasoned that ‘‘[b]ecause the
all costs requirement [of the 1995 cost-sharing regulations] is irreconcilable with the arm’s length standard,’’ the more specific all costs requirement controls.
Xilinx Inc. v. Commissioner, 567 F.3d 482, 489 (9th
Cir. 2009), rev’g and remanding 125 T.C. 37,
withrawn, 592 F.3d 1017 (9th Cir. 2010). The dissenting opinion by Judge Noonan agreed that the regulations were irreconcilable, see id. at 497 (Noonan, J.,
dissenting), but concluded that the all costs requirement should be construed as not applying to stockbased compensation because (1) the regulations
should be interpreted in the light of the dominant purpose of the statute – “parity between taxpayers in uncontrolled transactions and taxpayers in controlled
transactions’’, id. at 498; (2) any inconsistencies in the
regulations should be construed against the Government, see id.; and (3) Treasury’s technical explanation
of the income tax convention between the United
States and Ireland confirms that the commensuratewith-income standard is meant to work consistently
with the arm’s-length standard, see id. at 498-500
(‘‘This article incorporates in the Convention the
arm’s[-]length principle reflected in the U.S. domestic
transfer pricing provision, particularly Code section
482. * * * It is understood that the ‘commensurate

96a
with income’ standard for determining appropriate
transfer prices for intangibles, added to Code section
482 by the Tax Reform Act of 1986, was designed to
operate consistently with the arm’s-length standard.’’
(quoting Treasury Department Technical Explanation
of the Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with Respect to Taxes on Income and Capital Gains Signed at
Dublin on July 28, 1997, and the Protocol Signed at
Dublin on July 28, 1997 (1997 U.S.-Ir. Income Tax
Convention and Protocol), U.S.-Ir., Tax Treaties
(CCH) para. 4435, at 103,223)).
The Court of Appeals subsequently withdrew its
opinion in Xilinx and issued a new opinion affirming
our Opinion in Xilinx. The new opinion by Judge
Noonan was in substance similar to his original dissenting opinion, with the exception that the new opinion did not rest its reasoning on the notion that inconsistencies in the regulations should be resolved
against the Government. See Xilinx Inc. v. Commissioner, 598 F.3d at 1191-1197 (Noonan, J.).
Judge Fisher’s concurring opinion first explained
the parties’ ‘‘dueling interpretations of the ‘arm’s
length standard’ ”. Id. at 1197 (Fisher, J., concurring).
According to Judge Fisher, Xilinx contended that the
arm’s-length standard required ‘‘controlled parties
* * * [to] share only those costs uncontrolled parties
share.’’ Id. By contrast, the Commissioner contended
that
analyzing comparable transactions is unhelpful in
situations where related and unrelated parties always occupy materially different circumstances.
As applied to sharing * * * [employee-stock-option
(ESO)] costs, the Commissioner argues (consistent
with the tax court’s findings) that the reason unrelated parties do not, and would not, share ESO

97a
costs is that they are unwilling to expose themselves to an obligation that will vary with an unrelated company’s stock price. Related companies
are less prone to this concern precisely because
they are related – i.e., because XI is wholly owned
by Xilinx, it is already exposed to variations in Xilinx’s overall stock price, at least in some respects.
* * * [Id.]
Judge Fisher concluded ‘‘that Xilinx’s understanding
of the regulations is the more reasonable even if the
Commissioner’s current interpretation may be theoretically plausible.’’ Id. at 1198. He further explained
that ‘‘we need not defer to * * * [the Commissioner’s
interpretation of the arm’s-length standard] because
he has not clearly articulated his rationale until now.’’
Id. (citing United States v. Thompson/Ctr. Arms Co.,
504 U.S. 505, 518-519 & n.9 (1992)). In a footnote
Judge Fisher added: ‘‘It is an open question whether
these flaws have been addressed in the new regulations Treasury issued after the tax years at issue in
this case.’’ Id. n.4. Notwithstanding Judge Fisher’s
concerns, Judge Reinhardt, dissenting, would have
continued to adhere to the panel’s original opinion.
See id. at 1199-1200 (Reinhardt, J., dissenting).
V. 2003 Cost-Sharing Regulations
A. Notice of Proposed Rulemaking
In July 2002 Treasury issued a notice of proposed
rule-making and notice of a public hearing (NPRM)
with respect to proposed amendments to the 1995
cost-sharing regulations. The NPRM set a public
hearing on the proposed amendments for November
20, 2002. See 67 Fed. Reg. 48997 (July 29, 2002). The
preamble to the NPRM states that the proposed
amendments to the 1995 cost-sharing regulations
sought to clarify

98a
that stock-based compensation must be taken into
account in determining operating expenses under
§ 1.482-7(d)(1)[, Income Tax Regs.,] and to provide
rules for measuring stock-based compensation
costs * * * [, and] to include express provisions to
coordinate the cost sharing rules of § 1.482-7[, Income Tax Regs.,] with the arm’s length standard
as set forth in § 1.482-1[, Income Tax Regs.]. [Id.
at 48998.]
B. Comments Submitted in Response to the
Proposed Regulations
In response to the NPRM the following persons
and organizations submitted written comments to
Treasury:
(1) American Electronics Association
(AeA); (2) Baker & McKenzie, LLP, on behalf of the
Software Finance and Tax Executives Council
(SoFTEC); (3) Deloitte & Touche, LLP; (4) Ernst &
Young LLP, on behalf of the Global Competitiveness
Coalition (Global); (5) Fenwick & West, LLP (Fenwick); (6) Financial Executives International (FEI);
(7) Information Technology Association of America;
(8) Information Technology Industry Council; (9)
KPMG, LLP; (10) PricewaterhouseCoopers, LLP
(PwC); (11) Irish Office of the Revenue Commissioners; (12) Joseph A. Grundfest, W.A. Franke Professor
of Law and Business, Stanford Law School; (13) Xilinx
Inc. Additionally, the following four persons spoke at
the November 20, 2002, public hearing: (1) Eric D.
Ryan, of PwC; (2) Ron Schrotenboer, of Fenwick; (3)
John M. Peterson, Jr., of Baker & McKenzie, LLP and

99a
on behalf of SoFTEC; and (4) Caroline Graves Hurley,
of AeA.5
Several of the commentators informed Treasury
that they knew of no transactions between unrelated
parties, including any cost-sharing arrangement, service agreement, or other contract, that required one
party to pay or reimburse the other party for amounts
attributable to stock-based compensation.
AeA provided to Treasury the results of a survey of
its members. AeA member companies reviewed their
arm’s-length codevelopment and joint venture agreements and found none in which the parties shared
stock-based compensation. For those agreements that
did not explicitly address the treatment of stock-based
compensation, the companies reviewed their accounting records and found none in which any costs associated with stock-based compensation were shared.
AeA and PwC represented to Treasury that they
conducted multiple searches of the Electronic Data
Gathering, Analysis, and Retrieval (EDGAR) system6
and found no cost-sharing agreements between unrelated parties in which the parties agreed to share either the exercise spread or grant date value of stockbased compensation.
Several commentators identified arm’s-length
agreements in which stock-based compensation was
Tax Analysts prepared a written transcript of the November
20, 2002, hearing. Treasury did not request or pay for the transcript and did not identify it as an ‘‘official’’ transcript.
5

EDGAR is maintained by the Securities and Exchange Commission (SEC) and is a public and searchable database that provides users with free access to registration statements, periodic
reports, and other forms filed by companies, including ‘‘material
contracts’’ that are required by law to be attached as exhibits to
certain SEC forms.
6

100a
not shared or reimbursed. For example, (1) AeA identified, and PwC provided, a 1997 collaboration agreement between Amylin Pharmaceuticals, Inc., and
Hoechst Marion Roussel, Inc. (Amylin-HMR collaboration agreement), that did not include stock options
in the pool of costs to be shared; (2) PwC identified a
joint development agreement between the bio-technology company AgraQuest, Inc., and Rohm & Haas
under which only ‘‘out-of-pocket costs’’ would be
shared; (3) PwC identified a 1999 cost-sharing agreement between software companies Healtheon Corp.
and Beech Street Corp. that expressly excluded stock
options from the pool of expenses to be shared. Additionally, in written comments, and again at the November 20, 2002, hearing, Ms. Hurley offered to provide Treasury with more detailed information regarding several agreements involving AeA member companies, provided that the companies received
adequate assurances that their proprietary information would not be disclosed.7
FEI submitted model accounting procedures from
the Council of Petroleum Accountant Societies (COPAS) for sharing costs among joint operating agreement partners in the petroleum industry. FEI noted
that COPAS recommends that joint operating agreements should not allow stock options to be charged
against the joint account because they are difficult to
accurately value.
AeA, SoFTEC, KPMG, and PwC cited the practice
of the Federal Government, which regularly enters
into cost-reimbursement contracts at arm’s length.
Respondent admits that Treasury never had any discussions
with the AeA member companies regarding the arm’s-length
cost-sharing agreements that the AeA member companies offered to discuss.
7

101a
They noted that Federal acquisition regulations prohibit reimbursement of amounts attributable to stockbased compensation.8
AeA, Global, and PwC explained that, from an economic perspective, unrelated parties would not agree
to share or reimburse amounts related to stock-based
compensation because the value of stock-based compensation is speculative, potentially large, and completely outside the control of the parties. SoFTEC provided a detailed economic analysis from economists
William Baumol and Burton Malkiel reaching the
same conclusion.
Finally, the Baumol and Malkiel analysis concluded that there is no net economic cost to a corporation or its shareholders from the issuance of stockbased compensation. Similarly, Mr. Grundfest asserted that a company’s ‘‘decision to grant options to
employees * * * does not change its operating expenses’’ and does not factor into its pricing decisions.
C. Final Rule
1. Regulatory Provisions
In August 2003 Treasury issued the final rule. The
final rule explicitly required parties to QCSAs to
share stock-based compensation costs. See sec. 1.4827(d)(2), Income Tax Regs. The final rule also added
sections 1.482-1(b)(2)(i) through 1.482-7(a)(3), Income
Tax Regs., to provide that a QCSA produces an arm’slength result only if the parties’ costs are determined
in accordance with the final rule. See T.D. 9088, 20032 C.B. 841, 847-848.

Federal acquisition regulations prohibit contractors from
charging the Government for stock-based compensation. See 48
C.F.R. sec. 31.205-6(i) (2013).
8

102a
The final rule provides two methods for measuring
the value of stock-based compensation: a default
method and an elective method. Under the default
method, ‘‘the costs attributable to stock-based compensation generally are included as intangible development costs upon the exercise of the option and
measured by the spread between the option strike
price and the price of the underlying stock.’’ Id., 20032 C.B. at 844. Under the elective method, ‘‘the costs
attributable to stock options are taken into account in
certain cases in accordance with the ‘fair value’ of the
option, as reported for financial accounting purposes
either as a charge against income or in footnoted disclosures.’’ Id. The elective method, however, is available only with respect to options on stock that is publicly traded ‘‘on an established United States securities market and is issued by a company whose financial statements are prepared in accordance with
United States generally accepted accounting principles for the taxable year.’’ Sec. 1.482-7(d)(3)(iii)(B)(2),
Income Tax Regs.
2. Lack of Evidence From Uncontrolled
Transactions
When it issued the final rule, the files maintained
by Treasury relating to the final rule did not contain
any expert opinions, empirical data, or published or
unpublished articles, papers, surveys, or reports supporting a determination that the amounts attributable to stock-based compensation must be included in
the cost pool of QCSAs to achieve an arm’s-length result. Those files also did not contain any record that
Treasury searched any database that could have contained agreements between unrelated parties relating
to joint undertakings or the provision of services. Additionally, Treasury was unaware of any written contract between unrelated parties, whether in a cost-

103a
sharing arrangement or otherwise, that required one
party to pay or reimburse the other party for amounts
attributable to stock-based compensation; or any evidence of any actual transaction between unrelated
parties, whether in a cost-sharing arrangement or
otherwise, in which one party paid or reimbursed the
other party for amounts attributable to stock-based
compensation.
3. Response to Comments
The preamble to the final rule responded to comments that asserted that the proposed amendments to
the 1995 cost-sharing regulations were inconsistent
with the arm’s-length standard, in relevant part, as
follows:
Treasury and the IRS continue to believe that
requiring stock-based compensation to be taken
into account for purposes of QCSAs is consistent
with the legislative intent underlying section 482
and with the arm’s length standard (and therefore
with the obligations of the United States under its
income tax treaties and with the OECD transfer
pricing guidelines). The legislative history of the
Tax Reform Act of 1986 expressed Congress’s intent to respect cost sharing arrangements as consistent with the commensurate with income standard, and therefore consistent with the arm’s length
standard, if and to the extent that the participants’
shares of income ‘‘reasonably reflect the actual economic activity undertaken by each.’’ See H.R.
Conf. Rep[t]. No. 99-481 [Vol. II], at II-638 (1986).
* * * In order for the costs incurred by a participant to reasonably reflect its actual economic activity, the costs must be determined on a comprehensive basis. Therefore, in order for a QCSA to
reach an arm’s length result consistent with legislative intent, the QCSA must reflect all relevant

104a
costs, including such critical elements of cost as the
cost of compensating employees for providing services related to the development of the intangibles
pursuant to the QCSA. Treasury and the IRS do
not believe that there is any basis for distinguishing between stock-based compensation and other
forms of compensation in this context.
Treasury and the IRS do not agree with the
comments that assert that taking stock-based compensation into account in the QCSA context would
be inconsistent with the arm’s length standard in
the absence of evidence that parties at arm’s
length take stock-based compensation into account
in similar circumstances. Section 1.482-1(b)(1)[,
Income Tax Regs.,] provides that a ‘‘controlled
transaction meets the arm’s length standard if the
results of the transaction are consistent with the
results that would have been realized if uncontrolled taxpayers had engaged in the same transaction under the same circumstances.’’ * * * While
the results actually realized in similar transactions under similar circumstances ordinarily provide significant evidence in determining whether a
controlled transaction meets the arm’s length
standard, in the case of QCSAs such data may not
be available. As recognized in the legislative history of the Tax Reform Act of 1986, there is little,
if any, public data regarding transactions involving high-profit intangibles. H.R. Rep[t]. No. 99426, at 423-[4]25 (1985). The uncontrolled transactions cited by commentators do not share enough
characteristics of QCSAs involving the development of high-profit intangibles to establish that
parties at arm’s length would not take stock options into account in the context of an arrangement
similar to a QCSA. Government contractors that

105a
are entitled to reimbursement for services on a
cost-plus basis under government procurement
law assume substantially less entrepreneurial risk
than that assumed by service providers that participate in QCSAs, and therefore the economic relationship between the parties to such an arrangement is very different from the economic relationship between participants in a QCSA. The other
agreements highlighted by commentators establish arrangements that differ significantly from
QCSAs in that they provide for the payment of
markups on cost or of non-cost-based service fees
to service providers within the arrangement or for
the payment of royalties among participants in the
arrangement. Such terms, which may have the effect of mitigating the impact of using a cost base to
be shared or reimbursed that is less than comprehensive, would not be permitted by the QCSA regulations. * * *
The regulations relating to QCSAs have as
their focus reaching results consistent with what
parties at arm’s length generally would do if they
entered into cost sharing arrangements for the development of high-profit intangibles. These final
regulations reflect that at arm’s length the parties
to an arrangement that is based on the sharing of
costs to develop intangibles in order to obtain the
benefit of an independent right to exploit such intangibles would ensure through bargaining that
the arrangement reflected all relevant costs, including all costs of compensating employees for
providing services related to the arrangement.
Parties dealing at arm’s length in such an arrangement based on the sharing of costs and benefits
generally would not distinguish between stock-

106a
based compensation and other forms of compensation.
For example, assume that two parties are negotiating an arrangement similar to a QCSA in order
to attempt to develop patentable pharmaceutical
products, and that they anticipate that they will
benefit equally from their exploitation of such patents in their respective geographic markets. Assume further that one party is considering the
commitment of several employees to perform research with respect to the arrangement. That
party would not agree to commit employees to an
arrangement that is based on the sharing of costs
in order to obtain the benefit of independent exploitation rights unless the other party agrees to
reimburse its share of the compensation costs of
the employees. Treasury and the IRS believe that
if a significant element of that compensation consists of stock-based compensation, the party committing employees to the arrangement generally
would not agree to do so on terms that ignore the
stock-based compensation.
[T.D. 9088, 2003-2 C.B. at 842-843.]
The preamble to the final rule responded to comments that asserted that stock-based compensation
does not constitute an economic cost, or relevant economic cost, as follows:
Treasury and the IRS continue to believe that requiring stock-based compensation to be taken into
account in the context of QCSAs is appropriate.
The final regulations provide that stock-based
compensation must be taken into account in the
context of QCSAs because such a result is consistent with the arm’s length standard. Treasury
and the IRS agree that the disposition of financial

107a
reporting issues does not mandate a particular result under these regulations. [Id., 2003-2 C.B. at
843.]
The preamble to the final rule responded to comments that asserted that parties at arm’s length
would not share either the exercise spread or grant
date value of stock-based compensation because they
would produce results that are too speculative or not
sufficiently related to the employee services that are
compensated, as follows:
Treasury and the IRS believe that it is appropriate
for regulations to prescribe guidance in this context that is consistent with the arm’s length standard and that also is objective and administrable.
As long as the measurement method is determined
at or before grant date, either of the prescribed
measurement methods can be expected to result in
an appropriate allocation of costs among QCSA
participants and therefore would be consistent
with the arm’s length standard. [Id., 2003-2 C.B.
at 844.]
Finally, the preamble to the final rule states that
‘‘[i]t has also been determined that [APA] section
553(b) * * * does not apply to these regulations.’’ Id.,
2003-2 C.B. at 847.
Discussion
I. Summary Judgment
Rule 121(a) provides that either party may move
for summary judgment upon all or any part of the legal issues in controversy. Full or partial summary
judgment may be granted only if it is demonstrated
that there is no genuine dispute as to any material
fact and that a decision may be rendered as a matter

108a
of law. See Rule 121(b); Sundstrand Corp. v. Commissioner, 98 T.C. 518, 520 (1992), aff’d, 17 F.3d 965 (7th
Cir. 1994). We conclude that there is no genuine dispute as to any material fact relating to the issue presented by the parties’ cross-motions for partial summary judgment and that the issue may be decided as
a matter of law.
II. Applicable Principles of Administrative Law
A. Notice and Comment Rulemaking
Pursuant to APA sec. 553, in promulgating regulations through informal rulemaking an agency must (1)
publish a notice of proposed rulemaking in the Federal Register,9 see APA sec. 553(b); (2) provide ‘‘interested persons an opportunity to participate in the rule
making through submission of written data, views, or
arguments with or without opportunity for oral
presentation’’, id. subsec. (c); and (3) ‘‘[a]fter consideration of the relevant matter presented, * * * incorporate in the rules adopted a concise general statement
of their basis and purpose’’, id. These requirements
do not apply to interpretive rules,10 see id. subsec.

The notice of proposed rulemaking must include ‘‘(1) a statement of the time, place, and nature of public rule making proceedings; (2) reference to the legal authority under which the rule
is proposed; and (3) either the terms or substance of the proposed
rule or a description of the subjects and issues involved.’’ APA
sec. 553(b).
9

We have previously referred to regulations issued pursuant to
specific grants of rulemaking authority as legislative regulations
and regulations issued pursuant to Treasury’s general rulemaking authority, under sec. 7805(a), as interpretive regulations.
See, e.g., Tutor-Saliba Corp. v. Commissioner, 115 T.C. 1, 7
(2000). Because the terms ‘‘legislative’’ and ‘‘interpretive’’ have
different meanings in the administrative law context, see Hemp
Indus. Ass’n v. DEA, 333 F.3d 1082, 1087 (9th Cir. 2003), we will
10

109a
(b)(A), or when an agency for good cause finds – and
incorporates its findings in the rules issued – that ‘‘notice and public procedure thereon are impracticable,
unnecessary, or contrary to the public interest’’, id.
para. (B).
Generally, interpretive rules merely explain preexisting substantive law. See Hemp Indus. Ass’n v.
DEA, 333 F.3d 1082, 1087 (9th Cir. 2003). Substantive (or legislative) rules by contrast, ‘‘create rights,
impose obligations, or effect a change in existing law’’.
Id. Stated simply, ‘‘legislative rules, unlike interpretive rules, have the ‘force of law.’ ” Id. (quoting Am.
Mining Cong. v. Mine Safety & Health Admin., 995
F.2d 1106, 1109 (D.C. Cir. 1993)); see also Chrysler
Corp. v. Brown, 441 U.S. 281, 301-302 (1979).
A rule has the force of law ‘‘only if Congress has
delegated legislative power to the agency and if the
agency intended to exercise that power in promulgating the rule.’’ Am. Mining Cong., 995 F.2d at 1109
(citing Am. Postal Workers Union v. USPS, 707 F.2d
548, 558 (D.C. Cir. 1983)). The U.S. Court of Appeals
for the Ninth Circuit, to which an appeal in these
cases appears to lie absent a stipulation to the contrary, see sec. 7482(b)(1)(B), (2), has held that we can
infer that an agency intends for a rule to have the
force of law in any of the following circumstances: ‘‘(1)
when, in the absence of the rule, there would not be
an adequate legislative basis for enforcement action;
(2) when the agency has explicitly invoked its general
legislative authority; or (3) when the rule effectively
amends a prior legislative rule,’’ Hemp Indus., 333
refer to regulations issued pursuant to specific grants of rulemaking authority as specific authority regulations and regulations issued pursuant to Treasury’s general rulemaking authority, under sec. 7805(a), as general authority regulations.

110a
F.3d at 1087 (citing Am. Mining Cong., 995 F.2d
1106), or ‘‘effect[s] a change in existing law or policy’’,
D.H. Blattner & Sons, Inc. v. Sec’y of Labor, Mine
Safety & Health Admin., 152 F.3d 1102, 1109 (9th
Cir. 1998) (alteration in original) (quoting Powderly v.
Schweiker, 704 F.2d 1092, 1098 (9th Cir. 1983)). In
determining whether a rule is interpretive or legislative we ‘‘need not accept the agency characterization
at face value.’’ Hemp Indus., 333 F.3d at 1087 (citing
Gunderson v. Hood, 268 F.3d 1149, 1154 n.27 (9th Cir.
2001)).
The notice and comment requirements of APA sec.
553 ‘‘are intended to assist judicial review as well as
to provide fair treatment for persons affected by a
rule.’’ Home Box Office, Inc. v. FCC, 567 F.2d 9, 35
(D.C. Cir. 1977). Accordingly, ‘‘there must be an exchange of views, information, and criticism between
interested persons and the agency.’’ Id. Additionally,
because ‘‘the opportunity to comment is meaningless
unless the agency responds to significant points
raised by the public’’, an agency is required to respond
to significant comments.11 Id. at 35-36. However,
‘‘[t]he failure to respond to comments is significant
only insofar as it demonstrates that the agency’s decision was not based on a consideration of the relevant
factors.’’ Sherley v. Sebelius, 689 F.3d 776, 784 (D.C.

‘‘[O]nly comments which, if true, raise points relevant to the
agency’s decision and which, if adopted, would require a change
in an agency’s proposed rule cast doubt on the reasonableness of
a position taken by the agency. Moreover, comments which
themselves are purely speculative and do not disclose the factual
or policy basis on which they rest require no response.’’ Home
Box Office, Inc. v. FCC, 567 F.2d 9, 35 n.58 (D.C. Cir. 1977); see
also Am. Mining Cong. v. EPA, 965 F.2d 759, 771 (9th Cir. 1992)
(citing Home Box Office, 567 F.2d at 35 & n.58).
11

111a
Cir. 2012) (quoting Covad Commc’ns v. FCC, 450 F.3d
528, 550 (D.C. Cir. 2006)).
B. Judicial Review of Agency Decisionmaking
– State Farm Review
Pursuant to APA sec. 706(2)(A), a court must ‘‘hold
unlawful and set aside agency action, findings, and
conclusions’’ that the court finds to be ‘‘arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law’’. A court’s review under this
‘‘standard is narrow and a court is not to substitute its
judgment for that of the agency.’’ Motor Vehicle Mfrs.
Ass’n of the U.S. v. State Farm Mut. Auto. Ins. Co., 463
U.S. 29, 43 (1983); see also Judulang v. Holder, 565
U.S. ___, ___, 132 S. Ct. 476, 483 (2011); Citizens to
Pres. Overton Park, Inc. v. Volpe, 401 U.S. 402, 416
(1971), abrogated on other grounds by Califano v.
Sanders, 430 U.S. 99 (1977). However, a reviewing
court must ensure that the agency ‘‘engaged in reasoned decisionmaking.’’ Judulang, 565 U.S. at ___,
132 S. Ct. at 484. To engage in reasoned decisionmaking, ‘‘the agency must examine the relevant data and
articulate a satisfactory explanation for its action including a ‘rational connection between the facts found
and the choice made.’ ” State Farm, 463 U.S. at 43
(quoting Burlington Truck Lines v. United States, 371
U.S. 156, 168 (1962)).
In reviewing an agency action a court must determine ‘‘whether the decision was based on a consideration of the relevant factors and whether there has
been a clear error of judgment.’’ Id. (quoting Bowman
Transp., Inc. v. Arkansas-Best Freight Sys., Inc., 419
U.S. 281, 285 (1974)); see also Judulang, 565 U.S. at
___, 132 S. Ct. at 484. ‘‘Normally, an agency rule
would be arbitrary and capricious if the agency has
relied on factors which Congress has not intended it
to consider, entirely failed to consider an important

112a
aspect of the problem, offered an explanation for its
decision that runs counter to the evidence before the
agency, or is so implausible that it could not be ascribed to a difference in view or the product of agency
expertise.’’ State Farm, 463 U.S. at 43.
In providing a reasoned explanation for agency action that departs from an agency’s prior position the
agency must ‘‘display awareness that it is changing
position.’’ FCC v. Fox Television Stations, Inc., 556
U.S. 502, 515 (2009) (citing United States v. Nixon,
418 U.S. 683, 696 (1974)). However, the agency need
not demonstrate ‘‘that the reasons for the new policy
are better than the reasons for the old one’’. Id.
In examining an agency’s explanation for issuing a
rule a reviewing court ‘‘‘may not supply a reasoned basis for the agency’s action that the agency itself has
not given.’ ” State Farm, 463 U.S. at 43 (quoting SEC
v. Chenery Corp., 332 U.S. 194, 196 (1947)); see also
Carpenter Family Invs., LLC v. Commissioner, 136
T.C. 373, 380, 396 n.30 (2011). Similarly, when an
agency ‘‘relie[s] on multiple rationales (and has not
done so in the alternative), and * * * [a reviewing
court] conclude[s] that at least one of the rationales is
deficient,’’ Nat’l Fuel Gas Supply Corp. v. FERC, 468
F.3d 831, 839 (D.C. Cir. 2006) (citing Allied-Signal,
Inc. v. U.S. Nuclear Regulatory Comm’n, 988 F.2d
146, 150-151 (D.C. Cir. 1993), and Consol. Edison Co.
of N.Y. v. FERC, 823 F.2d 630, 641-642 (D.C. Cir.
1987)), the court cannot sustain the agency action on
the basis of the sufficient rationale unless the court is
certain that the agency would have taken the same
action ‘‘even absent the flawed rationale’’, id. However, the reviewing court must ‘‘uphold a decision of
less than ideal clarity if the agency’s path may reasonably be discerned.’’ State Farm, 463 U.S. at 43 (quoting Bowman Transp., 419 U.S. at 286).

113a
C. Judicial Review of Agency Statutory Construction – Chevron Review
A court reviews an agency’s authoritative construction of a statute under the two-step test first articulated in Chevron, U.S.A., Inc. v. Natural Res. Def.
Council, Inc., 467 U.S. 837, 842 (1984). See Mayo
Found. for Med. Educ. & Research v. United States,
562 U.S. 44, 55-58 (2011). In Mayo Found., the Supreme Court clarified that both specific authority regulations and general authority regulations are to be
accorded Chevron deference.12 See id.
Under Chevron step 1, ‘‘applying the ordinary tools
of statutory construction,’’ City of Arlington v. FCC,
569 U.S. ___, ___, 133 S. Ct. 1863, 1868 (2013), a court
must determine ‘‘whether Congress has directly spoken to the precise question at issue. If the intent of
Congress is clear, that is the end of the matter; for the
court, as well as the agency, must give effect to the
unambiguously expressed intent of Congress.’’ Chevron, 467 U.S. at 842-843. Under Chevron step 2, a
court must defer to the agency’s authoritative interpretation of an ambiguous statute ‘‘unless it is ‘arbitrary or capricious in substance, or manifestly contrary to the statute.’ ” Mayo Found., 562 U.S. at 53
(quoting Household Credit Servs., Inc. v. Pfennig, 541
The Supreme Court explained that ‘‘Chevron deference is appropriate ‘when it appears that Congress delegated authority to
the agency generally to make rules carrying the force of law, and
that the agency interpretation claiming deference was promulgated in the exercise of that authority.’” Mayo Found. for Med.
Educ. & Research v. United States, 562 U.S. 44, 57 (2011) (quoting United States v. Mead Corp., 533 U.S. 218, 226-227 (2001)).
The Supreme Court concluded that when Treasury issues general authority regulations after full notice and comment procedures, these conditions are met and those regulations are therefore entitled to Chevron deference. See id. at 56-57.

12

114a
U.S. 232, 242 (2004)); see also Judulang, 565 U.S. at
___, 132 S. Ct. at 483 n.7.
Chevron deference applies even where an agency
adopts a construction that conflicts with a prior judicial construction of the statute. See Nat’l Cable & Telecomms. Ass’n v. Brand X Internet Servs., 545 U.S.
967, 982-983 (2005). However, if a precedential case
holds that a statute unambiguously expresses a congressional intent that is contrary to the agency’s construction of the statute, the prior judicial construction
controls. See id.; see also United States v. Home Concrete & Supply, LLC, 566 U.S. ___, ___, 132 S. Ct.
1836, 1844 (2012).
D. Harmless Error
APA sec. 706 instructs reviewing courts to take
‘‘due account * * * of the rule of prejudicial error.’’ See
also Nat’l Ass’n of Home Builders v. Defenders of Wildlife, 551 U.S. 644, 659-660 (2007) (‘‘In administrative
law, as in federal civil and criminal litigation, there is
a harmless error rule[.]’’ (quoting PDK Labs. Inc. v.
DEA, 362 F.3d 786, 799 (D.C. Cir. 2004))). This rule
reflects the notion that ‘‘[i]f the agency’s mistake did
not affect the outcome, if it did not prejudice the petitioner, it would be senseless to vacate’’ the agency action. PDK Labs., 362 F.3d at 799.
III. Preliminary Administrative Law Issues
The parties disagree whether the final rule is a legislative rule or an interpretive rule. The parties also
disagree regarding the standard of review that we
should apply. We therefore address these issues before considering the validity of the final rule.

115a
A. APA Sec. 553 Applies to the Final Rule.
Petitioner contends that the final rule is a legislative rule under APA sec. 553(b) and is therefore subject to the notice and comment requirements of APA
sec. 553 because, if valid, it would have the force of
law. Alternatively, petitioner contends that if the final rule were an interpretive rule, it would ‘‘not have
the force and effect of law’’, Shalala v. Guernsey Mem’l
Hosp., 514 U.S. 87, 99 (1995), and therefore the final
rule would not be binding on this Court. Respondent
agrees that the final rule has the force of law but disagrees with petitioner’s contention that it is a legislative rule. However, respondent declined to argue this
issue on brief or at oral argument.
Instead, respondent contends that we need not decide this issue because Treasury complied with the notice and comment requirements. However, petitioner
contends that Treasury failed to adequately explain
the basis of the final rule, and Treasury’s obligation to
explain the basis of the final rule depends, at least in
part, on its being a legislative rule subject to the notice
and comment requirements of APA sec. 553. See APA
sec. 553(c); cf. Internal Revenue Manual pt.
32.1.5.4.7.5.1(2) (Sept. 30, 2011) (‘‘[M]ost IRS/Treasury regulations will be interpretative regulations because they fill gaps in legislation or have a prior existence in the law.’’); id. pt. 32.1.5.4.7.3(1) (‘‘In the Explanation of Provisions section, the drafting team should
describe the substantive provisions of the regulation
in clear, concise, plain language * * * . It is not necessary to justify the rules that are being proposed or
adopted or alternatives that were considered.’’).13 Petitioner also contends that Treasury failed to respond
The current version of Internal Revenue Manual pt.
32.1.5.4.7.3(1) (Oct. 20, 2014) omits the second sentence.
13

116a
to significant comments, and Treasury’s obligation to
respond to significant comments is derived, at least in
part, from the notice and comment requirements of
APA sec. 553. See Home Box Office, 567 F.2d at 3536. Moreover, we cannot avoid this issue because petitioner alternatively contends that the final rule
would not bind this Court if it were an interpretive
rule. Consequently, we will decide this issue.
Pursuant to section 7805(a) the Secretary is authorized to ‘‘prescribe all needful rules and regulations for the enforcement of ” the Code. Such regulations carry the force of law, and the Code imposes penalties for failing to follow them. See, e.g., sec.
6662(b)(1). We therefore conclude that ‘‘Congress has
delegated legislative power to’’ Treasury. Am. Mining
Cong., 995 F.2d at 1109.
We further conclude that Treasury intended for
the final rule to have the force of law for the following
reasons: (1) the parties stipulated – and we agree, see
Xilinx Inc. v. Commissioner, 125 T.C. 37 – that the adjustments to petitioner’s income can be sustained only
on the basis of the final rule, see Hemp Indus., 333
F.3d at 1087, and (2) in promulgating the final rule
Treasury invoked its general legislative rule-making
authority under section 7805(a), see id. The final rule
is therefore a legislative rule. See Am. Mining Cong.,
995 F.2d at 1109.
Because it is a legislative rule and Treasury did
not find for good cause that notice and comment were
impracticable, unnecessary, or contrary to the public
interest, see APA sec. 553(b)(A) and (B), APA sec. 553
applies to the final rule. We must therefore also consider whether Treasury satisfied its obligations under
APA sec. 553(b) and (c) in issuing the final rule.

117a
B. The Final Rule Must Satisfy State Farm’s
Reasoned Decisionmaking Standard.
Petitioner contends that we should review the final
rule under State Farm. Respondent contends that we
should review the final rule under Chevron. For the
reasons that follow, we conclude that – regardless of
the ultimate standard of review – the final rule must
satisfy State Farm’s reasoned decisionmaking standard.
Respondent contends that State Farm review is
not appropriate because the interpretation and implementation of section 482 do not require empirical
analysis. Similarly, respondent repeatedly argues
that section 482 does not require allocations to be
made with reference to uncontrolled party conduct.
But ‘‘[t]he purpose of section 482 is to place a controlled taxpayer on a tax parity with an uncontrolled
taxpayer, by determining according to the standard of
an uncontrolled taxpayer, the true taxable income
from the property and business of a controlled taxpayer. * * * The standard to be applied in every case
is that of an uncontrolled taxpayer dealing at arm’s
length with another uncontrolled taxpayer.’’ Commissioner v. First Sec. Bank of Utah, 405 U.S. 394, 400
(1972) (quoting section 1.482-1(b)(1), Income Tax
Regs. (1971)); accord sec. 1.482-1(a)(1), (b)(1), Income
Tax Regs.; Treasury Department Technical Explanation of the 2001 U.S.-U.K. Income Tax Convention,
art. 9; Treasury Department Technical Explanation of
the 1997 U.S.-Ir. Income Tax Convention and Protocol, art. 9, Tax Treaties (CCH) para. 4435, at 103,223;
Treasury Department Technical Explanation of the
2006 U.S. Model Income Tax Convention, art. 9. For
these reasons we have previously stated that ‘‘the de-

118a
termination under section 482 is essentially and intensely factual’’. Procacci v. Commissioner, 94 T.C.
397, 412 (1990).
Section 1.482-1(b)(1), Income Tax Regs., provides
that ‘‘[i]n determining the true taxable income of a
controlled taxpayer, the standard to be applied in
every case is that of a taxpayer dealing at arm’s length
with an uncontrolled taxpayer.’’ In Xilinx Inc. v. Commissioner, 125 T.C. at 53-55, we held that the arm’slength standard always requires an analysis of what
unrelated entities do under comparable circumstances. Similarly, in promulgating the final rule
Treasury explicitly considered whether unrelated parties would share stock-based compensation costs in
the context of a QCSA. See T.D. 9088, 2003-2 C.B. at
843 (‘‘Treasury and the IRS believe that if a significant element of that compensation consists of stockbased compensation, the party committing employees
to the arrangement generally would not agree to do so
on terms that ignore the stock-based compensation.’’).
Treasury necessarily decided an empirical question
when it concluded that the final rule was consistent
with the arm’s-length standard.
Respondent counters that Treasury should be permitted to issue regulations modifying – or even abandoning – the arm’s-length standard. But the preamble to the final rule does not justify the final rule on
the basis of any modification or abandonment of the
arm’s-length standard,14 and respondent concedes
For example, the preamble does not say that controlled transactions can never be comparable to uncontrolled transactions because related and unrelated parties always occupy materially
different circumstances. Cf. Xilinx Inc. v. Commissioner, 598
F.3d at 1197 (Fisher, J., concurring) (‘‘The Commissioner * * *
contends that analyzing comparable transactions is unhelpful in
14

119a
that the purpose of section 482 is to achieve tax parity.15 The preamble also did not dismiss any of the
evidence submitted by commentators regarding unrelated party conduct as addressing an irrelevant or inconsequential factor. See id., 2003-2 C.B. at 842-843.
We therefore need not decide whether, under Brand
X, 545 U.S. at 982-983, Treasury would be free to modify or abandon the arm’s-length standard because it
has not done so here. See Chenery Corp., 332 U.S. at
196; Carpenter Family Invs., LLC v. Commissioner,
136 T.C. at 380, 396 n.30.
The validity of the final rule therefore turns on
whether Treasury reasonably concluded, see State
Farm, 463 U.S. at 43, that it is consistent with the
arm’s-length standard, and that is necessarily an empirical determination. The reasonableness of Treasury’s conclusion in no way depends on its interpretation of section 482 or any other statute. As the Supreme Court recently articulated, State Farm review
is ‘‘the more apt analytic framework’’ where the challenged regulation does not rely on an agency’s interpretation of a statute. Judulang, 565 U.S. at ___ n.7,
132 S. Ct. at 483.
situations where related and unrelated parties always occupy
materially different circumstances.’’).
The preamble states that ‘‘Treasury and the IRS do not agree
with the comments that assert that taking stock-based compensation into account in the QCSA context would be inconsistent
with the arm’s length standard in the absence of evidence that
parties at arm’s length take stock-based compensation into account in similar circumstances.’’ T.D. 9088, 2003-2 C.B. 841, 842.
However, the preamble never suggests that the final rule could
be consistent with the arm’s-length standard if evidence showed
that unrelated parties would not share stock-based compensation costs or that an evidentiary inquiry was unnecessary. See
id., 2003-2 C.B. at 842-843.
15

120a
Nevertheless, respondent contends that we should
not review the final rule under State Farm because
the Supreme Court has never, and this Court has
rarely, reviewed Treasury regulations under State
Farm. However, respondent concedes that Treasury
is subject to the APA, and respondent has not advanced any justification for exempting Treasury regulations from State Farm review. The Supreme Court
has stated that ‘‘[i]n the absence of such justification,
we are not inclined to carve out an approach to administrative review good for tax law only. To the contrary,
we have expressly ‘[r]ecogniz[ed] the importance of
maintaining a uniform approach to judicial review of
administrative action.’ ” Mayo Found., 562 U.S. at 55
(quoting Dickinson v. Zurko, 527 U.S. 150, 154 (1999)
(alteration in original)); see also Dominion Res., Inc.
v. United States, 681 F.3d 1313, 1319 (Fed. Cir. 2012)
(invalidating the associated-property rule in section
1.263A-11(e)(1)(ii)(B), Income Tax Regs., under State
Farm).
Ultimately, however, whether State Farm or Chevron supplies the standard of review is immaterial because Chevron step 216 incorporates the reasoned decisionmaking standard of State Farm. See Judulang,
565 U.S. at ___ n.7, 132 S. Ct. at 483 (stating that,
under either standard, the ‘‘analysis would be the
same, because under Chevron step two, we ask
whether an agency interpretation is ‘arbitrary or capricious in substance’ ” (quoting Mayo Found., 562
U.S. at 53)); Torres-Valdivias v. Holder, 766 F.3d
1106, 1114 n.5 (9th Cir. 2014) (citing Judulang, 565
U.S. at ll n.7, 132 S. Ct. at 483); Agape Church, Inc. v.

The parties agree that sec. 482 is ambiguous. These cases
would therefore be resolved at Chevron step 2.
16

121a
FCC, 738 F.3d 397, 410 (D.C. Cir. 2013) (citing Judulang, 565 U.S. at ___ n.7, 132 S. Ct. at 483). Because
the validity of the final rule turns on whether Treasury reasonably concluded that it is consistent with the
arm’s-length standard, the final rule must – in any
event – satisfy State Farm’s reasoned decisionmaking
standard. Accordingly, we will examine whether the
final rule satisfies that standard without deciding
whether Chevron or State Farm provides the ultimate
standard of review.
IV. Whether the Final Rule Satisfies State Farm’s
Reasoned Decisionmaking Standard
Petitioner contends that the final rule is invalid
because (A) it lacks a basis in fact, (B) Treasury failed
to rationally connect the choice it made with the facts
it found, (C) Treasury failed to respond to significant
comments, and (D) the final rule is contrary to the evidence before Treasury. Respondent disagrees.
A. The Final Rule Lacks a Basis in Fact.
Petitioner contends that the final rule lacks a basis
in fact because Treasury issued the final rule without
any evidence that unrelated parties would ever agree
to share stock-based compensation costs. Respondent
contends that (1) Treasury did not rely solely on its
belief that unrelated parties entering into QCSAs
would generally share stock-based compensation costs
but also on the commensurate-with-income standard
and (2) Treasury was sufficiently experienced with
cost-sharing agreements to conclude that unrelated
parties entering into QCSAs would generally share
stock-based compensation costs.
1. The Commensurate-With-Income Standard Cannot Justify the Final Rule.
Although Treasury referred to the commensuratewith-income standard in the preamble to the final

122a
rule, it relied on its belief that the final rule was required by – or was at least consistent with – the arm’slength standard.17 In Xilinx Inc. v. Commissioner, 125
T.C. at 56-58, we concluded that Congress never intended for the commensurate-with-income standard
to supplant the arm’s-length standard. In the 1988
White Paper, Treasury and the IRS similarly concluded that Congress intended for the commensuratewith-income standard to work consistently with the
arm’s-length standard. See Notice 88-123, 1988-2
C.B. 458, 472, 475. Treasury has since repeatedly reinforced this conclusion in technical explanations to
numerous income tax treaties.18 See, e.g., Treasury
Department Technical Explanation of the 2001 U.S.U.K. Income Tax Convention, art. 9, Tax Treaties
In its response to comments asserting that stock-based compensation does not constitute an economic cost to the issuing corporation, Treasury appears to have relied exclusively on the
arm’s-length standard. See T.D. 9088, 2003-2 C.B. at 843
(‘‘Treasury and the IRS continue to believe that requiring stockbased compensation to be taken into account in the context of
QCSAs is appropriate. The final regulations provide that stockbased compensation must be taken into account in the context of
QCSAs because such a result is consistent with the arm’s length
standard.’’).
17

‘‘A tax treaty is negotiated by the United States with the active
participation of the Treasury. The Treasury’s reading of the
treaty is ‘entitled to great weight.’” Xilinx Inc. v. Commissioner,
598 F.3d at 1196-1197 (Noonan, J.) (quoting United States v. Stuart, 489 U.S. 353, 369 (1989)), aff’g 125 T.C. 37 (2005). Therefore,
‘‘[e]ven if the treaty and the Technical Explanation should be
held not to operate as law trumping the hapless * * * [final rule],
treaty and explanation act as guides. They tell us what the
Treasury * * * had in mind’’, Xilinx Inc. v. Commissioner, 567
F.3d 482, 500-501 (9th Cir. 2009) (Noonan, J., dissenting), rev’g
and remanding 125 T.C. 37, withdrawn, 592 F.3d 1017 (9th Cir.
2010), in issuing the final rule.
18

123a
(CCH) para. 10,911, at 201,306-201,307; Treasury Department Technical Explanation of the 1997 U.S.-Ir.
Income Tax Convention and Protocol, Tax Treaties
(CCH) para. 4435, at 103,223; Treasury Department
Technical Explanation of the 2006 U.S. Model Income
Tax Convention, art. 9, Tax Treaties (CCH) para. 215,
at 10,640-10,641. The preamble to the final rule does
not indicate that Treasury intended to abandon this
conclusion and we conclude that it did not.19
Moreover, because Treasury did not rely exclusively on the commensurate-with-income standard,
we cannot sustain the final rule solely on that basis if
we decide that Treasury’s reliance on the arm’s-length
standard in issuing the final rule was unreasonable.
See Chenery Corp., 332 U.S. at 196; Nat’l Fuel Gas
Supply, 468 F.3d at 839 (citing Allied-Signal, 988 F.2d
at 150-151, and Consol. Edison, 823 F.2d at 641-642).
Accordingly, the commensurate-with-income standard, as interpreted by Treasury, cannot provide a sufficient basis for the final rule.
2. Treasury’s Unsupported Assertion Cannot Justify the Final Rule.
A court will generally not override an agency’s
‘‘reasoned judgment about what conclusions to draw
from technical evidence or how to adjudicate between
rival scientific [or economic] theories’’. Tripoli Rocketry Ass’n v. Bureau of Alcohol, Tobacco, Firearms &
Explosives, 437 F.3d 75, 83 (D.C. Cir. 2006). However,
Even were we to conclude that Treasury intended to adopt a
more expansive understanding of the commensurate-with-income standard, we would be unable to sustain the final rule on
that basis because Treasury never acknowledged that it was
changing its position. See FCC v. Fox Television Stations, Inc.,
556 U.S. 502, 515 (2009) (citing United States v. Nixon, 418 U.S.
683, 696 (1974)).
19

124a
‘‘where an agency has articulated no reasoned basis
for its decision – where its action is founded on unsupported assertions or unstated inferences – * * * [a
court] will not ‘abdicate the judicial duty carefully to
‘‘review the record to ascertain that the agency has
made a reasoned decision based on reasonable extrapolations from some reliable evidence.” ’ ” Id. (quoting
Am. Mining Cong. v. EPA, 907 F.2d 1179, 1187 (D.C.
Cir. 1990)).
Respondent concedes that (1) in adopting the final
rule, Treasury took the position that it was not obligated to engage in fact finding or to follow evidence
gathering procedures; (2) the files maintained by
Treasury relating to the final rule did not contain any
empirical or other evidence supporting Treasury’s belief that unrelated parties entering into QCSAs would
generally share stock-based compensation costs; (3)
the files maintained by Treasury relating to the final
rule did not have any record that Treasury searched
any database that could have contained agreements
between unrelated parties; and (4) Treasury was unaware of any written agreement – or of any transaction
– between unrelated parties that required one party
to pay or reimburse the other party for amounts attributable to stock-based compensation.20
The preamble to the final rule offered only Treasury’s belief that unrelated parties entering into

Treasury’s failure to conduct any factfinding before issuing the
final rule is also evident in the preamble to the final rule. See
T.D. 9088, 2003-2 C.B. at 842 (‘‘While the results actually realized in similar transactions under similar circumstances ordinarily provide significant evidence in determining whether a controlled transaction meets the arm’s length standard, in the case
of QCSAs such data may not be available.’’ (Emphasis added.)).
20

125a
QCSAs would generally share stock-based compensation costs. Specifically, the preamble to the final rule
states that, in the context of a hypothetical QCSA between unrelated parties to develop patentable pharmaceutical products, ‘‘Treasury and the IRS believe
that if a significant element of that compensation consists of stock-based compensation, the party committing employees to the arrangement generally would
not agree to do so on terms that ignore the stock-based
compensation.’’ T.D. 9088, 2003-2 C.B. at 843. Treasury, however, failed to provide a reasoned basis for
reaching this conclusion from any evidence in the administrative record. See Tripoli Rocketry, 437 F.3d at
83. Indeed, ‘‘every indication in the record points the
other way’’. State Farm, 463 U.S. at 57 (internal quotation omitted); see infra part IV.C.
Respondent defends Treasury’s failure to provide a
reasoned basis for its conclusion from any evidence in
the administrative record on the notion that ‘‘[t]here
are some propositions for which scant empirical evidence can be marshaled’’. See Fox Television, 556 U.S.
at 519. This may be true regarding certain propositions, see id. (‘‘the harmful effect of broadcast profanity on children is one of them’’), but we do not agree
that the belief that unrelated parties would share
stock-based compensation costs in the context of a
QCSA is one of them. First, commentators submitted
significant evidence regarding this proposition. See
infra part IV.C. Second, we were able to reach a definitive factual determination on the basis of significant evidence regarding this very proposition in Xilinx. See Xilinx Inc. v. Commissioner, 125 T.C. at 5862. Third, Treasury could not have rationally concluded that this is a proposition ‘‘for which scant empirical evidence can be marshaled’’, see Fox Television,

126a
556 U.S. at 519, without attempting to marshal empirical evidence in the first instance, which respondent concedes it did not do.
Relying on Peck v. Thomas, 697 F.3d 767 (9th Cir.
2012), respondent further contends that we must defer to Treasury’s expertise with respect to whether the
parties operating at arm’s length would share stockbased compensation. At issue in Peck was a regulation issued by the Bureau of Prisons that denied early
release to inmates with a felony conviction for certain
enumerated offenses. In issuing the regulation the
Bureau of Prisons expressly relied on its ‘‘correctional
experience’ ” in determining which offenses warrant
preclusion from early release but did not disclose any
statistical studies to support its conclusions. See id.
at 773 (quoting 74 Fed. Reg. 1895 (Jan. 14, 2009)).
The U.S. Court of Appeals for the Ninth Circuit rejected an inmate’s argument that the Bureau of Prisons violated the APA in issuing this regulation because it did not develop statistical evidence to support
its conclusions. See id. at 775-776. The Court of Appeals reasoned that the Bureau of Prisons was entitled to rely on its experience and the APA did not require it to develop statistical evidence to support its
conclusions. See id. (citing Sacora v. Thomas, 628
F.3d 1059, 1067, 1069 (9th Cir. 2010)).
Respondent’s reliance on Peck is misplaced. First,
in Peck, the Bureau of Prisons relied on its extensive
correctional experience in determining which offenses
warrant preclusion from early release. Here, by contrast, Treasury admits that it had no knowledge of
any transactions in which parties operating at arm’s
length shared stock-based compensation.
Second, the preamble to the regulation at issue in
Peck expressly relied on the Bureau of Prisons’ exten-

127a
sive, hands-on correctional experience. Here, by contrast, the preamble to the final rule does not rely on
Treasury’s experience as a party to arm’s-length costsharing agreements – or even on any experience
Treasury may have had in examining the arm’slength cost-sharing agreements of taxpayers it regulates. Indeed, the preamble to the final rule all but
disclaimed Treasury’s reliance on any such experience.
Third, the administrative record for the regulation
at issue in Peck contained no evidence contradicting
the Bureau of Prisons’ correctional experience. Here,
by contrast, commentators introduced significant evidence showing that parties operating at arm’s length
would not share stock-based compensation. See infra
part IV.C. Peck does not support the contention that
an agency can rely on unsupported assertions in the
face of significant contrary evidence in the administrative record.
We conclude that (1) by failing to engage in any
fact finding, Treasury failed to ‘‘examine the relevant
data’’, State Farm, 463 U.S. at 43, and (2) Treasury
failed to support its belief that unrelated parties
would share stock-based compensation costs in the
context of a QCSA with any evidence in the record.
Accordingly, the final rule lacks a basis in fact.
B. Treasury Failed To Rationally Connect the
Choice It Made With the Facts It Found.
Petitioner contends that the preamble to the final
rule fails to rationally connect the choice that Treasury made in issuing a uniform final rule with the facts
on which it purported to rely. See id. The preamble
to the final rule indicates that Treasury relied on its
belief that unrelated parties entering into QCSAs to
develop ‘‘high-profit intangibles’’ would share stock-

128a
based compensation if the stock-based compensation
was a ‘‘significant element’’ of the compensation. T.D.
9088, 2003-2 C.B. at 842-843. However, petitioner alleges, and respondent does not dispute, that (1) many
QCSAs do not deal with ‘‘high-profit intangibles’’ and
(2) stock-based compensation is often not a ‘‘significant element’’ of the compensation of the employees of
taxpayers that enter into QCSAs. Yet the final rule
does not distinguish between QCSAs to develop ‘‘highprofit intangibles’’ in which stock-based compensation
was a ‘‘significant element’’ of the compensation and
QCSAs in which these elements are not present. Petitioner contends – and we agree – that the preamble’s
explanation for Treasury’s decision is therefore inadequate. See State Farm, 463 U.S. at 43.
Indeed, respondent does not directly refute petitioner’s contention. Instead, respondent defends the
final rule’s inflexibility by arguing that the final rule
is reasonable because it eases administrative burdens.21
Improving administrability can be a reasonable
basis for agency action. See Mayo Found., 562 U.S. at
59 (‘‘[Treasury] reasonably concluded that its full-time
employee rule would ‘improve administrability[.]’ ”
(quoting T.D. 9167, 2005-1 C.B. 261, 262)). However,

Respondent also argues that petitioner cannot complain if the
final rule sometimes produces results that are inconsistent with
the arm’s-length standard because the QCSA regime provides an
‘‘elective assured treatment’’. However, Treasury rejected commentators’ suggestion to issue the final rule as a safe harbor, see
T.D. 9088, 2003-2 C.B. at 843-844, and we conclude that petitioner has not forfeited its right to challenge the validity of the
final rule because it chose to structure the R&D cost-sharing
agreement as a QCSA.
21

129a
Treasury failed to give this – or any other – explanation for treating all QCSAs identically in the preamble
to the final rule,22 cf. id., and we cannot reasonably
discern, see State Farm, 463 U.S. at 43, that this was
Treasury’s rationale for adopting a uniform final rule
because the administrative benefits of a uniform final
rule are entirely speculative.23
Moreover, even if we could discern that this was
Treasury’s intent, we would be unable to sustain the
final rule on that basis because Treasury did not disclose its factual findings and we would therefore be
unable to evaluate whether Treasury reasonably concluded that the purported administrative benefits of a
uniform final rule can justify erroneously allocating
income in some of those cases. We therefore conclude
that, by treating all QCSAs identically, Treasury
failed to articulate a ‘‘rational connection between the
facts found and the choice made.’’ State Farm, 463
U.S. at 43 (quoting Burlington Truck Lines, 371 U.S.
at 168).

The preamble to the final rule discusses administrability only
with respect to Treasury’s selection of the exercise spread
method and the elective grant date method as the only available
valuation methods. See T.D. 9088, 2003-2 C.B. at 844.
22

We also note that unlike the statutory provision at issue in
Mayo Found., sec. 482 purports only to empower the Secretary to
allocate income among controlled entities but not to directly govern taxpayer conduct. See sec. 1.482-1(a)(3), Income Tax Regs.
(‘‘If necessary to reflect an arm’s length result, a controlled taxpayer may report * * * the results of its controlled transactions
based upon prices different from those actually charged.’’ (Emphasis added.)). It is accordingly unclear whether administrability concerns are relevant in the context of sec. 482. However, because we cannot reasonably discern that Treasury relied on administrability concerns here, we need not resolve this question.
23

130a
C. Treasury Failed To Respond to Significant
Comments.
Petitioner contends that Treasury failed to respond to significant comments submitted by commentators. Respondent contends that Treasury was not
persuaded by the submitted comments.
Several commentators informed Treasury that
they knew of no evidence of any transaction between
unrelated parties that required one party to reimburse the other party for amounts attributable to
stock-based compensation. Additionally, AeA informed Treasury that a survey of its member companies’ arm’s-length codevelopment and joint venture
agreements found none in which the parties agreed to
share stock-based compensation costs. We found similar evidence to be relevant in Xilinx. See Xilinx Inc.
v. Commissioner, 125 T.C. at 59. Treasury never directly responded to this evidence. Instead, Treasury
reasoned that the final rule would not be inconsistent
with the arm’s-length standard in the absence of evidence that unrelated parties share stock-based compensation costs because relevant data may not be
available. See T.D. 9088, 2003-2 C.B. at 842. Treasury’s response, however, in no way refutes the commentators’ evidence that unrelated parties never
share such compensation.
AeA and PwC further represented to Treasury that
they conducted multiple searches of the EDGAR system and found no cost-sharing agreements between
unrelated parties in which the parties agreed to share
either the exercise spread or grant date value of stockbased compensation. Treasury never responded to
this evidence.
Several commentators identified arm’s-length
agreements in which stock-based compensation was

131a
not shared or reimbursed. Treasury responded to
these comments by stating that ‘‘[t]he uncontrolled
transactions cited by commentators do not share
enough characteristics of QCSAs involving the development of high-profit intangibles to establish that
parties at arm’s length would not take stock options
into account in the context of an arrangement similar
to a QCSA.’’ Id. In particular, Treasury stated that
[t]he other agreements highlighted by commentators establish arrangements that differ significantly from QCSAs in that they provide for the
payment of markups on cost or of non-cost-based
service fees to service providers within the arrangement or for the payment of royalties among
participants in the arrangement. Such terms,
which may have the effect of mitigating the impact
of using a cost base to be shared or reimbursed that
is less than comprehensive, would not be permitted by the QCSA regulations. * * * [Id.]
However, the Amylin-HMR collaboration agreement
that AeA identified and PwC submitted did not ‘‘provide for the payment of markups on cost or of non-costbased service fees to service providers within the arrangement or for the payment of royalties among participants in the arrangement.’’ Id. Respondent contends that the Amylin-HMR collaboration agreement
is not comparable to a QCSA for other reasons, but
Treasury failed to identify those reasons in the preamble to the final rule.24 See Chenery Corp., 332 U.S.

The Amylin-HMR collaboration agreement also would permit
the sharing of stock-based compensation based on the intrinsic
value method, under which options issued in-the-money would
be recognized as an expense. However, the treatment of in-the24

132a
at 196; Carpenter Family Invs., LLC v. Commissioner,
136 T.C. at 380, 396 n.30. More significantly, Treasury did not explain why identical transactions are necessary to prove whether unrelated parties would
share stock-based compensation costs in the context
of a QCSA. In Xilinx Inc. v. Commissioner, 125 T.C.
at 58-62, we found that unrelated parties would not
share the exercise spread or grant date value of stockbased compensation, and in doing so we did not rely
on transactions that were identical or substantially
similar to QCSAs. Rather, we relied on the behavior
of uncontrolled parties in comparable business transactions as well as on other evidence. See id.25
FEI provided model accounting procedures from
COPAS that recommended against sharing stockbased compensation because it is difficult to value.
Treasury never responded to this evidence.
AeA, SoFTEC, KPMG, and PwC cited regulations
that prohibit contractors from charging the Federal
Government for stock-based compensation. Treasury
responded to this evidence by stating that ‘‘[g]overnment contractors that are entitled to reimbursement
for services on a cost-plus basis under government
procurement law assume substantially less entrepreneurial risk than that assumed by service providers
that participate in QCSAs’’. See T.D. 9088, 2003-2
C.B. at 842. However, this distinction rings hollow in
the face of other evidence submitted by commentators
that showed that even parties to agreements in which
money stock options is not at issue here, and the final rule explicitly rejected the use of the intrinsic value method. See T.D.
9088, 2003-2 C.B. at 844.
Treasury appears to require a similar approach in analyzing
comparability under the sec. 482 regulations. See sec. 1.482-1(d),
Income Tax Regs.
25

133a
the parties assume considerable entrepreneurial risk
do not share stock-based compensation costs.
AeA, Global, and PwC explained that, from an economic perspective, unrelated parties would be unwilling to share stock-based compensation costs because
the value of stock-based compensation is speculative,
potentially large, and completely outside the control
of the parties. SoFTEC submitted Baumol and
Malkiel’s detailed economic analysis reaching the
same conclusion. We found similar evidence to be relevant in Xilinx. See Xilinx Inc. v. Commissioner, 125
T.C. at 61. Treasury never directly responded to this
evidence. Instead, Treasury construed these comments as objections to Treasury’s selection of the exercise spread method and the grant date method as
the only available valuation methods. See T.D. 9088,
2003-2 C.B. at 844. Treasury responded that these
methods are consistent with the arm’s-length standard and are administrable. See id. Treasury, however, never explained how these methods could be consistent with the arm’s-length standard if unrelated
parties would not share them or why unrelated parties would share stock-based compensation costs in
any other way.
The Baumol and Malkiel analysis also concluded
that there is no net economic cost to a corporation or
its shareholders from the issuance of stock-based compensation. Treasury identified this evidence in the
preamble to the final rule but did not directly respond
to it. See id., 2003-2 C.B. at 843. Instead, the preamble states that ‘‘[t]he final regulations provide that
stock-based compensation must be taken into account
in the context of QCSAs because such a result is consistent with the arm’s length standard.’’ Id. Treasury, however, never explained why unrelated parties
would share stock-based compensation costs – or how

134a
the commensurate-with-income standard could justify
the final rule – if stock-based compensation is not an
economic cost to the issuing corporation or its shareholders.26
Mr. Grundfest informed Treasury that companies
do not factor stock-based compensation into their pricing decisions. We found similar evidence to be relevant in Xilinx. See Xilinx Inc. v. Commissioner, 125
T.C. at 59. Treasury never responded to this evidence.
Indeed, Treasury failed to respond directly to any
of the evidence that unrelated parties would not share
stock-based compensation costs, other than by asserting that the transactions cited by the commentators
did not ‘‘share enough characteristics of QCSAs involving the development of high-profit intangibles’’ to
be relevant. T.D. 9088, 2003-2 C.B. at 842. This was
a mere assertion; Treasury offered no analysis addressing the extent of the supposed differences or explaining why any differences make the cited transactions irrelevant or unpersuasive. By contrast, in
Xilinx we examined a broad array of evidence to determine whether unrelated parties would share such
costs. See Xilinx Inc. v. Commissioner, 125 T.C. at 5862. Tellingly, respondent does not even attempt to explain why Treasury failed to address similar evidence
in the preamble to the final rule.

Respondent contends that the final rule is consistent with the
commensurate-with-income standard because stock-based compensation is economic activity even if it is not an economic cost.
However, Treasury never made this distinction in the preamble
to the final rule, see SEC v. Chenery Corp., 332 U.S. 194, 196
(1947); Carpenter Family Invs., LLC v. Commissioner, 136 T.C.
373, 380, 396 n.30 (2011), and it did not explain why unrelated
parties would share items that are not economic costs.
26

135a
Although Treasury’s failure to respond to an isolated comment or two would probably not be fatal to
the final rule, Treasury’s failure to meaningfully respond to numerous relevant and significant comments
certainly is. See Home Box Office, 567 F.2d at 35-36.
Meaningful judicial review and fair treatment of affected persons require ‘‘an exchange of views, information, and criticism between interested persons and
the agency.’’ Id. at 35. Treasury’s failure to adequately respond to commentators frustrates our review of the final rule and was prejudicial to affected
entities.
D. The Final Rule Is Contrary to the Evidence
Before Treasury.
Petitioner contends that the final rule is contrary
to the evidence before Treasury when it issued the final rule. We agree.
We have already discussed Treasury’s failure to
cite any evidence supporting its belief that unrelated
parties to QCSAs would share stock-based compensation costs, see supra part IV.A; the significant evidence submitted by commentators showing that unrelated parties to QCSAs would not share stock-based
compensation costs, see supra part IV.C; and Treasury’s failure to respond to much of the submitted evidence, see id.
Significantly, Treasury never said that it found
any of the submitted evidence incredible. Treasury
also seemed to accept the commentators’ economic
analyses, which concluded that – and explained why
– unrelated parties to a QCSA would be unwilling to
share the exercise spread or grant date value of stockbased compensation. Finally, respondent has not
identified any evidence in the administrative record
that supports Treasury’s belief that unrelated parties

136a
to QCSAs would generally share stock-based compensation costs.
Although we are mindful that ‘‘a court is not to
substitute its judgment for that of the agency’’, State
Farm, 463 U.S. at 43, we conclude that Treasury’s ‘‘explanation for its decision * * * runs counter to the evidence before’’ it, see id.
V. Harmless Error
Respondent contends that, pursuant to the harmless error rule of APA sec. 706, any deficiencies in
Treasury’s reasoning should not invalidate the final
rule because (1) Treasury had sufficient alternative
reasons for adopting the final rule and (2) in the years
following Treasury’s adoption of the final rule the Financial Accounting Standards Board (FASB), the International Accounting Standards Board (IASB), and
the Organisation for Economic Cooperation and Development (OECD)27 have adopted policy positions
that concur with Treasury’s.28
In 2004 the OECD published a report on the impact of employee stock options on transfer pricing that ‘‘start[ed] with the
premise that employee stock options are remuneration.’’ OECD,
Employee Stock Option Plans: Impact on Transfer Pricing 1. In
2005, however, the OECD published a policy study that again
started with the same premise but recognized that the arm’slength standard required more analysis. See OECD, The Taxation of Employee Stock Options, Tax Policy Studies No. 11, at 165
(‘‘Of course, whether in-kind remuneration, including stock options, should be taken into account in any particular case depends on a determination of what independent parties acting at
arm’s length would do in the facts and circumstances of that
case.’’).
27

Each of the policy positions that respondent now contends support the 2003 final rule was published after Treasury promulgated the final rule. See, e.g., Statement of Financial Accounting
Standards No. 123, Accounting for Stock-Based Compensation
28

137a
A. Alternative Reasons for Adopting the Final
Rule
Although the preamble refers to the commensurate-with-income standard, we have already concluded that Treasury never indicated that it was prepared to independently rely on the commensuratewith-income standard – or any other reason – as a basis for adopting the final rule. See supra parts III.B
and IV.A.1. Moreover, because the arm’s-length
standard is incorporated into numerous income tax
treaties, see, e.g., 2001 U.S.-U.K. Income Tax Convention, art. 9; 2006 U.S. Model Income Tax Convention,
art. 9; Treasury Department Technical Explanation of
the 2001 U.S.-U.K. Income Tax Convention, art. 9,
Tax Treaties (CCH) para. 10,911, at 201,306-201,307;
Treasury Department Technical Explanation of the
2006 U.S. Model Income Tax Convention, art. 9; Tax
Treaties (CCH) para. 215, at 10,640-10,641, respondent cannot reasonably contend that Treasury would
have clearly adopted the final rule had it concluded
that the final rule conflicted with that standard. See
PDK Labs., 362 F.3d at 799.
B. Settled Policy
Respondent’s argument that the policy debate underlying the final rule has long been settled is irrelevant and misapprehends the role of this Court under
State Farm. It is irrelevant because Treasury expressly disavowed reliance on financial reporting
standards when it issued the final rule, see T.D. 9088,
2003-2 C.B. at 843 (‘‘Treasury and the IRS agree that
(revised 2004), Share-Based Payment; International Financial
Reporting Standard No. 2, Share-based Payment, February
2004; OECD, Employee Stock Option Plans: Impact on Transfer
Pricing; see also OECD, the Taxation of Employee Stock Options,
OECD Tax Policy Studies No. 11.

138a
the disposition of financial reporting issues does not
mandate a particular result under these regulations.’’), and the policy positions to which respondent
refers did not exist and were therefore unavailable to
Treasury when it issued the final rule, see Chenery
Corp., 332 U.S. at 196; Carpenter Family Invs., LLC
v. Commissioner, 136 T.C. at 380, 396 n.30. Respondent’s argument misapprehends the role of this Court
because, under State Farm, our role is not to decide
whether the final rule is good policy – it is simply to
‘‘ensur[e] that * * * [Treasury] engaged in reasoned
decision-making.’’ Judulang, 565 U.S. at ___, 132 S.
Ct. at 483-484. Because it is not clear that Treasury
would have adopted the final rule had it concluded
that the final rule is inconsistent with the arm’slength standard, the harmless error rule is inapplicable.
VI. Conclusion
Because the final rule lacks a basis in fact, Treasury failed to rationally connect the choice it made with
the facts found, Treasury failed to respond to significant comments when it issued the final rule, and
Treasury’s conclusion that the final rule is consistent
with the arm’s-length standard is contrary to all of the
evidence before it, we conclude that the final rule fails
to satisfy State Farm’s reasoned decisionmaking
standard and therefore is invalid.29 See APA sec.
29 Because we conclude that the final rule fails to satisfy State
Farm’s reasoned decisionmaking standard, the final rule would
be invalid even if we were to conclude that Chevron supplies the
ultimate standard of review. See supra part III.B. The analysis
under Chevron would proceed as follows: The parties agree that
sec. 482 is ambiguous. We would therefore proceed to Chevron
step 2. Under Chevron step 2, we would conclude the final rule
is invalid because it is ‘‘arbitrary or capricious in substance’’,

139a
706(2)(A); State Farm, 463 U.S. at 43. Indeed, Treasury’s ‘‘ipse dixit conclusion, coupled with its failure to
respond to contrary arguments resting on solid data,
epitomizes arbitrary and capricious decisionmaking.’’
Ill. Pub. Telecomms. Ass’n v. FCC, 117 F.3d 555, 564
(D.C. Cir. 1997).
By reason of the above respondent erred in making
the section 482 allocations at issue, and petitioner is
therefore entitled to partial summary judgment. We
will grant petitioner’s motion and deny respondent’s
motion.
We have considered the parties’ remaining arguments, and to the extent not discussed above, conclude
those arguments are irrelevant, moot, or without
merit.
To reflect the foregoing,
An appropriate order will be issued.
Reviewed by the Court.
Thornton, Colvin, Halpern, Foley, Vasquez, Gale,
Goeke, Holmes, Paris, Kerrigan, Buch, Lauber, Nega,
and Ashford, JJ., agree with this opinion of the Court.
Morrison and Pugh, JJ., did not participate in the
consideration of this opinion.

Judulang v. Holder, 565 U.S. ___, ___ n.7, 132 S. Ct. 476, 483
(2011) (quoting Mayo Found., 562 U.S. at 53), and therefore cannot be justified as being a reasonable interpretation of what sec.
482 requires.

140a
APPENDIX C
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Altera Corporation &
Subsidiaries,
Petitioner-Appellee,
v.
Commissioner of Internal
Revenue,
Respondent-Appellant.

Nos. 16-70496
16-70497
Tax Ct. Nos.
6253-12
9963-12
ORDER

Filed November 12, 2019
Before: Sidney R. Thomas, Chief Judge, and Susan
P. Graber and Kathleen M. O’Malley, Circuit
Judges.
Order;
Dissent by Judge Milan D. Smith, Jr.



The Honorable Kathleen M. O’Malley, United States Circuit
Judge for the U.S. Court of Appeals for the Federal Circuit, sitting by designation.

141a
SUMMARY**

Tax

The panel denied a petition for rehearing en banc
on behalf of the court in a case in which the panel reversed the decision of the Tax Court.
Judge M. Smith, joined by Judges Callahan and
Bade, dissented from the denial of rehearing en banc.
Title 26 of United States Code § 482 authorizes the
Department of Treasury to re-allocate reported income and costs between related entities where necessary to prevent them from improperly avoiding taxes.
Judge M. Smith agreed with the Tax Court’s unanimous conclusion that the Treasury’s implementing
regulation § 1.482-7(d)(2) constituted arbitrary and
capricious rulemaking in violation of the Administrative Procedure Act. Judge M. Smith observed that, in
addition to being wrongly decided, the majority’s decision engenders deleterious practical consequences,
threatens the uniform enforcement of the Tax Code,
invites an effective circuit split, ignores the reasonable reliance of businesses on the well-settled arm’s
length standard and subjects those businesses to double taxation, lowers the bar for compliance with the
Administrative Procedure Act, and sends a signal that
executive agencies can bypass proper notice-and-comment procedures through post-hoc rationalization.

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.
**

142a
COUNSEL

Arthur T. Catterall (argued), Richard Farber, Gilbert
S. Rothenberg, and Francesca Ugolini, Attorneys;
Travis A. Greaves, Deputy Assistant Attorney General; Richard E. Zuckerman, Principal Deputy Assistant Attorney General; Tax Division, United States
Department of Justice, Washington, D.C.; for Respondent-Appellant.
Donald M. Falk (argued), Mayer Brown LLP, Palo
Alto, California; Thomas Kittle-Kamp and William G.
McGarrity, Mayer Brown LLP, Chicago, Illinois;
Brian D. Netter, Travis Crum, and Nicole A. Saharsky, Mayer Brown LLP, Washington, D.C.; A.
Duane Webber, Phillip J. Taylor, and Joseph B. Judkins, Baker & McKenzie LLP, Washington, D.C.; Ginger D. Anders, Munger Tolles & Olson LLP, Washington, D.C.; Mark R. Yohalem, Munger Tolles & Olson
LLP, Los Angeles, California; for Petitioner-Appellee.
Susan C. Morse, University of Texas Law School, Austin, Texas; Stephen E. Shay and Allison Bray, Certified Law Students, Harvard Law School, Cambridge,
Massachusetts; Clinton G. Wallace, Columbia, South
Carolina; and Leandra Lederman, Bloomington, Indiana; for Amici Curiae Law Academics and Professors.
Jonathan E. Taylor, Gupta Wessler PLLC, Washington, D.C.; Clint Wallace, Vanderbilt Hall, New York,
New York; for Amici Curiae Anne Alstott, Reuven AviYonah, Lily Batchelder, Joshua Blank, Noel Cunningham, Victor Fleischer, Ari Glogower, David Kamin,
Mitchell Kane, Sally Katzen, Edward Kleinbard, Michael Knoll, Rebecca Kysar, Zachary Liscow, Daniel
Shaviro, John Steines, David Super, Clint Wallace,
and George Yin.

143a
Larissa B. Neumann, Ronald B. Schrotenboer, Kenneth B. Clark, Adam R. Gahtan, and Michael D.
Knobler, Fenwick & West LLP, Mountain View, California, for Amicus Curiae Xilinx Inc.
Christopher J. Walker, The Ohio State University
Moritz College of Law, Columbus, Ohio; Kate Comerford Todd, Steven P. Lehotsky, and Warren Postman,
U.S. Chamber Litigation Center, Washington, D.C.;
for Amicus Curiae Chamber of Commerce of the
United States of America.
John I. Forry, San Diego, California, for Amicus Curiae TechNet.
Charles G. Cole, Alice E. Loughran, Michael C. Durst,
Gregory N. Kidder, and Mark C. Savignac, Steptoe &
Johnson LLP, Washington, D.C.; Bennett Evan
Cooper, Steptoe & Johnson LLP, Phoenix, Arizona; Alexander Volokh, Emory University School of Law, Atlanta, Georgia; for Amici Curiae Software and Information Industry Association, Financial Executives International, Information Technology Industry Council, Silicon Valley Tax Directors Group, Software
Finance and Tax Executives Counsel, National Association of Manufacturers, American Chemistry Council, BSA | the Software Alliance, National Foreign
Trade Council, Biotechnology Innovation Organization, Computing Technology Industry Association,
The Tax Council, United States Council for International Business, and Semiconductor Industry Association.
Kenneth P. Herzinger and Eric C. Wall, Orrick Herrington & Sutcliffe LLP, San Francisco, California;
Peter J. Connors, Orrick Herrington & Sutcliffe LLP,

144a
New York, New York; for Amici Curiae Charles W.
Calomiris, Kevin H. Hassett, and Sanjay Unni.
Roderick K. Donnelly and Neal A. Gordon, Morgan
Lewis & Bockius LLP, Palo Alto, California; Thomas
M. Peterson, Morgan Lewis & Bockius LLP, San Francisco, California; Michelle L. Andrighetto, Morgan
Lewis & Bockius LLP, Boston, Massachusetts; Justin
McGough, 3M Company, Saint Paul, Minnesota; Karen Robinson, Vice President, Legal, Adobe Inc., San
Jose, California; Theodore J. Boutrous Jr. and Christopher Chorba, Gibson Dunn & Crutcher LLP (for Apple Inc.), Los Angeles, California; Armin D. Eberhard,
Director, International Tax Planning and M&A, Applied Materials, Santa Clara, California; Desiree
Ralls-Morrison, SVP, General Counsel & Corporate
Secretary, Boston Scientific Corporation, Marlborough, Massachusetts; Thomas J. Vallone, Senior Vice
President, Global Tax, Dell Technologies Inc., Round
Rock, Texas; Andy Sherman, Dolby Laboratories Inc.,
San Francisco, California; Aaron Johnson, VP Legal,
eBay, San Jose, California; Jacob Schatz, EVP, General Counsel and Corporate Secretary, Electronic Arts
Inc., Redwood City, California; Katie Lodato, Vice
President – Global Tax, Eli Lilly and Company, Indianapolis, Indiana; Dana L. Lasley, Emerson Electric
Co., St. Louis, Missouri; Paul S. Grewal, VP & Deputy
General Counsel, Facebook Inc., Menlo Park, California; John Whittle, Executive Vice President, General
Counsel, Fortinet, Sunnyvale, California; Christine
Henninger, General Mills Inc., Golden Valley, Minnesota; Nora Puckett, Google LLC, Mountain View, California; Kyle Bonacum, GoPro Inc., San Mateo, California; Joshua Mishoe, Vice President, Hewlett Packard Enterprise Company, Plano, Texas; Barbara
Beckerman, International Paper Company, Memphis,

145a
Tennessee; Michael R. Peterson, President and Corporate Secretary, Johnson Controls Inc.; Mark Casper,
Vice President and Deputy General Counsel, Maxim
Integrated, San Jose, California; Matthew Fawcett,
General Counsel, NetApp Inc., Sunnyvale, California;
Margaret C. Wilson, Wilson Law Group LLC (for Oracle Corporation), Princeton, New Jersey; Maryanne
Bifulco, Vice President, Transfer Pricing Counsel,
PepsiCo Inc., Purchase, New York; Markus Green, Assistant GC, Government Relations/Litigation, Pfizer
Inc., New York, New York; Lowell Yoder, McDermott
Will & Emery (for Procter and Gamble Company),
Chicago, Illinois; Beth Wapner, VP Tax, Qualcomm
Incorporated, San Diego, California; Tanya Guazzo,
S&P Global Inc., New York, New York; Russell Elmer,
ServiceNow Inc., Santa Clara, California; Lora Blum,
General Counsel, SurveyMonkey, San Mateo, California; Scott C. Taylor, EVP, General Counsel & Secretary, Symantec Corporation, Mountain View, California; Donald P. Lancaster, United Parcel Service Inc.,
Atlanta, Georgia; Lisa McFall, VP & Deputy General
Counsel, Workday Inc., Pleasanton, California; for
Amicus Curiae Cisco Systems Inc. and Thirty-Two
Other Affected Companies.
Christopher Bowers, David Foster, Raj Madan, and
Royce Tidwell, Skadden Arps Slate Meagher & Flom
LLP, Washington, D.C.; Nathaniel Carden, Skadden
Arps Slate Meagher & Flom LLP, Chicago, Illinois; for
Amicus Curiae Amazon.com Inc.
Miriam L. Fisher, Melissa Arbus Sherry, and Eric J.
Konopka, Latham & Watkins LLP, Washington, D.C.,
for Amici Curiae PricewaterhouseCoopers LLP,
Deloitte Tax LLP, and KPMG LLP.

146a
ORDER

The full court has been advised of the petition for
rehearing en banc. A judge requested a vote on
whether to rehear the matter en banc. The matter
failed to receive a majority of the votes of the nonrecused active judges in favor of en banc consideration. Fed. R. App. P. 35. Judges McKeown, Wardlaw,
Bybee, Bea, Watford, Owens, Friedland, Miller, Collins, and Lee were recused and did not participate in
the vote.
The petition for rehearing en banc is denied. Attached is the dissent from and statements respecting
the denial of rehearing en banc.

M. SMITH, Circuit Judge, with whom CALLAHAN
and BADE, Circuit Judges, join, dissenting from the
denial of rehearing en banc:
Neither the laudable goal of preventing tax evasion nor the prospect of adding billions of dollars to
the public coffers excuses the Department of the
Treasury from complying with the Administrative
Procedure Act. In 2003, Treasury promulgated a tax
rule with no reasoned basis for its decision, pursuant
to an explanation that ran contrary to the evidence
before it. In 2019, a divided panel of our court upheld
that rule based on a novel interpretation of the relevant statute, which Treasury developed only as an appellate litigating position, and which was never subject to notice and comment. As recognized by the
unanimous en banc Tax Court, Treasury’s actions in
this case are the epitome of arbitrary and capricious
rulemaking. The panel majority’s decision tramples
on the reliance interests of American businesses,

147a
threatens the uniform enforcement of the Tax Code,
and drastically lowers the bar for compliance with the
Administrative Procedure Act.
I respectfully dissent from our court’s denial of rehearing en banc.1
I.
For almost a century, Congress has authorized
Treasury to recalculate the taxes of related entities
based on what their taxes would look like if they were
unrelated entities. For the past fifty years, Treasury
has made this determination by analyzing whether
the results of a transaction between related entities
are consistent with the results of a comparable transaction between entities operating at arm’s length.
When a transaction does not meet this arm’s length
standard, Treasury adjusts it for tax purposes by reallocating the related entities’ costs and income.
In the late-1990s, Treasury decided that stockbased compensation – then a new phenomenon – was
a type of cost it wanted to re-allocate under these calculations. The problem was, and remains, that unrelated entities do not share stock-based compensation
costs. Treasury’s first attempt at such a re-allocation
was therefore thrown out by the Tax Court and by this
court because it was contrary to Treasury’s own regulations calling for application of the arm’s length
standard. Perhaps preemptively recognizing this defect on the very face of its rules, Treasury attempted
a mid-litigation cure of simply adding a cross reference to its arm’s length standard provision. That attempted cure is the 2003 rulemaking challenged here.
Judges McKeown, Wardlaw, Bybee, Bea, Watford, Owens,
Friedland, Miller, Collins, and Lee were recused from consideration of en banc rehearing in this matter.
1

148a
A.
In 1928, Congress enacted 26 U.S.C. (“I.R.C.”)
§ 482 to authorize Treasury to re-allocate reported income and costs between related entities where necessary to prevent them from improperly avoiding taxes
by, for instance, shifting income to lower tax foreign
jurisdictions. See H.R. Rep. No. 70-2, at 16-17 (1927);
Comm’r v. First Sec. Bank of Utah, N.A., 405 U.S. 394,
400 (1972). Treasury soon promulgated regulations
specifying that “[t]he standard to be applied in every
case is that of an uncontrolled taxpayer dealing at
arm’s length with another uncontrolled taxpayer.”
Treas. Reg. 86, art. 45-1(b) (1935).2
In 1968, Treasury promulgated regulations specific to “qualified cost-sharing arrangements”
(QCSAs)3, such as the research and development
agreement at issue in this case. See 33 Fed. Reg. 5848
(April 16, 1968). Treasury required that, “[i]n order
for the sharing of costs and risks to be considered on
an arm’s length basis, the terms and conditions must
be comparable to those which would have been
adopted by unrelated parties similarly situated had
they entered into such an arrangement.” Id. at 5854.
The arm’s length standard thus requires an “essen-

An “uncontrolled” taxpayer is distinguished from a “controlled” taxpayer, defined as “any one of two or more taxpayers
owned or controlled directly or indirectly by the same interests, . . . includ[ing] the taxpayer that owns or controls the other
taxpayers.” Treas. Reg. § 1.482-1(i)(5).
2

Designation of a cost-sharing agreement as a QCSA allows
participating entities to share the costs of developing intangible
property without incurring partnership taxation, and without
any foreign participants incurring taxes for doing business in the
United States. Treas. Reg. § 1.482-7A(a)(1).
3

149a
tially and intensely factual” inquiry that looks to comparable transactions between non-related entities to
ensure tax parity. Procacci v. Comm’r, 94 T.C. 397,
412 (1990).
In 1986, Congress amended § 482 to address the
valuation of transfers of intangible property,4 providing that “[i]n the case of any transfer (or license) of
intangible property . . . , the income with respect to
such transfer or license shall be commensurate with
the income attributable to the intangible.” I.R.C.
§ 482. This amendment appeared to introduce a new
standard for allocating costs – a “commensurate with
income” standard – which might have constituted a
departure from the traditional arm’s length analysis.
But soon after, in 1988, Treasury dispelled such notions by publishing what came to be known as the
“White Paper.” See A Study of Intercompany Pricing
Under Section 482 of the Code, I.R.S. Notice 88-123,
1988-2 C.B. 458. The phrase “arm’s length standard”
appears throughout the White Paper, which reiterated that “intangible income must be allocated on the
basis of comparable transactions if comparables exist.” Id. at 474 (emphasis added). In short, although
the amended § 482 referenced a seemingly unfamiliar
“commensurate with income” standard, the White Paper emphasized that “Congress intended no departure
At the time the regulation challenged in this case was promulgated, “intangible property” was defined by a list of items that
included any “patent, invention, formula, process, design, pattern, or know-how,” “copyright,” “trademark,” “license,” and so
forth. I.R.C. § 936(h)(3)(B) (1996). In 2017, Congress amended
the definition to include “goodwill, going concern value, . . . workforce in place,” and other items whose value is “not attributable
to tangible property or the services of any individual.” I.R.C.
§ 367(d)(4).
4

150a
from the arm’s length standard” – which is to say, an
analysis based on comparability. Id. at 475.5
B.
In 1995, Treasury promulgated a regulation requiring participants in a QCSA to share “all of the
costs” of developing intangibles. Treas. Reg. § 1.4827(d)(1) (1995). Beginning in 1997, Treasury interpreted stock-based compensation to be such a cost.
See Xilinx, Inc. v. Comm’r, 598 F.3d 1191, 1193-94
(9th Cir. 2010).
Xilinx, Inc. challenged this interpretation, and the
Tax Court ruled in Xilinx’s favor. Xilinx, Inc. v.
Comm’r, 125 T.C. 37, 62 (2005). The Tax Court found
as a factual matter that “two unrelated parties in a
cost sharing agreement would not share any costs related to [stock-based compensation].” Xilinx, 598 F.3d
at 1194. At the same time, it found that Treas. Reg.
§ 1.482-1(b)(1) – i.e., the arm’s length standard – still
controlled over Treasury’s new all costs regulation.
Id. It therefore found Treasury’s reallocation of Xilinx’s stock-based compensation costs to be arbitrary
and capricious. Id.
Significantly, Congress prompted the creation of the White Paper at the same time it added the “commensurate with income”
standard to § 482. See H.R. Rep. No. 99-841, at 637-38 (1986)
(Conf. Rep.), as reprinted in 1986 U.S.C.C.A.N. 4075, 4725-26.
Specifically, Congress “believe[d] that a comprehensive study of
intercompany pricing rules by the Internal Revenue Service
should be conducted and that careful consideration should be
given to whether the existing regulations could be modified in
any respect.” Id. at 638, as reprinted in 1986 U.S.C.C.A.N. at
4726. The resulting study – the White Paper – clearly stated
that “the commensurate with income standard is fully consistent
with the arm’s length principle,” and that “intangible income
must be allocated on the basis of comparable transactions if comparables exist.” 1988-2 C.B. at 458, 474.
5

151a
Our court affirmed the Tax Court, noting that the
“purpose of the regulations is parity between taxpayers in uncontrolled transactions and taxpayers in controlled transactions,” which is determined “based on
how parties operating at arm’s length would behave.”
Id. at 1196. Because Treasury “d[id] not dispute” that
“unrelated parties would not share [stock-based compensation],” we concluded that Treasury could not require related parties to share it. Id. at 1194, 1196. We
therefore found the all costs provision inoperative.
In his concurrence, Judge Fisher noted that Treasury’s defense of the all costs provision relied on a rationale “not clearly articulated . . . until” the commencement of litigation. Id. at 1198 (Fisher, J., concurring). Judge Fisher was “troubled by the complex,
theoretical nature of many of [Treasury’s] arguments . . . . Not only does this make it difficult for the
court to navigate the regulatory framework, it shows
that taxpayers have not been given clear, fair notice
of how the regulations will affect them.” Id.6
Judge Reinhardt dissented, finding instead that the paramount purpose of the regulations is preventing tax avoidance,
and noting that tax law is not always fair or reasonable to businesses. Id. at 1199-1200 (Reinhardt, J., dissenting). Judge Reinhardt would have resolved the case in favor of Treasury by holding that the specific all costs provision (i.e. specifically addressing QCSAs) takes precedence over the general arm’s length
standard. Id. at 1199.
6

Judge Reinhardt also sat on the original panel in this case. See
Altera Corp. v. Comm’r, No. 16-70496, 2018 WL 3542989 (9th
Cir. July 24, 2018), withdrawn, 898 F.3d 1266 (9th Cir. 2018).
There he concurred with the majority, again in favor of Treasury,
but on the ground that the meaning of the arm’s length standard
is so fluid as to permissibly encompass the all costs method. That
opinion, published four months after Judge Reinhardt passed
away, was ultimately withdrawn. Yovino v. Rizo, 139 S. Ct. 706,
707 n.* (2019) (per curiam); see id. at 710 (“[F]ederal judges are

152a
C.
In 2003, while the Xilinx litigation concerning the
1995 regulation was pending, Treasury published a
rule codifying its decision that QCSA parties should
share stock-based compensation costs. To achieve
this, Treasury updated the arm’s length standard provision, Treas. Reg. § 1.482-1, with a cross-reference to
its 1995 “all of the costs” provision, id. § 1.482-7,7 and
specifically defined “operating expenses” thereunder
to include stock-based compensation, id. § 1.4827(d)(2). Compensatory Stock Options Under Section
482, 68 Fed. Reg. 51,171, 51,178 (Aug. 26, 2003).
Treasury purported to “believe that requiring stockbased compensation to be taken into account for purposes of QCSAs is consistent with the legislative intent underlying section 482 and with the arm’s length
standard,” because “unrelated parties entering into
QCSAs would generally share stock-based compensation costs.” Id. at 51,173.
II.
During the 2004-2007 taxable years, Appellee Altera Corporation (Altera) shared certain costs with
one of its foreign subsidiaries, Altera International,
pursuant to a research and development cost-sharing
agreement. Relying on the Tax Court’s 2005 decision
in Xilinx, the companies did not share the costs of
stock-based compensation. After Altera filed consolidated income tax returns for these years, Treasury issued notices of deficiency on the grounds that it had
appointed for life, not for eternity.”). The majority opinion of the
reconstituted panel essentially adopted the reasoning of the original panel.
Subsequent to the 2003 amendments at issue, the Treasury
Regulations have been re-organized and Treas. Reg. § 1.482-7 is
now § 1.482-7A.
7

153a
to re-allocate over $100 million in income from Altera
International to Altera to account for the unshared
costs of stock-based compensation. Treasury asserted
that this re-allocation was necessary under Treas.
Reg. § 1.482-7(d)(2). Altera timely filed petitions in
the Tax Court.
A.
In a unanimous 15-0 decision, the Tax Court
agreed with Altera and concluded that the regulation
is arbitrary and capricious. Altera Corp. v. Comm’r,
145 T.C. 91, 133-34 (2015). The Tax Court determined
that, during the rulemaking process, Treasury specifically justified its new stock-based compensation rule
on the ground that it “was required by – or was at
least consistent with – the arm’s-length standard.” Id.
at 121 & n.17 (citing 68 Fed. Reg. at 51,173 (“The final
regulations provide that stock-based compensation
must be taken into account in the context of QCSAs
because such a result is consistent with the arm’s
length standard.”)). By contrast, the Tax Court found
that Treasury did not rely on § 482’s “commensurate
with income” language, nor could this language sustain an inconsistent rule in any event given Congress’s intent for it to work “consistently with the
arm’s-length standard.” Id. (citing White Paper at
472, 475).
The Tax Court therefore proceeded to analyze
whether Treasury had articulated a reasoned basis for
its conclusion that “unrelated parties entering into
QCSAs would generally share stock-based compensation costs.” Id. at 123 (citing 68 Fed. Reg. at 51,173).
It found that the administrative record contained no
empirical data supporting such a conclusion, that
Treasury had made no attempt to search for evidence
supporting such a conclusion, and that Treasury was

154a
unaware of any actual transaction illustrating such a
result. Id. at 122-23. To the contrary, the Tax Court
noted that Treasury “seemed to accept the commentators’ economic analyses, which concluded that . . . unrelated parties to a QCSA would be unwilling to share
the exercise spread or grant date value of stock-based
compensation.” Id. at 131. The Tax Court therefore
found that “Treasury’s ‘explanation for its decision . . .
runs counter to the evidence before’ it.” Id. (alteration
in original) (quoting Motor Vehicle Mfrs. Ass’n of U.S.,
Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43
(1983)). It further concluded that “Treasury’s ‘ipse
dixit conclusion, coupled with its failure to respond to
contrary arguments resting on solid data, epitomizes
arbitrary and capricious decisionmaking.’ ” Id. at 134
(quoting Ill. Pub. Telecomms. Ass’n v. FCC, 117 F.3d
555, 564 (D.C. Cir. 1997)).
B.
Treasury appealed, and a divided panel of this
court reversed. Altera Corp. v. Commissioner, 926
F.3d 1061, 1087 (9th Cir. 2019). On appeal, Treasury
adopted a new position: that its 2003 rule was justified not because unrelated parties would actually
share costs in the manner the rule now specifies, but
because Treasury no longer needs to consider the behavior of unrelated parties at all. Treasury’s new theory is that it can allocate costs under a QCSA based
on a standard purely internal to the participants, with
no analysis of comparable transactions between unrelated entities, and call this an arm’s length result.
The majority, applying Chevron, U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837
(1984), found that this revised interpretation of § 482
is permissible. Altera, 926 F.3d at 1075-78. It further
concluded that “Treasury’s decision to do away with

155a
analysis of comparable transactions” was neither arbitrary nor capricious, because it “was made clear
enough by citations to legislative history in the notice
of proposed rulemaking and in the preamble to the final rule.” Id. at 1082. Because Treasury abandoned
the comparability standard, the majority explained, it
was not required to address public comments that emphasized the absence of stock-based compensation
cost-sharing in comparable transactions. Id.
Judge O’Malley dissented, noting that “Treasury
repeatedly recognized that I.R.C. § 482 requires application of an arm’s length standard when determining
the true taxable income of a controlled taxpayer,” and
“just as consistently asserted that a comparability
analysis is the only way to determine the arm’s length
standard.” Id. at 1087 (O’Malley, J., dissenting). She
concluded that Treasury could not depart from this
well-settled rule using only “a justification Treasury
never provided [during the rulemaking process] and
one which does not withstand careful scrutiny.” Id.
Judge O’Malley further concluded that the regulation
is arbitrary and capricious; that the regulation would
be impermissible under Chevron even if Treasury had
not erred procedurally; and that, because the regulation is invalid, our decision in Xilinx controls. Id. at
1092-1101.
III.
Under the APA, we must “hold unlawful and set
aside agency action” that is “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance
with law.” 5 U.S.C. § 706(2)(A). An agency’s rule is
arbitrary and capricious when it “offer[s] an explanation for its decision that runs counter to the evidence
before” it. State Farm, 463 U.S. at 43. “The reviewing
court should not attempt itself to make up for such

156a
deficiencies: ‘We may not supply a reasoned basis for
the agency’s action that the agency itself has not
given.’ ” Id. (quoting SEC v. Chenery Corp., 332 U.S.
194, 196 (1947)). As recently emphasized by the Supreme Court, “[w]e cannot ignore [a] disconnect between the decision made and the explanation given.
Our review is deferential, but we are ‘not required to
exhibit a naiveté from which ordinary citizens are
free.’ ” Dep’t of Commerce v. New York, 139 S. Ct.
2551, 2575 (2019) (quoting United States v. Stanchich,
550 F.2d 1294, 1300 (2d Cir. 1977) (Friendly, J.)).
A.
By its own account, Treasury’s 2003 rulemaking
was an attempted application of the traditional arm’s
length standard. Reviewing the 2003 rule on this basis, as we must, Treasury acted arbitrarily and capriciously because its “explanation for its decision [ran]
counter to the evidence before” it. State Farm, 463
U.S. at 43.
Treasury’s explanation for its decision during the
rulemaking process was that allocating stock-based
compensation costs was justified because “unrelated
parties entering into QCSAs would generally share
stock-based compensation costs.” 68 Fed. Reg. at
51,173. Treasury considered this relevant because
“[t]he regulations relating to QCSAs have as their focus reaching results consistent with what parties at
arm’s length generally would do if they entered into
cost sharing arrangements for the development of
high-profit intangibles.” Id. Treasury asserted that
“[p]arties dealing at arm’s length in [a QCSA] based
on the sharing of costs and benefits generally would
not distinguish between stock-based compensation
and other forms of compensation.” Id. In conclusion,

157a
Treasury emphasized that “[t]he final regulations provide that stock-based compensation must be taken
into account in the context of QCSAs because such a
result is consistent with the arm’s length standard.”
Id. (emphasis added).
As the unanimous Tax Court rightly concluded,
Treasury’s stated reasons for concluding that the
sharing of stock-based compensation costs was required by the arm’s length standard were belied by
the evidence. Altera, 145 T.C. at 131. Treasury
“fail[ed] to cite any evidence supporting its belief that
unrelated parties to QCSAs would share stock-based
compensation costs,” commentators submitted “significant evidence . . . showing that unrelated parties to
QCSAs would not share stock-based compensation
costs,” and Treasury “fail[ed] to respond to much of
the submitted evidence.” Id. As a result, the administrative record contained no empirical data supporting Treasury’s conclusion. Id. at 122-23. Indeed,
Treasury had made no attempt to search for evidence
supporting its conclusion, and was unaware of any actual transaction in which unrelated parties had
shared stock-based compensation costs. Id.
This “disconnect between the decision made and
the explanation given” requires that we vacate Treasury’s rule as arbitrary and capricious. Dep’t of Commerce, 139 S. Ct. at 2575. This should be the end of
our analysis.
B.
The panel majority’s opinion impermissibly upholds the 2003 rule based on a host of rationales and
interpretive maneuvers amounting to “a [purportedly]
reasoned basis for the agency’s action that the agency
itself has not given.” State Farm, 463 U.S. at 43 (quoting Chenery, 332 U.S. at 196).

158a
At no point in Treasury’s 2003 rulemaking did it
make a finding, let alone one subject to notice and
comment, that comparable transactions are per se unavailable for QCSAs, such that other methods must be
employed in the first instance. See Altera, 926 F.3d at
1077-78, 1083 n.9 (majority opinion) (using legislative
history and Treasury’s one-sentence rejection of comparables submitted by commenters to draw this conclusion). At no point in Treasury’s 2003 rulemaking
did it announce that it was returning to a pre-1968
interpretation of § 482 subjecting taxpayers to an unpredictable “fair and reasonable” standard. See id. at
1068-69, 1078 (using caselaw from “most of the twentieth century,” i.e., before Treasury promulgated more
specific regulations in 1968, to justify this return). At
no point in Treasury’s 2003 rulemaking did it interpret the commensurate-with-income standard to provide an independent justification for its treatment of
stock-based compensation. See id. at 1077 (using legislative history alone to infer this justification). And
at no point in Treasury’s 2003 rulemaking did it reverse its longstanding interpretation of the commensurate-with-income standard as consistent with the
traditional arm’s length standard. See id. at 1077,
1081 (deriving a disparate interpretation of the commensurate-with-income standard from whole cloth
and relying on Treasury’s insertion of a cross-reference to conclude that these newly disparate standards
were appropriately “synthesize[d]”).
The panel majority ignores Treasury’s clear statements in the preamble to its 2003 rule expressly justifying its treatment of stock-based compensation
based on a traditional arm’s length analysis employing (unsubstantiated) comparable transactions. See
68 Fed. Reg. at 51,173. The panel upholds the rule

159a
only by accepting Treasury’s convenient litigating position on appeal that it permissibly jettisoned the traditional arm’s length standard altogether. See Altera,
926 F.3d at 1077. By re-writing the reasoning supporting the rule, the majority renders extensive comments irrelevant, and is strangely untroubled by the
idea that no member of the tax community noticed
this alternative reasoning or submitted a relevant
comment. See id. at 1081-82; cf. Chisom v. Roemer,
501 U.S. 380, 396 n.23 (1991) (“I think judges as well
as detectives may take into consideration the fact that
a watchdog did not bark in the night.”) (quoting Harrison v. PPG Industries, Inc., 446 U.S. 578, 602 (1980)
(Rehnquist, J., dissenting)).
The APA does not allow an agency to reclassify the
reasoning it articulated to the public as “extraneous
observations,” Appellant’s Br. at 64, ignore public
comments pointing out the failures in such reasoning,
and then defend its rule in litigation using reasoning
the public never had notice of. Yet that is precisely
what the majority’s opinion allows Treasury to do.
C.
Even if an agency could force the public to engage
in a “scavenger hunt” for “cryptic” references in order
to understand its reasoning in the ordinary rulemaking case, Altera, 926 F.3d at 1087-88 (O’Malley, J., dissenting), the APA would prohibit Treasury from doing
so here:
When an agency changes its existing position, it
“need not always provide a more detailed justification than what would suffice for a new policy created on a blank slate.” But the agency must at
least “display awareness that it is changing position” and “show that there are good reasons for the
new policy.” In explaining its changed position, an

160a
agency must also be cognizant that longstanding
policies may have “engendered serious reliance interests that must be taken into account.”
Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117,
2125-26 (2016) (citations omitted) (quoting FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 515 (2009)).
In contrast to its statements during the 2003 rulemaking and before the Tax Court, Treasury no longer
disputes that stock-based compensation costs cannot
be re-allocated under the traditional arm’s length
standard. A legitimate rule requiring the sharing of
stock-based compensation costs would therefore have
necessitated a change in position regarding the type
of standard permissibly employed under § 482. The
relevant Supreme Court precedents call us to be particularly vigilant in ensuring that Treasury provided
fair notice of this change in position. See id. It did
not.
The majority opinion assumes away this problem
by relying on legislative history from the 1986 amendment, making it seem as though the necessary interpretation of § 482 had been on the books for nearly
twenty years before the 2003 rule. See Altera, 926
F.3d at 1085-86 (majority opinion). But Treasury expressly disclaimed the majority’s interpretation of the
1986 amendment in the 1988 White Paper. White Paper at 472. The interpretation of § 482 on the books
in 2003 was the traditional arm’s length standard.
Therefore, even if Treasury had articulated a permissible reinterpretation of § 482 in its 2003 rule, its failure to acknowledge the newness of this interpretation,
let alone to consider the “serious reliance interests”
engendered by the previous interpretation, would supply an independent reason to vacate the rule. Encino

161a
Motorcars, 136 S. Ct. at 2126 (quoting Fox, 556 U.S.
at 515).
IV.
The majority opinion additionally errs by accepting the interpretation of § 482’s commensurate-withincome provision that Treasury now advocates.
Treasury’s interpretation is not entitled to deference,
and it conflicts with the plain language of the statute.
A.
“[A] court must make an independent inquiry into
whether the character and context of the agency interpretation entitles it to controlling weight.” Kisor v.
Wilkie, 139 S. Ct. 2400, 2416 (2019) (citing United
States v. Mead Corp., 533 U.S. 218, 229-31, 236-37
(2001)). For example, “Chevron deference is not warranted where the regulation is ‘procedurally defective’
– that is, where the agency errs by failing to follow the
correct procedures in issuing the regulation.” Encino
Motorcars, 136 S. Ct. at 2125. As demonstrated above,
Treasury’s 2003 rule was procedurally defective because its “explanation for its decision [ran] counter to
the evidence before” it. State Farm, 463 U.S. at 43.
Even had it articulated a reasoned basis for its rule, it
failed to “display awareness that it [was] changing position.” Fox, 556 U.S. at 515. “An arbitrary and capricious regulation of this sort is itself unlawful and
receives no Chevron deference.” Encino Motorcars,
136 S. Ct. at 2126.
Moreover, Treasury did not articulate a reasoned
basis for its rule during notice-and-comment rulemaking, but rather attempts to do so now in its briefing on
appeal. “Deference to what appears to be nothing
more than an agency’s convenient litigating position
would be entirely inappropriate.”
Bowen v.
Georgetown Univ. Hosp., 488 U.S. 204, 213 (1988); cf.

162a
Kisor, 139 S. Ct. at 2417-18 (“[A] court should decline
to defer to a merely ‘convenient litigating position’ or
‘post hoc rationalizatio[n] advanced’ to ‘defend past
agency action against attack.’ And a court may not
defer to a new interpretation, whether or not introduced in litigation, that creates ‘unfair surprise’ to
regulated parties. That disruption of expectations
may occur when an agency substitutes one view of a
rule for another.” (citations and footnote omitted)
(first quoting Christopher v. SmithKline Beecham
Corp., 567 U.S. 142, 155 (2012), then quoting Long Island Care at Home, Ltd. v. Coke, 551 U.S. 158, 170
(2007))). A litigating position is not “promulgated in
the exercise of [Congressionally delegated] authority,”
Mead, 533 U.S. at 227, because it is not adopted
“through any ‘relatively formal administrative procedure,’ ” Price v. Stevedoring Servs. of Am., Inc., 697
F.3d 820, 827 (9th Cir. 2012) (en banc) (quoting Mead,
533 U.S. at 230). Rather, an agency’s litigating position can “ordinarily [be] change[d] . . . from one case
to another” via “internal decisionmaking not open to
public comment or determination.” Id. at 827, 830; cf.
Xilinx, 598 F.3d at 1198 (Fisher, J., concurring) (“Not
only do[]” Treasury’s “complex, theoretical” litigating
arguments “make it difficult for the court to navigate
the regulatory framework, it shows that taxpayers
have not been given clear, fair notice of how the regulations will affect them.”). Nor is there any indication
that Treasury’s litigating position here “is one of long
standing” or the product of “careful consideration . . .
over a long period of time,” Barnhart v. Walton, 535
U.S. 212, 221-22 (2002), seeing as how Treasury did
not even make the same argument to the Tax Court
in this matter.
Though some amici suggest it could, Treasury does
not ask for Auer deference to its interpretation of

163a
Treas. Reg. § 1.482-1 (the arm’s length standard). See
Auer v. Robbins, 519 U.S. 452 (1997). Given the very
detailed limitations on Auer deference spelled out in
Kisor, virtually none of which Treasury’s actions satisfy, it is clear that such deference would not be available even if not disclaimed. See 139 S. Ct. at 2415-18
(e.g., generally does not apply to “an agency construction ‘conflict[ing] with a prior’ one,” id. at 2418 (quoting Thomas Jefferson Univ. v. Shalala, 512 U.S. 504,
515 (1994))).
Even Skidmore deference is likely inappropriate
here, where “billions of dollars” are at stake. King v.
Burwell, 135 S. Ct. 2480, 2488-89 (2015) (finding
Chevron inapplicable and making no mention of Skidmore v. Swift & Co., 323 U.S. 134 (1944)).
B.
Setting aside whether Treasury’s new interpretation of the commensurate-with-income standard
obeys Treasury’s own determination that Congress intended it to work “consistently with the arm’s length
standard,” White Paper at 472, 475, the commensurate-with-income provision simply does not apply to
QCSAs.
By its terms, the provision is applicable only if
QCSAs constitute “transfers of intangible property.”
I.R.C. § 482. They do not. The majority opinion focuses on the breadth of the word “transfers,” modified
by “any,” to conclude that transfers of future distribution rights fall within the provision’s ambit. Altera,
926 F.3d at 1076. This reasoning suffers from two defects. First, QCSAs do not involve a transfer of future
distribution rights. Treasury itself characterized
QCSAs as “cost sharing arrangements for the development of high-profit intangibles.” 68 Fed. Reg. at
51,173 (emphasis added). “No rights are transferred

164a
when parties enter into an agreement to develop intangibles; this is because the rights to later-developed
intangible property would spring ab initio to the parties who shared the development costs without any
need to transfer the property.” Altera, 926 F.3d at
1098 (O’Malley, J. dissenting). Second, the statutory
definition of “intangible property” comprises a list of
property types that currently exist, none of which resembles future distribution rights. See supra, note 4;
I.R.C. § 936(h)(3)(B) (1996).8
The panel majority’s application of the commensurate-with-income standard to Altera’s QCSA was
therefore incorrect.
Even “under Chevron, the
agency’s reading must fall ‘within the bounds of reasonable interpretation.’ And let there be no mistake:
That is a requirement an agency can fail.” Kisor, 139
S. Ct. at 2416 (citation omitted) (quoting Arlington v.
FCC, 569 U.S. 290, 296 (2013)).
V.
In addition to being wrongly decided, the panel
majority’s decision engenders particularly deleterious
practical consequences.
First, the majority opinion will likely upset the
uniform application of the challenged regulation in
the Tax Court, producing a situation akin to a circuit
The majority’s discussion of future commodities, Altera, 926
F.3d at 1076 (majority opinion), is particularly off the mark given
that such futures are excluded from the definition of intangible
property as having value “attributable to tangible property.”
I.R.C. § 367(d)(4)(G). The majority’s assertion that stock-based
compensation is a transferred intangible under a QCSA only further confuses the point. See id. Treasury is attempting to reallocate Altera’s income in this case precisely because the parties
did not transfer any stock-based compensation costs.

8

165a
split. Although the Tax Court “will follow the clearly
established position of a Court of Appeals to which a
case is appealable,” it “will give effect to [its] own
views in cases appealable to courts that have not yet
decided the issue.” Mitchell v. Comm’r, 106 T.C.M.
(CCH) 215, 220 n.7 (2013); cf. Fehlhaber v. Comm’r,
94 T.C. 863, 867 (1990) (disagreeing with a reversal
by the Ninth Circuit and adhering to its position in
cases outside the Ninth Circuit). The Tax Court determined unanimously, in a 15-0 decision, that Treasury’s 2003 rulemaking “epitomize[d] arbitrary and capricious decisionmaking.’ ” 145 T.C. at 134 (quoting
Ill. Pub. Telecomms. Ass’n v. FCC, 117 F.3d 555, 564
(D.C. Cir. 1997)). This uncommon unanimity and severity of censure strongly suggest that the Tax Court
will continue to be persuaded by its original reasoning. If so, the tax treatment of stock-based compensation costs will turn on the happenstance of where a
business is located and create incentives to locate or
incorporate elsewhere. Such a possibility is particularly problematic in the context of federal taxation,
given that “[a] cardinal principle of Congress in its tax
scheme is uniformity.” United States v. Gilbert Assocs., Inc., 345 U.S. 361, 364 (1953). In the meantime,
businesses lack certainty regarding the meaning of
the arm’s length standard outside the Ninth Circuit.
Second, the panel majority’s opinion tramples on
the longstanding reliance interests of American businesses. See Appellee’s Petition for Rehearing En Banc
at 1-2, App’x C 1-4 (listing 56 companies that “noted
the Altera issue in their annual reports (Forms 10-K)
to the SEC,” ranging from Alphabet Inc., reporting
$4.4 billion at stake, to Groupon, Inc., reporting $14
million at stake). “Courts properly have been reluctant to depart from an interpretation of tax law which
has been generally accepted when the departure could

166a
have potentially far-reaching consequences.” Comm’r
v. Greenspun, 670 F.2d 123, 126 (9th Cir. 1982) (quoting United States v. Byrum, 408 U.S. 125, 135 (1972)).
Finally, as numerous amici observe, the panel majority opinion upsets not only domestic tax law, but
international tax law as well. The allocation of income
between related entities operating in different countries is a problem that must be addressed not only by
Treasury and the IRS, but also by the relevant foreign
tax agencies. In order to avoid double taxation, and
pursuant to tax treaties negotiated by the United
States, the arm’s length method is “used by all major
developed nations.” Barclays Bank PLC v. Franchise
Tax Bd., 512 U.S. 298, 305 (1994). The panel majority’s interpretation of § 482 as allowing for the use of
a purely internal standard to make cost and income
allocations, i.e., without ever inquiring as to the behavior of parties operating at arm’s length, greatly upsets this international uniformity.
***
Treasury justified its 2003 rule as an application
of the traditional arm’s length standard. Without
searching for any evidence, it assumed it knew what
comparable transactions would look like. Without
any real analysis, it dismissed comments providing
contrary examples. The en banc Tax Court unanimously, and rightly, invalidated the rule as arbitrary
and capricious because Treasury’s explanation for its
decision ran counter to the evidence before it. Only
before this court did Treasury conjure a new justification for the rule, not only newly applying the commensurate-with-income provision of the statute, but also
newly interpreting that provision to bypass the traditional arm’s length standard.

167a
The panel majority was wrong to accept this justification, both procedurally and substantively. Its decision invites an effective circuit split, ignores the reasonable reliance of businesses on the well-settled
arm’s length standard, subjects those businesses to
double taxation, and sows uncertainty over the fate of
billions of dollars. Moreover, its endorsement of
Treasury’s arbitrary and capricious rulemaking sends
a signal that executive agencies can bypass proper notice-and-comment procedures as long as they come up
with a clever post-hoc rationalization by the time their
rules are litigated.
I respectfully dissent from the denial of rehearing
en banc.

168a
APPENDIX D
1. 5 U.S.C. 553 provides:
(a) This section applies, according to the provisions
thereof, except to the extent that there is involved –

(1) a military or foreign affairs function of the
United States; or
(2) a matter relating to agency management or
personnel or to public property, loans, grants, benefits, or contracts.
(b) General notice of proposed rule making shall be
published in the Federal Register, unless persons subject thereto are named and either personally served or
otherwise have actual notice thereof in accordance
with law. The notice shall include –
(1) a statement of the time, place, and nature of
public rule making proceedings;
(2) reference to the legal authority under which
the rule is proposed; and
(3) either the terms or substance of the proposed rule or a description of the subjects and issues involved.
Except when notice or hearing is required by
statute, this subsection does not apply—
(A) to interpretative rules, general statements of policy, or rules of agency organization,
procedure, or practice; or
(B) when the agency for good cause finds
(and incorporates the finding and a brief statement of reasons therefor in the rules issued)
that notice and public procedure thereon are

169a
impracticable, unnecessary, or contrary to the
public interest.
(c) After notice required by this section, the agency
shall give interested persons an opportunity to participate in the rule making through submission of written data, views, or arguments with or without opportunity for oral presentation. After consideration of the
relevant matter presented, the agency shall incorporate in the rules adopted a concise general statement
of their basis and purpose. When rules are required
by statute to be made on the record after opportunity
for an agency hearing, sections 556 and 557 of this title apply instead of this subsection.
(d) The required publication or service of a substantive rule shall be made not less than 30 days before its effective date, except –
(1) a substantive rule which grants or recognizes an exemption or relieves a restriction;
(2) interpretative rules and statements of policy; or
(3) as otherwise provided by the agency for good
cause found and published with the rule.
(e) Each agency shall give an interested person the
right to petition for the issuance, amendment, or repeal of a rule.
2. 5 U.S.C. 706 provides:
To the extent necessary to decision and when presented, the reviewing court shall decide all relevant
questions of law, interpret constitutional and statutory provisions, and determine the meaning or applicability of the terms of an agency action. The reviewing court shall –

170a
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be –
(A) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law;
(B) contrary to constitutional right, power,
privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or short of statutory
right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in
a case subject to sections 556 and 557 of this
title or otherwise reviewed on the record of an
agency hearing provided by statute; or
(F) unwarranted by the facts to the extent
that the facts are subject to trial de novo by the
reviewing court.
In making the foregoing determinations, the court
shall review the whole record or those parts of it cited
by a party, and due account shall be taken of the rule
of prejudicial error.
3. 26 U.S.C. 482 provides:
In any case of two or more organizations, trades,
or businesses (whether or not incorporated, whether
or not organized in the United States, and whether or
not affiliated) owned or controlled directly or indirectly by the same interests, the Secretary may dis-

171a
tribute, apportion, or allocate gross income, deductions, credits, or allowances between or among such
organizations, trades, or businesses, if he determines
that such distribution, apportionment, or allocation is
necessary in order to prevent evasion of taxes or
clearly to reflect the income of any of such organizations, trades, or businesses. In the case of any transfer (or license) of intangible property (within the
meaning of section 367(d)(4)), the income with respect
to such transfer or license shall be commensurate
with the income attributable to the intangible. For
purposes of this section, the Secretary shall require
the valuation of transfers of intangible property (including intangible property transferred with other
property or services) on an aggregate basis or the valuation of such a transfer on the basis of the realistic
alternatives to such a transfer, if the Secretary determines that such basis is the most reliable means of
valuation of such transfers.
4. 26 C.F.R. 1.482-1 provides, in pertinent part:
(a) In general –

(1) Purpose and scope. The purpose of section
482 is to ensure that taxpayers clearly reflect income attributable to controlled transactions and to
prevent the avoidance of taxes with respect to such
transactions. Section 482 places a controlled taxpayer on a tax parity with an uncontrolled taxpayer by determining the true taxable income of
the controlled taxpayer. This section sets forth
general principles and guidelines to be followed
under section 482. Section 1.482-2 provides rules
for the determination of the true taxable income of
controlled taxpayers in specific situations, includ-

172a
ing controlled transactions involving loans or advances or the use of tangible property. Sections
1.482-3 through 1.482-6 provide rules for the determination of the true taxable income of controlled taxpayers in cases involving the transfer of
property. Section 1.482-7T sets forth the cost sharing provisions applicable to taxable years beginning on or after January 5, 2009. Section 1.482-8
provides examples illustrating the application of
the best method rule. Finally, § 1.482-9 provides
rules for the determination of the true taxable income of controlled taxpayers in cases involving the
performance of services.
(2) Authority to make allocations. The district
director may make allocations between or among
the members of a controlled group if a controlled
taxpayer has not reported its true taxable income.
In such case, the district director may allocate income, deductions, credits, allowances, basis, or any
other item or element affecting taxable income (referred to as allocations). The appropriate allocation may take the form of an increase or decrease
in any relevant amount.
(3) Taxpayer’s use of section 482. If necessary
to reflect an arm’s length result, a controlled taxpayer may report on a timely filed U.S. income tax
return (including extensions) the results of its controlled transactions based upon prices different
from those actually charged. Except as provided in
this paragraph, section 482 grants no other right
to a controlled taxpayer to apply the provisions of
section 482 at will or to compel the district director
to apply such provisions. Therefore, no untimely
or amended returns will be permitted to decrease

173a
taxable income based on allocations or other adjustments with respect to controlled transactions.
See § 1.6662-6T(a)(2) or successor regulations.
(b) Arm’s length standard –
(1) In general. In determining the true taxable
income of a controlled taxpayer, the standard to be
applied in every case is that of a taxpayer dealing
at arm’s length with an uncontrolled taxpayer. A
controlled transaction meets the arm’s length
standard if the results of the transaction are consistent with the results that would have been realized if uncontrolled taxpayers had engaged in the
same transaction under the same circumstances
(arm’s length result). However, because identical
transactions can rarely be located, whether a
transaction produces an arm’s length result generally will be determined by reference to the results
of comparable transactions under comparable circumstances. See § 1.482-1(d)(2) (Standard of comparability). Evaluation of whether a controlled
transaction produces an arm’s length result is
made pursuant to a method selected under the best
method rule described in § 1.482-1(c).
(2) Arm’s length methods –
(i) Methods. Sections 1.482-2 through 1.4827 and 1.482-9 provide specific methods to be
used to evaluate whether transactions between
or among members of the controlled group satisfy the arm’s length standard, and if they do
not, to determine the arm’s length result. This
section provides general principles applicable
in determining arm’s length results of such controlled transactions, but do not provide methods, for which reference must be made to those

174a
other sections in accordance with paragraphs
(b)(2)(ii) and (iii) of this section. Section 1.4827 provides the specific methods to be used to
evaluate whether a cost sharing arrangement
as defined in § 1.482-7 produces results consistent with an arm’s length result.
(ii) Selection of category of method applicable to transaction. The methods listed in
§ 1.482-2 apply to different types of transactions, such as transfers of property, services,
loans or advances, and rentals. Accordingly,
the method or methods most appropriate to the
calculation of arm’s length results for controlled
transactions must be selected, and different
methods may be applied to interrelated transactions if such transactions are most reliably
evaluated on a separate basis. For example, if
services are provided in connection with the
transfer of property, it may be appropriate to
separately apply the methods applicable to services and property in order to determine an
arm’s length result. But see § 1.482-1(f )(2)(i)
(Aggregation of transactions). In addition,
other applicable provisions of the Code may affect the characterization of a transaction, and
therefore affect the methods applicable under
section 482. See for example section 467.
(iii) Coordination of methods applicable to
certain intangible development arrangements.
Section 1.482-7 provides the specific methods to
be used to determine arm’s length results of
controlled transactions in connection with a
cost sharing arrangement as defined in § 1.4827. Sections 1.482-4 and 1.482-9, as appropriate,

175a
provide the specific methods to be used to determine arm’s length results of arrangements,
including partnerships, for sharing the costs
and risks of developing intangibles, other than
a cost sharing arrangement covered by § 1.4827. See also §§ 1.482-4(g) (Coordination with
rules governing cost sharing arrangements)
and 1.482-9(m)(3) (Coordination with rules governing cost sharing arrangements).
(c) Best method rule –
(1) In general. The arm’s length result of a controlled transaction must be determined under the
method that, under the facts and circumstances,
provides the most reliable measure of an arm’s
length result. Thus, there is no strict priority of
methods, and no method will invariably be considered to be more reliable than others. An arm’s
length result may be determined under any
method without establishing the inapplicability of
another method, but if another method subsequently is shown to produce a more reliable measure of an arm’s length result, such other method
must be used. Similarly, if two or more applications of a single method provide inconsistent results, the arm’s length result must be determined
under the application that, under the facts and circumstances, provides the most reliable measure of
an arm’s length result. See § 1.482-8 for examples
of the application of the best method rule. See
§ 1.482-7 for the applicable methods in the case of
a cost sharing arrangement.
(2) Determining the best method. Data based on
the results of transactions between unrelated parties provides the most objective basis for determining whether the results of a controlled transaction

176a
are arm’s length. Thus, in determining which of
two or more available methods (or applications of
a single method) provides the most reliable measure of an arm’s length result, the two primary factors to take into account are the degree of comparability between the controlled transaction (or taxpayer) and any uncontrolled comparables, and the
quality of the data and assumptions used in the
analysis. In addition, in certain circumstances, it
also may be relevant to consider whether the results of an analysis are consistent with the results
of an analysis under another method. These factors are explained in paragraphs (c)(2)(i), (ii), and
(iii) of this section.
(i) Comparability. The relative reliability of
a method based on the results of transactions
between unrelated parties depends on the degree of comparability between the controlled
transaction or taxpayers and the uncontrolled
comparables, taking into account the factors
described in § 1.482-1(d)(3) (Factors for determining comparability), and after making adjustments for differences, as described in
§ 1.482-1(d)(2) (Standard of comparability). As
the degree of comparability increases, the number and extent of potential differences that
could render the analysis inaccurate is reduced.
In addition, if adjustments are made to increase the degree of comparability, the number,
magnitude, and reliability of those adjustments
will affect the reliability of the results of the
analysis. Thus, an analysis under the comparable uncontrolled price method will generally
be more reliable than analyses obtained under
other methods if the analysis is based on closely
comparable uncontrolled transactions, because

177a
such an analysis can be expected to achieve a
higher degree of comparability and be susceptible to fewer differences than analyses under
other methods. See § 1.482-3(b)(2)(ii)(A). An
analysis will be relatively less reliable, however, as the un controlled transactions become
less comparable to the controlled transaction.
(ii) Data and assumptions. Whether a
method provides the most reliable measure of
an arm’s length result also depends upon the
completeness and accuracy of the underlying
data, the reliability of the assumptions, and the
sensitivity of the results to possible deficiencies
in the data and assumptions. Such factors are
particularly relevant in evaluating the degree
of comparability between the controlled and uncontrolled transactions. These factors are discussed in paragraphs (c)(2)(ii) (A), (B), and (C)
of this section.
(A) Completeness and accuracy of data.
The completeness and accuracy of the data
affects the ability to identify and quantify
those factors that would affect the result under any particular method. For example,
the completeness and accuracy of data will
determine the extent to which it is possible
to identify differences between the controlled and uncontrolled transactions, and
the reliability of adjustments that are made
to account for such differences. An analysis
will be relatively more reliable as the completeness and accuracy of the data increases.

178a
(B) Reliability of assumptions. All methods rely on certain assumptions. The reliability of the results derived from a method
depends on the soundness of such assumptions. Some assumptions are relatively reliable. For example, adjustments for differences in payment terms between controlled
and uncontrolled transactions may be based
on the assumption that at arm’s length such
differences would lead to price differences
that reflect the time value of money. Although selection of the appropriate interest
rate to use in making such adjustments involves some judgement, the economic analysis on which the assumption is based is relatively sound. Other assumptions may be
less reliable. For example, the residual
profit split method may be based on the assumption that capitalized intangible development expenses reflect the relative value
of the intangible property contributed by
each party. Because the costs of developing
an intangible may not be related to its market value, the soundness of this assumption
will affect the reliability of the results derived from this method.
(C) Sensitivity of results to deficiencies in
data and assumptions. Deficiencies in the
data used or assumptions made may have a
greater effect on some methods than others.
In particular, the reliability of some methods is heavily dependent on the similarity of
property or services involved in the controlled and uncontrolled transaction. For
certain other methods, such as the resale
price method, the analysis of the extent to

179a
which controlled and uncontrolled taxpayers undertake the same or similar functions,
employ similar resources, and bear similar
risks is particularly important. Finally, under other methods, such as the profit split
method, defining the relevant business activity and appropriate allocation of costs, income, and assets may be of particular importance. Therefore, a difference between
the controlled and uncontrolled transactions for which an accurate adjustment cannot be made may have a greater effect on the
reliability of the results derived under one
method than the results derived under another method. For example, differences in
management efficiency may have a greater
effect on a comparable profits method analysis than on a comparable uncontrolled
price method analysis, while differences in
product characteristics will ordinarily have
a greater effect on a comparable uncontrolled price method analysis than on a comparable profits method analysis.
(iii) Confirmation of results by another
method. If two or more methods produce inconsistent results, the best method rule will be applied to select the method that provides the
most reliable measure of an arm’s length result.
If the best method rule does not clearly indicate
which method should be selected, an additional
factor that may be taken into account in selecting a method is whether any of the competing
methods produce results that are consistent
with the results obtained from the appropriate
application of another method. Further, in
evaluating different applications of the same

180a
method, the fact that a second method (or another application of the first method) produces
results that are consistent with one of the competing applications may be taken into account.
* * * * *
5. 26 C.F.R. 1.482-7 (2003) provides, in pertinent
part:
(d) Costs –

(1) Intangible development costs. For purposes
of this section, a controlled participant’s costs of
developing intangibles for a taxable year mean all
of the costs incurred by that participant related to
the intangible development area, plus all of the
cost sharing payments it makes to other controlled
and uncontrolled participants, minus all of the cost
sharing payments it receives from other controlled
and uncontrolled participants. Costs incurred related to the intangible development area consist of
the following items: operating expenses as defined
in § 1.482-5(d)(3), other than depreciation or amortization expense, plus (to the extent not included
in such operating expenses, as defined in § 1.4825(d)(3)) the charge for the use of any tangible property made available to the qualified cost sharing
arrangement. If tangible property is made available to the qualified cost sharing arrangement by a
controlled participant, the determination of the appropriate charge will be governed by the rules of
§ 1.482-2(c) (Use of tangible property). Intangible
development costs do not include the consideration
for the use of any intangible property made available to the qualified cost sharing arrangement.
See paragraph (g)(2) of this section. If a particular

181a
cost contributes to the intangible development
area and other areas or other business activities,
the cost must be allocated between the intangible
development area and the other areas or business
activities on a reasonable basis. In such a case, it
is necessary to estimate the total benefits attributable to the cost incurred. The share of such cost
allocated to the intangible development area must
correspond to covered intangibles’ share of the total benefits. Costs that do not contribute to the intangible development area are not taken into account.
(2) Stock-based compensation –
(i) In general. For purposes of this section,
a controlled participant’s operating expenses
include all costs attributable to compensation,
including stock-based compensation. As used
in this section, the term stock-based compensation means any compensation provided by a
controlled participant to an employee or independent contractor in the form of equity instruments, options to acquire stock (stock options),
or rights with respect to (or determined by reference to) equity instruments or stock options,
including but not limited to property to which
section 83 applies and stock options to which
section 421 applies, regardless of whether ultimately settled in the form of cash, stock, or
other property.
(ii) Identification of stock-based compensation related to intangible development. The determination of whether stock-based compensation is related to the intangible development
area within the meaning of paragraph (d)(1) of
this section is made as of the date that the

182a
stock-based compensation is granted. Accordingly, all stock-based compensation that is
granted during the term of the qualified cost
sharing arrangement and is related at date of
grant to the development of intangibles covered
by the arrangement is included as an intangible
development cost under paragraph (d)(1) of this
section. In the case of a repricing or other modification of a stock option, the determination of
whether the repricing or other modification
constitutes the grant of a new stock option for
purposes of this paragraph (d)(2)(ii) will be
made in accordance with the rules of section
424(h) and related regulations.
(iii) Measurement and timing of stock-based
compensation expense –
(A) In general. Except as otherwise provided in this paragraph (d)(2)(iii), the operating expense attributable to stock-based
compensation is equal to the amount allowable to the controlled participant as a deduction for Federal income tax purposes with
respect to that stock- based compensation
(for example, under section 83(h)) and is
taken into account as an operating expense
under this section for the taxable year for
which the deduction is allowable.
(1) Transfers to which section 421 applies. Solely for purposes of this paragraph (d)(2)(iii)(A), section 421 does not
apply to the transfer of stock pursuant to
the exercise of an option that meets the
requirements of section 422(a) or 423(a).

183a
(2) Deductions of foreign controlled
participants. Solely for purposes of this
paragraph (d)(2)(iii)(A), an amount is
treated as an allowable deduction of a
controlled participant to the extent that
a deduction would be allowable to a
United States taxpayer.
(3) Modification of stock option.
Solely for purposes of this paragraph
(d)(2)(iii)(A), if the repricing or other
modification of a stock option is determined, under paragraph (d)(2)(ii) of this
section, to constitute the grant of a new
stock option not related to the development of intangibles, the stock option that
is repriced or otherwise modified will be
treated as being exercised immediately
before the modification, provided that
the stock option is then exercisable and
the fair market value of the underlying
stock then exceeds the price at which the
stock option is exercisable. Accordingly,
the amount of the deduction that would
be allowable (or treated as allowable under this paragraph (d)(2)(iii)(A)) to the
controlled participant upon exercise of
the stock option immediately before the
modification must be taken into account
as an operating expense as of the date of
the modification.
(4) Expiration or termination of qualified cost sharing arrangement. Solely
for purposes of this paragraph
(d)(2)(iii)(A), if an item of stock-based

184a
compensation related to the development of intangibles is not exercised during the term of a qualified cost sharing
arrangement, that item of stock-based
compensation will be treated as being exercised immediately before the expiration or termination of the qualified cost
sharing arrangement, provided that the
stock-based compensation is then exercisable and the fair market value of the
underlying stock then exceeds the price
at which the stock-based compensation
is exercisable. Accordingly, the amount
of the deduction that would be allowable
(or treated as allowable under this paragraph (d)(2)(iii)(A)) to the controlled participant upon exercise of the stock-based
compensation must be taken into account as an operating expense as of the
date of the expiration or termination of
the qualified cost sharing arrangement.
(B) Election with respect to options on
publicly traded stock –
(1) In general. With respect to stockbased compensation in the form of options on publicly traded stock, the controlled participants in a qualified cost
sharing arrangement may elect to take
into account all operating expenses attributable to those stock options in the
same amount, and as of the same time,
as the fair value of the stock options reflected as a charge against income in audited financial statements or disclosed in
footnotes to such financial statements,

185a
provided that such statements are prepared in accordance with United States
generally accepted accounting principles
by or on behalf of the company issuing
the publicly traded stock.
(2) Publicly traded stock. As used in
this paragraph (d)(2)(iii)(B), the term
publicly traded stock means stock that is
regularly traded on an established
United States securities market and is
issued by a company whose financial
statements are prepared in accordance
with United States generally accepted
accounting principles for the taxable
year.
(3) Generally accepted accounting
principles. For purposes of this paragraph (d)(2)(iii)(B), a financial statement
prepared in accordance with a comprehensive body of generally accepted accounting principles other than United
States generally accepted accounting
principles is considered to be prepared in
accordance with United States generally
accepted accounting principles provided
that either –
(i) The fair value of the stock options under consideration is reflected
in the reconciliation between such
other accounting principles and
United States generally accepted accounting principles required to be incorporated into the financial statement by the securities laws governing
companies whose stock is regularly

186a
traded on United States securities
markets; or
(ii) In the absence of a reconciliation between such other accounting
principles and United States generally accepted accounting principles
that reflects the fair value of the
stock options under consideration,
such other accounting principles require that the fair value of the stock
options under consideration be reflected as a charge against income in
audited financial statements or disclosed in footnotes to such statements.
(4) Time and manner of making the
election. The election described in this
paragraph (d)(2)(iii)(B) is made by an explicit reference to the election in the
written cost sharing agreement required
by paragraph (b)(4) of this section or in a
written amendment to the cost sharing
agreement entered into with the consent
of the Commissioner pursuant to paragraph (d)(2)(iii)(C) of this section. In the
case of a qualified cost sharing arrangement in existence on August 26, 2003,
the election must be made by written
amendment to the cost sharing agreement not later than the latest due date
(with regard to extensions) of a Federal
income tax return of any controlled participant for the first taxable year beginning after August 26, 2003, and the consent of the Commissioner is not required.

187a
(C) Consistency.
Generally, all controlled participants in a qualified cost sharing arrangement taking options on publicly
traded stock into account under paragraph
(d)(2)(iii)(A) or (B) of this section must use
that same method of measurement and timing for all options on publicly traded stock
with respect to that qualified cost sharing
arrangement. Controlled participants may
change their method only with the consent
of the Commissioner and only with respect
to stock options granted during taxable
years subsequent to the taxable year in
which the Commissioner’s consent is obtained. All controlled participants in the
qualified cost sharing arrangement must
join in requests for the Commissioner’s consent under this paragraph. Thus, for example, if the controlled participants make the
election described in paragraph (d)(2)(iii)(B)
of this section upon the formation of the
qualified cost sharing arrangement, the
election may be revoked only with the consent of the Commissioner, and the consent
will apply only to stock options granted in
taxable years subsequent to the taxable
year in which consent is obtained. Similarly, if controlled participants already have
granted stock options that have been or will
be taken into account under the general rule
of paragraph (d)(2)(iii)(A) of this section,
then except in cases specified in the last sentence of paragraph (d)(2)(iii)(B)(4) of this
section, the controlled participants may
make the election described in paragraph

188a
(d)(2)(iii)(B) of this section only with the consent of the Commissioner, and the consent
will apply only to stock options granted in
taxable years subsequent to the taxable
year in which consent is obtained.
* * * * *
6. 26 C.F.R. 1.482-7 provides, in pertinent part:
(d) Intangible development costs –

* * * * *
(3) Stock-based compensation –
(i) In general. As used in this section, the
term stock-based compensation means any
compensation provided by a controlled participant to an employee or independent contractor
in the form of equity instruments, options to acquire stock (stock options), or rights with respect to (or determined by reference to) equity
instruments or stock options, including but not
limited to property to which section 83 applies
and stock options to which section 421 applies,
regardless of whether ultimately settled in the
form of cash, stock, or other property.
(ii) Identification of stock-based compensation with the IDA. The determination of
whether stock-based compensation is directly
identified with, or reasonably allocable to, the
IDA is made as of the date that the stock-based
compensation is granted.
Accordingly, all
stock-based compensation that is granted during the term of the CSA and, at date of grant, is
directly identified with, or reasonably allocable

189a
to, the IDA is included as an IDC under paragraph (d)(1) of this section. In the case of a repricing or other modification of a stock option,
the determination of whether the repricing or
other modification constitutes the grant of a
new stock option for purposes of this paragraph
(d)(3)(ii) will be made in accordance with the
rules of section 424(h) and related regulations.
(iii) Measurement and timing of stock-based
compensation IDC –
(A) In general. Except as otherwise provided in this paragraph (d)(3)(iii), the cost
attributable to stock-based compensation is
equal to the amount allowable to the controlled participant as a deduction for federal
income tax purposes with respect to that
stock-based compensation (for example, under section 83(h)) and is taken into account
as an IDC under this section for the taxable
year for which the deduction is allowable.
(1) Transfers to which section 421 applies. Solely for purposes of this paragraph (d)(3)(iii)(A), section 421 does not
apply to the transfer of stock pursuant to
the exercise of an option that meets the
requirements of section 422(a) or 423(a).
(2) Deductions of foreign controlled
participants. Solely for purposes of this
paragraph (d)(3)(iii)(A), an amount is
treated as an allowable deduction of a
foreign controlled participant to the extent that a deduction would be allowable
to a United States taxpayer.

190a
(3) Modification of stock option.
Solely for purposes of this paragraph
(d)(3)(iii)(A), if the repricing or other
modification of a stock option is determined, under paragraph (d)(3)(ii) of this
section, to constitute the grant of a new
stock option not identified with, or reasonably allocable to, the IDA, the stock
option that is repriced or otherwise modified will be treated as being exercised
immediately before the modification,
provided that the stock option is then exercisable and the fair market value of the
underlying stock then exceeds the price
at which the stock option is exercisable.
Accordingly, the amount of the deduction
that would be allowable (or treated as allowable
under
this
paragraph
(d)(3)(iii)(A)) to the controlled participant upon exercise of the stock option
immediately before the modification
must be taken into account as an IDC as
of the date of the modification.
(4) Expiration or termination of CSA.
Solely for purposes of this paragraph
(d)(3)(iii)(A), if an item of stock-based
compensation identified with, or reasonably allocable to, the IDA is not exercised
during the term of a CSA, that item of
stock-based compensation will be treated
as being exercised immediately before
the expiration or termination of the CSA,
provided that the stock-based compensation is then exercisable and the fair market value of the underlying stock then
exceeds the price at which the stock-

191a
based compensation is exercisable. Accordingly, the amount of the deduction
that would be allowable (or treated as allowable
under
this
paragraph
(d)(3)(iii)(A)) to the controlled participant upon exercise of the stock-based
compensation must be taken into account as an IDC as of the date of the expiration or termination of the CSA.
(B) Election with respect to options on
publicly traded stock –
(1) In general. With respect to stockbased compensation in the form of options on publicly traded stock, the controlled participants in a CSA may elect
to take into account all IDCs attributable
to those stock options in the same
amount, and as of the same time, as the
fair value of the stock options reflected
as a charge against income in audited financial statements or disclosed in footnotes to such financial statements, provided that such statements are prepared
in accordance with United States generally accepted accounting principles by or
on behalf of the company issuing the
publicly traded stock.
(2) Publicly traded stock. As used in
this paragraph (d)(3)(iii)(B), the term
publicly traded stock means stock that is
regularly traded on an established
United States securities market and is
issued by a company whose financial
statements are prepared in accordance
with United States generally accepted

192a
accounting principles for the taxable
year.
(3) Generally accepted accounting
principles. For purposes of this paragraph (d)(3)(iii)(B), a financial statement
prepared in accordance with a comprehensive body of generally accepted accounting principles other than United
States generally accepted accounting
principles is considered to be prepared in
accordance with United States generally
accepted accounting principles provided
that either –
(i) The fair value of the stock options under consideration is reflected
in the reconciliation between such
other accounting principles and
United States generally accepted accounting principles required to be incorporated into the financial statement by the securities laws governing
companies whose stock is regularly
traded on United States securities
markets; or
(ii) In the absence of a reconciliation between such other accounting
principles and United States generally accepted accounting principles
that reflects the fair value of the
stock options under consideration,
such other accounting principles require that the fair value of the stock
options under consideration be reflected as a charge against income in

193a
audited financial statements or disclosed in footnotes to such statements.
(4) Time and manner of making the
election. The election described in this
paragraph (d)(3)(iii)(B) is made by an explicit reference to the election in the
written contract required by paragraph
(k)(1) of this section or in a written
amendment to the CSA entered into with
the consent of the Commissioner pursuant to paragraph (d)(3)(iii)(C) of this section. In the case of a CSA in existence on
August 26, 2003, the election by written
amendment to the CSA may be made
without the consent of the Commissioner
if such amendment is entered into not
later than the latest due date (with regard to extensions) of a federal income
tax return of any controlled participant
for the first taxable year beginning after
August 26, 2003.
(C) Consistency.
Generally, all controlled participants in a CSA taking options
on publicly traded stock into account under
paragraph
(d)(3)(ii),
(d)(3)(iii)(A),
or
(d)(3)(iii)(B) of this section must use that
same method of identification, measurement and timing for all options on publicly
traded stock with respect to that CSA. Controlled participants may change their
method only with the consent of the Commissioner and only with respect to stock options granted during taxable years subse-

194a
quent to the taxable year in which the Commissioner’s consent is obtained. All controlled participants in the CSA must join in
requests for the Commissioner’s consent under this paragraph (d)(3)(iii)(C). Thus, for
example, if the controlled participants make
the election described in paragraph
(d)(3)(iii)(B) of this section upon the formation of the CSA, the election may be revoked only with the consent of the Commissioner, and the consent will apply only to
stock options granted in taxable years subsequent to the taxable year in which consent
is obtained. Similarly, if controlled participants already have granted stock options
that have been or will be taken into account
under the general rule of paragraph
(d)(3)(iii)(A) of this section, then except in
cases specified in the last sentence of paragraph (d)(3)(iii)(B)(4) of this section, the controlled participants may make the election
described in paragraph (d)(3)(iii)(B) of this
section only with the consent of the Commissioner, and the consent will apply only to
stock options granted in taxable years subsequent to the taxable year in which consent
is obtained.
* * * * *

195a
APPENDIX E
Federal Register / Vol. 67, No. 145 / Monday, July 29,
2002 / Proposed Rules
48997
DEPARTMENT OF THE TREASURY
Internal Revenue Service
26 CFR Part 1
[REG-106359-02]
RIN 1545-BA57
Compensatory Stock Options Under Section 482
AGENCY: Internal Revenue Service (IRS), Treasury.
ACTION: Notice of proposed rulemaking and notice
of public hearing.
SUMMARY: This document contains proposed regulations that provide guidance regarding the application of the rules of section 482 governing qualified cost
sharing arrangements. These proposed regulations
provide guidance regarding the treatment of stockbased compensation for purposes of the rules governing qualified cost sharing arrangements and for purposes of the comparability factors to be considered under the comparable profits method. This document
also provides notice of a public hearing on these proposed regulations.
DATES: Written or electronic comments must be received by October 28, 2002. Requests to speak and
outlines of topics to be discussed at the public hearing
scheduled for November 20, 2002, must be received by
October 30, 2002.

196a
ADDRESSES: Send submissions to: CC:ITA:RU
(REG-106359-02), room 5226, Internal Revenue Service, POB 7604, Ben Franklin Station, Washington,
DC 20044. Submissions may be hand-delivered between the hours of 8 a.m. and 5 p.m. to CC:ITA:RU
(REG-106359-02), Courier’s Desk, Internal Revenue
Service, 1111 Constitution Avenue, NW., Washington,
DC. Alternatively, taxpayers may submit comments
electronically directly to the IRS Internet site at
http://www.irs.gov/regs. The public hearing will be
held in Room 4718, Internal Revenue Building, 1111
Constitution Avenue, NW., Washington, DC.
FOR FURTHER INFORMATION CONTACT: Concerning the regulations, Douglas Giblen, (202) 8741490; concerning submissions of comments, the hearing, and/or to be placed on the building access list to
attend the hearing, LaNita Van Dyke, (202) 622-7180
(not toll-free numbers).
SUPPLEMENTARY INFORMATION
Paperwork Reduction Act
The collection of information contained in this notice of proposed rulemaking has been submitted to the
Office of Management and Budget for review in accordance with the Paperwork Reduction Act of 1995
(44 U.S.C. 3507(d)). Comments on the collection of information should be sent to the Office of Management
and Budget, Attn: Desk Officer for the Department of
the Treasury, Office of Information and Regulatory
Affairs, Washington, DC 20503, with copies to the Internal Revenue Service, Attn: IRS Reports Clearance
Officer, W:CAR:MP:FP:S, Washington, DC 20224.
Comments on the collection of information should be
received by September 27, 2002. Comments are specifically requested concerning:

197a
Whether the proposed collection of information is
necessary for the proper performance of the functions
of the Internal Revenue Service, including whether
the information will have practical utility;
The accuracy of the estimated burden associated
with the proposed collection of information (see below);
How the quality, utility, and clarity of the information to be collected may be enhanced;
How the burden of complying with the proposed
collection of information may be minimized, including
through the application of automated collection techniques or other forms of information technology; and
Estimates of capital or start-up costs and costs of
operation, maintenance, and purchase of services to
provide information.
The collection of information requirements are in
proposed
§§ 1.482-7(d)(2)(iii)(B)
and
1.4827(j)(2)(i)(F). This information is required by the IRS
to monitor compliance with the federal tax rules for
determining stock-based compensation costs related
to intangible development to be shared among controlled participants in qualified cost sharing arrangements. The likely respondents are taxpayers who enter into these arrangements. Responses to this collection of information are required to determine these
taxpayers’ proper shares of stock-based compensation
costs incurred with respect to these arrangements.
Section 1.482-7(d)(2)(iii)(B) of the proposed regulations provides that controlled participants may elect
an alternative method of measurement of certain
stock-based compensation by clearly referring to the
election in the written cost sharing agreement required under existing regulations or by amending a
cost sharing agreement already in effect to refer to the

198a
election. Section 1.482-7(j)(2)(i)(F) requires controlled
participants to maintain documentation necessary to
establish the amount taken into account as operating
expenses attributable to stock-based compensation,
including the method of measurement and timing
used in computing that amount, and the data, as of
the date of grant, used to identify stock-based compensation related to the development of intangibles.
Estimated total annual reporting and/or recordkeeping burden: 2,000 hours.
Estimated average annual burden hours per respondent and/or recordkeeper: The estimated annual
burden per respondent varies from 2 hours to 7 hours,
depending on individual circumstances, with an estimated average of 4 hours.
Estimated number of respondents and/or recordkeepers: 500.
Estimated frequency of responses: Annually.
An agency may not conduct or sponsor, and a person is not required to respond to, a collection of information unless it displays a valid control number assigned by the Office of Management and Budget.
Books or records relating to a collection of information must be retained as long as their contents may
become material in the administration of any internal
revenue law. Generally, tax returns and tax return
information are confidential, as required by 26 U.S.C.
6103.
Background
Section 482 of the Internal Revenue Code generally provides that the Secretary may allocate gross income, deductions and credits between or among two
or more taxpayers owned or controlled by the same interests in order to prevent evasion of taxes or clearly

199a
to reflect income. On July 8, 1994, Treasury and the
IRS published in the Federal Register (59 FR 34988)
final regulations (T.D. 8552, 1994-2 C.B. 93) under
section 482 in areas other than cost sharing. On December 20, 1995, Treasury and the IRS published in
the Federal Register (60 FR 65553) final cost sharing
regulations (T.D. 8632, 1996-1 C.B. 85), effective for
taxable years beginning on or after January 1, 1996.
Amendments to T.D. 8632 were published in the Federal Register on May 13, 1996, at 61 FR 21955 (T.D.
8670, 1996-1 C.B. 99), and on January 3, 2001, at 66
FR 280 (T.D. 8930, 2001-1 I.R.B. 433).
The 1994 final regulations under section 482 contain general provisions at § 1.482-1 describing the
arm’s length standard and the best method rule. The
final cost sharing regulations at § 1.482-7 generally
require that controlled participants in a qualified cost
sharing arrangement share intangible development
costs in proportion to their shares of the reasonably
anticipated benefits attributable to the development
of the intangibles covered by the arrangement. These
proposed regulations clarify that stock-based compensation is taken into account in determining the operating expenses treated as a controlled participant’s intangible development costs for purposes of the cost
sharing provisions; provide rules for measuring the
cost associated with stock-based compensation; clarify
that the utilization and treatment of stock-based compensation is appropriately taken into account as a
comparability factor for purposes of the comparable
profits method under § 1.482-5; and clarify the coordination of the cost sharing rules of § 1.482-7 with the
arm’s length standard as set forth in § 1.482-1.

200a
Explanation of Provisions
Overview
The Tax Reform Act of 1986, Public Law 99-514,
100 Stat. 2085, 2561 et seq. (reprinted at 1986-3 C.B.
(Vol. 1) 1, 478) (the Act), amended section 482 to require that consideration for intangible property transferred in a controlled transaction be commensurate
with the income attributable to the intangible. The
legislative history of the Act indicated that in adding
this commensurate with income standard to section
482, Congress did not intend to preclude the use of
bona fide research and development cost sharing arrangements as an appropriate method of allocating income attributable to intangibles among related parties, “if and to the extent such agreements are consistent with the purpose of this provision that the income allocated among the parties reasonably reflect
the actual economic activity undertaken by each. Under such a bona fide cost-sharing arrangement, the
cost-sharer would be expected to bear its portion of all
research and development costs * * * .” H.R. Rep. No.
99-841, at II-638 (1986) (the Conference Report).
The Conference Report recommended that the IRS
conduct a comprehensive study and consider whether
the regulations under section 482 (issued in 1968)
should be modified in any respect. In response to this
directive, on October 18, 1988, Treasury and the IRS
issued a study of intercompany pricing (the White Paper), published as Notice 88-123, 1988-2 C.B. 458.
With respect to cost sharing arrangements, the White
Paper observed that Congress intended such arrangements to produce results consistent with the purposes
of the commensurate with income standard in section
482, and in particular that allocations of income
among the participants reasonably reflect the participants’ respective economic activity. 1988-2 C.B. at

201a
459, 495. The White Paper further observed that Congress intended that Treasury and the IRS apply and
interpret the commensurate with income standard
consistently with the arm’s length standard. 1988-2
C.B. at 458, 477.
Section 1.482-1 of the 1994 final regulations provides that a controlled transaction meets the arm’s
length standard if the results of the transaction are
consistent with the results that would have been realized if uncontrolled taxpayers had engaged in the
same transaction under the same circumstances. A
method selected under the best method rule is used to
determine whether a controlled transaction produces
an arm’s length result. The regulations reference
§§ 1.482-2 through 1.482-6 as providing specific methods to be used in this determination.
Section 1.482-7 of the 1995 final regulations implements the commensurate with income standard in the
context of cost sharing arrangements. The final cost
sharing regulations require that controlled participants in a qualified cost sharing arrangement share
all costs incurred that are related to the development
of intangibles in proportion to their shares of the reasonably anticipated benefits attributable to that development. Section 1.482-7(d)(1) defines these intangible development costs as including operating expenses as defined in § 1.482-5(d)(3), other than depreciation or amortization, plus an arm’s length rental
charge determined under § 1.482-2(c) for the use of
any tangible property made available to the qualified
cost sharing arrangement. Section 1.482-5(d)(3) defines operating expenses, for purposes of the comparable profits method under section 482, as including
all expenses not included in cost of goods sold except
for interest expense, foreign and domestic income

202a
taxes, and any other expenses not related to the operation of the relevant business activity. In the context
of cost sharing, the relevant business activity is the
development of intangibles covered by the cost sharing arrangement.
Since the promulgation of the final cost sharing
regulations in 1995, the issue has been raised whether
operating expenses within the meaning of § 1.4827(d)(1) include compensation provided by a controlled
participant in the form of stock options. Related questions have been posed in this context regarding the interaction between the arm’s length standard and the
cost sharing regulations.
These proposed regulations amend the final regulations to clarify that stock-based compensation must
be taken into account in determining operating expenses under § 1.482-7(d)(1) and to provide rules for
measuring stock-based compensation costs. These
proposed regulations also clarify that stock-based
compensation should be taken into account in comparability determinations pursuant to the comparable
profits method under § 1.482-5. Finally, the proposed
regulations amend the final regulations to include express provisions to coordinate the cost sharing rules of
§ 1.482-7 with the arm’s length standard as set forth
in § 1.482-1.
Inclusion of Stock-Based Compensation in Intangible
Development Costs
The proposed regulations provide that in determining a controlled participant’s operating expenses
within the meaning of § 1.482-7(d)(1), all compensation, including stock-based compensation, must be
taken into account. The proposed regulations also
provide rules for measuring the operating expenses
attributable to stock-based compensation.

203a
The definition of stock-based compensation for
purposes of these proposed regulations is broad, comprising any compensation provided by a controlled
participant to an employee or independent contractor
in the form of equity instruments, stock options, or
rights in (or determined by reference to) such instruments or options, regardless of whether the compensation ultimately is settled in the form of cash, stock,
or other property. Thus, these proposed regulations
are intended to reach such forms of compensation as
restricted stock, nonstatutory stock options, statutory
stock options (incentive stock options described in section 422(b) and options granted under an employee
stock purchase plan described in section 423(b)), stock
appreciation rights, and phantom stock. Statutory
stock options are within the scope of the definition regardless of whether the employer is entitled to an income tax deduction with respect to those options.
The proposed regulations provide that the determination of whether stock-based compensation is related to the development of intangibles covered by the
qualified cost sharing arrangement is to be made as of
the date the stock-based compensation is granted. For
example, controlled participants must share the costs
attributable to stock-based compensation that is
granted to an employee who, at the time of grant, is
performing research services related to the qualified
cost sharing arrangement. Treasury and the IRS believe that this rule appropriately identifies the stockbased compensation to be shared because the grant of
compensation generally is the economic event most
closely associated in time with the services being compensated. Because a controlled participant may
choose whether to provide stock-based or cash compensation, this rule also promotes neutrality of treat-

204a
ment as among various forms of compensation. Finally, because the grant-date identification rule applies irrespective of the method used by the controlled
participant to measure or determine the timing of inclusion of stock-based compensation in the intangible
development costs to be shared, the rule ensures that
the same items of stock-based compensation will be
taken into account under any method, thus promoting
neutrality in the choice of measurement method afforded by the proposed regulations.
In applying the grant-date identification rule in
cases where a stock option is repriced or otherwise
modified, the rules of section 424(h) and related regulations will be used to determine whether the grant of
a new stock option has occurred.
Treasury and the IRS recognize that tax and other
accounting principles permit the cost associated with
stock-based compensation to be measured and taken
into account as of different points in time and under
various methodologies for different purposes. For example, for general income tax purposes, the amount of
compensation taxed to an employee and deductible by
an employer upon exercise of a stock option not governed by sections 421-424 (commonly referred to as a
nonstatutory stock option) generally is measured by
the “spread” between the option price and the fair
market value of the underlying stock at the date of exercise. See §§ 83(a), 83(h), 1.83-1(a)(1), 1.83-6(a)(1).
For various other tax purposes, however, the IRS
has adopted modified versions of economic pricing
models, such as the Black-Scholes model, for valuing
stock options at specific points in time prior to exercise. See Rev. Proc. 98-34, 1998-1 C.B. 983 (estate and
gift tax valuation); Rev. Proc. 2002-13, 2002-8 I.R.B.
549, as modified by Rev. Proc. 2002-45, 2002-27 I.R.B.

205a
40 (measurement of stock-option-based golden parachute payments under sections 280G and 4999). Pricing models also have been adopted in the context of
financial accounting.
The Financial Accounting
Standards Board (FASB) refers to pricing models for
measurement of the stock-based compensation expense that a company is required to report at “fair
value,” either as a charge to income or, at the company’s option, in a pro forma footnote disclosure. See
FASB Statement 123, Accounting for Stock-Based
Compensation (October 1995).
Generally accepted pricing models can be applied
at the date of grant to estimate the economic cost of a
stock option to the issuer. General support for the use
of economic measures of cost in the transfer pricing
context may be found in the legislative history of the
commensurate with income standard and in the
White Paper, which state that to be consistent with
the commensurate with income standard, cost sharing
arrangements must “reflect the actual economic activity” of participants. Conference Report at II-638 and
White Paper at 1988-2 C.B. 495.
In establishing rules for measurement of the operating expenses attributable to stock-based compensation for cost sharing purposes, Treasury and the IRS
believe that due regard must be given to the emphasis
placed on economic factors in the legislative history of
the commensurate with income standard and in the
White Paper. Treasury and the IRS also recognize the
importance of providing rules that are administrable.
The proposed regulations prescribe a general rule
of measurement based primarily on the amount and
timing of the income tax deduction associated with
stock-based compensation, while in certain cases permitting controlled participants in a qualified cost
sharing arrangement to elect a rule of measurement

206a
with respect to stock options based on the amount and
timing of the fair value of the option that is required
to be computed for purposes of financial accounting in
accordance with United States generally accepted accounting principles (U.S. GAAP).
To provide for uniform measurement of the cost associated with both statutory and nonstatutory stock
options, the general deduction-based measurement
rule is applied as if section 421 did not apply upon the
exercise of a statutory stock option. Thus, although
section 421 generally disallows compensation deductions with respect to the exercise of statutory stock options except in the case of certain disqualifying dispositions, the proposed regulations treat the exercise of
a statutory stock option as giving rise to a deduction
for purposes of the deduction-based measurement
rule. Consequently, the operating expense with respect to all stock options, whether statutory or nonstatutory, generally will be measured by the “spread”
and taken into account as of the date the stock option
is exercised.
To place a foreign controlled participant on an
equal footing with a United States controlled participant, an amount is treated as deductible by a foreign
controlled participant, solely for purposes of the general deduction-based measurement rule, as if the
amount were paid or incurred by a United States taxpayer, even if the foreign controlled participant is not
subject to United States taxing jurisdiction and so
would not otherwise be entitled to a deduction under
United States income tax law.
Solely for purposes of the general deduction-based
measurement rule, any item of stock-based compensation that is eligible to be exercised and that remains
outstanding on the expiration or termination of a
qualified cost sharing arrangement will be treated as

207a
being exercised immediately before the expiration or
termination, provided that the fair market value of
the underlying stock at that time exceeds the price at
which the stock-based compensation is exercisable.
The result of this treatment is that the excess of the
fair market value of the underlying stock over the
price at which the stock-based compensation is exercisable is taken into account as an operating expense
for the taxable year in which the qualified cost sharing
arrangement expires or terminates. This special rule
would apply, for example, in the case of a currently
exercisable statutory stock option or a substantially
vested nonstatutory stock option where the fair market value of the underlying stock exceeds the option
price at the time the qualified cost sharing arrangement is terminated. The rule ensures that controlled
participants take into account for cost sharing purposes all stock-based compensation that is attributable to the development of intangibles and has become
exercisable during the term of the cost sharing arrangement. In cases where significant amounts of
stock-based compensation have been granted, but are
not exercisable at the time of the termination of the
arrangement, the IRS anticipates that factual issues
regarding the termination of the qualified cost sharing arrangement will arise if the arrangement is reinstated.
A similar rule applies if, during the term of the
qualified cost sharing arrangement, a newly granted
stock option is determined to result from a repricing
or other modification of another stock option and is
not related to the development of intangibles at the
time of the modification. In this situation, an amount
is taken into account for purposes of the general deduction-based measurement rule as if the original

208a
stock option had been exercised immediately before
the modification.
The proposed regulations permit an elective
method of measurement and timing with respect to
options on publicly traded stock of companies subject
to financial reporting under U.S. GAAP, provided that
the stock is traded on a United States securities market.
Under the election, the amount of the operating expense associated with compensatory stock options is
their “fair value,” generally measured by reference to
economic pricing models as of the date of grant, as reflected either as a charge against income or as a footnote disclosure in the company’s audited financial
statements, in compliance with current U.S. GAAP.
Where the election is made with respect to stock in a
company that does not take stock-based compensation
expense as a charge against income for financial accounting purposes but rather chooses, as permitted by
current U.S. GAAP (for example, FASB Statement
123), to disclose such compensation in a footnote to the
financial statements, stock-based compensation is
taken into account in the same amount, and as of the
same time, as the pro forma fair value figures reflected in the footnote.
The election to measure the operating expense associated with compensatory stock options in accordance with financial accounting rules must be clearly
referenced in the written cost sharing agreement required under § 1.482-7(b)(4) and must bind all controlled participants. A transition rule permits controlled participants to amend pre-existing cost sharing agreements not later than the latest due date
(without regard to extensions) for an income tax return of a controlled participant for the first taxable

209a
year beginning after the effective date of final regulations incorporating this rule.
The proposed regulations contain consistency
rules to ensure that all controlled participants in a
qualified cost sharing arrangement normally will use
the same method of measurement for all options on
publicly traded stock with respect to that arrangement. Once a method of measurement has been
adopted with respect to stock options granted in a taxable year following the effective date of the proposed
regulations, the method of measurement may not be
changed for those stock options. With respect to subsequently granted stock options to which the transition rule does not apply, the proposed regulations provide that a method of measurement different from
that adopted following the effective date of the proposed regulations may be adopted only with the consent of the Commissioner.
To ensure that taxpayers maintain documentation
supporting all amounts taken into account as operating expenses attributable to stock-based compensation, these proposed regulations add to the documentation requirements of § 1.482-7(j)(2)(i) an item specifically relating to stock-based compensation.
Treatment of Stock-Based Compensation Under Other
Provisions
The treatment of stock-based compensation as a
cost or operating expense for purposes of the transfer
pricing of services and for purposes of applying the
comparable profits method will be considered by
Treasury and the IRS in a separate regulation project.
Accordingly, these regulations do not propose amendments to the definitions of cost or operating expense
in § 1.482-2(b) or § 1.482-5(d)(3). However, these proposed regulations amend § 1.482-5(c)(2)(iv) to clarify

210a
that in applying the comparable profits method, material differences among the tested party and uncontrolled comparables with respect to the utilization or
treatment of stock-based compensation are an appropriate basis for comparability adjustments.
Coordination of Cost Sharing With the Arm’s Length
Standard
These proposed regulations add express provisions
coordinating the cost sharing rules of § 1.482-7 with
the arm’s length standard as set forth in § 1.482-1.
New § 1.482-7(a)(3) clarifies that in order for a qualified cost sharing arrangement to produce results consistent with an arm’s length result within the meaning of § 1.482-1(b)(1), all requirements of § 1.482-7
must be met, including the requirement that each controlled participant’s share of intangible development
costs equal its share of reasonably anticipated benefits attributable to the development of intangibles.
The proposed regulations also make amendments to
§ 1.482-1 to clarify that § 1.482-7 provides the specific
method to be used to evaluate whether a qualified cost
sharing arrangement produces results consistent with
an arm’s length result, and to clarify that under the
best method rule, the provisions of § 1.482-7 set forth
the applicable method with respect to qualified cost
sharing arrangements.
Through these new provisions, Treasury and the
IRS intend to clarify that all of the specific rules necessary to the determination of costs, reasonably anticipated benefits and other aspects of qualified cost
sharing arrangements are either contained or crossreferenced within § 1.482-7. Thus, for example, regarding buy-in payments with respect to pre-existing
intangibles made available to qualified cost sharing
arrangements, §§ 1.482-7(a)(2) and 1.482-7(g) cross-

211a
reference various other sections of the regulations under section 482. For the determination of reasonably
anticipated benefits, § 1.482-7(f )(3) expressly requires
that certain comparability factors described in
§ 1.482-1(c)(2)(ii) under the best method rule be considered. With respect to identification of the costs to
be shared, the rules are contained within § 1.4827(d)(1), which refers to “all” intangible development
costs and cross-references the definition of operating
expenses in § 1.482-5(d)(3) and the provisions of
§ 1.482-2(c) governing determination of arm’s length
rental charges for tangible property. The § 1.4827(d)(1) definition of intangible development costs is
supplemented by the provisions of § 1.482-7(c)(2),
which cross-references the provisions of § 1.4824(f )(3)(iii) to determine arm’s length consideration for
research assistance performed by a controlled taxpayer that is not a controlled participant.
Proposed Effective Date
These regulations are proposed to apply to stockbased compensation granted in taxable years beginning on or after the date these regulations are published as a Treasury Decision promulgating final regulations in the Federal Register. Notwithstanding
this prospective effective date, Treasury and the IRS
intend that taxpayers may rely on these proposed regulations until the effective date of the final regulations. No inference is intended with respect to the
treatment of stock-based compensation granted in
taxable years beginning before the effective date of the
final regulations.
Special Analyses
It has been determined that this notice of proposed
rulemaking is not a significant regulatory action as

212a
defined in Executive Order 12866. Therefore, a regulatory assessment is not required. It has also been determined that section 553(b) of the Administrative
Procedure Act (5 U.S.C. chapter 5) does not apply to
these regulations. It is hereby certified that the collections of information in these regulations will not
have a significant economic impact on a substantial
number of small entities. This certification is based
upon the fact that few small entities are expected to
enter into qualified cost sharing arrangements involving stock-based compensation, and that for those who
do, the burdens imposed under §§ 1.482-7(d)(2)(iii)(B)
and 1.482-7(j)(2)(i)(F) will be minimal. Therefore, a
Regulatory Flexibility Analysis under the Regulatory
Flexibility Act (5 U.S.C. chapter 6) is not required.
Pursuant to section 7805(f ), this notice of proposed
rulemaking will be submitted to the Chief Counsel for
Advocacy of the Small Business Administration for
comment on its impact on small business.
Comments and Public Hearing
Before these proposed regulations are adopted as
final regulations, consideration will be given to any
electronic or written comments (a signed original and
eight (8) copies) that are submitted timely to the IRS.
Treasury and the IRS specifically request comments
on the clarity of the proposed regulations and how
they may be made easier to understand. All comments will be available for public inspection and copying.
A public hearing has been scheduled for October
21, 2002, at 10 a.m., in Room 4718, Internal Revenue
Building, 1111 Constitution Avenue, NW., Washington, DC. Because of access restrictions, visitors will
not be admitted beyond the building lobby more than
30 minutes before the hearing starts. For information
about having your name placed on the building access

213a
list to attend the hearing, see the FOR FURTHER
INFORMATION CONTACT section of this preamble.
The rules of 26 CFR 601.601(a)(3) apply to the
hearing. Persons who wish to present oral comments
at the hearing must submit written comments and an
outline of the topics to be discussed and the time to be
devoted to each topic (signed original and eight (8)
copies) by September 30, 2002. A period of 10 minutes
will be allotted to each person for making comments.
An agenda showing the scheduling of the speakers
will be prepared after the deadline for receiving outlines has passed. Copies of the agenda will be available free of charge at the hearing.
Drafting Information
The principal author of these proposed regulations
is Douglas Giblen of the Office of Associate Chief
Counsel (International). However, other personnel
from Treasury and the IRS participated in their development.
List of Subjects in 26 CFR Part 1
Income taxes, Reporting and recordkeeping requirements.
Proposed Amendments to the Regulations
Accordingly, 26 CFR Part 1 is proposed to be
amended as follows:
PART 1 – INCOME TAXES
1. The authority citation for part 1 continues to
read in part as follows:
Authority: 26 U.S.C. 7805 * * *
Sections 1.482-1, 1.482-5 and 1.482-7 also issued
under 26 U.S.C. 482. * * *
Section 1.482-0 is amended by:

214a
1. Redesignating the entry for § 1.482-7(a)(3) as
the caption for § 1.482-7(a)(4).
2. Adding a new entry for § 1.482-7(a)(3).
3. Redesignating the entry for § 1.482-7(d)(2) as
the caption for § 1.482-7(d)(3).
4. Adding new entries for § 1.482-7(d)(2).
The additions and revisions read as follows:
§ 1.482-0 Outline of regulations under section 482.
* * * * *
§ 1.482-7 Sharing of costs.
(a) In general.
* * * * *
(3) Coordination with § 1.482-1.
(4) Cross references.
* * * * *
(d) Costs.
* * * * *
(2) Stock-based compensation.
(i) In general.
(ii) Identification of stock-based compensation related to intangible development.
(iii) Measurement and timing of stock-based
compensation expense.
(A) In general.
(1) Transfers to which section 421 applies.
(2) Deductions of foreign controlled
participants.
(3) Modification of stock option.
(4) Expiration or termination of qualified cost sharing arrangement.

215a
(B) Election with respect to options on
publicly traded stock.
(C) Consistency.
(3) Examples.
* * * * *
Section 1.482-1 is amended by:
1. Revising the sixth sentence of paragraph (a)(1).
2. Adding a sentence following the sixth sentence
of paragraph (a)(1).
3. Adding a sentence at the end of paragraph
(b)(2)(i).
4. Adding a sentence at the end of paragraph
(c)(1).
5. Adding paragraph (j)(5).
The additions and revisions read as follows:
§ 1.482-1 Allocation of income and deductions
among taxpayers.
(a) * * *
(1) * * * Section 1.482-7T sets forth the cost
sharing provisions applicable to taxable years beginning on or after October 6, 1994, and before
January 1, 1996. Section 1.482-7 sets forth the
cost sharing provisions applicable to taxable years
beginning on or after January 1, 1996. * * *
* * * * *
(b) * * *
(2) * * *
(i) * * * Section 1.482-7 provides the specific method to be used to evaluate whether a
qualified cost sharing arrangement produces
results consistent with an arm’s length result.
* * * * *

216a
(c) * * *
(1) * * * See § 1.482-7 for the applicable
method in the case of a qualified cost sharing arrangement.
* * * * *
(j) * * *
(5) The last sentences of paragraphs (b)(2)(i)
and (c)(1) of this section and of paragraph (c)(2)(iv)
of § 1.482-5 are effective for taxable years beginning on or after the date of publication of the
Treasury Decision incorporating those sentences
into final regulations in the Federal Register.
Section 1.482-5 is amended by adding a sentence
to paragraph (c)(2)(iv) to read as follows:
§ 1.482-5 Comparable profits method.
* * * * *
(c) * * *
(2) * * *
(iv) * * * As another example, it may be appropriate to adjust the operating profit of a
party to account for material differences in the
utilization of or accounting for stock-based compensation (as defined by § 1.482-7(d)(2)(i))
among the tested party and comparable parties.
* * * * *
Section 1.482-7 is amended by:
1. Redesignating paragraph (a)(3) as paragraph
(a)(4).
2. Adding paragraph (a)(3).
3. Redesignating paragraph (d)(2) as paragraph
(d)(3).
4. Adding paragraph (d)(2).

217a
5. Removing the word “and” at the end of paragraph (j)(2)(i)(D).
6. Removing the period and adding a semicolon
and the word “and” at the end of paragraph (j)(2)(i)(E).
7. Adding paragraph (j)(2)(i)(F).
8. Revising paragraph (k).
The additions and revisions read as follows:
§ 1.482-7 Sharing of costs.
(a) * * *
(3) Coordination with § 1.482-1. A qualified
cost sharing arrangement produces results that
are consistent with an arm’s length result within
the meaning of § 1.482-1(b)(1) if, and only if, each
controlled participant’s share of the costs (as determined under paragraph (d) of this section) of intangible development under the qualified cost
sharing arrangement equals its share of reasonably anticipated benefits attributable to such development (as required by paragraph (a)(2) of this section) and all other requirements of this section are
satisfied.
(4) Cross references. * * *
* * * * *
(d) * * *
(2) Stock-based compensation. –
(i) In general. For purposes of this section,
a controlled participant’s operating expenses
include all costs attributable to compensation,
including stock-based compensation. As used
in this section, the term stock-based compensation means any compensation provided by a
controlled participant to an employee or independent contractor in the form of equity instruments, options to acquire stock (stock options),

218a
or rights with respect to (or determined by reference to) equity instruments or stock options,
including but not limited to property to which
section 83 applies and stock options to which
section 421 applies, regardless of whether ultimately settled in the form of cash, stock, or
other property.
(ii) Identification of stock-based compensation related to intangible development. The determination of whether stock-based compensation is related to the intangible development
area within the meaning of paragraph (d)(1) of
this section is made as of the date that the
stock-based compensation is granted. Accordingly, all stock-based compensation that is
granted during the term of the qualified cost
sharing arrangement and is related at date of
grant to the development of intangibles covered
by the arrangement is included as an intangible
development cost under paragraph (d)(1) of this
section. In the case of a repricing or other modification of a stock option, the determination of
whether the repricing or other modification
constitutes the grant of a new stock option for
purposes of this paragraph (d)(2)(ii) will be
made in accordance with the rules of section
424(h) and related regulations.
(iii) Measurement and timing of stock-based
compensation expense. –
(A) In general. Except as otherwise provided in this paragraph (d)(2)(iii), the operating expense attributable to stock-based
compensation is equal to the amount allowable to the controlled participant as a deduction for federal income tax purposes with respect to that stock-based compensation (for

219a
example, under section 83(h)) and is taken
into account as an operating expense under
this section for the taxable year for which
the deduction is allowable.
(1) Transfers to which section 421 applies. Solely for purposes of this paragraph (d)(2)(iii)(A), section 421 does not
apply to the transfer of stock pursuant to
the exercise of an option that meets the
requirements of section 422(a) or 423(a).
(2) Deductions of foreign controlled
participants. Solely for purposes of this
paragraph (d)(2)(iii)(A), an amount is
treated as deductible by a foreign controlled participant otherwise not entitled
to a deduction under United States income tax law as if the amount were paid
or incurred by a United States taxpayer.
(3) Modification of stock option.
Solely for purposes of this paragraph
(d)(2)(iii)(A), if the repricing or other
modification of a stock option is determined, under paragraph (d)(2)(ii) of this
section, to constitute the grant of a new
stock option not related to the development of intangibles, the stock option that
is repriced or otherwise modified will be
treated as being exercised immediately
before the modification, provided that
the stock option is then substantially
vested within the meaning of § 1.83-3(b)
(or, in the case of stock options to which
section 421 applies, exercisable) and the
fair market value of the underlying stock
then exceeds the price at which the stock
option is exercisable. Accordingly, the

220a
amount of the deduction that would be
allowable (or treated as allowable under
this paragraph (d)(2)(iii)(A)) to the controlled participant upon exercise of the
stock option immediately before the
modification must be taken into account
as an operating expense as of the date of
the modification.
(4) Expiration or termination of qualified cost sharing arrangement. Solely
for purposes of this paragraph
(d)(2)(iii)(A), if an item of stock-based
compensation related to the development of intangibles is not exercised during the term of a qualified cost sharing
arrangement, that item of stock-based
compensation will be treated as being exercised immediately before the expiration or termination of the qualified cost
sharing arrangement, provided that the
stock-based compensation is then substantially vested within the meaning of
§ 1.83-3(b) (or, in the case of stock options to which section 421 applies, exercisable) and the fair market value of the
underlying stock then exceeds the price
at which the stock-based compensation
is exercisable. Accordingly, the amount
of the deduction that would be allowable
(or treated as allowable under this paragraph (d)(2)(iii)(A)) to the controlled participant upon exercise of the stock-based
compensation must be taken into account as an operating expense as of the
date of the expiration or termination of
the qualified cost sharing arrangement.

221a
(B) Election with respect to options on
publicly traded stock. With respect to stockbased compensation in the form of options
on publicly traded stock, the controlled participants in a qualified cost sharing arrangement may elect to take into account all operating expenses attributable to those stock
options in the same amount, and as of the
same time, as the fair value of the stock options reflected as a charge against income in
audited financial statements or disclosed in
footnotes to such financial statements, prepared in accordance with United States generally accepted accounting principles by or
on behalf of the company issuing the publicly traded stock. As used in this section,
the term publicly traded stock means stock
that is regularly traded on an established
United States securities market and is issued by a company whose financial statements are prepared in accordance with
United States generally accepted accounting principles for the taxable year. The election
described
in
this
paragraph
(d)(2)(iii)(B) is made by an explicit reference
to the election in the written cost sharing
agreement required by paragraph (b)(4) of
this section or in a written amendment to
the cost sharing agreement entered into
with the consent of the Commissioner pursuant to paragraph (d)(2)(iii)(C) of this section. In the case of a qualified cost sharing
arrangement in existence on the effective
date of this paragraph (d)(2)(iii)(B), the election must be made by written amendment to
the cost sharing agreement not later than

222a
the latest due date (without regard to extensions) of a federal income tax return of any
controlled participant for the first taxable
year beginning after the effective date of
this paragraph, and the consent of the Commissioner is not required.
(C) Consistency.
Generally, all controlled participants in a qualified cost sharing arrangement taking options on publicly
traded stock into account under paragraph
(d)(2)(iii)(A) or (d)(2)(iii)(B) of this section
must use that same method of measurement
and timing for all options on publicly traded
stock with respect to that qualified cost
sharing arrangement. Controlled participants may change their method only with
the consent of the Commissioner and only
with respect to stock options granted during
taxable years subsequent to the taxable
year in which the Commissioner’s consent is
obtained. All controlled participants in the
qualified cost sharing arrangement must
join in requests for the Commissioner’s consent under this paragraph. Thus, for example, if the controlled participants make the
election described in paragraph (d)(2)(iii)(B)
of this section upon the formation of the
qualified cost sharing arrangement, the
election may be revoked only with the consent of the Commissioner, and the consent
will apply only to stock options granted in
taxable years subsequent to the taxable
year in which consent is obtained. Similarly, if controlled participants already have
granted stock options that have been or will
be taken into account under the general rule

223a
of paragraph (d)(2)(iii)(A) of this section,
then except in cases specified in the last sentence of paragraph (d)(2)(iii)(B) of this section, the controlled participants may make
the election described in paragraph
(d)(2)(iii)(B) of this section only with the consent of the Commissioner, and the consent
will apply only to stock options granted in
taxable years subsequent to the taxable
year in which consent is obtained.
(3) Examples. * * *
* * * * *
(j) * * *
(2) * * *
(i) * * *
(F) The amount taken into account as operating expenses attributable to stock-based
compensation, including the method of
measurement and timing used with respect
to that amount as well as the data, as of date
of grant, used to identify stock-based compensation related to the development of intangibles covered by the qualified cost sharing arrangement.
* * * * *
(k) Effective date. This section is generally effective for taxable years beginning on or after January 1,
1996.
However, paragraphs (a)(3), (d)(2) and
(j)(2)(i)(F) of this section are effective for taxable years
beginning on or after the date of publication of the
Treasury Decision adopting those rules as final regulations in the Federal Register.
Robert E. Wenzel,
Deputy Commissioner of Internal Revenue.

224a
[FR Doc. 02-19126 Filed 7-26-02; 8:45 am]
BILLING CODE 4830-01-P

225a
APPENDIX F
Federal Register / Vol. 68, No. 165 / Tuesday, August
26, 2003 / Rules and Regulations
51171
DEPARTMENT OF THE TREASURY
Internal Revenue Service
26 CFR Parts 1 and 602
[TD 9088]
RIN 1545-BA57
Compensatory Stock Options Under Section 482
AGENCY: Internal Revenue Service (IRS), Treasury.
ACTION: Final regulations.
SUMMARY: This document contains final regulations that provide guidance regarding the application
of the rules of section 482 governing qualified cost
sharing arrangements. These regulations provide
guidance regarding the treatment of stock-based compensation for purposes of the rules governing qualified
cost sharing arrangements and for purposes of the
comparability factors to be considered under the comparable profits method.
DATES: Effective Date: These regulations are effective August 26, 2003.
Applicability Dates: For dates of applicability of
these regulations, see §§ 1.482-1(j)(5) and 1.482-7(k).
FOR FURTHER INFORMATION CONTACT: Douglas Giblen, (202) 435-5265 (not a toll-free number).

226a
SUPPLEMENTARY INFORMATION
Paperwork Reduction Act
The collections of information contained in these
final regulations have been reviewed and approved by
the Office of Management and Budget in accordance
with the Paperwork Reduction Act of 1995 (44 U.S.C.
3507) under control number 1545-1794. Responses to
these collections of information are required by the
IRS to monitor compliance with the federal tax rules
for determining stock-based compensation costs to be
shared among controlled participants in qualified cost
sharing arrangements.
An agency may not conduct or sponsor, and a person is not required to respond to, a collection of information unless the collection of information displays a
valid control number assigned by the Office of Management and Budget.
The estimated annual burden per respondent or
recordkeeper varies from 2 hours to 7 hours, depending on individual circumstances, with an estimated
average of 4 hours.
Comments concerning the accuracy of this burden
estimate and suggestions for reducing this burden
should be sent to the Office of Management and
Budget, Attn: Desk Officer for the Department of the
Treasury, Office of Information and Regulatory Affairs, Washington, DC 20503, with copies to the Internal Revenue Service, Attn: IRS Reports Clearance Officer, W:CAR:MP:T:T:SP, Washington, DC 20224.
Books or records relating to a collection of information must be retained as long as their contents may
become material in the administration of any internal
revenue law. Generally, tax returns and tax return
information are confidential, as required by 26 U.S.C.
6103.

227a
Background
On July 29, 2002, Treasury and the IRS published
in the Federal Register (67 FR 48997) proposed
amendments to the regulations (REG-106359-02) under section 482 of the Internal Revenue Code (Code).
These proposed regulations provide guidance regarding treatment of stock-based compensation for purposes of qualified cost sharing arrangements (QCSAs)
and the comparable profits method and clarify the coordination of the rules regarding QCSAs with the
arm’s length standard. Written comments responding
to these proposed regulations were received, and a
public hearing was held on November 20, 2002. After
consideration of all the comments, the proposed regulations under section 482 of the Code are adopted as
revised by this Treasury decision.
Explanation of Revisions and Summary of Comments
These final regulations are the first in a series of
regulatory guidance under section 482 through which
Treasury and the IRS intend to update, clarify and
improve current regulatory guidance in the transfer
pricing area. A broader regulatory project on the
treatment of QCSAs and a regulatory project on the
transfer pricing of services are in progress, and Treasury and the IRS intend to issue proposed regulations
with respect to each project in the near term.
These final regulations set forth explicit provisions
clarifying that stock-based compensation is taken into
account in determining the operating expenses
treated as intangible development costs of a controlled
participant in a QCSA under § 1.482-7. These final
regulations provide rules for measuring the cost associated with stock-based compensation; clarify that the

228a
utilization and treatment of stock-based compensation is appropriately taken into account as a comparability factor for purposes of the comparable profits
method under § 1.482-5; and provide rules that coordinate the rules of § 1.482-7 regarding QCSAs with
the arm’s length standard as set forth in § 1.482-1.
Treasury and the IRS received comments with respect to the proposed regulations. Most commentators objected to the proposed regulations in their entirety or suggested postponement of their finalization.
Some commentators suggested modifications to be
adopted in the event that the proposed regulations
were finalized in some form.
After fully considering these comments, Treasury
and the IRS continue to believe that the proposed regulations reflect a sound application of established
principles under section 482. At the same time, Treasury and the IRS have concluded that certain suggested modifications to the administrative provisions
of the proposed regulations are appropriate. These
modifications are incorporated into the final regulations.
A. Stock-Based Compensation as a Cost To Be
Shared and the Arm’s Length Standard as
Applied to QCSAs – §§ 1.482-7(d)(2)(i) and
(a)(3), and 1.482-1(a)(1), (b)(2)(i) and (c)
A QCSA subject to the rules of § 1.482-7 is an arrangement to develop intangibles which meets certain
administrative and other requirements and in which
the participants to the arrangement share intangible
development costs in proportion to their shares of reasonably anticipated benefits attributable to the intangibles developed under the arrangement. In the case
of a QCSA, § 1.482-7(a)(2) limits the ability of the

229a
Commissioner to make allocations, except to the extent necessary to make each controlled participant’s
share of the costs equal its share of reasonably anticipated benefits. An arrangement in which significant
intangible development costs are not shared in proportion to reasonably anticipated benefits (or are not
shared at all) would not in substance constitute an arrangement to which the rules of § 1.482-7 are applicable.
The proposed regulations address the treatment of
stock-based compensation under a QCSA, and the interaction between the rules applicable to QCSAs and
the arm’s length standard. The proposed regulations
provide that stock-based compensation related to the
covered intangible development area must be taken
into account in determining the costs to be shared by
participants in a QCSA. The proposed regulations
further provide that a QCSA produces results consistent with an arm’s length result if, and only if, all
costs related to the intangible development, as determined in accordance with the specific guidance in
§ 1.482-7(d), are shared in proportion to reasonably
anticipated benefits.
Commentators objected to this rule on the basis of
interpretations of the arm’s length standard and on
other grounds.
1. Comments Relating to Arm’s Length
Standard
Commentators asserted that taking stock-based
compensation into account in the QCSA context would
be inconsistent with the arm’s length standard unless
there is evidence that parties at arm’s length take
stock-based compensation into account in similar circumstances. Commentators asserted that third-party
evidence, such as the government’s own procurement

230a
contracting practices and agreements between unrelated parties with some characteristics similar to
QCSAs, would show that parties at arm’s length do
not take stock-based compensation into account in determining costs to be reimbursed.
Treasury and the IRS continue to believe that requiring stock-based compensation to be taken into account for purposes of QCSAs is consistent with the
legislative intent underlying section 482 and with the
arm’s length standard (and therefore with the obligations of the United States under its income tax treaties and with the OECD transfer pricing guidelines).
The legislative history of the Tax Reform Act of 1986
expressed Congress’s intent to respect cost sharing arrangements as consistent with the commensurate
with income standard, and therefore consistent with
the arm’s length standard, if and to the extent that
the participants’ shares of income “reasonably reflect
the actual economic activity undertaken by each.” See
H.R. Conf. Rep. No. 99-481, at II-638 (1986). The regulations relating to QCSAs implement that legislative
intent by using costs incurred by each controlled participant with respect to the intangible development as
a proxy for actual economic activity undertaken by
each, and by requiring each controlled participant to
share these costs in proportion to its anticipated economic benefit from intangibles developed pursuant to
the arrangement. In order for the costs incurred by a
participant to reasonably reflect its actual economic
activity, the costs must be determined on a comprehensive basis. Therefore, in order for a QCSA to reach
an arm’s length result consistent with legislative intent, the QCSA must reflect all relevant costs, including such critical elements of cost as the cost of compensating employees for providing services related to
the development of the intangibles pursuant to the

231a
QCSA. Treasury and the IRS do not believe that there
is any basis for distinguishing between stock-based
compensation and other forms of compensation in this
context.
Treasury and the IRS do not agree with the comments that assert that taking stock-based compensation into account in the QCSA context would be inconsistent with the arm’s length standard in the absence
of evidence that parties at arm’s length take stockbased compensation into account in similar circumstances. Section 1.482-1(b)(1) provides that a “controlled transaction meets the arm’s length standard if
the results of the transaction are consistent with the
results that would have been realized if uncontrolled
taxpayers had engaged in the same transaction under
the same circumstances.” (Emphasis added). While
the results actually realized in similar transactions
under similar circumstances ordinarily provide significant evidence in determining whether a controlled
transaction meets the arm’s length standard, in the
case of QCSAs such data may not be available. As recognized in the legislative history of the Tax Reform
Act of 1986, there is little, if any, public data regarding transactions involving high-profit intangibles.
H.R. Rep. No. 99-426, at 423-25 (1985). The uncontrolled transactions cited by commentators do not
share enough characteristics of QCSAs involving the
development of high-profit intangibles to establish
that parties at arm’s length would not take stock options into account in the context of an arrangement
similar to a QCSA. Government contractors that are
entitled to reimbursement for services on a cost-plus
basis under government procurement law assume
substantially less entrepreneurial risk than that assumed by service providers that participate in QCSAs,
and therefore the economic relationship between the

232a
parties to such an arrangement is very different from
the economic relationship between participants in a
QCSA. The other agreements highlighted by commentators establish arrangements that differ significantly from QCSAs in that they provide for the payment of markups on cost or of non-cost-based service
fees to service providers within the arrangement or for
the payment of royalties among participants in the arrangement. Such terms, which may have the effect of
mitigating the impact of using a cost base to be shared
or reimbursed that is less than comprehensive, would
not be permitted by the QCSA regulations. Further,
the QCSA regulations would not allow the Commissioner to impose such terms in the context of a QCSA.
The regulations relating to QCSAs have as their
focus reaching results consistent with what parties at
arm’s length generally would do if they entered into
cost sharing arrangements for the development of
high-profit intangibles. These final regulations reflect that at arm’s length the parties to an arrangement that is based on the sharing of costs to develop
intangibles in order to obtain the benefit of an independent right to exploit such intangibles would ensure through bargaining that the arrangement reflected all relevant costs, including all costs of compensating employees for providing services related to
the arrangement. Parties dealing at arm’s length in
such an arrangement based on the sharing of costs
and benefits generally would not distinguish between
stock-based compensation and other forms of compensation.
For example, assume that two parties are negotiating an arrangement similar to a QCSA in order to
attempt to develop patentable pharmaceutical products, and that they anticipate that they will benefit
equally from their exploitation of such patents in their

233a
respective geographic markets. Assume further that
one party is considering the commitment of several
employees to perform research with respect to the arrangement. That party would not agree to commit
employees to an arrangement that is based on the
sharing of costs in order to obtain the benefit of independent exploitation rights unless the other party
agrees to reimburse its share of the compensation
costs of the employees. Treasury and the IRS believe
that if a significant element of that compensation consists of stock-based compensation, the party committing employees to the arrangement generally would
not agree to do so on terms that ignore the stock-based
compensation.
An arrangement between controlled taxpayers for
the development of intangible assets in which one taxpayer’s share of significant costs exceeds its share of
reasonably anticipated benefits from the exploitation
of the developed intangibles would not in substance be
a QCSA and therefore would be subject to analysis under the other section 482 regulations. For example, as
in the transactions cited by commentators, a controlled taxpayer might agree at the outset of an arrangement to bear a disproportionate share of costs in
an arrangement in which it receives a service fee or a
contingent royalty from the exploitation of the developed intangibles. More generally, controlled taxpayers might agree at the outset of an arrangement to determine the compensation of one party based on a subset of that taxpayer’s costs or on a basis that does not
take that taxpayer’s costs into account at all (e.g.,
based on an amount determined with reference to a
comparable uncontrolled price or transaction). In either case, such an arrangement between controlled
taxpayers would not in substance constitute an ar-

234a
rangement to which the rules of § 1.482-7 would apply. Indeed, the limitations contained in § 1.4827(a)(2) could produce results inconsistent with an
arm’s length result if applied to such an arrangement
because the Commissioner would be precluded from
making allocations that could be necessary to ensure
that each controlled taxpayer is compensated appropriately. Rather, such an arrangement should be analyzed under the other section 482 regulations (in particular, sections 1.482-1, 1.482-2(b), and 1.482-4) to
determine whether it reaches results consistent with
the arm’s length standard, and any allocations by the
Commissioner should be consistent with such other
section 482 regulations.
2. Other Comments
Commentators offered various other reasons for
not taking stock-based compensation into account in
the context of QCSAs. Commentators expressed the
view that stock-based compensation should not be
taken into account because it does not constitute an
economic cost or require a cash outlay, or, to the extent such compensation does constitute a cost, because the cost is borne by shareholders whose share
value is diluted when additional shares are issued on
exercise. Commentators also noted that the treatment of stock-based compensation for financial reporting purposes should not mandate that stock-based
compensation be taken into account in the context of
QCSAs.
In response to such views, and as discussed above,
Treasury and the IRS continue to believe that requiring stock-based compensation to be taken into account
for in the context of QCSAs is appropriate. The final
regulations provide that stock-based compensation
must be taken into account in the context of QCSAs
because such a result is consistent with the arm’s

235a
length standard. Treasury and the IRS agree that the
disposition of financial reporting issues does not mandate a particular result under these regulations.
One commentator suggested that even if stockbased compensation generates a cost to a participant,
there is precedent within the regulations relating to
QCSAs for excluding certain costs, notably interest
and taxes. Treasury and the IRS believe that the technical treatment under the regulations relating to
QCSAs of interest, taxes and other expenses not related to the intangible development area does not warrant failing to take into account an element of employee compensation that is clearly related to the intangible development area. Treasury and the IRS believe that in order for the costs incurred by a
participant to reasonably reflect its actual economic
activity consistent with the legislative intent in this
area, those costs must be determined on a comprehensive basis and so must take into account all relevant
costs, in particular critical elements such as employee
compensation. As noted above, Treasury and the IRS
do not believe that there is a basis for distinguishing
between stock-based compensation and other forms of
compensation in this context.
One commentator also claimed that the historical
administrative practice of the IRS has been not to
challenge the failure to take stock-based compensation into account in other transfer pricing contexts in
which the determination of cost is relevant. Treasury
and the IRS believe that such perceived practices of
the IRS with respect to other section 482 contexts are
not relevant to determining the appropriate regulatory rule applicable to QCSAs.
As an alternate approach, one commentator suggested that rather than requiring stock-based com-

236a
pensation to be taken into account in the QCSA context, Treasury and the IRS should promulgate a
“stock-based compensation safe harbor” applicable to
QCSAs. This suggested “safe harbor” has not been
adopted in the final regulations. As noted above,
Treasury and the IRS believe that in order for the
costs incurred by a participant to reasonably reflect
its actual economic activity, those costs must be determined on a comprehensive basis and so must take into
account all relevant costs, in particular critical elements such as employee compensation. The final regulations therefore require employee compensation to
be taken into account, rather than provide for a safe
harbor under which such compensation could be ignored.
B. Grant-Date Identification Rule – § 1.4827(d)(2)(ii)
The proposed regulations identify the stock-based
compensation to be included in the cost pool based on
whether the compensation is related to the intangible
development area on the date the option is granted.
One commentator noted that this identification
rule is inconsistent with the IRS treatment of stockbased compensation in other tax areas such as sourcing, where IRS rulings trace the compensation to the
entire period over which the employee performed the
services compensated by the option.
The grant-date identification rule has been retained in the final regulations. As noted in the preamble of the proposed regulations, it is desirable in
the QCSA context to select a single date for identification of covered stock-based compensation. The grant
of compensation generally is the single economic
event most closely associated with the services being
compensated.

237a
C. Provision of Specific Methods of Measurement and Timing
The proposed regulations prescribe two alternative
methods for determining the operating expenses attributable to stock-based compensation. The default
rule under § 1.482-7(d)(2)(iii)(A) provides that the
costs attributable to stock-based compensation generally are included as intangible development costs
upon the exercise of the option and measured by the
spread between the option strike price and the price
of the underlying stock. An elective rule under
§ 1.482-7(d)(2)(iii)(B) provides that the costs attributable to stock options are taken into account in certain
cases in accordance with the “fair value” of the option,
as reported for financial accounting purposes either as
a charge against income or in footnoted disclosures.
Commentators claimed that parties at arm’s
length would not use either of the alternatives prescribed in the proposed regulations because they
would produce results that are too speculative or not
sufficiently related to the employee services that are
compensated. One commentator suggested that the
final regulations should not limit taxpayers to the two
prescribed measurement methods but rather should
codify the current IRS administrative practice of permitting any reasonable method. In the commentator’s
view, a standard based on any reasonable method
should permit the intrinsic-value method, which
measures the difference between strike price and underlying stock value at date of grant, exclusive of time
value. However, the commentator suggested that if
Treasury and the IRS consider an element of time
value indispensable, an alternative would be to require the use of the “minimum value” method, which

238a
accounts for the time value of stock options by assuming the underlying stock will grow at the risk-free interest rate.
These suggestions were not adopted. Treasury
and the IRS believe that it is appropriate for regulations to prescribe guidance in this context that is consistent with the arm’s length standard and that also
is objective and administrable. As long as the measurement method is determined at or before grant date,
either of the prescribed measurement methods can be
expected to result in an appropriate allocation of costs
among QCSA participants and therefore would be
consistent with the arm’s length standard. The results under the default measurement rule are consistent with what would occur under an arm’s length
agreement at or before the grant date to take stockbased compensation into account at the date of exercise when more facts are known and therefore to share
the risks associated with such compensation between
the date of grant and the date of exercise. The results
under the elective measurement rule are consistent
with what would occur under an alternative arm’s
length agreement at or before the grant date to determine the value of the compensation up front and take
such compensation into account at that time. With
respect to the specific methods proposed by commentators, Treasury and the IRS believe that “intrinsic
value” ignores significant elements of the economic
value of stock-based compensation and “minimum
value” ignores the important variable of volatility that
enters into the economic pricing models used for financial reporting purposes.
The prescribed measurement methods are objective and administrable because they rely on valuations or measurements of stock-based compensation

239a
prepared for other purposes. The prescribed measurement methods do not require or permit valuations of
stock-based compensation specifically for QCSA purposes. A standard under which the validity of the taxpayer’s method would have to be analyzed on a caseby-case basis would be unduly difficult to administer
and potentially could lead to significant disputes.
D. General Rule of Measurement – § 1.4827(d)(2)(iii)(A)
Under the default measurement rule, the amount
taken into account for QCSA purposes generally is the
amount allowable as a federal income tax deduction
on exercise of the stock-based compensation. This
amount generally is the “spread” between the option
price and the fair market value of the underlying stock
at the date of exercise.
One commentator suggested that this method
would be improved if the amount taken into account
for QCSA purposes were limited to the portion of the
spread that accrued between date of grant and full
vesting, as further prorated to reflect only the time
during which the employee was engaged in costshared activities.
This suggestion has not been adopted in the final
regulations. Treasury and the IRS believe that the
grant-date identification rule already limits in an appropriate way the stock-based compensation taken
into account. The purpose of the default measurement rule is to measure the amount attributable to
stock-based compensation that must be taken into account under the grant-date identification rule. Accordingly, the default measurement rule does not require further refinement through proration. Further,
additional recordkeeping and analysis necessary to
identify relevant time periods and employee activities

240a
involving the covered intangibles and to perform proration calculations are not warranted.
The proposed regulations set forth special rules for
the application of the general rule of measurement in
the event of modification of a stock option and expiration or termination of a QCSA. The final regulations
retain these rules with technical modifications.
E. Treatment of Statutory Stock Options –
§ 1.482-7(d)(2)(iii)(A)(1)
Under the default measurement rule in the proposed regulations, a special rule applies to statutory
stock options (also referred to as incentive and employee stock purchase plan stock options). Under this
special rule, the spread on statutory stock options generally is taken into account for QCSA purposes on exercise, even though section 421 denies a deduction
with respect to statutory stock options unless and until there is a disqualifying disposition of the underlying stock by the employee.
One commentator suggested that the special rule
for statutory stock options should be removed because
it imposes an unnecessary administrative burden on
taxpayers to apply different rules for different purposes. This suggestion was not adopted in the final
regulations. Treasury and the IRS believe that the
more important concern is consistent treatment of
statutory and nonstatutory stock options for this purpose. This consistency is achieved only if the spread
on both statutory and nonstatutory options is included in the cost pool on exercise.
F. Elective Method of Measurement – § 1.4827(d)(2)(iii)(B)
The proposed regulations permit an elective
method of measurement and timing with respect to
options on publicly traded stock of companies subject

241a
to financial reporting under U.S. generally accepted
accounting principles (U.S. GAAP), provided that the
stock is traded on a U.S. securities market. Under the
election, the amount taken into account for QCSA purposes associated with compensatory stock options is
their “fair value,” generally measured by reference to
economic pricing models as of the date of grant, as reflected either as a charge against income or as a footnote disclosure in the company’s audited financial
statements, in compliance with current U.S. GAAP.
One commentator proposed that the elective measurement method be made available to all taxpayers.
The commentator further suggested that controlled
participants should be permitted to use any reasonable method to measure stock-based compensation in
the form of options on stock of foreign corporations as
long as that method is consistent with international
accounting standards or with accounting principles
that are prevalent in the home country of the controlled participant. In the commentator’s view, the
limitations in the proposed regulations are not justified by difficulty of valuation and may be vulnerable
to challenges under anti-discrimination clauses in
U.S. income tax treaties.
Treasury and the IRS agree that the elective
method should be more broadly available and have
modified these rules in the final regulations. Specifically, the final regulations extend the availability of
the elective method to options on the stock of certain
companies that prepare their financial statements in
accordance with accounting principles other than U.S.
GAAP, while continuing to limit the availability of the
elective method to options on stock that is publicly
traded on a U.S. securities market. Thus, the availability of the elective method is not extended to options
on stock of privately held companies or companies

242a
whose stock is traded only on foreign securities markets.
Treasury and the IRS believe that objectivity and
ease of administration are important features of any
method of measuring costs attributable to stock-based
compensation for purposes of QCSAs. The elective
method should be available only for options on stock
whose value is readily determinable and for companies that are required to determine the fair value of
stock options for a non-tax purpose. Treasury and the
IRS recognize that foreign-based companies whose
stock is traded on a U.S. securities market (directly or
through the use of American Depository Receipts) are
required to determine the fair value of options on their
stock even though they do not necessarily prepare financial statements in accordance with U.S. GAAP.
Companies satisfy that requirement by preparing financial statements in accordance with a comprehensive body of generally accepted accounting principles
(GAAP) that is consistent with the U.S. GAAP requirement of determining the fair value of stock options, or by preparing reconciliations of their financial
statements with U.S. GAAP in a manner that reflects
the fair value of stock options.
Accordingly, the final regulations provide that in
determining eligibility for the elective method, financial statements prepared in accordance with GAAP
other than U.S. GAAP are considered as prepared in
accordance with U.S. GAAP in two circumstances.
First, financial statements are considered as prepared
in accordance with U.S. GAAP where the fair value of
stock options is reflected in a legally required reconciliation between the applicable GAAP and U.S.
GAAP. In such a case, the fair value of stock options
for purposes of the elective method of measurement
will be the fair value reflected in such reconciliation.

243a
Second, financial statements are considered as prepared in accordance with U.S. GAAP where, under the
applicable GAAP, the fair value of stock options is reflected as a charge against income in audited financial
statements or is disclosed in footnotes to such statements. In such a case, the fair value of stock options
for purposes of the elective method of measurement
will be the fair value reflected in such audited financial statements.
Treasury and the IRS continue to believe that the
elective method should be available only for options
on stock whose value is readily determinable and for
companies that are required to determine the fair
value of stock options for a non-tax purpose. Accordingly, the final regulations do not extend the availability of the elective method to options on stock of privately held companies or companies whose stock is
traded only on foreign securities markets.
One commentator suggested that the election to
use the elective method should be made on the taxpayer’s return rather than evidenced in the written
cost sharing agreement. In the view of the commentator, such a procedure would be more practical from
an enforcement perspective.
This suggestion was not adopted. Treasury and
the IRS continue to believe that the most effective way
to ensure that all participants are bound by the election is to incorporate it within the written cost sharing
agreement.
G. Modification of Comparable Profits Method
– § 1.482-5(c)(2)(iv)
The proposed regulations provide that in applying
the comparable profits method, if there are material
differences among the tested party and uncontrolled

244a
comparables with respect to the utilization or treatment of stock-based compensation, such material differences are an appropriate basis for comparability
adjustments. One commentator expressed the view
that this provision contradicts the arm’s length coordination rules for QCSAs because the treatment of
stock-based compensation by unrelated parties is considered relevant for purposes of the comparable profits method but not relevant for purposes of QCSAs.
No revision was made in response to this comment.
Treasury and the IRS believe that the rule provided
in the proposed regulations with respect to the application of the comparable profits method is appropriate
because the financial data with respect to similar
business activities that generally is used as a reference point for that method is subject to adjustment to
ensure comparability.
H. Effective Date and Transition Rules –
§ 1.482-7(k) and (d)(2)(iii)(B)(2)
The provisions of the proposed regulations applicable to QCSAs would apply to stock-based compensation granted in taxable years beginning on or after
publication of final regulations. Participants in a
QCSA in existence on the effective date may, on a onetime basis, amend their agreement to elect the grantdate method of measurement without the Commissioner’s consent. The election with respect to existing
QCSAs must be made not later than the latest due
date, without regard to extensions, for an income tax
return of a controlled participant for the first taxable
year beginning after the effective date of final regulations.
One commentator stated that the prospective effective date does not afford taxpayers a reasonable

245a
time to amend their cost sharing agreements or restructure complex international operations. A transition period of two years after the publication of final
regulations was suggested.
This suggestion was not adopted. Treasury and
the IRS consider the period stated in the proposed regulations adequate for the initial planning and recordkeeping that may be occasioned by the final regulations.
With respect to the special transition rule permitting taxpayers to elect the grant-date method of measurement by amendment of an existing written cost
sharing agreement no later than the latest due date of
an income tax return of a controlled participant, one
commentator suggested that the due date should not
disregard filing extensions. The commentator maintained that fairness dictates affording taxpayers this
extra time for the analysis needed to make this significant decision.
In response to this comment, the final regulations
provide that the due date for amendments to existing
cost sharing agreements is determined with regard to
filing extensions.
Some commentators urged Treasury and the IRS
to postpone finalization of the proposed regulations
until the OECD completes its ongoing consideration of
the treatment of stock options for transfer pricing purposes and an international consensus begins to form
so that the potential for international disputes and resulting negative effects on U.S. business can be minimized. Similarly, a commentator suggested that the
effects of applying the principles of the proposed regulations to other areas of transfer pricing should be
thoroughly studied and harmonized before finalizing

246a
the regulations to avoid creating traps for the unwary
or other unforeseen consequences.
These suggestions were not implemented. Treasury and the IRS do not believe that international discussion of issues compels the suspension of the regulatory process. Also, Treasury and the IRS believe
that it is important to provide timely guidance on issues such as those addressed by the proposed and final regulations.
Finally, the preamble to the proposed regulations
states that the proposed regulations clarify that stockbased compensation must be taken into account in the
QCSA context. Several commentators interpreted
this language as in effect requiring the new rules to
be applied retroactively. These commentators urged
that the final regulations contain further assurances
of prospective intent and explicitly recognize that
these regulations represent a fundamental change to
the traditional approach to section 482.
No revisions were made in light of these comments. As noted earlier, Treasury and the IRS believe
that requiring stock-based compensation to be taken
into account in the QCSA context is consistent with
the arm’s length standard and long-standing policies
underlying section 482. The final regulations, like the
proposed regulations, clearly specify that the specific
rules provided therein are prospective in application.
Moreover, as stated in the proposed regulations, while
taxpayers may rely on the proposed regulations until
the effective date of the final regulations, no inference
is intended with respect to the treatment of stockbased compensation granted in taxable years beginning before the effective date of these final regulations.

247a
I. Paperwork Reduction Act and Regulatory
Flexibility Act
One commentator expressed the view that the
compliance burden imposed by the proposed regulations on each taxpayer will significantly exceed the
two to seven hours estimated under the Paperwork
Reduction Act. The commentator also asserted that
the estimated number of taxpayers affected by the
rules was too low.
The burden estimates as stated in the final regulations reflect no change. Treasury and the IRS reviewed the estimates made in the proposed regulations and concluded that they are reasonable.
Similarly, with respect to the Regulatory Flexibility Act, the commentator challenged the statement in
the preamble of the proposed regulations that the new
regulatory requirements will not have a significant
economic impact on a substantial number of small entities. Upon review of available information, Treasury
and the IRS found no basis for a change in the statement or in the operative finding that the economic impact of the collections of information in the proposed
regulations is not significant with respect to small entities.
J. Documentation Requirements and Other
Provisions on Which No Comments Received
Section 1.482-7(j)(2)(i)(F) of the proposed regulations requires that controlled participants maintain
specific documentation to establish the amount attributable to stock-based compensation that is taken
into account in determining the costs to be shared, including the method of measurement and timing used

248a
with respect to that amount. No comments were received on this particular provision, and it is retained
in the final regulations.
Treasury and the IRS intend that this provision
will require controlled participants that use the elective method of measurement to maintain documentation establishing compliance with the requirements of
§ 1.482-7(d)(2)(iii)(B). For example, documentation
should establish that applicable financial statements
reflecting the value of stock options with respect to
which the elective method is used, as well as applicable accounting principles under which such financial
statements are prepared, are in conformity with the
fair-value and reconciliation requirements adopted in
the final regulations with respect to GAAP other than
U.S. GAAP.
Several other provisions of the proposed regulations similarly were not commented upon and have
been adopted without modification in the final regulations.
These
provisions
include
§ 1.4827(d)(2)(iii)(A)(2), relating to deductions of foreign controlled participants; the last sentence of § 1.4827(d)(2)(ii), relating to repricing and other modifications of stock options; and § 1.482-7(d)(2)(iii)(C),
providing consistency rules for measurement and timing of stock-based compensation.
Special Analyses
It has been determined that this Treasury decision
is not a significant regulatory action as defined in Executive Order 12866. Therefore, a regulatory assessment is not required. It has also been determined that
section 553(b) of the Administrative Procedure Act (5
U.S.C. chapter 5) does not apply to these regulations.
It is hereby certified that the collection of information

249a
in these regulations will not have a significant economic impact on a substantial number of small entities. This certification is based upon the fact that few
small entities are expected to enter into QCSAs involving stock-based compensation, and that for those
who do, the burdens imposed under § 1.4827(d)(2)(iii)(B) and (j)(2)(i)(F) will be minimal. Therefore, a Regulatory Flexibility Analysis under the Regulatory Flexibility Act (5 U.S.C. chapter 6) is not required. Pursuant to section 7805(f ), the proposed regulations preceding these regulations were submitted
to the Chief Counsel for Advocacy of the Small Business Administration for comment on its impact on
small business.
Drafting Information
The principal author of these regulations is Douglas Giblen of the Office of Associate Chief Counsel (International). However, other personnel from Treasury and the IRS participated in their development.
List of Subjects
26 CFR Part 1
Income taxes, Reporting and recordkeeping requirements.
26 CFR Part 602
Reporting and recordkeeping requirements.
Adoption of Amendments to the Regulations
 Accordingly, 26 CFR parts 1 and 602 are amended
as follows:
PART 1 – INCOME TAXES
 Paragraph 1. The authority citation for part 1
continues to read in part as follows:
Authority: 26 U.S.C. 7805 * * *

250a
Sections 1.482-1, 1.482-5 and 1.482-7 also issued
under 26 U.S.C. 482. * * *
 Par. 2. Section 1.482-0 is amended by:
 1. Redesignating the entry for § 1.482-7(a)(3) as
the entry for § 1.482-7(a)(4).
 2. Adding a new entry for § 1.482-7(a)(3).
 3. Redesignating the entry for § 1.482-7(d)(2) as
the entry for § 1.482-7(d)(3).
 4. Adding new entries for § 1.482-7(d)(2).
The additions and redesignation read as follows:
§ 1.482-0 Outline of regulations under section 482.
* * * * *
§ 1.482-7 Sharing of costs.
(a) In general.
* * * * *
(3) Coordination with § 1.482-1.
(4) Cross references.
* * * * *
(d) Costs.
* * * * *
(2) Stock-based compensation.
(i) In general.
(ii) Identification of stock-based compensation related to intangible development.
(iii) Measurement and timing of stock-based
compensation expense.
(A) In general.
(1) Transfers to which section 421 applies.
(2) Deductions of foreign controlled
participants.


251a
(3) Modification of stock option.
(4) Expiration or termination of qualified cost sharing arrangement.
(B) Election with respect to options on
publicly traded stock.
(1) In general.
(2) Publicly traded stock.
(3) Generally accepted accounting
principles.
(4) Time and manner of making the
election.
(C) Consistency.
(3) Examples.
* * * * *
 Par. 3. Section 1.482-1 is amended by:
 1. Removing the sixth sentence of paragraph (a)(1)
and adding two sentences in its place.
 2. Adding a sentence at the end of paragraph
(b)(2)(i).
 3. Adding a sentence at the end of paragraph
(c)(1).
 4. Adding paragraph (j)(5).
The additions read as follows:
§ 1.482-1 Allocation of income and deductions
among taxpayers.
(a) * * *
(1) * * * Section 1.482-7T sets forth the cost
sharing provisions applicable to taxable years beginning on or after October 6, 1994, and before
January 1, 1996. Section 1.482-7 sets forth the
cost sharing provisions applicable to taxable years
beginning on or after January 1, 1996. * * *

252a
* * * * *
(b) * * *
(2) * * *
(i) * * * Section 1.482-7 provides the specific method to be used to evaluate whether a
qualified cost sharing arrangement produces
results consistent with an arm’s length result.
* * * * *
(c) * * *
(1) * * * See § 1.482-7 for the applicable
method in the case of a qualified cost sharing arrangement.
* * * * *
(j) * * *
(5) The last sentences of paragraphs (b)(2)(i)
and (c)(1) of this section and of paragraph (c)(2)(iv)
of § 1.482-5 apply for taxable years beginning on or
after August 26, 2003.
 Par. 4. Section 1.482-5 is amended by adding a
sentence at the end of paragraph (c)(2)(iv) to read as
follows:
§ 1.482-5 Comparable profits method.
* * * * *
(c) * * *
(2) * * *
(iv) * * * As another example, it may be appropriate to adjust the operating profit of a
party to account for material differences in the
utilization of or accounting for stock-based compensation (as defined by § 1.482-7(d)(2)(i))
among the tested party and comparable parties.
* * * * *

253a
Par. 5. Section 1.482-7 is amended by:
 1. Redesignating paragraph (a)(3) as paragraph
(a)(4).
 2. Adding a new paragraph (a)(3).
 3. Redesignating paragraph (d)(2) as paragraph
(d)(3).
 4. Adding a new paragraph (d)(2).
 5. Removing the word “and” at the end of paragraph (j)(2)(i)(D).
 6. Removing the period at the end of paragraph
(j)(2)(i)(E) and adding “; and” in its place.
 7. Adding paragraph (j)(2)(i)(F).
 8. Revising paragraph (k).
The additions and revision read as follows:
§ 1.482-7 Sharing of costs.
(a) * * *
(3) Coordination with § 1.482-1. A qualified
cost sharing arrangement produces results that
are consistent with an arm’s length result within
the meaning of § 1.482-1(b)(1) if, and only if, each
controlled participant’s share of the costs (as determined under paragraph (d) of this section) of intangible development under the qualified cost
sharing arrangement equals its share of reasonably anticipated benefits attributable to such development (as required by paragraph (a)(2) of this section) and all other requirements of this section are
satisfied.
* * * * *
(d) * * *
(2) Stock-based compensation –
(i) In general. For purposes of this section,
a controlled participant’s operating expenses


254a
include all costs attributable to compensation,
including stock-based compensation. As used
in this section, the term stock-based compensation means any compensation provided by a
controlled participant to an employee or independent contractor in the form of equity instruments, options to acquire stock (stock options),
or rights with respect to (or determined by reference to) equity instruments or stock options,
including but not limited to property to which
section 83 applies and stock options to which
section 421 applies, regardless of whether ultimately settled in the form of cash, stock, or
other property.
(ii) Identification of stock-based compensation related to intangible development. The determination of whether stock-based compensation is related to the intangible development
area within the meaning of paragraph (d)(1) of
this section is made as of the date that the
stock-based compensation is granted. Accordingly, all stock-based compensation that is
granted during the term of the qualified cost
sharing arrangement and is related at date of
grant to the development of intangibles covered
by the arrangement is included as an intangible
development cost under paragraph (d)(1) of this
section. In the case of a repricing or other modification of a stock option, the determination of
whether the repricing or other modification
constitutes the grant of a new stock option for
purposes of this paragraph (d)(2)(ii) will be
made in accordance with the rules of section
424(h) and related regulations.

255a
(iii) Measurement and timing of stock-based
compensation expense –
(A) In general. Except as otherwise provided in this paragraph (d)(2)(iii), the operating expense attributable to stock-based
compensation is equal to the amount allowable to the controlled participant as a deduction for Federal income tax purposes with
respect to that stock-based compensation
(for example, under section 83(h)) and is
taken into account as an operating expense
under this section for the taxable year for
which the deduction is allowable.
(1) Transfers to which section 421 applies. Solely for purposes of this paragraph (d)(2)(iii)(A), section 421 does not
apply to the transfer of stock pursuant to
the exercise of an option that meets the
requirements of section 422(a) or 423(a).
(2) Deductions of foreign controlled
participants. Solely for purposes of this
paragraph (d)(2)(iii)(A), an amount is
treated as an allowable deduction of a
controlled participant to the extent that
a deduction would be allowable to a
United States taxpayer.
(3) Modification of stock option.
Solely for purposes of this paragraph
(d)(2)(iii)(A), if the repricing or other
modification of a stock option is determined, under paragraph (d)(2)(ii) of this
section, to constitute the grant of a new
stock option not related to the development of intangibles, the stock option that
is repriced or otherwise modified will be

256a
treated as being exercised immediately
before the modification, provided that
the stock option is then exercisable and
the fair market value of the underlying
stock then exceeds the price at which the
stock option is exercisable. Accordingly,
the amount of the deduction that would
be allowable (or treated as allowable under this paragraph (d)(2)(iii)(A)) to the
controlled participant upon exercise of
the stock option immediately before the
modification must be taken into account
as an operating expense as of the date of
the modification.
(4) Expiration or termination of qualified cost sharing arrangement. Solely
for purposes of this paragraph
(d)(2)(iii)(A), if an item of stock-based
compensation related to the development of intangibles is not exercised during the term of a qualified cost sharing
arrangement, that item of stock-based
compensation will be treated as being exercised immediately before the expiration or termination of the qualified cost
sharing arrangement, provided that the
stock-based compensation is then exercisable and the fair market value of the
underlying stock then exceeds the price
at which the stock-based compensation
is exercisable. Accordingly, the amount
of the deduction that would be allowable
(or treated as allowable under this paragraph (d)(2)(iii)(A)) to the controlled participant upon exercise of the stock-based

257a
compensation must be taken into account as an operating expense as of the
date of the expiration or termination of
the qualified cost sharing arrangement.
(B) Election with respect to options on
publicly traded stock –
(1) In general. With respect to stockbased compensation in the form of options on publicly traded stock, the controlled participants in a qualified cost
sharing arrangement may elect to take
into account all operating expenses attributable to those stock options in the
same amount, and as of the same time,
as the fair value of the stock options reflected as a charge against income in audited financial statements or disclosed in
footnotes to such financial statements,
provided that such statements are prepared in accordance with United States
generally accepted accounting principles
by or on behalf of the company issuing
the publicly traded stock.
(2) Publicly traded stock. As used in
this paragraph (d)(2)(iii)(B), the term
publicly traded stock means stock that is
regularly traded on an established
United States securities market and is
issued by a company whose financial
statements are prepared in accordance
with United States generally accepted
accounting principles for the taxable
year.

258a
(3) Generally accepted accounting
principles. For purposes of this paragraph (d)(2)(iii)(B), a financial statement
prepared in accordance with a comprehensive body of generally accepted accounting principles other than United
States generally accepted accounting
principles is considered to be prepared in
accordance with United States generally
accepted accounting principles provided
that either –
(i) The fair value of the stock options under consideration is reflected
in the reconciliation between such
other accounting principles and
United States generally accepted accounting principles required to be incorporated into the financial statement by the securities laws governing
companies whose stock is regularly
traded on United States securities
markets; or
(ii) In the absence of a reconciliation between such other accounting
principles and United States generally accepted accounting principles
that reflects the fair value of the
stock options under consideration,
such other accounting principles require that the fair value of the stock
options under consideration be reflected as a charge against income in
audited financial statements or disclosed in footnotes to such statements.
(4) Time and manner of making the
election. The election described in this

259a
paragraph (d)(2)(iii)(B) is made by an explicit reference to the election in the
written cost sharing agreement required
by paragraph (b)(4) of this section or in a
written amendment to the cost sharing
agreement entered into with the consent
of the Commissioner pursuant to paragraph (d)(2)(iii)(C) of this section. In the
case of a qualified cost sharing arrangement in existence on August 26, 2003,
the election must be made by written
amendment to the cost sharing agreement not later than the latest due date
(with regard to extensions) of a Federal
income tax return of any controlled participant for the first taxable year beginning after August 26, 2003, and the consent of the Commissioner is not required.
(C) Consistency.
Generally, all controlled participants in a qualified cost sharing arrangement taking options on publicly
traded stock into account under paragraph
(d)(2)(iii)(A) or (B) of this section must use
that same method of measurement and timing for all options on publicly traded stock
with respect to that qualified cost sharing
arrangement. Controlled participants may
change their method only with the consent
of the Commissioner and only with respect
to stock options granted during taxable
years subsequent to the taxable year in
which the Commissioner’s consent is obtained. All controlled participants in the
qualified cost sharing arrangement must
join in requests for the Commissioner’s con-

260a
sent under this paragraph. Thus, for example, if the controlled participants make the
election described in paragraph (d)(2)(iii)(B)
of this section upon the formation of the
qualified cost sharing arrangement, the
election may be revoked only with the consent of the Commissioner, and the consent
will apply only to stock options granted in
taxable years subsequent to the taxable
year in which consent is obtained. Similarly, if controlled participants already have
granted stock options that have been or will
be taken into account under the general rule
of paragraph (d)(2)(iii)(A) of this section,
then except in cases specified in the last sentence of paragraph (d)(2)(iii)(B)(2) of this
section, the controlled participants may
make the election described in paragraph
(d)(2)(iii)(B) of this section only with the consent of the Commissioner, and the consent
will apply only to stock options granted in
taxable years subsequent to the taxable
year in which consent is obtained.
* * * * *
(j) * * *
(2) * * *
(i) * * *
(F) The amount taken into account as operating expenses attributable to stock-based
compensation, including the method of
measurement and timing used with respect
to that amount as well as the data, as of date
of grant, used to identify stock-based compensation related to the development of covered intangibles.

261a
* * * * *
(k) Effective date. This section applies for taxable
years beginning on or after January 1, 1996. However, paragraphs (a)(3), (d)(2) and (j)(2)(i)(F) of this
section apply for stock-based compensation granted in
taxable years beginning on or after August 26, 2003.
* * * * *
PART 602 – OMB CONTROL NUMBERS UNDER
THE PAPERWORK REDUCTION ACT
 Par. 9. The authority citation for part 602 continues to read as follows:
Authority: 26 U.S.C. 7805
 Par. 10. In § 602.101, paragraph (b) is amended
by adding an entry in numerical order to the table to
read in part as follows:
§ 602.101 OMB Control numbers.
* * * * *
(b) * * *
CFR part or section where
identified and described
* * * * *
1.482-7 .................................
* * * * *

Current OMB
control No.
1545-1794

Robert E. Wenzel,
Deputy Commissioner for Services and Enforcement.
Approved: August 11, 2003.
Pamela F. Olson,
Assistant Secretary of the Treasury.
[FR Doc. 03-21355 Filed 8-25-03; 8:45 am]
BILLING CODE 4830-01-P

262a
APPENDIX G
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Altera Corporation &
Subsidiaries,
Petitioner-Appellee,
v.
Commissioner of Internal
Revenue,
Respondent-Appellant.

Nos. 16-70496
16-70497
Tax Ct. Nos.
6253-12
9963-12
OPINION

Appeal from Decisions of the
United States Tax Court
Argued and Submitted October 11, 2017
San Francisco, California
Filed July 24, 2018
Before: Sidney R. Thomas, Chief Judge,
and Stephen Reinhardt and Kathleen M. O’Malley
Circuit Judges.
Opinion by Chief Judge Thomas;
Dissent by Judge O’Malley


Judge Reinhardt fully participated in this case and formally
concurred in the majority opinion prior to his death.


The Honorable Kathleen M. O’Malley, United States Circuit
Judge for the U.S. Court of Appeals for the Federal Circuit, sitting by designation.

263a
SUMMARY

Tax

The panel reversed a decision of the Tax Court that
26 C.F.R. § 1.482-7A(d)(2), under which related entities must share the cost of employee stock compensation in order for their cost-sharing arrangements to be
classified as qualified cost-sharing arrangements and
thus avoid an IRS adjustment, was invalid under the
Administrative Procedure Act. The panel reasoned
that the Commissioner of Internal Revenue did not exceed the authority delegated to him by Congress under 26 U.S.C. § 482, that the Commissioner’s rulemaking authority complied with the Administrative
Procedure Act, and that therefore the regulation is entitled to deference under Chevron, U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837
(1984).
Dissenting, Judge O’Malley would find, as the Tax
Court did, that 26 C.F.R. § 1.482-7A(d)(2) is invalid as
arbitrary and capricious.

COUNSEL

Arthur T. Catterall (argued), Richard Farber, and Gilbert S. Rothenberg, Attorneys; Diana L. Erbsen, Deputy Assistant Attorney General; Caroline D. Ciraolo,
Acting Assistant Attorney General; Tax Division,


This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

264a
United States Department of Justice, Washington,
D.C.; for Respondent-Appellant.
Donald M. Falk (argued), Mayer Brown LLP, Palo
Alto, California; Thomas Kittle-Kamp and William G.
McGarrity, Mayer Brown LLP, Chicago, Illinois;
Brian D. Netter and Travis Crum, Mayer Brown LLP,
Washington, D.C.; A. Duane Webber, Phillip J. Taylor, and Joseph B. Judkins, Baker & McKenzie LLP,
Washington, D.C.; for Petitioner-Appellee.
Susan C. Morse, University of Texas School of Law,
Austin, Texas; Stephen E. Shay, Harvard Law School,
Cambridge, Massachusetts; for Amici Curiae J. Richard Harvey, Leandra Lederman, Ruth Mason, Susan
Morse, Stephen Shay, and Bret Wells.
Jonathan E. Taylor, Gupta Wessler PLLC, Washington, D.C.; Clint Wallace, Vanderbilt Hall, New York,
New York; for Amici Curiae Anne Alstott, Reuven AviYonah, Lily Batchelder, Joshua Blank, Noel Cunningham, Victor Fleischer, Ari Glogower, David Kamin,
Mitchell Kane, Sally Katzen, Edward Kleinbard, Michael Knoll, Rebecca Kysar, Zachary Liscow, Daniel
Shaviro, John Steines, David Super, Clint Wallace,
and George Yin.
Larissa B. Neumann, Ronald B. Schrotenboer, and
Kenneth B. Clark, Fenwick & West LLP, Mountain
View, California, for Amicus Curiae Xilinx Inc.
Christopher J. Walker, The Ohio State University
Moritz College of Law, Columbus, Ohio; Kate Comerford Todd, Steven P. Lehotsky, and Warren Postman,
U.S. Chamber Litigation Center, Washington, D.C.;
for Amicus Curiae Chamber of Commerce of the

265a
United States of America. John I. Forry, San Diego,
California, for Amicus Curiae TechNet.
Alice E. Loughran, Michael C. Durst, and Charles G.
Cole, Steptoe & Johnson LLP, Washington, D.C.; Bennett Evan Cooper, Steptoe & Johnson LLP, Phoenix,
Arizona; for Amici Curiae Software and Information
Industry Association, Financial Executives International, Information Technology Industry Council, Silicon Valley Tax Directors Group, Software Finance
and Tax Executives Counsel, National Association of
Manufacturers, American Chemistry Council, BSA |
the Software Alliance, National Foreign Trade Council, Biotechnology Innovation Organization, Computing Technology Industry Association, The Tax Council, United States Council for International Business,
Semiconductor Industry Association.
Kenneth P. Herzinger and Eric C. Wall, Orrick Herrington & Sutcliffe LLP, San Francisco, California;
Peter J. Connors, Orrick Herrington & Sutcliffe LLP,
New York, New York; for Amici Curiae Charles W.
Calomiris, Kevin H. Hassett, and Sanjay Unni.
Roderick K. Donnelly and Neal A. Gordon, Morgan
Lewis & Bockius LLP, Palo Alto, California; Thomas
M. Peterson, Morgan Lewis & Bockius LLP, San Francisco, California; for Amicus Curiae Cisco Systems
Inc.
Christopher Bowers, David Foster, Raj Madan, and
Royce Tidwell, Skadden Arps Slate Meagher & Flom
LLP, Washington, D.C.; Nathaniel Carden, Skadden
Arps Slate Meagher & Flom LLP, Chicago, Illinois; for
Amicus Curiae Amazon.com Inc.

266a
OPINION

THOMAS, Chief Judge:
In this case, we consider the validity of 26 C.F.R.
§ 1.482-7A(d)(2),1 under which related entities must
share the cost of employee stock compensation in order for their cost-sharing arrangements to be classified as qualified cost-sharing arrangements (“QCSA”)
and thus avoid an IRS adjustment. We conclude that
the regulations withstand scrutiny under general administrative law principles, and we therefore reverse
the decision of the Tax Court.
I
Corporations often elect to conduct business
through international subsidiaries. Transactions between related companies can provide opportunities for
minimizing or avoiding taxes, particularly when a foreign subsidiary is located in a low tax jurisdiction. For
example, a parent company in a high tax jurisdiction
can sell property to its subsidiary in a low tax jurisdiction and have its subsidiary sell the property for
profit. The profits from those sales are thus taxed in
a lower tax jurisdiction, resulting in significant tax
savings for the parent. This practice, known as
“transfer pricing” can result in United States companies shifting profits that would be subject to tax in
America offshore to avoid tax. Similarly, related companies can identify and shift costs between American
and foreign jurisdictions to minimize tax exposure. In
recent years, United States corporations have used
The 2003 amendments to Treasury’s cost-sharing regulations
are at issue. Although they are still in effect, the Code has been
reorganized, and what was § 1.482-7 in 2003 is now numbered
§ 1.482-7A. To minimize confusion, our citations are to the current version of the regulations unless otherwise specified.
1

267a
these techniques to develop intangible property with
their foreign subsidiaries, and to share the cost of development between the companies. Under these arrangements, a U.S. corporation might enter into a research and development (“R&D”) cost-sharing agreement with its foreign subsidiary located in a low tax
jurisdiction and grant the offshore company rights to
exploit the property internationally. The interplay of
cost and income allocation between the two companies
in such a transaction can result in significantly reduced taxes for the United States parent.
To address the risk of multinational corporation
tax avoidance, Congress passed legislation granting
the United States Department of the Treasury the authority to allocate income and costs between such related parties. 26 U.S.C. § 482. In turn, the Secretary
of the Treasury promulgated regulations authorizing
the Commissioner of the Internal Revenue Service to
allocate income and costs among these related entities. 26 C.F.R. §§ 1.482-0 through 1.482-9.
At issue before us are employee stock options, the
cost of which the companies in this case elected not to
share, resulting in substantial tax savings for the parent – here, the tax associated with over $80 million in
income. The Commissioner contends that allocation
of stock compensation costs between the companies is
appropriate to reflect economic reality; Altera Corporation (“Altera”) and its subsidiaries contend that any
cost allocation exceeds the Commissioner’s authority.
Fundamental to resolution of this dispute is an understanding of the arm’s length standard, a tool that
Treasury developed in the mid-twentieth century to
ensure that controlled taxpayers were taxed similarly
to uncontrolled taxpayers. The arm’s length standard
is results-oriented, meaning that its goal is parity in

268a
taxable income rather than parity in the method of allocation itself. 26 C.F.R. § 1.482-1(b)(1) (“A controlled
transaction meets the arm’s length standard if the results of the transaction are consistent with the results
that would have been realized if uncontrolled taxpayers had engaged in the same transaction under the
same circumstances (arm’s length result).”). A traditional arm’s length analysis looks to comparable
transactions among non-related parties to achieve an
arm’s length result. The issue in this case is whether
Treasury can permissibly allocate between related
parties a cost that unrelated parties do not agree to
share.
Altera asserts that the arm’s length standard always demands a comparability analysis, meaning
that the Commissioner cannot allocate costs between
related parties in the absence of evidence that unrelated parties share the same costs when dealing at
arm’s length. Altera argues that, because uncontrolled taxpayers do not share the cost of employee
stock options, the Commissioner cannot require related parties to share that cost.
The Commissioner argues that he may, consistent
with the arm’s length standard, apply a purely internal method of allocation, distributing the costs of employee stock options in proportion to the income enjoyed by each controlled taxpayer. This “commensurate with income” method analyzes the income generated by intangible property in comparison with the
amount paid (usually as royalty) to the parent. In the
Commissioner’s view, the commensurate with income
method is consistent with the arm’s length standard
because controlled cost-sharing arrangements have
no equivalent in uncontrolled arrangements, and Congress has provided that the Commissioner may dis-

269a
pense with a comparability analysis where comparable transactions do not exist in order to achieve an
arm’s length result.
Because this case involves a challenge to regulations, the ultimate issue is not what the arm’s length
standard should mean but rather whether Treasury
may define the standard as it has. We conclude that
the challenged regulations are not arbitrary and capricious but rather a reasonable execution of the authority delegated by Congress to Treasury.
II
At issue is Altera’s tax liability for the years 2004
through 2007. During the relevant period, Altera and
its subsidiaries designed, manufactured, marketed,
and sold programmable logic devices, electronic components that are used to build circuits.
In May of 1997, Altera entered into a cost-sharing
agreement with one of its subsidiaries, Altera International, Inc., a Cayman Islands corporation (“Altera
International”), which had been incorporated earlier
that year. Altera granted to Altera International a license to use and exploit Altera’s preexisting intangible property everywhere in the world except the
United States and Canada. In exchange, Altera International paid royalties to Altera. The parties agreed
to pool their resources to share R&D costs in proportion to the benefits anticipated from new technologies.
Altera and the IRS agreed to an Advance Pricing
Agreement covering the 1997-2003 tax years. Pursuant to this agreement, and consistent with the costsharing regulations in effect at the time, Altera
shared with Altera International stock-based compensation costs as part of the shared R&D costs. The
Treasury regulations were amended in 2003, and Altera and Altera International amended their cost-

270a
sharing agreement to comply with the modified regulations, continuing to share employee stock compensation costs.
The agreement was amended again in 2005 following the Tax Court’s opinion in Xilinx, Inc. v. Commissioner, involving a challenge to the allocation of employee stock compensation costs under the 1994-1995
cost-sharing regulations. 125 T.C. 37 (2005). The parties agreed to “suspend the payment of any portion of
[a] Cost Share . . . to the extent such payment relates
to the Inclusion of Stock-Based Compensation in R&D
Costs” unless and until a court upheld the validity of
the 2003 cost-sharing regulations. The following provision explains Altera’s reasoning:
The Parties believe that it is more likely than not
that (i) the Tax Court’s conclusion in Xilinx Inc. v.
Comm’r, 125 T.C. [No.] 4 (2005), that the arm’s
length standard controls the determination of
costs to be shared by controlled participants in a
qualified cost sharing arrangement should also apply to Treas. Reg. § 1.482-7A(d)(2) (as amended by
T.D. 9088), and (ii) the Parties’ inclusion of StockBased Compensation in R&D Costs pursuant to
Amendment I would be contrary to the arm’s
length standard.
Altera and its U.S. subsidiaries did not account for
R&D-related stock-based compensation costs on their
consolidated 2004-2007 federal income tax returns.
The IRS issued two notices of deficiency to the group,
applying § 1.482-7(d)(2) to increase the group’s income
by the following amounts:
2004
$ 24,549,315
2005
$ 23,015,453
2006
$ 17,365,388
2007
$ 15,463,565

271a
The Altera group timely filed petitions in the Tax
Court. The parties filed cross-motions for partial summary judgment, and the Tax Court granted Altera’s
motion. Sitting en banc, the court held that § 1.4827A(d)(2) is invalid under the Administrative Procedure Act (“APA”). Altera Corp. & Subsidiaries v.
Comm’r, 145 T.C. 91 (2015).
The Tax Court unanimously determined that the
Commissioner’s allocation of income and expenses between related entities must be consistent with the
arm’s length standard, and that the arm’s length
standard is not met unless the Commissioner’s allocation can be compared to an actual transaction between
unrelated entities. The court reasoned that the Commissioner could not require related parties to share
stock compensation costs because the Commissioner
had not considered any unrelated party transactions
in which the parties shared such costs. The court concluded that the agency decision-making process was
fundamentally flawed because: (1) it rested on speculation rather than hard data and expert opinions; and
(2) it failed to respond to significant public comments,
particularly those identifying uncontrolled cost-sharing arrangements in which the entities did not share
stock compensation costs. Altera, 145 T.C. at 122-31.
The Tax Court’s decision rested largely on its own
opinion in Xilinx, in which it held that “the arm’slength standard always requires an analysis of what
unrelated entities do under comparable circumstances.” Id. at 118 (citing Xilinx, 125 T.C. at 53-55).
In its decision in this case, the Tax Court reinforced
its conclusion that the Commissioner cannot require
related entities to share stock compensation costs unless and until it locates uncontrolled transactions in
which these costs are shared. Id. at 118-19.

272a
The court reached five holdings: (1) that the 2003
amendments constitute a final legislative rule subject
to the requirements of the APA; (2) that Motor Vehicle
Manufacturers Association of the United States v.
State Farm Mutual Auto Insurance Co., 463 U.S. 29
(1983) provides the appropriate standard of review because the standard set forth in Chevron, U.S.A., Inc.
v. Natural Resources Defense Council, Inc., 467 U.S.
837 (1984), incorporates State Farm’s reasoned decisionmaking standard; (3) that Treasury failed to adequately support its decision to allocate the costs of employee stock compensation between related parties;
(4) that Treasury’s failure was not harmless error; and
(5) that § 1.482-7A(d)(2) is invalid under the APA. Id.
at 115-33.
On appeal, the Commissioner does not dispute the
first holding regarding the applicability of State
Farm, although he argues that the appropriate standard is more deferential and less empirically minded
than the standard actually applied by the Tax Court.
Nor does he claim that any error in the decisionmaking process, if it existed, was harmless. The challenged holdings – (2), (3), and (5) – are all part of the
same broader question: did Treasury exceed its authority in requiring Altera’s cost-sharing arrangement to include a particular distribution of employee
stock compensation costs?
III
The Commissioner’s position is founded on 26
U.S.C. § 482. Because an understanding of § 482 and
its history is integral to resolution of each of the issues
raised by the parties, a brief overview of the statute
and its history is important.

273a
At the relevant time,2 26 U.S.C. § 482 appeared to
provide a nearly limitless grant of authority to Treasury to allocate income between related parties:
In any case of two or more organizations, trades,
or businesses (whether or not incorporated,
whether or not organized in the United States, and
whether or not affiliated) owned or controlled directly or indirectly by the same interests, the Secretary may distribute, apportion, or allocate gross
income, deductions, credits, or allowances between
or among such organizations, trades, or businesses, if he determines that such distribution, apportionment, or allocation is necessary in order to
prevent evasion of taxes or clearly to reflect the income of any of such organizations, trades, or businesses. In the case of any transfer (or license) of
intangible property (within the meaning of section
936(h)(3)(B)), the income with respect to such
transfer or license shall be commensurate with the
income attributable to the intangible.
The first sentence has remained substantively unchanged since 1928, Revenue Act of 1928, ch. 852,

Section 482 was amended in December 2017 to include a third
sentence:
2

For purposes of this section, the Secretary shall require the
valuation of transfers of intangible property (including intangible property transferred with other property or services) on an aggregate basis or the valuation of such a transfer on the basis of the realistic alternatives to such a transfer,
if the Secretary determines that such basis is the most reliable means of valuation of such transfers.
Tax Cuts and Jobs Act, Pub. L. No. 115-97, 131 Stat. 2054. Because the amendment postdates the operative regulations, it
does not affect our analysis.

274a
§ 45, 45 Stat. 791, 806 (1928), and it provides the statutory authority for the arm’s length standard, which
first appeared in the 1934 tax regulations, Regulations 86, Art. 45-1(b) (1935). The second sentence sets
forth the commensurate with income standard, and it
was added to the statute in 1986. Tax Reform Act of
1986, Pub. L. No. 99-514, § 1231(e)(1), 100 Stat. 2085,
2562 (1986).
A
From the beginning, § 482’s precursor was designed to give Treasury the flexibility it needed to prevent cost and income shifting between related entities
for the purpose of decreasing tax liability. See H.R.
Rep. No. 70-2, at 16-17 (1927) (“[T]he Commissioner
may, in the case of two or more trades or businesses
owned or controlled by the same interests, apportion,
allocate, or distribute the income or deductions between or among them, as may be necessary in order to
prevent evasion (by the shifting of profits, the making
of fictitious sales, and other methods frequently
adopted for the purpose of ‘milking’), and in order
clearly to reflect their true tax liability.”); accord S.
Rep. No. 70-960, at 24 (1928). The purpose of the statute is “to place a controlled taxpayer on a tax parity
with an uncontrolled taxpayer . . . .” Comm’r v. First
Sec. Bank of Utah, 405 U.S. 394, 400 (1972) (quoting
Treas. Reg. § 1.482-1(b)(1) (1971)). This parity is double-edged: as much as § 482 works to ensure controlled taxpayers are not overtaxed, the concern expressed on the face of § 482, even before the 1986
amendment, is preventing tax avoidance by controlled
taxpayers.
After 1934, when the arm’s length standard appeared in the regulations – in what is essentially its
modern form – courts did not hold related parties to

275a
the standard by looking for comparable transactions.
For example, in Seminole Flavor Co. v. Commissioner,
the Tax Court rejected a strict application of the arm’s
length standard in favor of an inquiry into whether
the allocation of income between related parties was
“fair and reasonable.” 4 T.C. 1215, 1232 (1945); see
also id. at 1233 (“Whether any such business agreement would have been entered into by petitioner with
total strangers is wholly problematical.”); Grenada Indus., Inc. v. Comm’r, 17 T.C. 231, 260 (1951) (“We approve an allocation . . . to the extent that such gross
income in fact exceeded the fair value of services rendered . . . .”). And in 1962, this Court collected various
allocation standards and outright rejected the superiority of the arm’s length standard over all others:
[W]e do not agree . . . that “arm’s length bargaining” is the sole criterion for applying the statutory
language of § 45 in determining what the “true net
income” is of each “controlled taxpayer.” Many decisions have been reached under § 45 without reference to the phrase “arm’s length bargaining” and
without reference to Treasury Department Regulations and Rulings which state that the talismanic combination of words – “arm’s length” – is
the “standard to be applied in every case.”
For example, it was not any less proper . . . to use
here the “reasonable return” standard than it was
for other courts to use “full fair value,” “fair price
including a reasonable profit,” “method which
seems not unreasonable,” “fair consideration
which reflects arm’s length dealing,” “fair and reasonable,” “fair and reasonable” or “fair and fairly
arrived at,” or “judged as to fairness,” all used in
interpreting § 45.

276a
Frank v. Int’l Canadian Corp., 308 F.2d 520, 528-29
(9th Cir. 1962) (footnotes omitted).3
In the 1960s, the problem of abusive transfer pricing practices created a new adherence to a stricter
arm’s length standard. In response to concerns about
the undertaxation of multinationals, Congress considered reworking the Code to resolve the difficulty posed
by the application of the arm’s length standard to related party transactions. H.R. Rep. No. 87-1447, at
28-29 (1962). However, it instead asked Treasury to
“explore the possibility of developing and promulgating regulations . . . which would provide additional
guidelines and formulas for the allocation of income
and deductions” under § 482. H.R. Conf. Rep. No. 872508, at 19 (1962), reprinted in 1962 U.S.C.C.A.N.
3732, 3739. Legislators believed that § 482, at least
in theory, authorized the Secretary to employ a profitsplit allocation method without amendment. Id.; H.R.
Rep. No. 87-1447, at 28-29 (“This provision appears to
give the Secretary the necessary authority to allocate
income between a domestic parent and its foreign subsidiary.”).
In 1968, following Congress’s entreaty, Treasury
finalized the first regulation tailored to the issue of
intangible property development in cost-sharing arrangements. Treas. Reg. § 1.482-2(d) (1968). The
novelty of the 1968 regulations was their focus on
comparability. Compare Treas. Reg. § 1.482-2(d)(2)
(“An arm’s length consideration shall be in a form
which is consistent with the form which would be
The Court later took a hard turn from the flexibility it welcomed in Frank, which it limited to situations in which “it would
have been difficult for the court to hypothesize an arm’s-length
transaction.” Oil Base, Inc. v. Comm’r, 362 F.2d 212, 214 n.5 (9th
Cir. 1966).
3

277a
adopted in transactions between unrelated parties in
the same circumstances.”) with Regulations 86, Art.
45-1(b) (1935) (focusing on arm’s length results rather
than arm’s length form). The 1968 regulations “constituted a radical and unprecedented approach to the
problem they addressed – notwithstanding their being
couched in terms of the ‘arm’s length standard,’ and
notwithstanding that that standard had been the
nominal standard under the regulations for some 30
years . . . .” Stanley I. Langbein, The Unitary Method
and the Myth of Arm’s Length, 30 Tax Notes 625, 644
(1986).
Despite the asserted focus on comparability, the
arm’s length standard has never been used to the exclusion of other, more flexible approaches. Indeed, a
study determined that direct comparables were located and applied in only 3% of IRS’s adjustments
prior to the 1986 amendment. U.S. Gen. Accounting
Office, GGD-81-81, IRS Could Better Protect U.S. Tax
Interests In Determining The Income Of Multinational Corporations 29 (1981). The decades following
the 1968 regulations involved
a gradual realization by all parties concerned, but
especially Congress and the IRS, that the [arm’s
length standard], firmly established . . . as the sole
standard under section 482, did not work in a large
number of cases, and in other cases its misguided
application produced inappropriate results. The
result was a deliberate decision to retreat from the
standard while still paying lip service to it.
Reuven S. Avi-Yonah, The Rise & Fall of Arm’s
Length: A Study in the Evolution of U.S. International
Taxation, 15 Va. Tax Rev. 89, 112 (1995); see also
James P. Fuller, Section 482: Revisited Again, 45 Tax

278a
L. Rev. 421, 453 (1990) (“[T]he 1986 Act’s commensurate with income standard is not really a new approach to § 482.”). The arm’s length standard had
proven to be similarly illusory in international contexts. Langbein, supra, at 649.
B
As controlled transactions increased in frequency
and complexity, Congress determined that legislative
action was necessary. The Tax Reform Act of 1986 reflected Congress’s view that strict adherence to the
arm’s length standard prevented tax parity.
The House Ways and Means Committee recommended the addition of the commensurate with income clause because it was “concerned” that the current statute and regulations “may not be operating to
assure adequate allocations to the U.S. taxable entity
of income attributable to intangibles . . . .” H.R. Rep.
No. 99-426, at 423 (1985). The clause was intended to
correct a “recurrent problem” – “the absence of comparable arm’s length transactions between unrelated
parties, and the inconsistent results of attempting to
impose an arm’s length concept in the absence of comparables.” Id. at 423-24.
Congress intended the commensurate with income
standard to displace a comparability analysis where
comparable transactions cannot be found:
A fundamental problem is the fact that the relationship between related parties is different from
that of unrelated parties. . . . [M]ultinational companies operate as an economic unit, and not “as if ”
they were unrelated to their foreign subsidiaries.

...
Certain judicial interpretations of section 482 suggest that pricing arrangements between unrelated

279a
parties for items of the same apparent general category as those involved in the related party transfer may in some circumstances be considered a
“safe harbor” for related party pricing arrangements, even though there are significant differences in the volume and risks involved, or in other
factors. . . . [S]uch an approach is sufficiently troublesome where transfers of intangibles are concerned that a statutory modification to the intercompany pricing rules regarding transfers of intangibles is necessary.
...
. . . There are extreme difficulties in determining
whether the arm’s length transfers between unrelated parties are comparable. The committee thus
concludes that it is appropriate to require that the
payment made on a transfer of intangibles to a related foreign corporation . . . be commensurate
with the income attributable to the intangible. . . .
...
. . . [T]he committee intends to make it clear that
industry norms or other unrelated party transactions do not provide a safe-harbor minimum payment for related party intangible transfers. Where
taxpayers transfer intangibles with a high profit
potential, the compensation for the intangibles
should be greater than industry averages or
norms. . . .
Id. at 423-25.
The Conference Committee suggested only one
change – to broaden the sweep of the amendment so
as to encompass domestic related party transactions –
in order to better serve the objective of the amendment, “that the division of income between related

280a
parties reasonably reflect the relative economic activity undertaken by each . . . .” H.R. Conf. Rep. No. 99841, at II-637 (1986), reprinted in 1986 U.S.C.C.A.N.
4075, 4725. It also clarified that cost-sharing arrangements qualify as QCSAs only “if and the extent . . . the
income allocated among the parties reasonably reflect
the actual economic activity undertaken by each.”
H.R. Conf. Rep. No. 99-841, at II-638, 1986
U.S.C.C.A.N. at 4726.
C
Treasury’s first response to the Tax Reform Act
was the “White Paper,” an intensive study published
in 1988. A Study of Intercompany Pricing under the
Code, I.R.S. Notice 88-123, 1988-C.B. 458 (“White Paper”). The White Paper makes clear that Treasury initially understood the commensurate with income
standard to be consistent with the arm’s length standard (and that Treasury understood Congress to share
that understanding). Id. at 475. Treasury wrote that
a comparability analysis must be performed where
possible, id. at 474, but it also suggested a “clear and
convincing evidence” standard for comparables, suggesting that a comparability analysis would rarely
suffice, id. at 477-78.
Despite its use of the phrase “arm’s length standard,” the White Paper signaled a dramatic shift from
the standard as it had been defined following the 1968
regulations. Treasury advanced a new allocation
method, the “basic arm’s length return method,” id. at
488, which – contrary to its name – would apply only
in the absence of comparables and would essentially

281a
split profits between the related parties, id. at 490.4
The White Paper’s re-framing of the arm’s length
standard was not novel:
[D]espite the Treasury’s affirmation of the traditional [arm’s length standard] in its 1988 White
Paper, this narrow conception . . . was already obsolete by 1988 in the large majority of cases, insofar as the United States’ approach to international
taxation was concerned. Subsequent developments, especially the recently issued proposed,
temporary and final regulations under section 482
of the Code, merely strengthened the nails in its
coffin.
Avi-Yonah, supra, at 94-95.
The White Paper was silent regarding employee
stock compensation – unsurprisingly, as the practice
did not develop on a major scale until the 1990s. Zvi
Bodie, Robert S. Kaplan, & Robert C. Merton, For the
Last Time: Stock Options Are an Expense, 81 Harv.
Bus. Rev. 62, March 2003, at 63, 67 (March 2003).
In 1994 and 1995, Treasury issued the regulations
challenged in Xilinx. As in previous iterations, the
1994-1995 regulations defined the arm’s length standard as results-oriented, meaning that the goal is parity in taxable income rather than parity in the method
of allocation itself. Treas. Reg. § 1.482-1(b)(1) (1994)
Contemporary commentators understood that, by attempting
synthesis between the arm’s length and commensurate with income provisions, Treasury was moving away from a view of the
arm’s length standard as grounded in comparability. Marc M.
Levy, Stanley C. Ruchelman, & William R. Seto, Transfer Pricing
of Intangibles after the Section 482 White Paper, 71 J. Tax’n 38,
38 (1989); Josh O. Ungerman, Comment, The White Paper: The
Stealth Bomber of the Section 482 Arsenal, 42 Sw. L.J. 1107,
1128-29 (1989).
4

282a
(“A controlled transaction meets the arm’s length
standard if the results of the transaction are consistent with the results that would have been realized
if uncontrolled taxpayers had engaged in the same
transaction under the same circumstances (arm’s
length result).”). The arm’s length standard remained
“the standard to be applied in every case.” § 1.4821(b)(1) (1994).
The regulations also set forth methods by which
income could be allocated among related parties in a
manner consistent with the arm’s length standard.
§ 1.482-1(b)(2)(i) (1994). Absent from the list of approved methods was the method outlined in the singular cost-sharing regulation separately issued in
1995, § 1.482-7. The 1995 regulation provided that intangible development costs included “all of the costs
incurred by . . . [an uncontrolled] participant related
to the intangible development area.” Treas. Reg.
§ 1.482-7(d)(1) (1995). Beginning in 1997, the Secretary interpreted the “all . . . costs” language to include
stock-based compensation, meaning that controlled
taxpayers had to share the costs (and associated deductions) of providing employee stock compensation.
Xilinx v. Comm’r, 598 F.3d 1191, 1193-94 (9th Cir.
2010).
According to Treasury, the 1994 regulations defined the arm’s length standard in terms of “the results that would have been realized if uncontrolled
taxpayers had engaged in the same transactions under the same circumstances.” Compensatory Stock
Options Under Section 482 (Proposed), 67 Fed. Reg.
48,997, 48,998 (July 29, 2002). On the other hand, the
1995 regulation, consistent with the 1986 Conference
Report excerpted above, “implement[ed] the commensurate with income standard in the context of cost
sharing arrangements” by “requir[ing] that controlled

283a
participants in a [QCSA] share all costs incurred that
are related to the development of intangibles in proportion to their shares of the reasonably anticipated
benefits attributable to that development.” Id. Recognizing the potential for conflict between the 1994
and 1995 regulations (also discussed by this Court in
Xilinx, as described below), Treasury later issued new
cost-sharing regulations, the 2003 regulations that Altera now challenges.
IV
We turn then, to the disputed 2003 amendments to
the regulations, which Treasury intended to clarify rather than overhaul the 1994 and 1995 regulations.
The clarifications were two-fold. First, the amendments expressly classified employee stock compensation as a cost to be allocated between QCSA participants. Compensatory Stock Options Under Section
482 (Proposed), 67 Fed. Reg. at 48,998; Treas. Reg.
§ 1.482-7A(d)(2). Second, the “coordinating” amendments clarified Treasury’s understanding that the
cost-sharing regulations, including § 1.482-7A(d)(2),
operate to produce an arm’s length result. Compensatory Stock Options Under Section 482 (Proposed), 67
Fed. Reg. at 49,000; Treas. Reg. § 1.482-7A(a)(3).
Altera challenges two regulations. It squarely
challenges 26 C.F.R. § 1.482-7A(d)(2). It also objects
to § 1.482-7A(a)(3), but only insofar as it incorporates
§ 1.482-7A(d)(2) by reference.
Broadly, § 1.482-7A provides that costs are shared
by parties to a QCSA, a controlled cost-sharing arrangement that meets the standards of the cost-sharing regulations and thus enables the participants to
avoid an IRS adjustment. Section 1.482-7A(a)(3) incorporates and attempts synthesis with the arm’s
length standard:

284a
A qualified cost sharing arrangement produces results that are consistent with an arm’s length result . . . if, and only if, each controlled participant’s
share of the costs (as determined under paragraph
(d) of this section) of intangible development under
the qualified cost sharing arrangement equals its
share of reasonably anticipated benefits attributable to such development . . . .
Section 1.482-7A(d)(2) provides that parties to a
QCSA must allocate stock-based compensation between themselves:
[In a QCSA], a controlled participant’s operating
expenses include all costs attributable to compensation, including stock-based compensation. As
used in this section, the term stock-based compensation means any compensation provided by a controlled participant to an employee or independent
contractor in the form of equity instruments, options to acquire stock (stock options), or rights with
respect to (or determined by reference to) equity
instruments or stock options, including but not
limited to property to which section 83 applies and
stock options to which section 421 applies, regardless of whether ultimately settled in the form of
cash, stock, or other property.
Altera does not challenge the allocation of other intangible development costs under § 1.482-7A(d).
In determining whether Treasury’s regulation is
permissible, we are faced with two questions:
whether Treasury’s “decreed result [is] within the
scope of its lawful authority,” and whether “the process by which it reache[d] that result [was] logical and
rational.” Michigan v. EPA, 135 S. Ct. 2699, 2706

285a
(2015) (quoting State Farm, 463 U.S. at 43). Consideration of these issues requires examination of the
APA and Chevron deference.
The Tax Court correctly held that the APA applies
to Treasury in the context of the present controversy.
See Mayo Found. for Med. Ed. & Res. v. United States,
562 U.S. 44, 55 (2011) (“In the absence of [any] justification, we are not inclined to carve out an approach
to administrative review good for tax law only.”).5
Under the APA, we must “hold unlawful and set
aside agency action, findings, and conclusions found
to be . . . arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law,” “in excess of
statutory jurisdiction,” or “without observance of procedure required by law.” 5 U.S.C. § 706(2)(A), (C)-(D).
However, “[t]he scope of review under the ‘arbitrary
and capricious’ standard is narrow and a court is not
to substitute its judgment for that of the agency.”
State Farm, 463 U.S. at 43.
If we conclude that Treasury complied with the
APA in its rulemaking, we apply the familiar Chevron
standard in examining the agency’s interpretation of
the statute that defines the scope of its authority.
Chevron, 467 U.S. at 843.
Because the Commissioner does not contest the applicability
of the APA or Chevron in this context, this case does not require
us to decide the broader questions of the precise contours of the
application of APA to the Commissioner’s administration of the
tax system or the continued vitality of the theory of tax exceptionalism. See generally, e.g., Stephanie Hoffer and Christopher
J. Walker, The Death of Tax Court Exceptionalism, 99 Minn. L.
Rev. 221 (2014); Kristin E. Hickman, Coloring Outside the Lines:
Examining Treasury’s (Lack of) Compliance with Administrative
Procedure Act Rulemaking Requirements, 82 Notre Dame L. Rev.
1727 (2007).
5

286a
A
Accordingly, our first task is to determine whether
Treasury complied with the APA in the first instance.
Only if Treasury complied with the APA may we defer
to its interpretation of § 482 under Chevron. Encino
Motorcars, LLC v. Navarro, 136 S.Ct. 2117, 2125
(2016).6
The APA “sets forth the full extent of judicial authority to review executive agency action for procedural correctness . . . .” FCC v. Fox Television Stations, Inc., 556 U.S. 502, 513 (2009). It “prescribes a
three-step procedure for so-called ‘notice-and-comment rulemaking.’” Perez v. Mortgage Bankers Ass’n,
135 S. Ct. 1199, 1203 (2015) (citing 5 U.S.C. § 553).
First, a “[g]eneral notice of proposed rule making”
must ordinarily be published in the Federal Register.”
5 U.S.C. § 553(b). Second, provided that “notice [is]
required,” the agency must “give interested persons
an opportunity to participate in the rule making
through submission of written data, views, or arguments . . . .” § 553(c). “An agency must consider and
respond to significant comments received during the
We note that the procedural posture of this case – following
enforcement – differs from that of a typical case challenging a
regulation under the APA. Generally, strict APA-based challenges arise in the pre-enforcement context, which is less disruptive to the agency and which allows plaintiffs to avoid the sixyear statute of limitations applicable to APA-based challenges.
See 28 U.S.C. § 2401. By contrast, post-enforcement challenges,
often brought after the six-year statute of limitations, are rarely
brought under the APA, even if the APA proves relevant. Rather,
courts are generally called on to address the degree of deference
to which the agency is entitled. In these typical post-enforcement
challenges, the ultimate question is not whether the agency action was procedurally defective but rather whether it was a permissible exercise of executive authority. The court focuses not
on the APA but on the statute as it is implemented by the agency.
6

287a
period for public comment.” Perez, 135 S. Ct. at 1203.
Third, the agency must incorporate in the final rule “a
concise general statement of [its] basis and purpose.”
§ 553(c).
1
Altera does not dispute that Treasury satisfied the
first step by giving notice of the 2003 regulations. Altera, 145 T.C. at 103. Nor does there appear to be a
controversy as to whether Treasury included in the final rule “a concise general statement of [its] basis and
purpose.” 5 U.S.C. § 553. Rather, Altera argues that
the regulations fail on the second step, asserting that
although Treasury solicited public comments, it did
not adequately consider and respond to those responses, rendering the regulations arbitrary and capricious under State Farm. Altera, 145 T.C. at 12031. We disagree.
Section 706 of the APA directs courts to “decide all
relevant questions of law, interpret constitutional and
statutory provisions, and determine the meaning or
applicability of the terms of an agency action.” 5
U.S.C. § 706 (flush language). Agencies may not act
in ways that are “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.”
5 U.S.C. § 706(2)(A). Following State Farm, the
touchstone of arbitrary and capricious review under
the APA is “reasoned decisionmaking.” State Farm,
463 U.S. at 52. “[T]he agency must examine the relevant data and articulate a satisfactory explanation for
its action including a ‘rational connection between the
facts found and the choice made.’ ” Id. at 43 (quoting
Burlington Truck Lines v. United States, 371 U.S. 156,
168 (1962)). “[A]gency action is lawful only if it rests
‘on a consideration of the relevant factors.’ ” Michigan, 135 S. Ct. at 2706 (quoting State Farm, 463 U.S.

288a
at 43). However, courts may not set aside agency action simply because the rulemaking process could
have been improved; rather, we must determine
whether the agency’s “path may reasonably be discerned.” State Farm, 463 U.S. at 43 (quoting Bowman
Transp. Inc. v. Arkansas-Best Freight Sys, 419 U.S.
281, 286 (1974)).
Altera argues that Treasury’s rulemaking process
does not sufficiently support the regulations, which
Altera understands to be a significant departure from
Treasury’s earlier regulations implementing § 482.
This argument is premised on: (1) Treasury’s rejection of the comments submitted in opposition to the
proposed rule, and (2) Altera’s claim that Treasury’s
current litigation position is inconsistent with statements made during the rulemaking process.
“[A]n agency need only respond to ‘significant’ comments, i.e., those which raise relevant points and
which, if adopted, would require a change in the
agency’s proposed rule.” Am. Mining Congress v.
EPA, 965 F.2d 759, 771 (9th Cir. 1992) (quoting Home
Box Office v. FCC, 567 F.2d 9, 35 & n.58 (D.C. Cir.
1977)). If the comments to which the agency did not
respond would not bear on the agency’s “consideration
of the relevant factors,” the court may not reverse the
agency’s decision. Id.
Treasury published its notice of proposed rulemaking in 2002. Compensatory Stock Options Under Section 482 (Proposed), 67 Fed. Reg. 48,997. In its notice,
Treasury made clear that it was relying on the commensurate with income provision. Id. at 48,998. To
support its position, Treasury drew from the legislative history of the 1986 amendment, explaining that
Congress intended a party to a QCSA to “bear its portion of all research and development costs.” Id. (quot-

289a
ing H.R. Conf. Rep. No. 99-841, at II-638). It also informed interested parties of its intent to coordinate
the new regulations with the arm’s length standard,
suggesting that it was attempting to synthesize the
potentially disparate standards found within § 482 itself. Id.; at 48,998, 49,000-01.
Commenters responded by attacking the proposed
regulations as inconsistent with the traditional arm’s
length standard. To support their position, they primarily discussed arm’s length agreements in which
unrelated parties did not mention employee stock options. They explained that unrelated parties do not
share stock compensation costs because it is difficult
to value stock-based compensation, and there can be
a great deal of expense and risk involved.
In the preamble to the final rule, Treasury dismissed the comments (and, relatedly, the behavior of
controlled taxpayers) as irrelevant:
Treasury and the IRS continue to believe that requiring stock-based compensation to be taken into
account for purposes of QCSAs is consistent with
the legislative intent underlying section 482 and
with the arm’s length standard (and therefore with
the obligations of the United States under its income tax treaties . . .). The legislative history of
the Tax Reform Act of 1986 expressed Congress’s
intent to respect cost sharing arrangements as consistent with the commensurate with income standard, and therefore consistent with the arm’s length
standard, if and to the extent that the participants’
shares of income “reasonably reflect the actual economic activity undertaken by each.” See H.R.
Conf. Rep. No. 99-481, at II-638 (1986). . . . [I]n order for a QCSA to reach an arm’s length result consistent with legislative intent, the QCSA must re-

290a
flect all relevant costs, including such critical elements of cost as the cost of compensating employees for providing services related to the development of the intangibles pursuant to the QCSA.
Treasury and the IRS do not believe that there is
any basis for distinguishing between stock-based
compensation and other forms of compensation in
this context.
Treasury and the IRS do not agree with the comments that assert that taking stock-based compensation into account in the QCSA context would be
inconsistent with the arm’s length standard in the
absence of evidence that parties at arm’s length
take stock-based compensation into account in
similar circumstances. . . .
The uncontrolled
transactions cited by commentators do not share
enough characteristics of QCSAs involving the development of high-profit intangibles to establish
that parties at arm’s length would not take stock
options into account in the context of an arrangement similar to a QCSA. . . .
Compensatory Stock Options under Section 482 (Preamble to Final Rule), 68 Fed. Reg. 51,171, 51,172-73
(Aug. 26, 2003).
Treasury added:
Treasury and the IRS believe that if a significant
element of [the costs shared by unrelated parties]
consists of stock-based compensation, the party
committing employees to the arrangement generally would not agree to do so on terms that ignore
the stock-based compensation.
Id. at 51,173.
With its references to legislative history, Treasury
communicated its understanding that Congress had

291a
called upon it to move away from the traditional arm’s
length standard.
In short, the objectors were arguing that the evidence they cited – showing that unrelated parties do
not share employee stock compensation costs – proved
that Treasury’s commensurate with income analysis
did not comport with the arm’s length standard. Thus,
the thrust of the objection was that Treasury misinterpreted § 482. But that is a separate question – one
properly addressed in the Chevron analysis. That
commenters disagreed with Treasury’s interpretation
of the law does not make the rulemaking process defective.
Under the APA, the issue is whether Treasury’s
references to legislative history gave interested parties notice of its proposal and an opportunity to respond to it. Here, Treasury’s “path may reasonably be
discerned.” State Farm, 463 U.S. at 43. Treasury’s
citations to legislative history in the notice of proposed
rulemaking and the preamble to the final rule make
clear enough why Treasury believed it could require
related parties to share all costs – including employee
stock compensation – in proportion to the income enjoyed by each. Treasury set forth its understanding
that it should not examine comparable transactions
when they do not in fact exist and should instead focus
on a fair and reasonable allocation of costs and income. Compensatory Stock Options Under Section
482 (Proposed), 67 Fed. Reg. at 48,998 (quoting H.R.
Conf. Rep. No. 99-841, at II-638); accord Compensatory Stock Options under Section 482 (Preamble to Final Rule), 68 Fed. Reg. at 51,172. Treasury relied on
Congressional rejection of primacy of the traditional
arm’s length standard. None of the comments at issue

292a
address why Treasury was mistaken in its understanding that it was authorized to use a method that
did not include comparables.
Thus, Treasury’s refusal to credit oppositional
comments is not fatal to a holding that it complied
with the APA. Treasury gave sufficient notice of what
it intended to do and why; it considered the comments,
but it rejected them. Because the comments had no
bearing on “relevant factors” to the rulemaking, nor
any bearing on the final rule, there was no APA violation. Am. Mining Congress, 965 F.2d at 771.
Further, Treasury’s current litigation position is
not inconsistent with the statements it made to support the 2003 regulations at the time of the rulemaking. Altera argues that its position is justified by SEC
v. Chenery Corp., 332 U.S. 194 (1947). “[A] reviewing
court . . . must judge the propriety of [agency] action
solely by the grounds invoked by the agency.”
Chenery, 332 U.S. at 196. “If those grounds are inadequate or improper, the court is powerless to affirm
the administrative action by substituting what it considers to be a more adequate or proper basis.” Id.
Altera argues that the Commissioner cannot now
claim that “Treasury reasonably determined that it
was statutorily authorized to dispense with comparability analysis” because “[n]owhere in the regulatory
history did the Secretary suggest that he ‘was statutorily authorized to dispense with comparability analysis.’ ” This argument twists Chenery, which protects
judicial deference by strengthening administrative
processes, into excessive proceduralism. See Nat’l
Elec. Mfrs. Ass’n v. United States Dept. of Energy, 654
F.3d 496, 515 (4th Cir. 2011) (“[Chenery] does not
oblige the agency to provide exhaustive, contempora-

293a
neous legal arguments to preemptively defend its action.”). But it is also inconsistent with the record,
given Treasury’s citation to legislative history.
2
Altera also argues that Treasury did not adequately support its position that employee stock compensation is a cost. Treasury cites generally to “tax
and other accounting principles” for its determination
that there is a “cost associated with stock-based compensation.” Compensatory Stock Options Under Section 482 (Proposed), 67 Fed. Reg. at 48,999. Treasury
classifies stock compensation as a “critical element” of
R&D costs and notes that it is “clearly related to the
intangible development area.” Compensatory Stock
Options under Section 482 (Preamble to Final Rule),
68 Fed. Reg. at 51,173.
The rulemaking record is sufficient to survive an
APA challenge because Treasury’s position is supported by logic and by industry norms. Treasury
wrote that parties would not “ignore” stock-based
compensation if such compensation were a “significant element” of the compensation costs one party incurs and another party agrees to reimburse. Id. at
51,173. Treasury’s determination is reasonable because parties dealing at arm’s length certainly would
not grant stock options to each other’s employees
without mentioning the arrangement in the cost-sharing agreement. In other words, parties dealing at
arm’s length simply do not share these costs, but related parties, whose stock is commonly owned, do.
“[T]hrough bargaining,” each unrelated party ensures
that the cost-sharing agreement is in its best interest,
meaning that the parties will consider the internal
costs of stock compensation without requiring the
other party to recognize those costs. Id.

294a
A distinction exists between the economic costs of
stock compensation – which are debatable – and the
accounting costs – which are not. Because entities account for the cost of providing employee stock options,
it is reasonable for Treasury to allocate the costs, and
it is irrelevant how much the same entity ultimately
pays to provide the options. Further, as the Commissioner noted, “tax and other accounting principles”
provide a strong foundation for the Commissioner’s interpretation.
Most notably, the Tax Code classifies stock-based
compensation as a trade or business “expense.” 26
U.S.C. § 162(a). And the challenged regulation cites
to the provision providing that the expense is deductible. Treas. Reg. § 1.482-7A(d)(2)(iii)(A) (citing 26
U.S.C. § 83(h)) (“[T]he operating expense attributable
to stock-based compensation is equal to the amount
allowable . . . as a deduction for Federal income tax
purposes . . . (for example, under 83(h)) . . . .”). Indeed, the dispute here is not truly whether stockbased compensation is a cost but whether Altera – rather than the Commissioner – may decide how to apportion that cost between related entities.
3
Finally, in addition to its general State Farm argument, Altera asks for a more searching review under
FCC v. Fox Television Stations, Inc., 556 U.S. 502. Altera claims that the cost-sharing amendments present
a major shift in administrative policy such that Treasury could not issue the regulations without carefully
considering and broadcasting its decision. Altera argues that “[t]he assertion that the commensurate with
income clause supplants the arm’s-length standard
with a ‘purely internal’ analysis is a sharp – but

295a
unacknowledged – reversal from Treasury’s longstanding prior policy.” Red Br. 47.
“Agencies are free to change their existing policies
as long as they provide a reasoned explanation for the
change.” Encino Motorcars, 136 S. Ct. at 2125. Indeed, “[w]hen an agency changes its existing position,
it ‘need not always provide a more detailed justification than what would suffice for a new policy created
on a blank slate.’ ” Id. at 2125-26 (quoting Fox, 556
U.S. at 515). However, an agency may not “depart
from a prior policy sub silentio or simply disregard
rules that are still on the books.” Fox, 556 U.S. at 515.
[A] policy change complies with the APA if the
agency:
(1) displays “awareness that it is changing position,”
(2) shows that “the new policy is permissible under
the statute,”
(3) “believes” the new policy is better, and
(4) provides “good reasons” for the new policy,
which, if the “new policy rests upon factual findings that contradict those which underlay its prior
policy,” must include “a reasoned explanation . . .
for disregarding facts and circumstances that underlay or were engendered by the prior policy.”
Organized Vill. of Kake v. USDA, 795 F.3d 956, 966
(9th Cir. 2015) (en banc) (ellipses in original) (quoting
Fox, 556 U.S. at 515-16).
This argument is not meaningfully different from
Altera’s general APA argument. If the arm’s length
standard allows the Commissioner to allocate costs
between related parties without a comparability analysis, there is no policy change, merely a clarification

296a
of the same policy. Moreover, even if the policy
changed, it changed well before 2003, as Xilinx
demonstrates. And if so, it changed as a result of the
1986 amendment to § 482, in which case the question
is, again, whether the cost-sharing regulations are allowable under Chevron.
4
Thus, the 2003 regulations are not arbitrary and
capricious under the standard of review imposed by
the APA. Treasury’s regulatory path may be reasonably discerned. Treasury understood § 482 to authorize it to employ a purely internal, commensurate with
income approach in dealing with related companies.
It provided adequate notice of its intent and adequately considered the objections. Its conclusion that
stock based compensation should be treated as a cost
was adequately supported in the record, and its position did not represent a policy change under Fox.
B
Having determined that Treasury adequately satisfied the State Farm requirements, we turn to Chevron.
1
Under Chevron, we first apply the traditional rules
of statutory construction to determine whether “Congress has directly spoken to the precise question at issue.” Chevron, 467 U.S. at 842. We start with the
plain statutory words, and “when deciding whether
the language is plain, we must read the words ‘in their
context and with a view to their place in the overall
statutory scheme.’ ” King v. Burwell, U.S. , , 135
S. Ct. 2480, 2489 (2015) (quoting FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 133 (2000)). In

297a
addition, we examine the legislative history, the statutory structure, and “other traditional aids of statutory interpretation” in order to ascertain congressional intent. Middlesex Cty. Sewerage Auth. v. Nat’l
Sea Clammers Ass’n, 453 U.S. 1, 13 (1981). If, after
conducting that Chevron step one examination, we
conclude that the statute is silent or ambiguous on the
issue, we then defer to the agency’s interpretation so
long as “it is based on a permissible construction of the
statute.” Chevron, 467 U.S. at 843. A permissible construction is one that is not “arbitrary, capricious, or
manifestly contrary to the statute.” Id. at 844.
Ultimately, questions of deference boil down to
whether “it appears that Congress delegated authority to the agency generally to make rules carrying the
force of law, and that the agency interpretation claiming deference was promulgated in the exercise of that
authority.” United States v. Mead Corp., 533 U.S. 218,
226-27 (2001). “When Congress has ‘explicitly left a
gap for an agency to fill, there is an express delegation
of authority to the agency to elucidate a specific provision of the statute by regulation,’ and any ensuing regulation is binding in the courts unless procedurally
defective, arbitrary or capricious in substance, or
manifestly contrary to the statute.” Id. at 227 (internal citation and footnote omitted) (quoting Chevron,
467 U.S. at 843-44).
Here, the resolution of our step one Chevron examination is straightforward. Section 482 does not speak
directly to whether the Commissioner may require
parties to a QCSA to share employee stock compensation costs in order to receive the tax benefits associated with entering into a QCSA. Further, as the text
of the statute and its legislative history indicate, Congress intended to provide Treasury with the flexibility

298a
it needed to prevent improper cost and income allocation between related parties for the purpose of defeating tax liability.
Thus, we must move on to Chevron step two to consider whether Treasury’s interpretation of § 482 as to
allocation of employee stock option costs is permissible. An agency’s interpretation of statutory authority
is examined “in light of the statute’s text, structure
and purpose.” Miguel-Miguel v. Gonzales, 500 F.3d
941, 949 (9th Cir. 2007). The interpretation fails if it
is “unmoored from the purposes and concerns” of the
underlying statutory regime. Judulang, 565 U.S. at
64. Thus, Congress’s purpose in enacting and amending § 482 in 1986 is key to resolution of this issue.
That purpose is parity. First Sec. Bank of Utah, 405
U.S. at 400. The 1986 amendment reflected Congress’s recognition that the traditional arm’s length
standard did not serve the purpose of § 482.
The 1986 amendment to § 482 provides that: “In
the case of any transfer (or license) of intangible property . . . , the income with respect to such transfer or
license shall be commensurate with the income attributable to the intangible.” This is a purely internal
standard, and evidence supports Treasury’s belief
that Congress intended it to be. H.R. Rep. No. 99-426,
at 423-35; H.R. Conf. Rep. No. 99-841, at II-637. Indeed, Congress’s objective in amending § 482 was to
ensure that income follows economic activity. H.R.
Conf. Rep. No. 99-841, at II-637. Further, legislative
history supports Treasury’s application of the commensurate with income standard in the QCSA context. Congress did not want to interfere with controlled cost-sharing arrangements, but only to the degree that the allocation of costs and income “reasonably reflect[s] the actual economic activity undertaken
by each.” H.R. Conf. Rep. No. 99-841, at II-638.

299a
Treasury’s decision to dispense with a comparability
analysis was reasonable.
So was Treasury’s determination that uncontrolled
cost-sharing arrangements do not provide helpful
guidance regarding allocations of employee stock compensation. As discussed above, Treasury discounted
the relevance of comments demonstrating that parties
at arm’s length do not share employee stock compensation costs, writing: “The uncontrolled transactions
cited by commentators do not share enough characteristics of QCSAs involving the development of highprofit intangibles to establish that parties at arm’s
length would not take stock options into account in the
context of an arrangement similar to a QCSA.” Compensatory Stock Options under Section 482 (Preamble
to Final Rule), 68 Fed. Reg. at 51,173.
Treasury’s conclusion is entirely consistent with
Congress’s rationale for amending § 482 in the first
place. See id. (citing H.R. Rep. No. 99-426, at 423-25)
(“As recognized in the legislative history of the Tax
Reform Act of 1986, there is little if any, public data
regarding transactions involving high-profit intangibles.”); see also H.R. Rep. No. 99-426, at 425 (“There
are extreme difficulties in determining whether the
arm’s length transfers between unrelated parties are
comparable. . . . [I]t is appropriate to require that the
payment made on a transfer of intangibles to a related
foreign corporation be commensurate with the income
attributable to the intangible.”).7
Although the 2017 amendment to § 482 has no bearing on our
opinion, we note that Congress has not changed its mind:
7

The transfer pricing rules of section 482 and the accompanying Treasury regulations are intended to preserve the U.S.
tax base by ensuring that taxpayers do not shift income
properly attributable to the United States to a related foreign

300a
As Congress noted, the goal of parity is not served
by a constant search for comparable transactions.
H.R. Rep. No. 99-426, at 423. That is why, in 1986, it
acted by adding the commensurate with income
standard to § 482, synthesizing the long-standing
arm’s length standard with the new provision; without an internal approach to allocation, related parties
had been able to escape paying the taxes that would
be paid by parties dealing at arm’s length. In other
words, the amendment was intended to hone the definition of the arm’s length standard so that it could
work to achieve arm’s length results instead of forcing
application of arm’s length methods.
Thus, the 2003 regulations are not “arbitrary and
capricious in substance.” Mayo Found., 562 U.S. at 53
(quoting Household Credit Servs., Inc. v. Pfennig, 541
U.S. 232, 242 (2004)). Treasury reasonably understood § 482 as an authorization to require internal allocation methods in the QCSA context, provided that
the costs and income allocated are proportionate to
company through pricing that does not reflect an arm’s
length result. . . . The arm’s length standard is difficult to
administer in situations in which no unrelated party market
prices exist for transactions between related parties.
...
For income from intangible property, section 482 provides ‘in
the case of any transfer (or license) of intangible property
(within the meaning of section 936 (h)(3)(B)), the income with
respect to such transfer or license shall be commensurate
with the income attributable to the intangible.’ By requiring
inclusion in income of amounts commensurate with the intangible, Congress was responding to concerns regarding the
effectiveness of the arm’s-length standard with respect to intangible property – including, in particular, high-profit-potential intangibles.
H. Rep. No. 115-466, at 574-75 (2017)

301a
the economic activity of the related parties. Treasury’s interpretation is not “arbitrary, capricious, or
manifestly contrary to the statute,” and it is therefore
permissible under Chevron. 467 U.S. at 844.
2
Altera contends that the Commissioner misreads
§ 482 and its history, arguing that the addition of the
commensurate with income standard to § 482 did
nothing to change the meaning and operation of the
arm’s length standard. Altera supports its argument
with a canon of construction: “Amendments by implication, like repeals by implication, are not favored.”
United States v. Welden, 377 U.S. 95, 102 n.12 (1964).
The canon does not apply here. It operates to prevent
courts from attributing unspoken motives to legislators, not to force courts to ignore legislative action. It
is illogical to argue that an amendment does not
change the meaning of the statute that is amended.
Moreover, Altera’s conclusion, that the commensurate
with income standard is one method of satisfying the
arm’s length standard, is one with which the Commissioner agrees.
Altera’s interpretation of the 1986 amendment
would render the commensurate with income clause
meaningless except in two circumstances: (1) to allow
the Commissioner to periodically adjust prices initially assigned following a comparability analysis; and
(2) to reflect a party’s contribution of existing intangible property or “buy-in” to a cost-sharing arrangement. This narrow reading of § 482 is not supported
by the text or history of the 1986 amendment.
The Commissioner’s allocation of employee stock
compensation costs between related parties is necessary for Treasury to fulfill its obligation under § 482.
Congress did not intend to interfere with qualified

302a
cost-sharing arrangements when those arrangements
provided for the allocation of income consistent with
the commensurate with income provision. H.R. Conf.
Rep. No. 99-841, at II-638.
3
Altera makes much of the United States’s treaty
obligations with other countries. However, there is no
evidence that the unworkable empiricism for which
Altera argues is also incorporated into our treaty obligations. As demonstrated by nearly a century of interpreting § 482 and its precursor, the arm’s length
standard is aspirational, not descriptive. It reflects
neither how related parties behave nor how they are
taxed. Moreover, our most recent treaties incorporate
not only the arm’s length standard, but also the 2003
regulations. See, e.g., Technical Explanation of the
US-Poland Tax Treaty, at 31 (Feb. 13, 2013) (“It is understood that the Code section 482 ‘commensurate
with income’ standard for determining appropriate
transfer prices for intangibles operates consistently
with the arm’s-length standard. The implementation
of this standard in the regulations under Code section
482 is in accordance with the general principles of paragraph 1 of Article 9 of the Convention . . . .”).
The 1986 amendment focused specifically on intangibles, and it gives Treasury the ability to respond
to rapid changes in the high tech industry. “The broad
language of [§ 482] reflects an intentional effort to
confer the flexibility necessary to forestall . . . obsolescence.” Massachusetts v. EPA, 549 U.S. 497, 532
(2007). In the modern economy, employee stock options are integral to R&D arrangements. In fact, in
Altera’s 2015 annual report, its stock-based compensation cost equaled nearly five percent of total revenue. Altera Corp., Annual Report for the Fiscal Year

303a
Ended Dec. 31, 2014 (Form 10-K). Simply speaking,
the rise in employee stock compensation is an economic development that Treasury cannot ignore without rejecting its obligations under § 482.
4
Altera also argues that the outcome of this case is
controlled by our Court’s decision in Xilinx. We disagree. While the Xilinx panel could have reached a
holding that would foreclose the Commissioner’s current position, it did not.
In Xilinx, this Court considered the 1994 and 1995
cost-sharing regulations. The case involved a matter
of regulatory interpretation, not executive authority.
Xilinx, Inc., another maker of programmable logic devices, challenged the Commissioner’s allocation of employee stock options between Xilinx and its Irish subsidiary. 598 F.3d at 1192. As framed by the panel,
the issue was whether § 1.482-1 (1994) – which sets
forth the arm’s length standard – could be reconciled
with § 1.482-7(d)(1) (1995) – under which parties to a
QCSA were required to share “all . . . costs” incurred
in developing intangibles. Id. at 1195.
Initially the panel, in a 2-1 decision, voted to reverse the Tax Court, which had unanimously struck
the 1995 cost-sharing regulations. Xilinx, Inc. v.
Comm’r, 567 F.3d 482 (9th Cir. 2009), withdrawn 592
F.3d 1017 (9th Cir. 2010). However, the panel withdrew its first opinion after reconsideration, and the
panel – over Judge Reinhardt’s dissent – ultimately
affirmed the Tax Court in striking the regulations.
Xilinx, 598 F.3d 1191. As framed by all three judges
in both the withdrawn and final opinions, the issue
came down to whether the arm’s length standard and
all costs provision could be synthesized. All three
judges determined that synthesis was impossible, and

304a
the conflict was therefore whether the arm’s length
standard, versus the all costs provision, had priority.
Xilinx does not control for two reasons. First, the
parties in Xilinx were not debating administrative authority, and the Court did not consider the “commensurate with income” standard, which Congress itself
did not see as inconsistent with the arm’s length
standard. Second, and more significantly, the Xilinx
panel was faced with a conflict between two rules. If
the rules were conceptually distinguishable, they
were also in direct conflict. The arm’s length rule,
§ 1.482-1(b)(1) (1994), listed specific methods for calculating an arm’s length result. The all costs provision was not one of those methods, as the first Xilinx
majority noted. 567 F.3d at 491. Treasury issued the
coordinating amendment in 2003, after the tax years
at issue in Xilinx, and the arm’s length regulation now
expressly references the cost-sharing provision that
Altera challenges. The Xilinx panel did not address
the “open question” of whether the 2003 regulations
remedied the error identified in that decision. 598
F.3d at 1198 n.4 (Fisher, J., concurring). Today, there
is no conflict in the regulations, and Altera does not
challenge the regulations on the ground that a conflict
exists.
V
In sum, we conclude that the Commissioner did
not exceed the authority delegated to him by Congress. The Commissioner’s rule-making complied
with the APA, and its regulation is entitled to Chevron
deference.
REVERSED.

305a
O’MALLEY, Circuit Judge, dissenting:
A “foundational principle of administrative law [is]
that a court may uphold agency action only on the
grounds that the agency invoked when it took the action.” Michigan v. EPA, 135 S. Ct. 2699, 2710 (2015)
(citing SEC v. Chenery Corp. (Chenery I ), 318 U.S. 80,
87 (1943)). In promulgating the rule we consider here,
Treasury repeatedly insisted that it was applying the
traditional arm’s length standard and that the resulting rule was consistent with that standard. Today,
however, the majority holds that Treasury’s citation
to the legislative history surrounding the enactment
of the Tax Reform Act of 1986 “communicated its understanding that Congress had called upon it to move
away from the historical arm’s length standard.” Op.
31. And the majority finds that, despite Treasury’s
own statements to the contrary, that same citation to
legislative history sufficed to “make it clear enough”
to interested parties that Treasury was changing its
longstanding practice of applying the arm’s length
standard in all but the narrowest of circumstances.
Op. 32.
The majority, in effect, “suppl[ies] a reasoned basis
for the agency’s action that the agency itself has not
given.” Motor Vehicle Mfrs. Ass’n v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983) (citing SEC v.
Chenery Corp. (Chenery II ), 332 U.S. 194, 196 (1947)).
It also endorses a practice of requiring interested parties to engage in a scavenger hunt to understand an
agency’s rulemaking proposals. That is inconsistent
with another fundamental Administrative Procedure
Act (“APA”) principle: that a notice of proposed rulemaking “should be sufficiently descriptive of the ‘subjects and issues involved’ so that interested parties
may offer informed criticism and comments.” Am.

306a
Mining Cong. v. U.S. EPA, 965 F.2d 759, 770 (9th Cir.
1991) (quoting Ethyl Corp. v. EPA, 541 F.2d 1, 48
(D.C. Cir. 1976) (en banc)). In doing both of these
things, the majority stretches “highly deferential” review, Providence Yakima Med. Ctr. v. Sebelius, 611
F.3d 1181, 1190 (9th Cir. 2010) (quoting J & G Sales
Ltd. v. Truscott, 473 F.3d 1043, 1051 (9th Cir. 2007)),
beyond its breaking point.
I instead would find, as the Tax Court did, that
Treasury’s explanation of its rule did not satisfy the
State Farm standard; that Treasury did not provide
adequate notice of its intent to change its longstanding practice of employing the arm’s length standard;
and that its new rule is invalid as arbitrary and capricious. I would also hold that this court’s previous decision in Xilinx, Inc. v. Commissioner of Internal Revenue (Xilinx II ), 598 F.3d 1191 (9th Cir. 2010), controls and mandates an order affirming the Tax Court’s
decision. I therefore would affirm the judgment of the
Tax Court that expenses related to stock-based compensation are not among the costs to be shared in
qualified cost sharing arrangements (“QCSAs”) under
Treas. Reg. § 1.482-7(d)(1) (as amended in 2013). See
Altera Corp. v. Comm’r, 145 T.C. 91, 92 (2015). For
these reasons, I respectfully dissent.
I. Background
A. The Arm’s Length Standard
“The purpose of section 482 is to place a controlled
taxpayer on a tax parity with an uncontrolled taxpayer by determining, according to the standard of an
uncontrolled taxpayer, the true taxable income from
the property and business of a controlled taxpayer.”
Comm’r v. First Sec. Bank of Utah, 405 U.S. 394, 400
(1972) (quoting Treas. Reg. § 1.482-1(b)(1) (1971)).
The “touchstone” of this tax parity inquiry is the arm’s

307a
length standard. Xilinx II, 598 F.3d at 1198 n.1
(Fisher, J., concurring). Since the 1930s, Treasury
regulations consistently have explained that, “[i]n determining the true taxable income of a controlled taxpayer, the standard to be applied in every case is that
of a taxpayer dealing at arm’s length with an uncontrolled taxpayer.” Treas. Reg. § 1.482-1(b)(1) (2003).
That is, income and deductions are to be allocated
among related companies in the same way that unrelated companies negotiating at arm’s length would allocate the same income and deductions.
The 1986 amendment that introduced the commensurate with income standard did not dislodge the
arm’s length test.1 Congress explained in the committee report that it was introducing the commensurate
with income standard to address a “recurrent problem” with transfers of highly valuable intangible property: “the absence of comparable arm’s length transactions between unrelated parties, and the inconsistent results of attempting to impose an arm’s
length concept in the absence of comparables.” H.R.
Rep. No. 99-426, at 423-24 (1985). Congress noted
that “[i]ndustry norms for transfers to unrelated parties of less profitable intangibles frequently are not realistic comparables in these cases,” and that “[t]here
are extreme difficulties in determining whether the
arm’s length transfers between unrelated parties are
comparable.” Id. at 424-25. To address this potential
gap, Congress found it “appropriate to require that the
payment made on a transfer of intangibles to a related
This amendment added a second sentence to § 482 that provided: “In the case of any transfer (or license) of intangible property . . . , the income with respect to such transfer or license shall
be commensurate with the income attributable to the intangible.” Tax Reform Act of 1986, Pub. L. No. 99-514, § 1231(e)(1),
100 Stat. 2085, 2562 (codified as amended at 26 U.S.C. § 482).
1

308a
foreign corporation . . . be commensurate with the income attributable to the intangible.” Id. at 425.
Treasury reiterated in its 1988 “White Paper” that
“intangible income must be allocated on the basis of
comparable transactions if comparables exist.” A
Study of Intercompany Pricing under Section 482 of
the Code (“White Paper”), I.R.S. Notice 88-123, 19882 C.B. 458, 474; see also id. at 473 (noting that, where
“there is a true comparable for” the licensing of a “high
profit potential intangible[],” the royalty rate for the
license “must be set on the basis of the comparable because that remains the best measure of how third parties would allocate intangible income”). Only “in situations in which comparables do not exist” would the
commensurate with income standard apply. Id. at
474. Indeed, the United States continued to insist in
tax treaties, and in documents that Treasury issued
to explain these treaties, that § 482 reflected the
arm’s length principle. See Xilinx, 598 F.3d at 119697 (citing tax treaty explanations); see also id. at 1198
n.1 (Fisher, J., concurring) (noting that “the 1997
United States-Ireland Tax Treaty, . . . and others like
it, reinforce the arm’s length standard as Congress’ intended touchstone for § 482”).2
B. Treatment of Stock-Based Compensation
Treasury promulgated new regulations governing
the tax treatment of controlled transactions in 1994
As the majority observes, more recent tax treaty explanations
have also cited the alternative commensurate with income standard. Op. 42-43 (citing Technical Explanation of the US-Poland
Tax Treaty, at 31 (Feb. 13, 2013)). Even these explanations, however, emphasize the primacy of the arm’s length standard, and
they assure the reader that the commensurate with income
standard “operates consistently with the arm’s-length standard.”
Technical Explanation of the US-Poland Tax Treaty, at 30-31
(Feb. 13, 2013).
2

309a
and 1995. These regulations affirmed that “the standard to be applied in every case” was the arm’s length
standard. Treas. Reg. § 1.482-1(b)(1) (as amended in
1994). They also provided that intangible development costs included “all of the costs incurred by . . .
[an uncontrolled] participant related to the intangible
development area.” Treas. Reg. § 1.482-7(d)(1) (as
amended in 1995). The IRS interpreted this latter “all
costs” provision to include stock-based compensation,
so that related companies in cost-sharing agreements
would have to share the costs of providing such compensation. Xilinx II, 598 F.3d at 1193-94.
When Xilinx, Inc. (“Xilinx”) challenged the IRS’s
interpretation, the Tax Court decided that the
agency’s reading violated Treas. Reg. § 1.482-1, because the IRS had not adduced evidence sufficient to
show that unrelated parties transacting at arm’s
length would share expenses related to stock-based
compensation. Xilinx v. Commissioner (Xilinx I ), 125
T.C. 37, 53 (2005). The Commissioner did not appeal
this underlying factual finding and, instead, argued
on appeal to this court that Treas. Reg. § 1.482-7 superseded the arm’s length requirement of Treas. Reg.
§ 1.482-1. All three members of the divided panel
therefore assumed that sharing expenses related to
stock-based compensation would be inconsistent with
the arm’s length standard. Xilinx II, 598 F.3d at 1194
(“The Commissioner does not dispute the tax court’s
factual finding that unrelated parties would not share
[employee stock options] as a cost.”); id. at 1199 (Reinhardt, J., dissenting) (assuming that the Tax Court
“correctly resolved” the issue of whether sharing
stock-based compensation costs would constitute an
arm’s length result). We also assumed that Treas.
Reg. § 1.482-7 required stock-based compensation expenses to be shared. Id. at 1196 (majority opinion)

310a
(noting that the “all costs” provision “does not permit
any exceptions, even for costs that unrelated parties
would not share”); id. at 1199 (Reinhardt, J., dissenting) (assuming that the “all costs” provision includes
“employee stock option costs”). But a majority of the
panel ultimately held that the arm’s length standard,
which was the fundamental “purpose” of the regulations, trumped Treas. Reg. § 1.482-7, and therefore
that stock-based compensation expenses could not be
shared in the absence of evidence that unrelated parties would share such costs. Id. at 1196 (majority
opinion); see also id. at 1198 n.1 (Fisher, J., concurring) (finding “the arm’s length standard” to be “Congress’ intended touchstone for § 482”). On that
ground, we affirmed the Tax Court’s judgment in favor of Xilinx. Id. at 1196 (majority opinion).
C. The Regulation at Issue
While Xilinx II was pending before this court,
Treasury promulgated the regulations at issue here.
Compensatory Stock Options Under Section 482, 68
Fed. Reg. 51,171, 51,172 (Aug. 26, 2003) (codified at
26 C.F.R. pts. 1 and 602). The amended regulations
sought to reconcile the apparent contradiction between the arm’s length standard in Treas. Reg.
§ 1.482-1 and the requirement that stock-based compensation expenses be shared under Treas. Reg.
§ 1.482-7. The former provision now specifies that
§ 1.482-7 “provides the specific method to be used to
evaluate whether a [QCSA] produces results consistent with an arm’s length result.” Treas. Reg.
§ 1.482-1(b)(2)(i) (2003). And § 1.482-7, in turn, now
provides that a QCSA produces an arm’s length result
“if, and only if,” the participants share all of the costs
of intangible development – explicitly including costs
associated with stock-based compensation – in proportion to their shares of reasonably anticipated benefits

311a
attributable to such development.
Treas. Reg.
§ 1.482-7(d)(2) (2003).
Altera Corp. (“Altera U.S.”), a Delaware corporation, and its subsidiary Altera International, a Cayman Islands corporation, (collectively, “Altera”) entered into several cost-sharing agreements in 1997,
under which Altera U.S. licensed various forms of intangible property to Altera International, and Altera
International paid royalties to Altera U.S. Altera, 145
T.C. at 92-93. During the 2004 to 2007 taxable years,
Altera U.S. granted stock options and other stockbased compensation to certain of its employees, but
costs related to that compensation were not included
in the cost pool under the operative cost-sharing
agreements. Id. at 93.
Each year from 2004 to 2007, the IRS notified Altera that the cost-sharing payments did not satisfy the
new regulations. Id. at 94. But when Altera challenged these regulations, the Tax Court unanimously
held, as discussed in more detail below, that the explanation Treasury offered in the preamble accompanying the new regulations was insufficient to justify
those regulations under State Farm. Id. at 120-33.
The Commissioner appeals that decision.
II. Discussion
The Tax Court considered and rejected Treasury’s
stated explanation for its regulation – that Treasury
applied the commensurate with income test because it
could find no transactions comparable to the QCSAs
at issue, and that Treasury’s analysis was actually
consistent with the arm’s length standard. But the
Commissioner now argues on appeal, and the majority
accepts, that what Treasury was actually saying is
that § 482 no longer requires an arm’s length analysis.
I disagree.

312a
A. The New Rule Is Invalid Under State Farm
Under the Administrative Procedure Act, we must
“hold unlawful and set aside agency action . . . found
to be . . . arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law.” 5 U.S.C.
§ 706(2). To satisfy this standard, “the agency must
examine the relevant data and articulate a satisfactory explanation for its action including a ‘rational
connection between the facts found and the choice
made.’ ” State Farm, 463 U.S. at 43 (quoting Burlington Truck Lines v. United States, 371 U.S. 156, 168
(1962)). “That is, an agency must ‘cogently explain
why it has exercised its discretion in a given manner,’
and ‘[i]n reviewing that explanation, we must “consider whether the decision was based on a consideration of the relevant factors and whether there has
been a clear error of judgment.” ’ ” Nw. Envtl. Def. Ctr.
v. Bonneville Power Admin., 477 F.3d 668, 687 (9th
Cir. 2007) (alteration in original) (quoting State Farm,
463 U.S. at 43, 48).
Although an agency action is not subject to “more
searching review” simply because it represents a
change in position, “the requirement that an agency
provide reasoned explanation for its action would ordinarily demand that it display awareness that it is
changing position.” FCC v. Fox Television Stations,
Inc., 556 U.S. 502, 514-15 (2009). “An agency may not,
for example, depart from a prior policy sub silentio or
simply disregard rules that are still on the books.” Id.
And an agency may need to “provide a more detailed
justification than what would suffice for a new policy
created on a blank slate . . . when, for example, . . . its
prior policy has engendered serious reliance interests
that must be taken into account.” Id. (citing Smiley v.
Citibank (S.D.), N.A., 517 U.S. 735, 742 (1996)). “ ‘Unexplained inconsistency’ between agency actions is ‘a

313a
reason for holding an interpretation to be an arbitrary
and capricious change.’ ” Organized Vill. of Kake v.
USDA, 795 F.3d 956, 966 (9th Cir. 2015) (en banc)
(quoting Nat’l Cable & Telecomms. Ass’n v. Brand X
Internet Servs., 545 U.S. 967, 981 (2005)).
Our review of an agency regulation is “highly deferential, presuming the agency action to be valid and
affirming the agency action if a reasonable basis exists for its decision.” Crickon v. Thomas, 579 F.3d 978,
982 (9th Cir. 2009) (quoting Nw. Ecosystem All. v. U.S.
Fish & Wildlife Serv., 475 F.3d 1136, 1140 (9th Cir.
2007)). But “an agency’s action must be upheld, if at
all, on the basis articulated by the agency itself.”
State Farm, 463 U.S. at 50 (citing Burlington Truck
Lines, 371 U.S. at 168). For that reason, “we may not
supply a reasoned basis for the agency’s action that
the agency itself has not given.” Id. at 43 (citing
Chenery II, 332 U.S. at 196).
I start, therefore, with what Treasury said when it
promulgated the regulation at issue. In Treasury’s
notice of proposed rulemaking, the agency explained
the origins of the commensurate with income standard and discussed the White Paper. Compensatory
Stock Options Under Section 482, 67 Fed. Reg. 48,997,
48,998 (proposed July 29, 2002) (to be codified at 26
C.F.R. pt. 1). Treasury noted, in particular, the White
Paper’s observation “that Congress intended that
Treasury and the IRS apply and interpret the commensurate with income standard consistently with
the arm’s length standard.” Id. (citing White Paper,
1988-2 C.B. at 458, 477). Treasury then detailed how
the proposed rules would function, including that the
new rules required stock-based compensation costs to
be included among the costs shared in a QCSA to produce “results consistent with an arm’s length result.”
Id. at 49,000-01.

314a
Treasury expanded on its reasoning in the preamble to the final rule. It explained that the tax treatment of stock-based compensation in QCSAs would
have to be consistent “with the arm’s length standard
(and therefore with the obligations of the United
States under its income tax treaties and with the
OECD transfer pricing guidelines).” Compensatory
Stock Options Under Section 482, 68 Fed. Reg. at
51,172. Treasury observed, however, that the legislative history of the 1986 amendment to § 482 “expressed Congress’s intent to respect cost sharing arrangements as consistent with the commensurate
with income standard, and therefore consistent with
the arm’s length standard, if and to the extent that
participants’ shares of income ‘reasonably reflect the
actual economic activity undertaken by each.’ ” Id.
(quoting H.R. Conf. Rep. No. 99-481, at II-638 (1986)).
Applying this standard, Treasury declared that, “in
order for a QCSA to reach an arm’s length result consistent with legislative intent,” the QCSA must include stock-based compensation among the costs
shared. Id.
Throughout the preamble, Treasury repeatedly
emphasized that it was applying the arm’s length
standard. Treasury explained, for example, that
“[t]he regulations relating to QCSAs have as their focus reaching results consistent with what parties at
arm’s length generally would do if they entered into
cost sharing arrangements for the development of
high-profit intangibles.” Id. (emphasis added). Treasury determined that “[p]arties dealing at arm’s length
in [a cost-sharing] arrangement based on the sharing
of costs and benefits generally would not distinguish
between stock-based compensation and other forms of
compensation.” Id. (emphasis added). And Treasury
concluded that “[t]he final regulations provide that

315a
stock-based compensation must be taken into account
in the context of QCSAs because such a result is consistent with the arm’s length standard.” Id. (emphasis added).
Treasury also responded to comments invoking the
arm’s length standard. See id. (rejecting “comments
that assert that taking stock-based compensation into
account in the QCSA context would be inconsistent
with the arm’s length standard in the absence of evidence that parties at arm’s length take stock-based
compensation into account in similar circumstances”).
Treasury acknowledged that comparable arm’s-length
transactions may have been relevant, but it determined that there were no comparable transactions
available for QCSAs for the development of highprofit intangibles:
While the results actually realized in similar
transactions under similar circumstances ordinarily provide significant evidence in determining
whether a controlled transaction meets the arm’s
length standard, in the case of QCSAs such data
may not be available. As recognized in the legislative history of the Tax Reform Act of 1986, there is
little, if any, public data regarding transactions involving high-profit intangibles. The uncontrolled
transactions cited by commentators do not share
enough characteristics of QCSAs involving the development of high-profit intangibles to establish
that parties at arm’s length would not take stock
options into account in the context of an arrangement similar to a QCSA.
Id. at 51,172-73. Treasury further detailed why it believed that certain comparable transactions proposed
by commentators were not in fact comparable. Id. at
51,173.

316a
The Tax Court held that Treasury’s explanation
for its regulation was insufficient under State Farm.
Altera, 145 T.C. at 120-33. It found that Treasury
“failed to provide a reasoned basis” for its “belief that
unrelated parties entering into QCSAs would generally share stock-based compensation costs.” Id. at
123. The court acknowledged that agencies need not
gather empirical evidence for some policy-based propositions, but it held that “the belief that unrelated parties would share stock-based compensation costs in
the context of a QCSA” was not such a proposition. Id.
In reaching this conclusion, the court observed that
commentators submitted significant evidence about
whether unrelated parties would share stock-based
compensation costs in QCSAs; that the Tax Court itself had made a factual determination on that issue in
Xilinx I; and that Treasury was required at least to
attempt to gather empirical evidence before declaring
that no such evidence was available. Id. at 123-24.
The Tax Court then detailed why Treasury’s explanation for the regulations was insufficient. The court
noted that only some QCSAs involved high-profit intangibles or included stock-based compensation as a
significant element of compensation, yet Treasury
failed to distinguish between QCSAs with and without those characteristics. Id. at 125-27. And the court
found that Treasury responded only in conclusory
fashion to a number of comments identifying comparable transactions or explaining why unrelated parties would not share stock-based compensation costs
in QCSAs. Id. at 127-30. On these grounds, the Tax
Court struck down the regulation. Id. at 133-34.
The Commissioner does not meaningfully dispute
the Tax Court’s determination that Treasury’s analysis under the arm’s length standard was inadequate
and unsupported. The Commissioner now contends,

317a
instead, “that, in the context of a QCSA, the arm’slength standard does not require an analysis of what
unrelated entities do under comparable circumstances.” Appellant’s Br. 57 (internal quotation
marks omitted). In the Commissioner’s view, Treasury’s detailed explanations regarding its comparability analysis were merely “extraneous observations” –
“since Treasury reasonably determined that it was
statutorily authorized to dispense with comparability
analysis in this narrow context, there was no need for
it to establish that the uncontrolled transactions cited
by commentators were insufficiently comparable.”
Appellant’s Br. 64.
The majority accepts Treasury’s rationalization.
“With its references to legislative history,” the majority holds, Treasury adequately “communicated its understanding that Congress had called upon it to move
away from the historical arm’s length standard.” Op.
31. The majority finds that Treasury was therefore
entitled to ignore the comments opposing the final
rule because they did not “bear on the agency’s ‘consideration of the relevant factors.’ ” Op. 28-29 (quoting
Am. Mining Congress v. EPA, 965 F.2d 759, 771 (9th
Cir. 1992)). As to Altera’s rejoinder that Treasury
never suggested that it had the authority to “dispense
with” comparability analysis entirely, Appellee’s Br.
43, the majority dismisses these arguments as
“twist[ing] Chenery . . . into excessive proceduralism,”
Op. 33.
I do not share the majority’s view. Treasury may
well have believed that, given the fundamental characteristics of stock-based compensation in QCSAs, it
could dispense with arm’s length analysis entirely.
Cf. Xilinx II, 598 F.3d at 1197 (Fisher, J., concurring)
(hypothesizing why unrelated companies may not
share stock-based compensation costs). But the APA

318a
required Treasury to say that it was taking this position, which departed starkly from Treasury’s previous
regulations. See Fox, 556 U.S. at 515 (“[T]he requirement that an agency provide reasoned explanation for
its action would ordinarily demand that it display
awareness that it is changing position.”). As we held
in Xilinx, the previous regulations preserved the primacy of the arm’s length standard and its requirement of comparability analysis. See Xilinx II, 598
F.3d at 1195-96 (explaining the then-operative version of Treas. Reg. § 1.482-1).
In amending those regulations, however, Treasury
never said – either in the notice of proposed rulemaking or in the preamble accompanying the final rule –
that the nature of stock compensation in the QCSA
context rendered arm’s length analysis irrelevant.
Treasury instead explained only that it could not conduct an arm’s length analysis because comparable
transactions could not be found. See Compensatory
Stock Options Under Section 482, 68 Fed. Reg. at
51,172-73 (“While the results actually realized in similar transactions under similar circumstances ordinarily provide significant evidence in determining
whether a controlled transaction meets the arm’s
length standard, in the case of QCSAs such data may
not be available.”). As the majority acknowledges, in
fact, “Treasury set forth its understanding that it
should not examine comparable transactions when
they do not in fact exist and should instead focus on a
fair and reasonable allocation of costs and income.”
Op. 32 (emphasis added).
Treasury itself explained, in effect, that a precondition for the applicability of the commensurate with
income standard is the lack of real-world comparable
transactions with which to make an arm’s-length comparison. The comments submitted were relevant to

319a
the issue of whether “similar transactions under similar circumstances” existed. Any such transactions, as
Treasury originally admitted, would “ordinarily provide significant evidence in determining whether a
controlled transaction meets the arm’s length standard.” Compensatory Stock Options Under Section
482, 68 Fed. Reg. at 51,172.3 If Treasury felt that
these comments were irrelevant, it presumably would
have said so. Treasury’s decision to respond to the
comments on their merits underscores that Treasury’s
only justification for eschewing comparability analysis was its belief that no comparable transactions
could be found. The fact that evidence of comparable
transactions might support more favorable tax treatment does not mean such comparables do not exist.4
The APA’s safeguards ensure that those regulated
do not have to guess at the regulator’s reasoning; just
as importantly, they afford regulated parties a meaningful opportunity to respond to that reasoning.
Treasury’s notice of proposed rulemaking ran afoul of
these safeguards by failing to put the relevant public
on notice of its intention to depart from traditional
arm’s length analysis. See CSX Transp., Inc. v. Surface Transp. Bd., 584 F.3d 1076, 1080 (D.C. Cir. 2009)

The majority points to no language in the notice of proposed
rulemaking that contradicts this understanding.
3

The majority also glosses over the Tax Court’s criticism that
the final rule applied to all QCSAs, but was based only on Treasury’s beliefs about the subset of QCSAs involving “high-profit intangibles” where stock-based compensation is a “significant element” of compensation. Altera, 145 T.C. at 125-26 (quoting Compensatory Stock Options Under Section 482, 68 Fed. Reg. at
51,173). Treasury’s failure to explain this leap and the Commissioner’s failure to defend it provide another reason that the regulation does not satisfy the State Farm standard.
4

320a
(holding that a final rule “violates the APA’s notice requirement where ‘interested parties would have had
to “divine [the agency’s] unspoken thoughts” ’ ” (alteration in original) (quoting Int’l Union, United Mine
Workers of Am. v. Mine Safety & Health Admin., 407
F.3d 1250, 1259-60 (D.C. Cir. 2005))). And asking
Treasury to show its work in the preamble to its final
rule – that is, to set forth when and why the agency
believed that arm’s length analysis was not required
– is not, as the majority suggests, “excessive proceduralism.” Op. 33. It is the essence of the review that
State Farm demands.
When the Tax Court conducted that review, it considered the explanation that Treasury offered, and it
found that Treasury “failed to provide a reasoned basis” for its “belief that unrelated parties entering into
QCSAs would generally share stock-based compensation costs.” Altera, 145 T.C. at 123. The Tax Court set
forth in detail why Treasury’s explanation for the regulations was insufficient. Id. at 125-30. Treasury offers no response to these findings; it simply invites
this court to recreate the record in order to justify its
decisionmaking. I therefore would hold, as the Tax
Court did, that the 2003 regulations are invalid under
State Farm.
B. Section 482 Does Not Require Sharing of
Stock-Based Compensation Costs
Because I would find the 2003 regulations were invalid, I believe that this court’s decision in Xilinx II
controls, and that the Tax Court properly entered
judgment in favor of Altera. Altera, 145 T.C. at 134.
Even if Xilinx II did not control, I would hold that related parties in QCSAs need not share costs associated with stock-based compensation. “Chevron deference is not warranted where the regulation is ‘procedurally defective’ – that is, where the agency errs by

321a
failing to follow the correct procedures in issuing the
regulation.” Encino Motorcars, LLC v. Navarro, 136
S. Ct. 2117, 2125 (2016) (quoting United States v.
Mead Corp., 533 U.S. 218, 227 (2001)). I therefore
would interpret the statute in the first instance, without deference.
I agree with the majority that § 482 does not address this issue directly. Op. 38-39. But I agree with
amicus curiae Cisco Systems, Inc. (“Cisco”), that, under the best reading of § 482, QCSAs are not subject
to the commensurate with income standard. See generally Amicus Curiae Br. Supporting Appellee and Affirmance on Behalf of Cisco Systems, Inc. As Cisco
points out, the commensurate with income standard
applies only to a “transfer (or license) of intangible
property,” 26 U.S.C. § 482, which is distinct from a
cost sharing agreement for joint development of intangibles. See White Paper, 1988-2 C.B. at 474 (noting
that “bona fide research and development cost sharing
arrangements” provided a way to “avoid[] section 482
transfer pricing issues related to the licensing or other
transfer of intangibles”).
QCSAs fall neatly into the latter category. See
Treas. Reg. § 1.482-7(a)(1) (2003) (defining a QCSA as
“an agreement under which the parties agree to share
the costs of development of one or more intangibles in
proportion to their shares of reasonably anticipated
benefits”). The Commissioner’s argument that the
commensurate with income standard applies to “intangible transactions in general, and cost sharing arrangements in particular,” Appellant’s Br. 57, is inconsistent with the plain language of the statute. Under the only reasonable interpretation of § 482, therefore, the commensurate with income standard does
not apply to QCSAs. For at least this reason, I also

322a
disagree with the majority’s conclusion that Treasury’s reading of § 482 satisfies the second step of the
Chevron test. Op. 39-46.

323a
APPENDIX H
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Altera Corporation &
Subsidiaries,
Petitioner-Appellee,

Nos. 16-70496
16-70497
Tax Ct. Nos.
6253-12
9963-12

v.
Commissioner of Internal
Revenue,
Respondent-Appellant.

ORDER

Filed August 7, 2018
Before: Sidney R. Thomas, Chief Judge, and Susan
P. Graber and Kathleen M. O’Malley Circuit Judges.

ORDER

The Opinions filed July 24, 2018, are hereby withdrawn to allow time for the reconstituted panel to confer on this appeal.



The Honorable Kathleen M. O’Malley, United States Circuit
Judge for the U.S. Court of Appeals for the Federal Circuit, sitting by designation.

324a
APPENDIX I
Companies Reporting the Altera Issue in
SEC Filings

The following public companies noted the Altera issue in their quarterly (Forms 10-Q) or annual (Forms
10-K) reports filed with the SEC.
1.
2.

3.
4.

5.

6.
7.
8.



A10 Networks, Inc., Form 10-Q at 61 (Nov. 1,
2019) (headquartered in California)
Acacia Communications, Inc., Form 10-Q at 21
(Oct. 30, 2019) (headquartered in Massachusetts) (reporting $6.3 million at stake)
Agilent Technologies Inc., Form 10-K at 38
(Dec. 21, 2017) (headquartered in California)
Alpha & Omega Semiconductor, Form 10-Q at
23 (Nov. 12, 2019) (headquartered in Bermuda)
Alphabet, Inc., Form 10-K at 78 (Feb. 3, 2017)
(headquartered in California) (reporting $4.4
billion at stake)
Alteryx, Inc., Form 10-Q at 17 (Nov. 8, 2018)
(headquartered in California)
Ambarella Inc., Form 10-Q at 23 (Dec. 6, 2019)
(headquartered in California)
Anaplan, Inc., Form 10-Q at 54 (Dec. 9, 2019)
(headquartered in California)

The list was generated by searching Lexis Securities Mosaic, a
commercial database of public company filings, for all Forms 10Q and 10-K filed between 2015 and the present that mention the
opinions in this case issued by the Tax Court or the Ninth Circuit.

325a
9.
10.

11.
12.
13.
14.

15.
16.
17.
18.
19.
20.
21.

22.

Apple Inc., Form 10-K at 28 (Nov. 5, 2018)
(headquartered in California)
Arista Networks, Inc., Form 10-Q at 23 (Nov.
1, 2019) (headquartered in California) (reporting $9.8 million at stake)
Cavium, Inc., Form 10-K at 79 (Mar. 1, 2018)
(headquartered in California)
Cirrus Logic, Inc., Form 10-Q at 17 (Jan. 29,
2020) (headquartered in Texas)
Citrix Systems Inc., Form 10-Q at 29 (Nov. 1,
2019) (headquartered in California)
Cypress Semiconductor Corp., Form 10-K at
42 (Feb. 26, 2018) (headquartered in California)
Dropbox, Inc., Form 10-Q at 74 (Nov. 8, 2019)
(headquartered in California)
Ebay Inc., Form 10-K at 42-43 (Jan. 31, 2020)
(headquartered in California)
Elastic N.V., Form 10-Q at 63 (Dec. 9, 2019)
(headquartered in California)
Electronic Arts, Form 10-Q at 20 (Nov. 6, 2019)
(headquartered in California)
Electronics for Imaging Inc., Form 10-K at 53
(Feb. 27, 2019) (headquartered in California)
EMC Corp., Form 10-K at 23 (Feb. 25, 2016)
(headquartered in Massachusetts)
Facebook Inc., Form 10-K at 59 (Jan. 30, 2020)
(headquartered in California) (reporting $1.1
billion at stake)
Fairchild Semiconductor International Inc.,
Form 10-K at 37 (Aug. 18, 2016) (headquartered in California)

326a
23. Fitbit Inc., Form 10-Q at 27 (Nov. 7, 2019)
(headquartered in California)
24. Forrester Research, Inc., Form 10-K at 22
(Mar. 9, 2018) (headquartered in Massachusetts) (reporting $0.6 million at stake)
25. Fortinet, Inc., Form 10-Q at 22 (Oct. 31, 2019)
(headquartered in California) (reporting $10.3
million at stake)
26. Gilead Sciences Inc., Form 10-Q at 27 (Nov. 5,
2019) (headquartered in California)
27. Groupon, Inc., Form 10-Q at 22 (Nov. 4, 2019)
(headquartered in Illinois) (reporting $14 million at stake)
28. Harmonic Inc., Form 10-Q at 28 (Nov. 4, 2019)
(headquartered in California)
29. Hortonworks, Inc., Form 10-Q at 22 (Nov. 8,
2018) (headquartered in California)
30. Immersion Corp., Form 10-Q at 18 (Nov. 7,
2019) (headquartered in California)
31. Integrated Device Technology Inc., Form 10-K
at 32 (May 18, 2018) (headquartered in California)
32. Intel Corp., Form 10-K at 89 (Jan. 24, 2020)
(headquartered in California)
33. InvenSense Inc., Form 10-Q at 26 (Feb. 2,
2017) (headquartered in California)
34. Ixia, Form 10-Q at 19 (Nov. 7, 2016) (headquartered in California)
35. Juniper Networks Inc., Form 10-K at 37 (Feb.
19, 2016) (headquartered in California) (reporting $13.2 million at stake)
36. Keysight Technologies, Inc., Form 10-Q at 27
(Sept. 2, 2016) (headquartered in California)

327a
37. LAM Research Corp., Form 10-K at 37 (Aug.
20, 2019) (headquartered in California) (reporting $75 million at stake)
38. LinkedIn Corp., Form 10-K at 112 (Feb. 12,
2016) (headquartered in California)
39. Lumentum Holdings Inc., Form 10-Q at 37
(May 7, 2019) (headquartered in California)
40. McKesson Corp., Form 10-K at 94 (May 24,
2018) (headquartered in California) (reporting
$25 million at stake)
41. Mentor Graphics Corp., Form 10-Q at 29 (Dec.
6, 2016) (headquartered in Oregon)
42. Microchip Technology Inc., Form 10-Q at 24
(Nov. 7, 2018) (headquartered in Arizona)
43. Microsoft Corp., Form 10-K at 41 (July 28,
2016) (headquartered in Washington)
44. Monolithic Power Systems Inc., Form 10-Q at
21 (Nov. 1, 2019) (headquartered in Washington)
45. Natus Medical Inc., Form 10-Q at 14 (Aug. 8,
2018) (headquartered in California)
46. NetApp, Inc., Form 10-K at 80 (June 22, 2016)
(headquartered in California)
47. Norton LifeLock Inc., Form 10-Q at 23 (Feb. 7,
2020) (headquartered in Arizona) (reporting
$62 million at stake)
48. Nutanix, Inc., Form 10-Q at 69 (Dec. 5, 2019)
(headquartered in California)
49. Nuvasive Inc., Form 10-Q at 26 (July 31, 2018)
(headquartered in California)
50. Nvidia Corp., Form 10-Q at 18 (Aug. 19, 2015)
(headquartered in California)

328a
51. Oracle Corp., Form 10-Q at 26 (Mar. 18, 2019)
(headquartered in California)
52. PayPal Holdings, Inc., Form 10-K at 112 (Feb.
6, 2020) (headquartered in California)
53. Pintrest, Inc., Form 10-Q at 19 (Nov. 1, 2019)
(headquartered in California) (reporting $24.9
million at stake)
54. Plantronics Inc., Form 10-Q at 14 (Feb. 6,
2020) (headquartered in California) (reporting
$8.6 million at stake)
55. Polycom Inc., Form 10-Q at 26 (Aug. 4, 2016)
(headquartered in California)
56. Power Integrations Inc., Form 10-K at 57 (Feb.
7, 2020) (headquartered in California)
57. PTC Inc., Form 10-K at 32 (Nov. 18, 2019)
(headquartered in Massachusetts)
58. Qlogic Corp., Form 10-Q at 17 (Aug. 8, 2016)
(headquartered in California)
59. Rackspace Hosting, Inc., Form 10-Q at 14
(Nov. 9, 2016) (headquartered in Texas)
60. Sabre Corp., Form 10-Q at 12 (Oct. 30, 2018)
(headquartered in Texas)
61. Salesforce Com Inc., Form 10-Q at 36 (Nov. 28,
2018) (headquartered in California) (reporting
$30.4 million at stake)
62. Silicon Laboratories Inc., Form 10-K at 32
(Jan. 29, 2020) (headquartered in Texas) (reporting $27.2 million at stake)
63. Skechers USA Inc., Form 10-Q at 21 (Nov. 8,
2019) (headquartered in California) (reporting
$1.5 million at stake)
64. Slack Technologies, Inc., Form 10-Q at 19
(Dec. 4, 2019) (headquartered in California)

329a
65. Snap Inc., Form 10-K at 96 (Feb. 5, 2020)
(headquartered in California)
66. SolarWinds Corp., Form 10-Q at 21 (Nov. 7,
2019) (headquartered in Texas)
67. Stitch Fix, Inc., Form 10-Q at 39 (June 6, 2019)
(headquartered in California)
68. Sunpower Corp., Form 10-Q at 49 (Oct. 31,
2019) (headquartered in California)
69. Synaptics Inc., Form 10-Q at 21 (Feb. 6, 2020)
(headquartered in California)
70. Synopsys Inc., Form 10-K at 85 (Dec. 20, 2019)
(headquartered in California) (reporting $18.3
million at stake)
71. Tableau Software Inc., Form 10-K at 102 (Feb.
22, 2019) (headquartered in Washington)
72. Take Two Interactive Software Inc., Form 10Q at 19 (Feb. 7, 2020) (headquartered in New
York)
73. Teradata Corp., Form 10-Q at 16 (Nov. 12,
2019) (headquartered in California) (reporting
$4 million at stake)
74. Teradyne, Inc., Form 10-Q at 30 (Nov. 8, 2019)
(headquartered in Massachusetts) (reporting
$5-11 million at stake)
75. Tesla, Inc., Form 10-Q at 14 (Oct. 29, 2019)
(headquartered in California)
76. TripAdvisor, Inc., Form 10-Q at 26-27 (Nov. 6,
2019) (headquartered in Massachusetts) (reporting $15 million at stake)
77. Twitter, Inc., Form 10-Q at 25 (Oct. 30, 2019)
(headquartered in California) (reporting $80
million at stake)

330a
78. Ubiquiti Inc., Form 10-K at 73 (Aug. 21, 2019)
(headquartered in New York)
79. Workday, Inc., Form 10-K at 76 (Mar. 18,
2019) (headquartered in California)
80. Xilinx, Inc., Form 10-Q at 22 (Jan. 28, 2020)
(headquartered in California) (reporting $5560 million at stake)
81. Yahoo Inc., Form 10-K at 63 (Feb. 29, 2016)
(headquartered in California)
82. Zynga Inc., Form 10-Q at 57 (Oct. 31, 2019)
(headquartered in California)

331a
APPENDIX J
United States Tax Treaties Incorporating the
Arm’s-Length Standard

The following United States tax treaties contain a
provision that allows the signatories to adjust the income of related parties that operate in both countries
to reflect what the parties’ incomes would have been
had they been unrelated companies.
1.

2.

3.

4.

5.



Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Aus.,
Aug. 6, 1982
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Austria, May 31, 1996
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.Bangl., Sept. 26, 2004
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Barb.,
Dec. 31, 1984
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Belg.,
Nov. 27, 2006

The list was generated from the list of U.S. tax treaties on the
IRS’s website. See IRS, United States Income Tax Treaties – A to
Z (last updated Jan. 8, 2020), https://perma.cc/24AF-LF9W.

332a
6.

7.
8.

9.

10.

11.

12.

13.

14.

Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9. U.S.-Bulg.,
Feb. 23, 2007
Convention with Respect to Taxes on Income
and Capital, art. 9, U.S.-Can., Sept. 26, 1980
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 8, U.S.-China,
Apr. 30, 1984
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 11, U.S.-Cyprus, Mar. 19, 1984
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Czech,
Sept. 16, 1993
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Den.,
Aug. 19, 1999
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 10, U.S.Egypt, Aug. 24, 1980
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Estonia, Jan. 15, 1998
Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and on Capital,
art. 9, U.S.-Fin., Sept. 21, 1989

333a
15. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital, art.
9, U.S.-Fr., Aug. 31, 1994
16. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital and to
Certain Other Taxes, art. 9, U.S.-Ger., Aug.
29, 1989
17. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. IV, U.S.Greece, Feb. 20, 1950
18. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, Notes of Exchange, ¶ 3, U.S.-Hung., Feb. 12, 1979
19. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Ice.,
Oct. 23, 2007
20. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-India,
Sept. 12, 1989
21. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 10, U.S.-Indon., July 11, 1988
22. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital Gains,
art. 9, U.S.-Ir., July 28, 1997

334a
23. Convention with Respect to Taxes on Income,
art. 11, U.S.-Isr., Nov. 20, 1975
24. Convention for the Avoidance of Double Taxation with Respect to Taxes on Income and the
Prevention of Fraud or Fiscal Evasion, art. 9,
U.S.-It., Aug. 25, 1999
25. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Jam.,
May 21, 1980
26. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Japan, Nov. 6, 2003
27. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital, art.
7, U.S.-Kaz., Oct. 24, 1993
28. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Lat.,
Jan. 15, 1998
29. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Lith.,
Jan. 15, 1998
30. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital, art.
9, U.S.-Lux., Apr. 3, 1996
31. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Malta,
Aug. 8, 2008

335a
32. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Mex.,
Sept. 18, 1992
33. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Morocco, Aug. 1, 1977
34. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Neth.,
Dec. 18, 1992
35. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-N.Z.,
July 23, 1982
36. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Property, art.
7, U.S.-Nor., Dec 3, 1971
37. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. IV, U.S.-Pak.,
July 1, 1957
38. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 10, U.S.-Phil.,
Nov. 24, 1976
39. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 10, U.S.-Pol.,
Oct. 8, 1974

336a
40. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Port.,
Sept. 6, 1994
41. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Rom.,
Dec. 4, 1973
42. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital, art.
7, U.S.-Russ., June 17, 1992
43. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital, art.
9, U.S.-Slovk., Oct. 8, 1993
44. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital, art.
9, U.S.-Slovn., June 21, 1993
45. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital Gains,
art. 9, U.S.-S. Afr., Feb. 17, 1997
46. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and the Encouragement of International Trade and Investment, art. 11, U.S.-S. Kor., June 4, 1976
47. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Spain,
Feb. 22, 1990

337a
48. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Sri
Lanka, Mar. 14, 1985
49. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Swe.,
Sept. 1, 1994
50. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.Switz., Oct. 2, 1996
51. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Thai.,
Nov. 26, 1996
52. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, and the Encouragement of International Trade and Investment, art. 11, U.S.-Trin. & Tobago, Jan. 9,
1970
53. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Tunis., June 17, 1985
54. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income, art. 9, U.S.-Turk.,
Mar. 28, 1996
55. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital, art.
9, U.S.-Ukr., Mar. 4, 1994

338a
56. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital Gains,
art. 9, U.S.-U.K., July 24, 2001
57. Convention for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with
Respect to Taxes on Income and Capital, art.
9, U.S.-Venez., Jan. 25, 1999

